<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                    DEPARTMENT OF TRANSPORTATION AND
                    RELATED AGENCIES APPROPRIATIONS
                                FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    FRANK R. WOLF, Virginia, Chairman

TOM DeLAY, Texas             MARTIN OLAV SABO, Minnesota
RALPH REGULA, Ohio           THOMAS M. FOGLIETTA, Pennsylvania
HAROLD ROGERS, Kentucky      ESTEBAN EDWARD TORRES, California
RON PACKARD, California      JOHN W. OLVER, Massachusetts
SONNY CALLAHAN, Alabama      ED PASTOR, Arizona
TODD TIAHRT, Kansas          
ROBERT B. ADERHOLT, Alabama  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and Linda J. Muir,
                           Subcommittee Staff
                                ________

                                 PART 6
                                                                   Page
DEPARTMENT OF TRANSPORTATION:

   Federal Aviation Administration................................  243

RELATED AGENCY:

   National Transportation Safety Board...........................    1

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

40-521 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  1998

                              ----------                              

                                           Tuesday, March 11, 1997.

                  NATIONAL TRANSPORTATION SAFETY BOARD

                               WITNESSES

JIM HALL, CHAIRMAN
KENNETH U. JORDAN, MANAGING DIRECTOR
PAUL M. VOORHEES, CHIEF, FINANCIAL MANAGEMENT DIVISION
BERNARD S. LOEB, DIRECTOR, OFFICE OF AVIATION SAFETY
VERNON S. ELLINGSTAD, DIRECTOR, OFFICE OF RESEARCH AND ENGINEERING
BARRY M. SWEEDLER, DIRECTOR, OFFICE OF SAFETY RECOMMENDATIONS
JAMES A. ARENA, DIRECTOR, OFFICE OF SURFACE TRANSPORTATION SAFETY
PETER GOELZ, DIRECTOR, OFFICE OF GOVERNMENT, FAMILY AND PUBLIC AFFAIRS
RON SCHLEEDE, DEPUTY DIRECTOR, OFFICE OF AVIATION SAFETY
TOM HAUETER, INVESTIGATOR IN CHARGE
MARJORIE MURTAGH, CHIEF, MARINE DIVISION

                           Opening Statement

    Mr. Wolf. Mr. Hall, welcome to the Committee. The hearing 
will begin. Today, appearing before the Committee is Jim Hall, 
the Chairman of the National Transportation Safety Board. Mr. 
Hall and the staff at the Board have been very busy over the 
past year continuing the Board's investigation into the tragic 
crashes of ValuJet 592 and TWA 800--and we would hope in the 
testimony you could elaborate particularly on both of them--
among other activities.
    Today we hope to learn more about their continuing 
investigations, particularly of reoccurring, nagging reports of 
a missile that may have brought down TWA Flight 800. As you 
know, there was a newspaper story the other day and there has 
been a lot of speculation with regard to that issue.
    The National Transportation Safety Board continues to be an 
invaluable resource to this Committee. It's oversight of the 
Department of Transportation's safety programs and of the 
nation's transportation system is unparalleled. While the Board 
receives a great deal of visibility in its investigations of 
major airline accidents, the Board has investigative 
responsibility over all modes of transportation, not just 
aviation. Hazardous materials spills, railroad grade crossings 
accidents, the development of safety recommendations--these are 
all part of the Board's daily activities.
    After the tragic accidents of ValuJet 592 and TWA 800 and 
the FAA's 90-day review, this Committee provided budgetary 
resources over the amounts requested by the Administration for 
numerous aviation safety and security programs. This Committee 
on a bipartisan basis did that.
    In 1997, Congress provided funding to support the hiring of 
500 new air traffic controllers, 367 new aviation safety 
inspectors, and other regulatory personnel. The large majority 
of these slots remain unfilled. The fact is it now looks like 
based on the hearing we had the other day, the FAA has hired 
only 17 new air traffic controllers but has lost 133 to 
retirement. So of the 500--they have hired 17, but we have lost 
133 to retirement.
    We are witnessing something that should be a great concern 
to everyone. The Administration has stalled on nominating 
leaders to run the FAA. I have been concerned, as members on 
both sides, Mr. Hinson, who was, as you know, the Administrator 
of the FAA, announced in July that he was leaving. He left in 
November.
    A group of us had urged the Administration back in the 
summer to begin to think of who they should appoint. Mr. 
Hinson's been gone all of November, all of December, all of 
January, all of February, and now we are into March. The Deputy 
Administrator, Linda Daschle, has also gone.
    So there is no political leadership over there to give 
guidance, and it is very difficult for career people to take 
these tough issues up and deal with them. There are a lot of 
good people over at the FAA that are making the place run 
steady as you go during this period of time. But there is no 
leadership, no direction coming from the people that need to.
    The FAA is stretching out or terminating its modernization 
programs because of a presumed lack of funding. They propose to 
slash airport development grants by one-third, and at the same 
time are telling airports to buy their own landing aids and 
lighting systems. They are proposing drastic reductions in 
human factors and aviation weather research--the two leading 
causes of aviation accidents. They terminate safety programs 
like the ASDE-3 radar which provides enhanced safety for 
aircraft maneuvering on the ground.
    And one final point. A study prepared by Boeing that Mr. 
Hinson referred to in a speech that he gave last summer 
suggested, based on the current rate of air travel, by the year 
2015, there will be a major crash every eight days somewhere in 
the world.
    Again, we appreciate the work and assistance the Board has 
provided this Committee in the past, and we look forward to 
hearing your testimony today in an effort to improve the safety 
of the national transportation system, and the Department of 
Transportation's safety program and it's record. I now 
recognize Mr. Sabo if he would like to make any comments.
    Mr. Sabo. No, just we welcome you before the Committee and 
look forward to hearing your testimony.
    Mr. Wolf. Mr. Torres or Mr. Pastor?
    Mr. Torres. No statements, Mr. Chairman.
    Mr. Pastor. Nothing, Mr. Chairman.

                         ntsb opening statement

    Mr. Wolf. Okay. Mr. Hall, you may proceed.
    Mr. Hall. Thank you very much, Mr. Chairman and Congressman 
Sabo, and Members of the Committee. It is a pleasure to be here 
this morning representing the National Transportation Safety 
Board. Before I begin my formal testimony, I would like to 
thank you, Chairman Wolf, and the members of your Committee for 
your support of the Safety Board during this last year. As you 
know, it has been an extraordinary year and one in which I have 
never been prouder of our employees.
    I note, Mr. Chairman, that there are a number of new 
Members on the Committee, and I would like to invite them and 
their staffs to visit our headquarters and laboratories here in 
Washington, DC, as well as the ongoing work in the hangar at 
Calverton, New York, where we are reconstructing TWA 800. You 
will see some video of that this morning.
    Mr. Chairman, I deeply appreciate your visit to the hangar, 
as well as that of your staff member, Stephanie Gupta. I think 
it is very important for you and your fellow Committee Members 
to see how taxpayer resources are being allocated by the Safety 
Board in this monumental task, as well as our staff to be 
responsive to you and through you to the American people on the 
work and the investigations that we are charged with.

                       introduction of ntsb staff

    I would like to introduce the individuals that are at the 
table with me today. I may be calling on some of them to help 
respond to some of the questions the committee has. At my left 
is Dr. Vern Ellingstad, Director of our Office of Research and 
Engineering. Next to him is Jim Arena, Director of our Office 
of Surface Transportation.
    Next to me on my left is Dr. Bernard Loeb, Director of our 
Office of Aviation Safety. To my right is General Ken Jordan, 
our Managing Director. Next to him is Paul Voorhees, Chief of 
our Financial Management Division. Next to Mr. Voorhees is Mr. 
Barry Sweedler, Director of our Office of Safety 
Recommendations. And at the end is Peter Goelz who is the 
Director of our Office of Government, Family and Public 
Affairs.
    In addition, in the audience we have all of the heads of 
our major modal investigative divisions. If there are any 
specific questions, they are here to listen to the concerns of 
your committee and be sure that we promptly respond.
    I would like to structure my testimony today in the 
following manner, if I may. First, I would like to give you a 
brief review of some of the Board's activities during the past 
year. A detailed account is in our submitted testimony, and I 
would like to address our budgetary needs for fiscal year 1998.
    Then I would like to brief the committee on TWA Flight 800 
and submit to you our projected cost for the investigation 
which we hope will be part of a supplemental appropriation. As 
part of the TWA 800 briefing, we will be showing you a 
videotape.

                            1996 activities

    Mr. Chairman, 1996 was a year that severely tested the 
Safety Board's resources and personnel. It was a year dominated 
by high profile tragedies that put this agency under the 
microscope of public and media attention. I would like to point 
out that the crashes of TWA Flight 800 and ValuJet 592 were 
chosen by the Associated Press as two of the top five stories 
of 1996.
    I am proud to report to you that I believe the Safety 
Board's personnel met the challenges of 1996. Challenges that, 
of course, are continuing in 1997. The individual stories of 
personal commitment made by Safety Board staffers over the past 
year are too numerous to mention, but let me assure you that I 
believe that the committee would be extremely proud of the work 
of our investigators.
    Let me now review a few important issues for the committee. 
In April of 1996, we added three issues to the most wanted 
list--pilot background checks, the safety of passengers in 
railroad cars, and highway vehicle occupant protection.
    The Board has addressed pilot screening four times in the 
last eight years, and we were very pleased that Congress this 
year addressed this matter in the reauthorization of the FAA. 
We will be removing this issue from our most wanted list later 
this spring.
    Dating back to 1969, the Board has been concerned about 
passenger rail car safety. We have since 1969 investigated at 
least 13 accidents that claimed some 27 lives and injured 
almost 900 persons. Today, there is only one Federal passenger 
car requirement--four window exits per car with bulletproof 
glass. The Safety Board has raised safety issues about rail car 
construction, signs, and emergency preparedness more than a 
dozen times in the past 25 years.
    On February 16, 1996, there was an accident near Silver 
Spring, Maryland, involving a Maryland rail commuter and an 
Amtrak train resulting in 11 fatalities. The Federal Railroad 
Administration has taken action on several initiatives to 
ensure ready passenger egress and rescue access consistent with 
the intent of the recommendations that we have made in regard 
to that accident and previous accidents. I am also pleased to 
report that the State of Maryland has complied with all of the 
Board's recommendations made in regard to the Silver Spring 
accident.
    The protection of automobile occupants through the use of 
restraints has long been advocated by the Safety Board. But we 
found that there is a need for stricter and more consistent 
enforcement of seat belt laws by the states.
    The Board has also recommended measures to address the 
dangers posed by air bags to children and small-statured 
adults, as well as measures to ensure the use of proper child 
passenger restraints. To that end, the Safety Board next week 
is hosting a forum in Washington, D.C. to address the role of 
air bags in today's vehicles, their benefits and safety 
concerns in proper child passenger transportation of the 1990s.
    Mr. Chairman, at last year's hearing, you discussed with me 
the possibility of developing a video that could be used to 
educate new parents about how they could keep their infant 
safe, not only when traveling, but also around the house. I 
committed to you that the Board would work with the National 
Highway Traffic Safety Administration to help develop such a 
video.
    I am pleased to report that a video, as you know, has been 
produced, and it has been pilot tested at hospitals. Changes 
have been made based on the feedback, and more than 15,000 
copies of the video have been made and are beingdistributed. As 
you know, plans have been finalized for the distribution of 150,000 
videos to all hospitals, OB-GYN's, pediatricians, family physicians, 
automobile dealers, community safety organizations, and others.
    A manual has also been developed to assist those using the 
video in class settings. I would like to thank you, Mr. 
Chairman, for your leadership of that safety initiative.

                           family assistance

    Last year was a year of change at the Safety Board. As a 
direct result of three Congressional hearings, the ValuJet 
accident in Miami, and the TWA 800 accident, Congress passed 
legislation that requires the Safety Board to coordinate 
assistance to family members of the victims of airline 
accidents resulting in a major loss of life.
    This followed a request from President Clinton that the 
Safety Board take the lead in coordinating family assistance 
following transportation accidents. As a response to these 
directives, I have established a Family Affairs Division, and 
we have prepared a Federal response plan for major aviation 
disasters.
    Since this legislation became law, we have provided on-
scene assistance at two major aviation accidents--at Quincy, 
Illinois, on November 19, 1996, and at Monroe, Michigan, on 
January 9, 1997. In both cases, Mr. Chairman, we believe 
assistance to families was provided in a timely and 
compassionate manner.
    This assistance included daily Safety Board briefings to 
those family members on scene, and conference calls to those 
who did not travel to the scene. We also called in the Red 
Cross to provide mental health support, and arranged for a 
mobile morgue through the Department of Health and Human 
Services to assist local medical examiners.
    In addition, the Safety Board has been in regular contact 
with the families of victims of recent aviation disasters, 
including the families of TWA Flight 800. We have provided 
family members with a toll-free number to use should they have 
questions, and we provide periodic updates on their accidents.
    Also, at the families' request, on February 8, 1997, we 
organized and coordinated a tour of the Calverton, New York, 
wreckage hangars for about 150 family members. Although it was 
a difficult day for everyone there, Mr. Chairman, the family 
members, I believe, were appreciative of our efforts.
    To date, the Safety Board has been providing family 
assistance only with existing staff. This assistance cannot 
continue without additional staff support that we are seeking 
in both our 1997 supplemental request and in our fiscal 1998 
budget request.
    Mr. Chairman and Committee Members, last year 575 million 
passengers boarded commercial aircraft in this country. It is 
estimated that in 10 years this number will grow by another 60 
percent. While we all continue to work to eliminate accidents, 
the Safety Board must be supported to meet the increases that 
we are going to see in the transportation community in all 
modes of transportation.

                          aviation activities

    Since our last appearance before your committee, we have 
adopted eight major aviation accident reports and one special 
investigation. In addition, we have nine ongoing major accident 
investigations, including the 1994 USAir accident near 
Pittsburgh, Pennsylvania. The investigation into USAir Flight 
427 has been one of the most far-reaching investigations in the 
history of the Board, involving tens of thousands of staff 
hours and numerous flight tests. The investigation has already 
resulted in 20 safety recommendations.
    We are encouraged by Boeing's commitment to move forward on 
the redesign and replacement of the main rudder control unit of 
the 737 in response to the Board's recommendations. We hope 
there will be no delay in the FAA issuing a final rule so that 
installation of the redesigned power unit can be completed in 
no more than two years. The investigation into Flight 427 
continues, and the staff hopes to have a final report before 
the Board later this year.
    On May 11, 1996, ValuJet 592, a DC-9, crashed in the 
Everglades shortly after takeoff from Miami International 
Airport. All 110 aboard were killed. The on-scene portion of 
this investigation lasted for over a month, and a hearing was 
held last November in Miami. We anticipate a final report on 
that accident this summer.

                   surface transportation activities

    Our Office of Surface Transportation Safety, which includes 
marine, highway, railroad, pipeline, and hazardous materials, 
launched investigative teams on 14 major accidents, including 
two hazardous materials, five marine, three pipeline, three 
railroad, and one highway. The Board also adopted seven reports 
dealing with surface accidents and three special investigations 
or studies.
    As part of our continuing responsibility to be proactive in 
alerting the nation to safety concerns, the Safety Board next 
month will convene a symposium on corporate culture and 
transportation safety. The symposium will provide a unique 
opportunity for members of the transportation community to hear 
from the experts and discuss their own safety concerns. 
Corporate culture will be examined in the context of 
management, government, and employee influences.

                 fiscal year 1997 supplemental request

    Mr. Chairman, let me address the vital importance of 
receiving the Board's full supplemental request of $23.2 
million. We had numerous discussions with OMB about the 
supplemental and about our fiscal year 1998 budget request, and 
we have, unfortunately, been unable to persuade them of the 
critical nature of our needs.
    Last fall in the wake of TWA Flight 800, a significant 
omnibus appropriation was passed by Congress. Included in those 
funded items were 500 new agents for the FBI and over 630 new 
safety investigators, security, and other personnel for the 
FAA. In effect, Mr. Chairman, the FAA received the equivalent 
of almost two Safety Boards.
    In addition, those agencies received at least another $46 
million for enhanced equipment and other safety and 
counterterrorism activities. These expenditures were certainly 
understandable. At that time, the NTSB received a total of $6 
million, which was earmarked to reimburse the United States 
Navy for salvage of TWA Flight 800 wreckage.
    We are requesting $23.2 million in supplemental funding for 
fiscal year 1997. Most of these resources, some $20.1 million, 
will cover anticipated costs of the TWA Flight 800 
investigation for the current fiscal year. And the remaining 
$3.1 million would cover additional high priority requirements, 
especially in the area of assistance to families of victims of 
transportation disasters.
    Approximately $12 million of the supplemental request will 
repay the United States Navy for additional wreckage and victim 
recovery they provided last year, as well as to cover costs for 
the Calverton, New York, facility.
    The balance will fund TWA investigative activity in fiscal 
year 1997, such as the fuselage mockup you will see in a 
minute, continued scallop trawling, and explosive testing. 
Because we want to determine the probable cause of this event 
as expeditiously as possible, we requested a deficiency 
apportionment from the Office of Management and Budget to allow 
us to spend some fourth quarter funds on this effort now in 
anticipation of approval of the supplemental.

                        fiscal year 1998 request

    For fiscal year 1998, the President's budget contains $46 
million and 381 full-time equivalent positions for the Safety 
Board. This represents an increase of $3.6 million and 11 FTE's 
over the fiscal year 1997 appropriated level. Approximately 
$1.3 million of the requested increase will fund additional 
personnel, $2.1 million will cover inflationary increases, and 
$250,000 will fund enhancements to our laboratories.
    The President's budget provides that the Board's emergency 
fund be increased from $1 million to $2 million, and OMB has 
agreed that the language may be modified to allow the use of 
this fund to provide assistance to families of victims of 
transportation disasters.
    The President's budget also anticipates $6 million of the 
$46 million required for normal salaries and expenses through a 
tax on U.S. air transportation operators based on revenue 
flight hours.
    In addition, we have discussed with OMB the possibility of 
requiring air carriers to carry insurance or surety bonding to 
pay for extraordinary accident recovery and investigation costs 
incurred by the Safety Board. If this policy had been in place 
at the time of the TWA 800 accident, the Safety Board would not 
have to request these numerous supplemental appropriations to 
assist that investigation.
    Mr. Chairman, I would ask Peter Goelz, who is our Director 
of Office of Government, Family and Public Affairs, to now 
narrate for you a video that will give the committee a brief 
overview of what has taken place in regard to the TWA 800 
investigation, I am sure the Committee will have other 
questions that they will want to ask about the investigation. I 
think this will provide you with some background. Mr. Goelz.

                             twa flight 800

    Mr. Goelz. If you could hold the video for one second? We 
distributed a blue folder that includes four charts that I 
wanted to refer to. There are three 8\1/2\ by 11 charts that 
indicate the debris fields where Flight 800 was discovered, and 
then two additional charts point out the breakup sequence of 
the fuselage.
    I would point out on the map that the Boeing 747 is drawn 
to scale in the map on the center left-hand side of the 
document. So you can see exactly what an enormous task the Navy 
and the NTSB had in recovering the wreckage.
    The large map is, again, a rendering of the scallop 
trawling that has been going on since October supervised by the 
Navy, contracted for by the National Transportation Safety 
Board. And, again, in the very center of the large map, you can 
see a star that indicates the last secondary radar hit. Just to 
the left of it is, in fact, the 747 drawn to scale, and we have 
been trawling which now approaches 28 square miles of ocean 
bottom. If you could now show the videotape?
    At approximately 8:20 on the night of July 17, Flight 800 
took off from JFK with 230 people on board. About 10 minutes 
later, the plane exploded 10 miles off the coast of Long Island 
killing all aboard. The U.S. Coast Guard, along with state and 
local authorities, responded immediately. The Safety Board's 
Go-Team arrived at sunrise.
    We called in the U.S. Navy through the supervisor of 
salvage. Both surface supplied and scuba divers were used to 
recover and identify wreckage and recover victims. Visibility 
was poor; frigid temperatures. Scuba divers could remain only 
15 minutes below the surface. Conditions on the ocean floor 
were very difficult. Diving ceased in November with over 4,000 
dives logged.
    We also used advanced technologies, including the remote 
operated vehicle you see here. We also used side-scanning sonar 
and laser line imaging. The ROV is controlled on board the 
ship, and it provides television images back to the controllers 
so that they can review what they are seeing and then instruct 
divers how to go down and get it. This was particularly useful 
in recovering the victims of the tragedy.
    We have recovered approximately 90 plus percent of the 
aircraft, and 216 of the 230 people on board have been 
recovered and identified. Considering that the aircraft was 120 
feet at the bottom of the ocean, this was an extraordinary 
task.
    After the wreckage was brought up from the ocean floor, it 
was transferred from Navy ships to transport vessels which then 
delivered to the Coast Guard station at Shinnecock. The 
wreckage was then delivered to the facility at Calverton, New 
York, which was a former Grumman manufacturing plant.
    Wreckage accumulated on the hangar floor rather quickly. 
This shot of the hangar floor was in August. It was laid out 
according to the station numbers of the aircraft. Each piece 
was reviewed, identified, if possible, and laid out. This shot 
was in September. You can see that there was a considerable 
amount of wreckage recovered by that time. And, as I say, each 
piece as it came in was reviewed, tagged, and identified. There 
were literally tens of thousands of pieces of wreckage to 
review and to identify.
    When divers picked up the wreckage, they would tag it with 
a GPS location, and then the NTSB and Boeing engineers would 
identify where these pieces came from on the aircraft. We used 
a Navy subcontractor, Oceaneering, to assist us with this 
effort. This has allowed us to do projectory analysis, 
metallurgical analysis, and we have a very good understanding 
of how this aircraft came apart.
    Early in the investigation, we realized that the center 
wing tank had exploded, and this is an early mock-up of it. It 
shows the center wing tank as it appeared in September. Both 
sides are in place on the floor. On February 10, we began 
construction of a three dimensional reconstruction of 92 feet 
of the aircraft. This is one of our metallurgists standing in 
the wing tank. When finished, this construction will be the 
largest in the world.
    In these pictures, which were taken on March 6, over 70 
feet of aircraft have been reassembled. This reconstruction 
will be completed in the next four weeks. In addition, we have 
also reconstructed the interior of the aircraft, putting the 
seats and galleys back together again, and documenting the 
damage and reviewing the information that that has given us.
    As I said, we have a very detailed understanding of what 
has happened to this aircraft, and the Chairman and members of 
the aviation staff are prepared to answer any questions that 
you might have.
    Mr. Hall. In closing, Mr. Chairman, our goal is to ensure 
that the Safety Board's vital transportation safety programs 
are provided adequate staffing and funding, and are being 
managed in the most effective and efficient manner possible. 
Simply put, we are the eyes and ears of the American people at 
an accident site, and it is our responsibility to report 
through the Congress to the American people on the facts of an 
accident, determine the probable cause, and recommendations to 
prevent accidents from happening again.
    Our ability to make timely and accurate determinations of 
the causes of accidents, to issue realistic and feasible safety 
recommendations, and to respond to the families of 
transportation disasters in a timely, compassionate, and 
professional manner following these tragedies depends on these 
resources and on the continued support of your committee.
    Mr. Chairman, I don't know what we would have done this 
past year if we hadn't had the additional resources that this 
committee provided to us last year, because we have been 
literally strained, each and every member of the Board, in 
terms of the workload that we have had.
    The additional resources that you provided last year made 
the difference in being able to assist the Board in being able 
to produce what I hope this Committee thinks is good work for 
the American people. Thank you very much for everyone's 
attention, both the members and staff. We will attempt to 
respond to any questions the Committee may have, Mr. Chairman.
    [The prepared statement and biography of Jim Hall and 
biographical notes of senior NTSB staff follow:]

[Pages 11 - 56--The official Committee record contains additional material here.]


              twa flight 800--reports of possible missile

    Mr. Wolf. Thank you, Mr. Hall. And I pledge, and I am sure 
Mr. Sabo feels the same way as well as everybody else on the 
Committee, that we will do the same thing this year. This is 
one area that no one that I know of on either side wants to 
save any money on. We want to give you what you need.
    I have a whole series of questions that cover a whole group 
of areas, but let me just get into the TWA 800 incident. Late 
yesterday, we were faxed this article from The Press Enterprise 
that said new data shows a missile may have nailed TWA Flight 
800.
    These articles report that a trail of reddish brown residue 
was found imbedded in seats 17 through 19, which contained 
chemical elements consistent with solid missile fuel. Although 
your accident investigation into this crash is still ongoing, 
can you give us some explanation for the residue? And can you 
expand a little bit more than you did in the testimony on what 
you think--one, to cover the residue--but what you think has 
happened?
    Mr. Hall. I would certainly be glad to do that, Mr. 
Chairman and I will ask Dr. Loeb in a moment to comment 
specifically on the residue. This is a unique investigation for 
the National Transportation Safety Board, because from the very 
beginning, it has been a joint investigation with the FBI.
    While in previous accident investigations this Board has 
been involved in, we have worked with the FBI as a party to the 
investigation. It is usually determined early on whether it is 
an accident or a criminal act, and one or the other agencies 
would take control of the investigation.
    In this investigation the FBI has been focusing on criminal 
and national security issues. We have focused on the 
reconstruction, the normal things that we do in our aviation 
investigations, and the mechanical aspects of the tragedy. 
However, saying that, the investigation is our responsibility 
in terms of being sure that it is a full, complete, and 
thorough investigation for the American people.
    Yesterday, as you mentioned, some newspaper articles were 
brought to our attention about TWA 800. My understanding is 
that later this week Mr. Salinger is going to have another 
press event in which he is going to claim he has additional 
information concerning TWA Flight 800.
    The credibility of this investigation is the most important 
thing that we can be sure that this Board provides for the 
American people. There are a number of half-truths and complete 
falsehoods that have been circulated in the newspaper and on 
the Internet about this investigation. They certainly contain 
some factual information, and I think that we have a 
responsibility until we are able to determine a probable cause 
to be sure that everything is looked at and analyzed.
    In that regard, I have asked Dr. Loeb to go over these 
newspaper articles. If other information comes out, we intend 
to pursue it and be sure that every factual thing that needs to 
be looked at is looked at as part of this investigation. Now, 
Dr. Loeb, if you want to comment specifically about this 
residue, I would appreciate it.
    Dr. Loeb. Let me just say that the Chairman has asked that 
we go through every piece of information that is in any news 
article, anything that comes to our attention. We get literally 
dozens of letters every week making recommendations for us to 
look at various things--meteorites, methane gas clouds, all 
sorts of things--and we do. We look at each and every one of 
them. I have people right now looking at a number of things 
that were brought up in this article.
    One thing I can say categorically is there is no such thing 
as a red residue trail in that airplane. There is a reddish-
orange substance that is on virtually all of the seats in the 
forward part of the airplane. For that matter, I am sure it is 
on all of the seats in the airplane because we believe that 
that red residue material is an adhesive. I cannot say for 
certain that that is what these folks are talking about, but it 
is the only reddish or orange material that we are aware of 
that exists inside that airplane in the seats.
    We took seven samples yesterday from Calverton and had them 
brought to our Headquarters. We are now testing them in our 
laboratory, and we will do some testing in the FBI laboratory. 
If need be, we will do testing in outside laboratories just to 
make certain that they are, in fact, consistent with the 
manufacturers' descriptions of those products. Adhesive is the 
only substance that we know of that is reddish or orange in 
that airplane.
    Mr. Wolf. Have you spoken with the reporter who wrote the 
story?
    Dr. Loeb. I have not personally.
    Mr. Hall. Mr. Goelz has and we did, Mr. Chairman, yesterday 
call this laboratory out in California to glean information. 
The laboratory reported to us they had no information that 
anything had been received from a Mr. Sanders. That doesn't 
mean that it might not have been there under another name.
    We would be happy to review any information that anyone has 
in regard to TWA 800 that would assist us in the factual part 
of this investigation. We are going to track down everything 
that is alleged in here in regard to the investigation, and I 
will be sure that we give this committee a report as we go.
    Mr. Wolf. Have your investigators found any physical 
evidence supporting a missile, or can you say that you can 
absolutely exclude a missile?
    Mr. Hall. Mr. Chairman, all threetheories--a bomb, a 
missile, or a mechanical event--are still on the table as far as both 
the Safety Board and the FBI are concerned. As you know, initially 
there were some 150 witnesses that had been interviewed, many of which 
saw something in the sky that night. That has really been the main 
thing that has driven the so-called missile theory.
    But what we do know and what Dr. Loeb would be glad to 
briefly go into is that the center fuel tank exploded. Whether 
that was the primary or secondary event to the accident, we do 
not know. All of our focus right now is trying to find the 
ignition source for that explosion.
    What we are presently doing is the 92 foot reconstruction 
of aircraft structure which you have just seen. What I would 
like to do is just let Dr. Loeb tell you some of the things we 
are doing with Cal Tech and others in terms of explosives and 
tests that we will be looking at as part of this investigation. 
Dr. Loeb.
    Dr. Loeb. I would like to just clarify a couple of things. 
One is that we do know that the center wing tank exploded; that 
is, the center fuel tank--the wing tank. What we don't know, as 
the Chairman said, is what ignited it. It is possible that 
sources external to the airplane could have ignited it. It is 
also possible that sources internal to the airplane ignited it.
    What we further know is there is no evidence right now--no 
evidence--that a sizable bomb went off in this airplane. There 
is simply no physical evidence or chemical evidence at this 
time to tell us that there was any kind of a sizable bomb 
inside the airplane.
    Further, there is no physical evidence right now that a 
missile of any size hit this airplane coming through from the 
right side and going out the left side of the airplane. There 
is simply no physical evidence of that right now.
    Having said that, there are possibilities that we are 
looking into that perhaps a fragment of a missile may have gone 
through the tank and ignited the vapors. Perhaps there was a 
small charge placed on the tank somewhere, and it ignited the 
vapors.
    The possibility of an electrostatic discharge is still 
there; also the possibility that the scavenge pump may have 
played a role. There are a number of things that we are still 
looking at and that we have not ruled out.
    However, one of the things that I would like to point out 
is that if the fuel-air mixture that was above the fuel in the 
center tank had not been at an explosive level, it is unlikely 
that any of these things could have ignited anything, and, 
therefore, it is unlikely this accident would have occurred. So 
we are looking very carefully to see what ignited it. We 
believe we have made some recommendations that already can 
help.
    To test out these theories of fragments and small explosive 
charges and whether the fuel-air vapor itself could be ignited 
by an electrostatic spark, we have tested or are testing as we 
speak. We have tests that are planned into the spring and the 
summer that include tests to determine the physical 
characteristics of the jet A fuel that was used in this 
airplane.
    All fuels vary somewhat depending on the vendor and what 
they put into it. So we are testing the specific fuel that was 
involved to determine the properties of it and what it would 
take to ignite it. Much of that work is ongoing with Cal Tech.
    Right now, we have people in England who are doing work 
with cockpit voice recorders in conjunction with the British 
and the FAA. They are also testing hardening of either the 
cargo compartments or the cargo containers that are put into 
the compartments that contain baggage.
    As a part of the CVR project, we are recording on the CVR. 
When they do an explosion, we are recording it on the CVR and 
other equipment to try to determine better what sounds mean and 
if they are similar to what we have at the end of the recorded 
CVR on the TWA 800.
    At some point we will place some small charges on the fuel 
tank in the 747 in England--assuming it hasn't been destroyed 
by the time that happens and we don't think it will be--to see 
what the signatures of a very small charge would be. If the 
tank survives all of this, we will probably blow it up--
actually detonate it with a fuel-air explosion. We are 
arranging to find other 747s so that we can do that here in 
this country as well.
    Work is going on at Wright-Patterson Air Force Base right 
now in regard to static electric charges. Assisting us is one 
of the country's leading experts, Dr. Leonard, who used to work 
for the Naval Research Laboratory. These tests will go on 
probably through the spring.
    In addition, we are doing a number of research projects in 
acoustics at Oakridge. The China Lake military people are 
helping us with the charges and what kind of things we would 
expect to see on the metal. There are a number of others tests 
that are going on as well. That just gives you some indication 
of the kinds of tests that we are running now.

                   twa flight 800--fbi investigation

    Mr. Wolf. Does the FBI have any information about the red 
residue that has not been shared with the Safety Board?
    Mr. Hall. The FBI last fall took portions of that residue 
to their laboratory.
    Mr. Wolf. Last fall?
    Mr. Hall. Yes, sir, for testing. And my understanding from 
conversations with them is that they will have the results of 
those tests to release in the next day or two. But we have no 
information from the FBI or any information from our own 
investigators to substantiate the theory that is in the 
newspaper article. Nevertheless, we are going to take a very 
close look at everything that has been raised.
    Dr. Loeb. I would like to add that we have been in touch 
with the FBI laboratory folks on an ongoing basis. They simply 
didn't do any testing early on because when they got the 
material, they looked at it and concluded it was adhesive and 
put it aside because there were higher priority items they had 
to get to. They are now doing the tests on the specimens that 
they had, and we are now doing more tests on others. But they 
didn't do it because they had concluded after looking at it 
that it was adhesive.
    Mr. Wolf. Two last questions before I refer to Mr. 
Sabo.Newspaper articles indicate that the Navy has been reluctant to 
share information with the Safety Board. Is that true? Do you see all 
the material and all the data and all the classified information that 
the Navy has? Is it available to you? Are you confident that everything 
that they have, you have seen?
    Mr. Hall. Mr. Chairman, most of that portion of the 
investigation has been done by the FBI rather than by the 
Safety Board. I am not aware of anything that we have requested 
from the Navy that we have not received full cooperation from 
unless, Dr. Loeb, you have any other comments?
    Mr. Wolf. So you have reviewed--and I am going to get to 
the FBI next--you have reviewed all of the information, all of 
the tapes, everything available to the Department of Defense 
with regard to the Navy and the potential talk of a missile? 
You have reviewed it and looked at it? There is nothing out 
there that you have not seen?
    Dr. Loeb. We have reviewed everything that we know that 
exists in the way of radar tapes, voice tapes. The FBI has near 
their headquarters in Manhattan a huge facility filled with 
boxes and boxes and boxes and files just going endlessly of 
materials that they have gathered, interviews that they have 
made, assessments of military were located, all sorts of 
things, some of which I can't talk about now.
    We have had access to that. We have reviewed much of it. I 
cannot say that we have reviewed every single one of the 
statements. They have more than 5,000 interview statements. We 
have reviewed hundreds and hundreds of them. They have got them 
classified into things that are specific to certain areas. For 
example, those who witnessed the event and those who have 
contributions to make in terms of military resources and where 
they were and so forth.
    We have reviewed a lot of classified material and summaries 
that have been made by the FBI and others of the location of 
resources and so forth. So we have looked at a lot of things. 
However, having said that, we are still doing a lot of work on 
our own. We are reinterviewing people that we think are 
important.
    Right now, we have two people down at a Naval facility in 
Norfolk to try to determine what conversations may have existed 
between the Navy and the FAA air traffic people at the time of 
the accident; what warning zones were active and what warning 
zones were not. So we are still doing this. I am not aware of 
anything that has been denied to us, but having said that, I 
would not be aware of something if someone was deliberately 
denying it to us.

                   twa flight 800--FBI investigation

    Mr. Wolf. But do you think anything has been denied you?
    Dr. Loeb. I have no reason to believe that.
    Mr. Wolf. And what about with the FBI? You raised the issue 
in your statement that this is the only investigation whereby 
it was split. Normally, you are the chief investigating agency. 
Is the FBI cooperating completely? Are you aware of all that 
they are doing? Do they share all the data that they have? Is 
there anything that they have that you haven't seen that you 
think you should see?
    Mr. Hall. They have been cooperating with us very well on 
this investigation, Mr. Chairman. It has taken us some time to 
get up to speed in terms of a lot of the interviews and things 
that they did and were responsible for early on in the 
investigation. I think the cooperation between the two agencies 
has worked very well.
    Mr. Wolf. Well, this is my last point and then I will refer 
to Mr. Sabo. I think there are so many doubts in the minds of 
the American people and of the families. You know that. This 
story is troubling. You say that Mr. Salinger is going to be 
making another statement when?
    Mr. Hall. My understanding from our friends in the press 
that keep us informed is he is going to have some statement 
this week in regard to the investigation as well.
    Mr. Wolf. With regard to what? Do you have any indication 
what he is going to say?
    Mr. Hall. Well, my understanding is it is going to follow 
up on some of the articles that were in the paper in regard to 
a missile causing the accident. I am not exactly sure of the 
details of what he is going to say.
    Mr. Wolf. Have your people met with Mr. Salinger?
    Mr. Hall. No. The FBI has interviewed Mr. Salinger.
    Mr. Wolf. But wouldn't it be a good idea for the Safety 
Board to also interview Mr. Salinger if he is the one that is 
raising these issues? Wouldn't it be a good idea to have 
somebody to go over and sit down and spend a couple days with 
him and see what he is saying?
    Mr. Hall. If the Chairman thinks it would be worthwhile for 
us to send somebody to France and speak to Mr. Salinger, yes, 
sir, I would be glad to do that.
    Mr. Wolf. Well, I see you are laughing there but----
    Mr. Hall. I would never laugh at the Chairman.
    Mr. Wolf. If he is the one that is making the allegations, 
and I don't know that the other members here know, but Mr. 
Salinger was a United States Senator. That in itself is not 
particularly going to make a difference, but I think he also 
was the press secretary for the President of the United States, 
President Kennedy. I think it would be----
    Mr. Hall. Mr. Chairman, anything in the public domain about 
this investigation that causes concerns and in any way impacts 
the credibility of the government's investigation of this 
accident I take very seriously. We will certainly follow up and 
do that.
    The Safety Board will do anything that we can do or any of 
the members of this committee feel that the Safety Board needs 
to do to ensure to the American people and, most importantly, 
to the families of the victims of TWA 800 that this government 
and its resources are doing everything we can. This 
investigation is unprecedented--we will have spent some $27 
million taxpayer dollars by the end of this fiscal year 
reconstructing this aircraft, doing explosive testing with this 
aircraft, interviewing witnesses, doing everything that we know 
that can be done to find the cause of this unfortunate tragedy.
    Mr. Wolf. Well, I appreciate that. The last thing I am 
going to send a letter to the appropriate committees and 
subcommittees recommending that there be a joint hearing with 
the Armed Services people whereby the Chief of Naval Operations 
from the Navy can be called in with also those who have the 
jurisdiction over the Justice Department, whereby the head of 
the FBI can be called in, and where you, the National 
Transportation Safety Board, can be called in.
    I think it would be helpful to have all three parties 
because if the criticism is the Navy isn't releasing 
information, it is important to get the Navy together with the 
Safety Board and the FBI. And if the concern is with regard to 
the FBI, to get them together. I think it would be helpful to 
have a joint oversight hearing. What are your feelings about 
that?
    Mr. Hall. I think that would be excellent, Mr. Chairman, 
and I am sure the Chief of Naval Operations feels the same way 
I would feel. If someone is making allegations that an act has 
taken place and that there are government employees or 
individuals that aren't providing full information to the 
American people, I would want to have the opportunity to ensure 
the elected representatives of the American people exactly what 
the facts were, and be in a position to respond to any 
questions.
    Since some of these matters may involve national security 
matters, the appropriate place to do that would be with the 
appropriate committees of Congress.
    Mr. Wolf. Well, we will do that. We will do a letter asking 
that the three subcommittees--the judiciary with regard to the 
FBI and national security with regard to the Navy--and we come 
together perhaps in a joint hearing whereby everybody can put 
their cards on the table. And perhaps Mr. Salinger should be 
invited or anybody else out there who is making allegations. 
Because if people begin to lose faith or confidence in the 
system in the Federal Government, in the Safety Board or 
whatever the case may be, then I think it is going to be very 
bad.
    Mr. Hall. Mr. Chairman, I think you and I both agree the 
best way to face something like that is just head on and take 
it on. If anybody has got any facts, let them come forth with 
the facts, and we will sit down and go over it. We only have 
one interest--what caused that event.
    Mr. Wolf. Would it have been better had you been the lead 
agency and had the authority to look at everything? Would it 
have been done any differently if you had been like all the 
other investigations?
    Mr. Hall. I think in each and every investigation we 
undertake, Mr. Chairman, we learn new things. And this has been 
the largest investigation this Board has had in 30 years. I 
think at an appropriate time, we will probably look on exactly 
how it was structured and what was done, and I am sure there 
will be opportunities for improvement in the future.
    Mr. Wolf. But in hindsight looking back, do you ever talk 
to the doctor and say, ``Boy, we should be the lead agency in 
charge of this. It would be cleaner, easier''?
    Mr. Hall. No, Mr. Chairman. In hindsight, I look back and I 
remember that night of July 17, and I remember that the 
Olympics were just getting ready to start in Atlanta. There was 
a lot of focus on security for the Olympics, and everybody was 
at a high pitch getting ready for that. I think that every 
government response here has been appropriate to the situation. 
It has just been a very unusual situation, but one I am 
confident that we are going to get to the bottom of.

                             budget request

    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. Just a couple of questions. Back to the basics 
that we are here for. I take it you are comfortable with the 
budget request for next year as adequate for you to do your job 
including the supplementals for the TWA accident?
    Mr. Hall. Including the supplemental, we had had a request 
that was slightly larger than that included in the President's 
budget. It was for more employees and more money. But I think 
if we can get some assistance with the supplemental for 
expenses on TWA 800, the request that we presently have in 
front of you is something that we could live with.
    We are like the fire department, Congressman. It is hard to 
know from time to time, but I do know that the complexity of 
these investigations is increasing because of the technology, 
the computers that are available and modern transportation.
    I think that if our agency is going to exist at all, it is 
in the interests of the American people that we have the type 
of expertise available to us to be sure that the independent, 
thorough investigation that you want us to do is done.
    I feel that the initial request that we made to Congress 
gave us additional resources to ensure that we could be more 
timely in terms of our investigation. With the small number of 
people we have and a year like 1996, that is when we get into a 
difficult situation. But the President's budget with the 
supplemental, I believe, would be satisfactory. Maybe General 
Jordan could give a little more detail on some of the 
additional personnel and funds we requested, if that is 
satisfactory.
    General Jordan. We had asked for an additional 42 
positions. Twenty-five of those were to be in the technical and 
investigative area. Seven of those were for operating a 24 hour 
communication center, and an additional seven for the program 
to provide assistance to families.
    Three other positions were to support the area of labor 
relations because we are facing a possible election coming up 
in the late spring. Of the three of the 42 positions, the 11 
additional positions were approved or indicated approval for, 
and that would be nine for investigative and technical 
positions and two for family assistance.
    Mr. Hall. But let me assure you and assure this committee 
as we get positions, we fill them. And I have got job 
announcements on the street now because we need the people, and 
then if you give us positions they will be filled.
    Mr. Sabo. Is your current complement filled?
    Mr. Hall. Yes, sir, we have 370 people. We have 21 active 
recruitments that are underway. We also have a very active EEO 
program to be sure that we have a representative workforce.

             twa flight 800 as compared to other accidents

    Mr. Sabo. To relate to the TWA accident, have you had plane 
accidents with any similar characteristics before in accidents 
you have investigated?
    Mr. Hall. Not domestically but either Dr. Ellingstad or Dr. 
Loeb could go into other accidents where there have been 
explosions.
    Dr. Loeb. We did have a Boeing 737 that exploded in 
Manila--a Philippines Airline Boeing 737 several years ago 
where the center fuel tank exploded. We participated in the 
investigation. It was never determined conclusively what the 
ignition source was, although it was narrowed down to one of 
two possibilities--a float switch or some faulty wiring. We 
are, in fact, studying that again for the similarities between 
that fuel-air explosion and TWA 800.
    Mr. Hall. And the sister ship of this plane--do you want to 
mention that one?
    Dr. Loeb. Yes.
    Mr. Hall. Let Dr. Loeb give you some of the ones that we 
can remember, but I would like to provide for the record other 
explosions that have taken place.
    Dr. Loeb. A sister ship had been sold to the Iranians. It 
was used in the Iranian Air Force, and it had had an explosion 
in flight. That was tracked down to lightning. The lightning 
attached to the wing, went down the vent and caused that 
explosion. We believe that that was what caused that.
    We are also aware of others. For example, there was a 
Boeing 727 in which there was a very small bomb--more on the 
order of a charge that was placed in the forward end of the 
airplane. It penetrated the floor, went through the tank, and 
ignited the fuel tank, and that airplane came apart in the air 
as well. It did leave traces and residues, and that is how we 
were aware of what happened.
    So there have been fuel-air explosions that have been 
ignited by the airplane with no external intervention, and 
there have been fuel-air explosions in which there has been 
external intervention. And we will be glad to supply that for 
the record.
    Mr. Sabo. Okay. Thank you.
    [The information follows:]

[Page 66--The official Committee record contains additional material here.]


    Mr. Wolf. Mr. Aderholt.

                    safety recommendation acceptance

    Mr. Aderholt. One of the Department's transportation goals 
is to promote safe and secure transportation. Last year, the 
NTSB testified the Department is increasingly implementing its 
recommendations. However, your data shows the Department's 
compliance rate in 1995 was down six percent from 1994--80 
percent versus 86 percent. How did the Department of 
Transportation do in 1996?
    Mr. Hall. Mr. Sweedler, do you have those numbers? Barry 
Sweedler is the head of our Office of Safety Recommendations 
that keeps those statistics.
    Mr. Sweedler. Yes, sir. Over the years, historically the 
Department has implemented about 82 percent of our 
recommendations. Within the last three or four years, we have 
been tracking what their acceptance rates would be or what the 
actual acceptance rates are for the recommendations made in the 
recent years. We are very pleased that the implementation rate 
has actually increased, and we have this by each modal agency.
    For example, for the recommendations made in 1994, the 
Federal Aviation Administration had a 90 percent acceptance 
rate; the Highway Administration an 80 percent; the NHTSA had 
100 percent--they have adopted all of our recommendations--and 
the Coast Guard has an 82 percent rate.
    In more recent years they have been much more responsive 
than they have historically. That has come about because of our 
strong follow-up program to try to get them to implement more 
of our recommendations.
    Mr. Hall. And the support that we receive from the 
congressional committees when they don't follow our 
recommendations.
    Mr. Aderholt. All right. Thank you. That is all for right 
now.
    Mr. Wolf. Mr. Torres.

                             air bag safety

    Mr. Torres. Thank you, Mr. Chairman. I want to thank the 
Chairman for being here this morning with his colleagues and 
your staff and all the experts. I want to thank the Chairman 
for inviting us to visit your facilities, your laboratories, 
and especially the Calverton, New York, site of TWA 800. That 
would be very interesting for us to visit.
    Mr. Chairman, there has been a lot of media attention that 
has focused recently on issues of child passenger protection, 
the use of child safety seat belts, as well as passenger air 
bags. I believe the Safety Board completed a study last summer, 
as I recall, comparing the effectiveness of these various 
protective devices.
    My question to you would be can you summarize for us your 
findings? I know I have very limited time, but if you could do 
that, and what educational and informational programs are 
underway to inform parents of the dangers of improperly 
securing a child in a vehicle? And are U.S. automakers and 
dealers attentive to this effort?
    Mr. Hall. That is a very good question, Congressman, and 
one that the Board has had a great deal of interest in over the 
years, and was one that inspired really Congressman Wolf and 
this committee last year to help sponsor this video. We have a 
very poor child restraint usage rate in this country. I think 
some 40 percent is the number of children that are presently 
properly restrained.
    There are two issues here. One is the issue of child safety 
seats. I believe the automobile industry and the government 
regulators are beginning to address this issue from the 
standpoint of trying to come up with a standard child safety 
seat that is simple to use.
    My children are now 21 and 19, but I can remember well 
questioning what seat to use at the appropriate time, how to 
get them in the seat and how difficult it was. So I think we 
are getting a focus on that issue now. However, a great 
majority of the children who are killed are unrestrained.
    The issue that the Board got into some 18 months ago was 
the danger of air bags, primarily the passenger side air bag to 
children in rear-facing infant seats, to small children under 
the age of eight years old, and, of course, to small-statured 
adults.
    Next week we will be holding at the Mayflower Hotel a four-
day forum looking specifically at the air bag issue, as well as 
restraints. We are going to try to provide as much factual 
information for the American people in this area. But this is 
the one area, Congressman, where I believe the states and the 
Federal Government could do a great deal more in saving lives.

                            most wanted list

    Mr. Torres. Mr. Chairman, one other question. In 
yourtestimony, you talked about the most wanted list--a particular list 
here of recommendations. Is the Department making any progress on 
addressing these, and, if not, can you tell us why not?
    Mr. Hall. We have 18 items on the most wanted list. I 
believe progress is being made in each of the areas. As I 
mentioned earlier, pilot background checks will be removed, 
because of legislation that was initiated as a result of 
hearings in the Congress. Barry, you might want to briefly 
touch on each one of these items or the major ones.
    Mr. Sweedler. Yes, Mr. Chairman. Yes, sir. Progress is 
being made, sometimes not as quickly as we would like. One of 
the most important issues is the issue of runway incursions. We 
are hoping to finally see the installation of the conflict 
alert system that will alert the controllers when there is a 
potential conflict. That has been delayed. It was supposed to 
have been in two or three years ago. It is starting to go in 
next year we hope, and by the year 2000 we may see it at all 
the major airports.
    Railroad hazardous materials tank cars--the Department has 
finished most of its work. And I think that we will probably be 
suggesting to the Board that that be removed from the list 
because of that work. The Chairman mentioned pilot background 
checks. Because of a new law, the forms are now being used by 
the airlines to exchange information on new pilots that are 
hired.
    About 40 states now have administrative license revocation 
for drunk drivers. On the youth issues, that was very important 
to this committee a number of years ago, we are up over about 
40 states that now have low blood alcohol content for young 
drivers, and the graduated licensing system which allows the 
young drivers to come into the system with better training 
before they are given a license when they are 16 and turned 
loose. So more and more emphasis is being put on that.
    Human fatigue--I think there is a much greater awareness of 
human fatigue problems in all the modes of transportation. It 
is, obviously, not going as quickly as we would like. Both the 
FAA and the Federal Highway Administration have begun the 
rulemaking process to bring up to date the hours of service 
rules when pilots and truck drivers can work. But that has been 
slow.
    Positive train separation is another issue that is very 
important to us. That is also going slowly. There are a number 
of pilot projects, so progress is being made. And I think it is 
very important to keep this list----

                           school bus safety

    Mr. Torres. What progress is being made on school bus 
safety?
    Mr. Sweedler. A number of years ago new standards were 
developed which make those buses, based on our recommendations, 
much stronger when they are in crashes. There are still a 
couple of issues that we are looking at from the school bus 
safety that came out of the Fox River Grove investigation with 
a train.
    Mr. Hall. Let us let Jim Arena, if he can, comment on that, 
and then I would like to mention one area where there is not 
progress that I have a great deal of concern.
    Mr. Arena. The previous most wanted list dealt mainly with 
flammability of school buses and egresses, and most of that has 
been solved. However, within the last couple of weeks, we have 
discovered some states that still have a significant number of 
prestandard school buses in operation, and we are in the 
process of verifying that.
    Additionally, the Fox River Grove investigation revealed a 
number of troubling issues, one of which was school bus driver 
selection, school bus route hazard assessment, and the entire 
system of managing pupil transportation. It is constantly 
regarded by a number of folks as the safest transportation in 
the industry, and then maybe doesn't receive the level of 
attention that it should.
    However, we transport 21 million students each day, and the 
American public is on the phone with our Highway Division 
almost on a daily basis looking for guidance, direction, and 
support in resolving some of the school bus issues. So it is 
still very active as far as the Board is concerned.

                         flight data recorders

    Mr. Hall. Let me just say, Congressman, in preparing for 
this testimony today, I reviewed our testimony when we were 
here last year. And, unfortunately, last year we discussed the 
subject of flight data recorders.
    I am sorry to report that the FAA still has not issued a 
rule on increasing the number of parameters on flight data 
recorders and retrofitting the recorders on Boeing 737s and 
older aircraft. That technology is available. It is used in 
other countries around the world. It is basically our 
technology, and it is unfortunate that the FAA has failed to 
take final action in this particular area.
    We discussed this with the Chairman last year, and he sent 
a letter at that time to the Department. This is a subject that 
I am going to bring up with Secretary Slater. He was kind 
enough to come over and spend several hours meeting with me 
before his confirmation, and I discussed this matter with him 
and intend to discuss it with him again, and with the new 
Administrator of the FAA when that person is designated.
    Mr. Torres. Well, I thank the Chairman and his colleagues 
here today for providing this testimony and answers to these 
questions that are, obviously, very critical to the work of our 
subcommittee and to us as individuals. Thank you very much.
    Mr. Hall. And if I might add, Congressman, that I hope that 
any of the members of this committee will feel free to, one, 
become, obviously, familiar with the capabilities of the Board 
and use any of our resources, as Chairman Wolf has, and try to 
be sure that information that is known on the Federal level is 
shared in your district and your state in terms of safety 
information.

                          boeing 737 aircraft

    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. Good morning, Chairman 
Hall. For someone who puts in 4,000 miles per weekend, believe 
me, safety in the air is an issue that I am very much 
interested in, and I will take you up on your invitation to 
learn more about what you do and get better acquainted with you 
so we will work out that schedule.
    I only have two questions, and one deals with the 737 since 
on occasion we are on 737s. In your statement on page 13, you 
express some concern that the FAA may be delaying issuing a 
final rule on your proposed airworthiness directive or that the 
directive may allow more than two years for operators to 
complete the installation of the new control valve. First of 
all, can you bring me up to date where Boeing is on the 
redesign and where it is at on that? And then----
    Mr. Hall. Congressman, I will do that. I would like to ask 
Dr. Loeb to go into more detail. I would like to acknowledge 
that in the audience is Mr. Tom Haueter who is the 
investigator-in-charge of the USAir 427 accident, which has 
been ongoing now for some two years. Dr. Loeb will get into 
details.
    Let me say that I am pleased that Boeing is redesigning the 
rudder PCU unit, that they have committed to installing that on 
their new aircraft and on retrofitting that on all the existing 
fleet. Still uncertain is the time frame that this is going to 
take place. And, of course, as of today, I do not believe that 
that redesign has been approved by the FAA. But----
    Mr. Pastor. How many planes are we talking about?
    Mr. Hall. Let me turn that over for details. It is still 
the largest fleet operating in our country. Dr. Loeb?
    Dr. Loeb. There are approximately 2,700 or 2,800 737s 
worldwide, but some have slightly different units depending on 
when they were built. Approximately 1,000 of them are operating 
in this country. Our concern is not so much that we have been 
assured that this would be done in two years, but when is the 
two years going to begin? It hasn't commenced yet, and we have 
no assurance from the FAA or from Boeing as to when it will 
commence. That is one of our concerns.
    We also have some concerns that there needs to be 
additional training and operational procedures developed. The 
pilots also need to be made aware that if they go to use the 
rudder and, for example, they step on the left rudder pedal, 
that it is possible if they get a jam that the rudder will not 
move left but will move right. And they will not know that 
other than through the feel of what is happening in the 
airplane.
    If they are not made aware of this and it happens to them 
at the wrong time, they may not be able to cope with it. We 
have made some recommendations for some operational procedures 
and training and for the pilots to be specifically told that 
that can happen.

                       boeing 737 pilot training

    Mr. Pastor. Who has that responsibility of directing the 
pilots to take this additional training or to make sure that 
they are knowledgeable of what they need to do if it occurs?
    Dr. Loeb. The FAA as the regulating agency can require that 
that be done. Obviously, a carrier can do that if they want to 
on their own. They can add some information, but if you wanted 
to make sure that it is going to be done throughout, the FAA 
has got to regulate it and require it.
    Mr. Pastor. Do you have any idea of what the FAA has done 
about this particular concern that you have with training of 
the pilots?
    Dr. Loeb. They have been working with Boeing, but there has 
been no final action taken. We have issued 24 recommendations, 
I believe, in the last couple of years. The first three were 
the recorder recommendations, and then we issued 14 
recommendations in the fall. They have responded to us on those 
14 recommendations.
    We are now evaluating the response and trying to determine 
how we want to get back to them. In the interim, this redesign 
effort came to the forefront, and we have issued an additional 
four recommendations. We are generally pleased, but there are 
some specifics that we are concerned about especially the time 
frame.

                   valujet flight 592 recommendations

    Mr. Pastor. After the ValuJet disaster, you issued some 
safety recommendations to the FAA. What were the 
recommendations that you think have high priority, and how has 
the FAA implemented those recommendations?
    Dr. Loeb. The recommendations of greatest concern asked the 
FAA to require the carriers to look at their procedures and 
training on how hazardous materials are handled, especially 
company materials.
    However, the recommendations that were of greatest concern 
to us dealt with certain kinds of materials shipped in or 
carried in cargo compartments that did not have smoke and fire 
detection systems.
    The first recommendation was that the oxygen generators 
that could never be used again, should not be carried on board 
any airplane.
    The second thing is we were concerned that oxidizers and 
oxidizing materials not be transported in airplane cargo 
compartments that did not have smoke and fire detection 
systems. The DOT has responded by producing a rulemaking. There 
is no final rule. We have just, in fact, commented on the 
rulemaking, and we are reasonably satisfied.
    Mr. Hall. The other issue, Congressman, was the number of 
investigators that were working for FAA and RSPA in hazardous 
materials. There has been an extensivenumber of new positions 
created for better oversight in that area.

                    foreign aviation investigations

    Mr. Pastor. One more question that I have deals with your 
international aviation investigations. In February of 1996, we 
had a very tragic occurrence outside of Cuba, and I ask the 
question because I would not like to have it happen again, and 
I think there are ways of preventing it.
    I have been told that the Cuban Government, officially to 
various agencies of the United States, told them that they 
needed to prevent their planes from flying over Havana and 
dropping leaflets. And this was done repeatedly, but the U.S. 
Government and its agencies just didn't pay attention or didn't 
do anything to prevent that. Since we have had this very tragic 
incident, and I hope that it won't happen again, what are we 
doing to prevent that or to ensure that this doesn't happen 
again?
    Mr. Hall. We participate in foreign investigations through 
the International Civil Aviation Organization that is based in 
Montreal. The United States is a treaty participant, and we 
participate through that organization in numerous foreign 
accident investigations.
    Mr. Ron Schleede, who is Dr. Loeb's deputy, participated 
with the ICAO investigation of that particular incident. 
Unfortunately, Mr. Schleede has had surgery and is not here 
with us today, but I would be glad to have Dr. Loeb provide 
whatever details he can on that investigation and then have Mr. 
Schleede either come brief you or provide information for the 
record.
    Mr. Pastor. My main concern is that we were forewarned, we 
were asked to prevent it, and that we basically as a government 
did not pay heed to the warnings. And as a result, we had this 
very tragic incident occur, and so my interest is the types of 
forewarning that we had. Mr. Chairman, thank you very much. I 
appreciate the time.

                       us air/pittsburgh accident

    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. And I certainly am 
grateful for your bringing the members of the Safety Board 
together today for this discussion. Coming here toward the end 
of this, I think my questions are going to seem like sort of 
hit and run because they cover a number of different grounds. I 
have at least had a chance to see in the testimony the variety 
of key investigations that have gone on over a period of time. 
But let me ask just a couple of questions.
    The Boeing 737, the Pittsburgh event, occurred in September 
1994. That is two and a half years. I notice that in your 
testimony you point out that there are attempts to redesign. 
They are in the process of redesigning in order to preclude the 
reverse rudder event that seems to have been the key issue.
    And then the comment in the testimony the FAA plans to 
issue an airworthiness directive that would require the Boeing 
737 fleet to be retrofitted with the new valve that is the 
critical question within two years--plans to issue.
    That in sum total is--I don't know exactly--maybe you can 
tell me--when did you come to the conclusion in this two and a 
half years that that was the key issue behind the event? And is 
it really appropriate that we are going to be spending--it will 
be five years then, at least it would appear, before that 
retrofit to correct that problem is complete?

                         flight data recorders

    Mr. Hall. Mr. Olver, that actually goes back farther to an 
accident that occurred in 1991 in Colorado Springs where we had 
the first 737 accident in which there was an unexplained roll 
of the plane and subsequent crash.
    Mr. Olver. How many deaths were there in that one in 
Colorado Springs?
    Mr. Hall. Twenty-five. I notice that you have an 
engineering background and----
    Mr. Olver. Science.
    Mr. Hall. Science background. I have a background in 
science and engineering technology, but the one thing the 
American people have missed is having flight data recorders. 
Had we had modern flight data recorders on this 737 aircraft, 
particularly after we had made our recommendations that would 
have assisted us in determining the cause of the Pittsburgh 
accident and would have assisted us in determining an incident 
that we had with East Wind that we would have been able to 
conclusively determine what had happened to the 737.
    I want to get Mr. Haueter up here so he can comment on 
this. He is my 737 expert and I would like him to give you an 
overview of this investigation because I have lived with this 
over two years as Mr. Haueter has.
    And I want you to understand because there are two things 
here. One is the timeliness of being sure that the technology 
that is available out there for the American people is 
available in our transportation equipment. And of course the 
second thing is the timeliness of being sure that once the 
problems are identified they are fixed.
    Mr. Haueter. Thank you. As the Chairman mentioned, the lack 
of available data has been a problem. In the Colorado Springs 
aircraft, United Flight 585, there were only five parameters 
recorded. In the Pittsburgh aircraft, U.S. Air Flight 427, 
there are only 11 parameters recorded, rudder, rudder pedal 
were not among those.
    We had very good data from the beginning from the heading 
that there was a sudden heading change with no change in pitch 
or roll of the airplane. Subsequent tests indicated that the 
only control mechanism that could cause that is a full 
sustained rudder deflection, and we spent a great deal of time 
trying to find out why.
    It was in last early November that we finally came up with 
this rudder reversal scenario.
    Mr. Olver. Only three or four months ago.
    Mr. Haueter. Only three or four months ago.
    Mr. Olver. And then the Board reacted to our 
recommendation. I see. So then would it be fair--well, do you 
think it is appropriate that the time for correction should be 
as long as two-and-a-half or three years going back to the 
comment FAA plans to issue a air readiness directive to require 
retrofitting within a two-year period. Is that the best we can 
do on that kind of a record that once you know that that can 
happen with this?
    Mr. Haueter. The problem they have is designing and 
certifying a new rudder control system.
    Mr. Olver. So it is not designed--they do not really have 
something to----
    Mr. Haueter. They are working on a design but it has not 
been through the certification process. Then you have to start 
manufacturing them, and there are right now 2,700, 2,800 737s 
that all will need new rudder systems.

           TWA Flight 800--fuel tank explosion investigation

    Mr. Olver. Well, I may want to follow that up at some other 
time. May I ask about the--to go back to the TWA 800 and its 
peripheral kinds of things. The plane in the Philippines was a 
727.
    Dr. Loeb. 737, sir.
    Mr. Olver. That was a 737?
    Dr. Loeb. Yes, sir.
    Mr. Olver. And I think you said a sister plane. When you 
say a sister plane, do you mean anything more than it was also 
a 737, one of that fleet of--I do not know how many have been 
made of the 737s.
    Dr. Loeb. The sister plane to which we referred that went 
to the Iranian Air Force was a 747, not a 737, and it was a 
very----
    Mr. Olver. It sounds more like a mother plane.
    Dr. Loeb. Right. It was a very early plane that came off 
the line about the same time as the 747 in the TWA 800 
accident.
    Mr. Olver. Did you mean that the sister plane was a sister 
plane of the TWA 800?
    Dr. Loeb. Of the TWA 800.
    Mr. Olver. Okay, I misunderstood. I was relating this to 
the Philippines situation. The Philippines situation appears to 
be you think an explosion in that tank.
    Dr. Loeb. We know it was. In fact, Tom can elaborate----
    Mr. Olver. Which was designed the same or whatever.
    Mr. Haueter. I happened to have investigated that accident. 
In that case the airplane was at the gate when it happened. It 
killed seven people, unfortunately, but the center fuel tank 
blew up as the airplane was pushing back from the gate. It was 
a partially empty tank, much the same as TWA 800. The 
investigation determined that either a faulty float switch or 
possibly running the boost pump was the cause of that 
explosion.
    Mr. Olver. I have unfortunately perhaps for the reliability 
or for what my level of knowledge might be never put as much 
time into the TWA 800 issue before this morning and have before 
me mostly what you said about it plus the long set of articles. 
And there are a couple of things that are rather interesting 
from a scientific point of view.
    I just wanted to ask, there is one section here which 
speaks about vibrations picked up stereographically at high 
frequency, relatively high frequency, at least these vibrations 
at the 2,000 feet per second whereas from other kinds of 
incidents this is used as an argument, as I read it at least, 
that this would be more consistent with missile as opposed to a 
bomb or something like that, that the others would be much 
lower vibration.
    Is that an accurate set of inferences there? I mean it 
leads you into some conclusions there. Is it true that there 
was something picked up at 2,000 feet per second?
    Dr. Loeb. I cannot answer that question precisely but let 
me try to deal with that. They cannot possibly know because the 
recording has been with us since it has been retrieved. We have 
it. We have done lot of work on it. However, I think what he is 
trying to say here and inartfully doing it, is that you have 
the possibility of picking up the transmission of a sound 
through the air and through the solid portion of the airplane 
through the metal.
    The sound speed in the metal is a great deal higher than it 
is through the air. The 2,000 feet per second, I think, is what 
he is referring to is the rate at which it would travel through 
the sound. However, he has also got a 2,000 feet per second 
speed for the missile at some point in there.
    I do not know whether he is confused, but the 2,000 feet 
per second would be incorrect if he were referring to the speed 
at which it would travel through the fuselage. In fact, one of 
the things that we are doing right now in the tests that I 
spoke of in England is determining just how fast does it travel 
through the fuselage, how fast does it travel through air.
    We are doing small explosions. We will do a larger 
explosion so we will be able to nail those things down better 
than I can right now. What I can tell you is that 2,000 meters 
per second, which is about three times of what he is talking 
about, would have been the commonly held view of the 
transmission through the airplane. We are finding out that it 
may be considerably higher than that.
    I think whoever put this together got a little bit of 
information, did not understand any part of it and was even 
less artful when they put it down on paper.

                             TWA Flight 800

    Mr. Olver. Well, there must be more than a little bit of 
understanding of this information although you point out the 
possibility that you are mixing up 2,000 feet per second and 
2,000 miles per hour, both of which are----
    Mr. Hall. Congressman, we do not discount anything. Let me 
explain that we have an ongoing investigation and the way we do 
our investigations is they are structured in specific areas 
under the leadership of Mr. Haueter as an investigator in 
charge. We have another individual who is the investigator in 
charge of this group who reports to Dr. Loeb and then through 
Dr. Loeb to me.
    If you come to the laboratories you will be able to see 
what we have in the flight data recorder, and we are looking at 
a number of tests working with our counterparts in Britain 
specifically in this area. They at some point will produce a 
factual report which will then be available and made public of 
all thethings they are doing.
    I want Dr. Loeb to comment on whatever he thinks would be 
appropriate in regard to the article, but I want to be aware of 
the fact that it is an ongoing investigation and the work 
continues. Much of this information will be developed as we go.

                    twa flight 800 chemical analysis

    Mr. Olver. Well, I understand that you are making studies 
on the very point that is there although I am a bit puzzled by 
Mr. Loeb's, your comment that you do not know how anybody would 
know that because you had the recorders all that time. What we 
are talking about is what a source, a source inside the 
investigation, somebody is feeding things out so clearly 
whatever you have in there is available to somebody who is 
feeding them out and so that gets out there.
    The one other place that I wanted to make a comment on out 
of this same set of articles is to go back to the residue, that 
residue. You commented that that was you think probably 
adhesive and adhesive that is used somewhere in all of the 
seats of that type plane in the manufacture of those seats, I 
take it, am I correct?
    Dr. Loeb. If it is adhesive, it is what binds the 
seatbacks. There would be material of that nature in every seat 
because that is how they are attached.
    Mr. Olver. It is interesting in this set of articles there 
is a wonderful analysis, the chemical analysis of the adhesive. 
It is extremely detailed. It has got at least 12 elements there 
down to very, very specific percentages and very low 
percentages of a variety of different things. One has to be, of 
course, very skeptical of what is in here but have you analyzed 
the adhesive?
    Dr. Loeb. We are in fact doing that, as we said, right now. 
In fact, one of our scientists is at the FBI right now, and we 
have samples that we will be looking at in our laboratories 
today.
    Mr. Olver. What does the manufacturer say that adhesive 
analysis would be?
    Dr. Loeb. We have gotten data sheets from the manufacturer, 
3M, on the chemical makeup of the binding materials and we will 
be checking that.
    Mr. Olver. It is hard to imagine why some of those elements 
if there anything correct about that or anything relevant about 
that analysis, it is hard to imagine how some of those elements 
would be part of an adhesive used in that kind of a way?
    Dr. Loeb. Some of those elements we feel quite certain you 
will find in seawater, and if you soak anything in seawater you 
will see some of these elements because they are just naturally 
found there, magnesium being one of them. And there are others 
in here that I could go through that virtually anything that 
has been soaked in seawater you will come up with some trace 
amounts and maybe even some substantial amounts. We do not know 
yet. That is what we have to do.
    Mr. Olver. Thanks, Mr. Chairman.
    Mr. Wolf. Mr. Foglietta.
    Mr. Foglietta. I have no questions.

                  TWA Flight 800 Investigation Status

    Mr. Wolf. What is the status of the TWA 800 accident 
investigation? Is the Board still pursuing all three theories, 
mechanical failure, a bomb, or a missile?
    [The information follows:]

[Pages 78 - 79--The official Committee record contains additional material here.]


                        Calverton, NY, Facility

    Mr. Wolf. NTSB estimates that it will need approximately $7 
million per year to continue using the Calverton facility for 
the TWA 800 flight investigation. Is it possible to find an 
alternative, less costly facility to house the wreckage? If so, 
could the wreckage be easily relocated or would this hamper the 
ongoing accident investigation?
    [The information follows:]

    The plans for the 3-dimensional mockup of TWA flight 800 
call for possible disassembly and movement to a different 
location, if this becomes necessary. Moreover, the contract and 
plans include the possibility that the mockup could be moved 
out of the hangar on wheels for less expensive, long-term 
storage. The FBI has requested that the wreckage remain at 
Calverton, New York, in the event that they determine the need 
to prosecute a criminal case, and our fiscal year 1998 budget 
request provides for rental of the Calverton, New York, 
facility.
    The Safety Board did consider alternative, less costly 
facilities, but the urgent nature of the investigation led us 
to remain at Calverton. Moving the recovered wreckage prior to 
completion fo the 3-dimensional mockup would have set back the 
investigation by months.

    Mr. Wolf. Does the Department of Defense own the Calverton 
facility? If so, is the $7 million cost for rent and utilities? 
Has the Safety Board discussed with the Department of Defense 
paying just for the overhead costs (i.e. utilities, security) 
and being waived from the rental payments?
    [The information follows:]

    The Calverton facility is owned by the Department of 
Defense (U.S. Navy). The costs for the use of the facility 
requested by the Navy are only for the costs incurred by the 
contractor for operations, utilities and maintenance, and the 
contractor's overhead. No DoD/Navy overhead or rental fee is 
being charged. The $7 million requested in FY 1998 includes 
$6.4 million for the Calverton facility, and $0.6 million for 
extraordinary NTSB investigation costs.

                          storage of wreckage

    Mr. Wolf. Based on prior experience (i.e. Lockerbie), how 
long does wreckage need to be stored once a cause has been 
determined?
    [The information follows:]

    There are only three other major aviation reconstructions 
in the world, and the mockup of the TWA flight 800 wreckage is 
the largest. In the few similar cases, mockups of large 
commercial aircraft have remained in place for many years. In 
previous routine Safety Board investigations, the Board has 
released the wreckage to the owner of the aircraft. However, 
the Board feels that once there is no further use for the 
wreckage for investigative purposes, there may be a need to 
retain the wreckage for education and research benefits. 
Therefore, the Safety Board is tentatively exploring the 
possibility of a permanent display.
    Before embarking on the mockup, the history of the other 
reconstructions and the likelihood of long-term display of this 
one was discussed with the appropriate Executive and 
Legislative Branch entities.

                         twa flight 800 mockup

    Mr. Wolf. NTSB is planning on conducting a three-
dimensional mock-up of a major portion of TWA 800 wreckage. 
What is the reasoning behind reconstructing the aircraft?
    [The information follows:]

    The 3-dimensional, 92-foot mockup of the center fuselage 
area of TWA flight 800 is on-going and should be completed 
around the end of April 1997. One of the purposes of the mockup 
is to more clearly be able to aid in the visualization of the 
breakup sequences of the airplane with the airplane structures 
restored to their relative positions. Moreover, it will 
facilitate assessing the possible entry paths, or lack thereof, 
of external penetrations from a missile or missile fragment, or 
the possibility of a bomb igniting the center wing fuel tank.

    Mr. Wolf. What is the status of this mock-up? When will it 
be completed?
    [The information follows:]

    The 3-dimensional mockup of the TWA flight 800 wreckage 
should be completed about the end of April. Continued 
examination of the wreckage mockup, by Safety Board personnel 
and outside experts who are supplementing our expertise, will 
continue for an undetermined length of time.

    Mr. Wolf. How long will the mock-up need to be stored?
    [The information follows:]

    We cannot predict how long the mockup of TWA flight 800 
will have to be stored. Hopefully, the Safety Board can 
complete its various tasks, including future tests and 
research, by the end of the fiscal year. If storage of the 
mockup is required past that time, we will have to assess 
whether to store it outside the hanger in a temporary facility, 
or to partially disassemble and move it to another less costly 
location. The Safety Board is also exploring the possibility of 
a permanent display for future research and education.

    Mr. Wolf. If NTSB decides to move its investigation outside 
of the Calverton facility in order to save money, can this 
mock-up be transported? Please discuss the pros and cons of 
moving the mock-up and the associated costs.
    [The information follows:]

    The mockup of the TWA flight 800 airplane wreckage can be 
disassembled and moved to another location, if necessary. The 
option of moving the wreckage to another location was evaluated 
before proceeding with the current reconstruction. It was 
decided that the current location was the best for both the 
Safety Board and the Federal Bureau of Investigation (FBI) 
because of the valuable time that would have been required to 
move the wreckage. Neither agency wanted to delay the 
investigation. One estimate to move the wreckage before the 
mockup was begun was between $1 to $1.5 million. However, an 
additional concern involved the likelihood of causing 
additional handling damage to the wreckage during any movement. 
Further, the FBI did not want the wreckage to leave the 
Calverton, New York area in the event they determine the 
necessity to prosecute a criminal case.
    The current mockup is bolted together and can be unbolted 
and moved to another location. A preliminary estimate to 
disassemble and reassemble the mockup at another location was 
about $400,000. That does not include shipping and other costs.

                   twa flight 800 trawling operations

    Mr. Wolf. NTSB has been dredging the ocean floor for 
additional remains from the TWA accident. What percentage of 
the aircraft was recovered prior to the dredging beginning?
    [The information follows:]

    More than 90% of the aircraft had been recovered before the 
trawling operations were commenced. The majority of the 
materials that have been recovered during the trawling 
operations are small and do not constitute a significant 
percentage of the airplane. However, we have not located the 
center wing fuel tank scavenge pump, which remains one possible 
source of ignition. Further, we have not recovered all of the 
center wing tank structure and desire to recover as much as 
possible. Lastly, the FBI has requested additional areas to be 
trawled where no wreckage is being found to search for possible 
criminal evidence.

                   twa flight 800 aircraft recovered

    Mr. Wolf. In comparison, how much of the aircraft has been 
recovered to date?
    [The information follows:]

    More than 90 percent of the TWA flight 800 wreckage has 
been recovered from the ocean floor. Because of the large 
number of small parts for which their location on the airplane 
cannot be identified, it is difficult to determine a precise 
percentage of the wreckage retrieved.

                        twa flight 800 dredging

    Mr. Wolf. Does the Safety Board plan to continue its 
dredging efforts or has this activity been completed?
    [The information follows:]

    We expect the trawling to continue until approximately the 
end of April 1997. As long as useful wreckage is being 
recovered, we plan to continue this activity at least until 
that time. A considerable amount of the trawling is being 
conducted in areas outside the main debris fields. The FBI has 
requested the search in these areas for possible criminal 
evidence. Virtually no airplane wreckage is being recovered in 
some of these areas.

                           explosive testing

    Mr. Wolf. A recent Aviation Week and Space Technology 
article discussed NTSB's plans to set off a series of explosive 
charges on a former Air France 747 this spring. What is the 
purpose of this test?
    [The information follows:]

    Part of the testing on an old Boeing 747 being conducted in 
conjunction with British authorities involves analyses of 
cockpit voice recorder signatures of various explosions. These 
tests were planned well before the TWA flight 800 accident. We 
have contracted to conduct additional tests on this aircraft 
before it is scrapped. One of the purposes of setting off 
various charges on this airplane is to establish damage 
patterns from known sources to compare with the structure of 
TWA flight 800.

    Mr. Wolf. The article notes that if this test is fruitful, 
NTSB may undertake full-scale blast tests with scrapped 747s in 
the United States, including setting off charges in the center 
fuel tank. What is the estimated cost for these tests? Is it 
included in either the 1997 supplemental request or the 1998 
budget request?
    [The information follows:]

    The supplemental budget request estimated that 
approximately $2.6 million would be required for a range of 
fire and explosion work, including possible full-scale center 
fuel tank explosions in scrapped Boeing 747 aircraft. This 
testing program has so far focused on small scale testing, and 
such full-scale tests have not yet been scheduled.

                        most wanted list closure

    Mr. Wolf. I have so many more questions. We will try to 
move rapidly. On the Most Wanted list, how do you define 
closure? Last week when another witness testified they 
indicated that when the FAA said that a recommendation on 
runway lighting was closed, four years later they checked and 
it was still open.
    How do you define closure and how the FAA define closure on 
something? Is it just because they tell you or because somebody 
from the Safety Board or the FAA goes out and examines it and 
says ``closed,'' we know it is finished.
    Mr. Hall. Well, Mr. Sweedler was the creator of the Most 
Wanted List which I think has worked very well for the Board in 
terms of highlighting safety issues and the procedures that we 
go through every year is at a formal Board meeting. Items are 
presented, new items are presented, and their justification for 
being added to the Most Wanted List, and if any item is removed 
then again justification has to be made for removal of the 
items.
    I know exactly where you are coming from, Mr. Chairman. We 
have to constantly be vigilant that what we say is done. If 
something is taken off, we are confident that somebody is doing 
it. So I guess in Washington you just better keep your eyes 
open.
    Mr. Sweedler. Every recommendation that is made is 
officially made by the Board and before the recommendation is 
closed, either acceptable or unacceptable, the five-member 
Board actually reviews a suggestion from the staff. In other 
words, if we make a recommendation to the FAA, the FAA comes 
back to us in writing explaining what they will do or will not 
do and then the staff very carefully analyzes that response.
    Sometimes there is a lot of--if you read between the lines 
it may sound like they are going to do something but if you 
look very carefully they are really not doing something so the 
same experts that help develop the recommendation analyze what 
the response is.
    If we are satisfied that they have actually implemented and 
made change, then the staff will go back to the Board and 
suggest that we accept this, or in a small number of cases we 
do not accept it. We then go back to the FAA and say, sorry, 
you told us what you were going to do. That is not acceptable, 
please re-examine it, take another look at it.
    But before we close it out, we try to be thorough and 
careful and make sure it was implemented. Now obviously, they 
may tell us that something is done, we have a feeling that it 
is done, but we may check and we find out that something slips 
through the cracks somewhere along the line and it was not 
done. That is very difficult to pick up on, but that does not 
happen in very many cases.

                    recommendation acceptance rates

    Mr. Wolf. Last year, the Board testified that, although the 
Department of Transportation is increasingly implementing the 
Safety Board's recommendations, there are some modal 
administrations that do not do as good of a job as others. The 
Coast Guard, FRA, and RSPA have below average acceptances. Have 
their acceptance rates improved?
    Mr. Sweedler. Yes, sir.
    Mr. Wolf. Who is the best and who is the worst? I do not 
think you can just talk about numbers. It is also the degree of 
the significance of the problem which could be a lifesaving 
problem versus----
    Mr. Sweedler. In the last five years the acceptance rate 
has really been much higher. In fact, if we look at 1995 and 
1996, the rates are all mostly in the high 80s, and in some 
cases an administration has accepted every recommendation that 
we had.
    Mr. Wolf. So you are confident that all the modes are now 
accepting your recommendations?
    Mr. Sweedler. And even the Coast Guard is up in the 80s and 
90s now where they were down in the 70s historically.
    Mr. Hall. Mr. Chairman, unfortunately, a lot of that is 
because there have been a lot of accidents and those accidents 
got the attention of the Administrator of the Federal Railroad 
Administration, Jolene Molitaris, and I applaud her. She has 
moved forward on a lot of issues that we have been recommending 
for some 25 years.
    We had some unfortunate accidents in the marine and 
pipeline area. As the Chairman of the agency, I consider it my 
responsibility to sit down with the modal administrators, and I 
try to do that on a regular basis. I stress with them the 
importance of implementing our recommendations, and so we try 
to constantly stay after them.
    I can honestly say to you that I really believe that each 
one of them has improved considerably in the last several 
years.

               most wanted list of safety recommendations

    Mr. Wolf. For several years, the Safety Board has 
maintained a ``most wanted'' list of safety recommendations. 
What recommendations are currently on the Board's ``most wanted 
list''? For the record, please provide the Committee with a 
copy of this list.
    [The information follows:]

[Page 85--The official Committee record contains additional material here.]


                   most wanted recent recommendations

    Mr. Wolf. How many of these recommendations have been 
placed on the ``most wanted'' list within the past year?
    [The information follows:]

    The issues placed on the list in 1996 were: pilot 
background checks, rail passenger car safety, and highway 
vehicle occupant safety.

                 most wanted progress of dot responses

    Mr. Wolf. On which of these safety recommendations is DOT 
making progress in addressing?
    [The information follows:]

[Page 87--The official Committee record contains additional material here.]


                     recommendation acceptance rate

    Mr. Wolf. Have other DOT modal administrations continued to 
maintain high acceptance rates or have some rates declined 
during the past year?
    [The information follows:]

[Page 89--The official Committee record contains additional material here.]


                acceptance rate by modal administration

    Mr. Wolf. Are any DOT modal administrations below the 80 
percent acceptance rate for urgent recommendations? If so, 
which ones and why do you believe this is occurring?
    [The information follows:]

[Page 91--The official Committee record contains additional material here.]


                 twa flight 800 recommendations issued

    Mr. Wolf. Following the TWA 800 accident, the Board issued 
four recommendations on design and operational changes to 
preclude the potential of an explosive fuel-air mix in the fuel 
tanks.
    Please highlight for the Committee what the recommendations 
were. Why are the airlines and others strongly opposed to the 
recommendations? What is the status of those recommendations? 
Have they been implemented, is it over, have you done it, where 
are they? Is it cost driving it and what efforts is the Safety 
Board making to diffuse any opposition?
    Dr. Loeb. The FAA recently indicated that they need to get 
input from the public before moving further on our 
recommendations as to----
    Mr. Wolf. The public how?
    Mr. Loeb. They are definitely going to do a rulemaking. I 
do not know right now whether it will be an ANPRM versus an 
NPRM, but they are going to do a rulemaking and they said they 
would begin that process in 90 days. They could also just 
solicit comments and they have done that in a Notice of 
Proposed Comments.
    Mr. Wolf. Wouldn't that be faster?
    Mr. Loeb. Yes, I am just not certain how they are going to 
do it, but they said that they would do that within the next 90 
days. The recommendations were, to measures to preclude an 
explosive vapor in the tank, to put temperature gauges, 
temperature measuring equipment, in the center tank, as well as 
other tanks and then to put display indications in the cockpit.
    So before they do any of that, they are going to seek input 
and I suspect that we are looking at a relatively long 
proposition.
    Mr. Wolf. Does that trouble you?
    Mr. Loeb. It troubles me. I think there are a lot of 
economic issues that are in play here, and I think that they 
are probably not going to do anything until they hear both 
sides of it. Now it does trouble me, because as I indicated 
what we are looking for right now in TWA 800 is the source of 
ignition.
    It was not a big bomb, it was not a missile that hit that 
tank and blew it apart, it was something else. But it may have 
been a little charge, it may have been a fragment or what have 
you, and it is our belief that if the tank were inertive and 
did not have an explosive vapor that we may not have seen this 
accident.
    Mr. Wolf. Well, I think this is one the Board ought to be 
pushing on. Okay, we will have some other questions too with 
regard to that.

                      airline fuel tank explosions

    Mr. Wolf. In the past twenty years, how many explosions 
have occurred in airline fuel tanks?
    [The information follows:]

[Page 93--The official Committee record contains additional material here.]


    Mr. Wolf. Were these explosions caused to a mechanical 
problem in the airplane or by an outside force, such as 
lightning?
    [The information follows:]

    Only the May 11, 1990, Philippines Airlines Boeing 737 
accident was confirmed as a mechanical problem that led to the 
center fuel tank explosion. The Iranian Air Force Boeing 747 
and Avianca Boeing 737 explosions were caused by outside 
forces. The ignition source for the center wing tank explosion 
aboard TWA flight 800 remains under investigation.

                 user fees for accident investigations

    Mr. Wolf. Let me just shift gears a little bit to user 
fees. The President's budget is requesting $6 million in new 
user fees that will be deposited into an account for accident 
investigations. These fees will augment NTSB's salaries and 
expenses budget. It is my understanding that these fees will be 
collected by imposing a charge of $0.75 per commercial flight 
hour on the airlines. Should other modes also be responsible 
for paying since NTSB investigates not only airlines but 
railroads and everything else?
    Mr. Hall. I would like to make these comments about that 
user fee, Mr. Chairman. Number one is we did not propose this. 
Number two is OMB never discussed this matter with us. Number 
three, we do not believe this proposal is really a fee for 
service arrangement. It does not make sense to set up a special 
apparatus to collect such a small amount of money.
    We feel absolutely certain that our work benefits every 
American, so we have difficulty in understanding why our 
routine ordinary operating expenses would not be funded through 
general revenue collection. Extraordinary costs of a particular 
accident could be insured by specific carriers, and we have 
proposed this idea and we would still like to pursue that.
    But ordinary costs of salary, equipment, rent and the like 
should be appropriated from general revenues. I do not think 
that safety should become something that is dependent on user 
fees. I think safety is an obligation of government.
    Mr. Wolf. So you are opposed to that?
    Mr. Hall. Yes, sir.
    Mr. Wolf. We have a number of other questions on that line 
that you can answer.
    The NTSB investigates a number of aviation accidents per 
year. Typically, does this include one accident from each 
commercial aviation provider? If not, why should every 
commercial aviation provider pay the user fee when they do not 
receive, on a yearly basis, the benefits of an accident 
investigation?
    [The information follows:]

    We believe that accident investigation is a fundamental 
responsibility of the United States Government. The National 
Transportation Safety Board's annual salaries and expenses 
appropriation should continue to fund this effort.

                          user fees rulemaking

    Mr. Wolf. When does the Safety Board plan to issue a rule 
explaining how these fees will be collected and when they are 
due (i.e. quarterly, once a year)?
    [The information follows:]

    The Safety Board does not have plans to issue a rule 
explaining how these fees will be collected or when they are 
due.

                               user fees

    Mr. Wolf. If the formula generates more than the $6,000,000 
in fees, will the excess be provided to NTSB in future fiscal 
years or if a catastrophic accident occurs, such as TWA 800, 
that is very costly to investigate?
    [The information follows:]

    The Office of Management and Budget has not indicated to 
the Board what would happen if the formula generates more than 
the $6,000,000 in fees, although we would expect that the 
excess would be provided for use by the Board, either in future 
fiscal years or if a catastrophic accident were to occur that 
is very costly to investigate.

    Mr. Wolf. In 1999, the President's budget will be seeking 
full user fee funding for the Federal Aviation Administration. 
Do you believe that, in the future, the President will seek a 
greater portion of NTSB's funding from user fees?
    [The information follows:]

    Given the current proposal, it seems likely that the 
President will seek a greater portion of the Safety Board's 
funding from user fees.

                            railroad safety

    Mr. Wolf. Mr. Packard.
    Mr. Packard. Mr. Chairman, I am sorry but I was kind of 
late and I missed your presentation. I wanted to be here but 
just could not. Last year you testified before us regarding 
rail accidents. We had a rash of them at last year's hearing, 
as I recall. And you have indicated, I believe, in your 
testimony that there has been some improvement there.
    Would you outline some of the things you have done and 
recommended what has brought about this improvement and why you 
feel that there has been an improvement in this area?
    Mr. Hall. Congressman, I had the opportunity to review last 
year's testimony and there was a lot of input and participation 
with you about that last year and I thought we had a lot of 
good items to discuss. Mr. Bob Lauby is with me. He is the head 
of our railroad division.
    I have asked him to personally check all the ongoing 
rulemaking and commitments that have been made by the FRA and 
specifically Jolene Molitaris on things that she was going to 
clean up and do. And I welcome the opportunity for Mr. Lauby to 
kind of review some of those items for you.
    Mr. Lauby. Congressman, certainly last year was a wake-up 
call for the railroad industry and the rail transit industry in 
general. The tragic accidents that we had have a long-term 
effect on the industry. It spurred a lot of activity, not just 
by the Federal Railroad Administration, but other industry 
groups, by the Association of American Railroads who take care 
of the freight railroads and the freight movements throughout 
the country, and also groups like the American Public Transit 
Association who largely represent the different rail transit 
properties that we have in the United States.
    After the Secausus, New Jersey and Silver Spring, Maryland 
accidents, the American Public Transit Association, the FRA 
along with NTSB's participation, has looked at different areas 
that need regulation. Working groups have been put together to 
address things such as crashworthiness of passenger cars, 
crashworthiness of locomotives and cab cars, passenger car 
safety standards.
    We also have an independent group from the APTA, American 
Public Transit Association, who are looking specifically at 
commuter rail operations. There is a lot of work, a lot of 
different rulemakings that are being addressed by this ARSAC 
committee.
    They are making progress in many different areas, but there 
is much left to do. And I think in the coming months we are 
really going to see the fruits of labor of everybody in the 
industry to address these safety problems.
    Mr. Packard. Those were the concerns last year with the FRA 
and their involvement and response. Have those been resolved? 
Do you feel comfortable of the efforts now of the FRA?
    Mr. Hall. I think the FRA is moving in the right direction 
on all fronts. One concern we had last year had to do with two-
way train devices. We now have a final rule published that will 
put two-way end of train devices on all freight trains 
operating over 30 miles per hour, so we have come full circle 
on that particular issue.
    With regard to the other issues that concerned us last 
year, every day we see more work being done to get to a 
position where we will have regulations addressing those also.

                         grade crossing safety

    Mr. Packard. Most of your accidents now, I suspect, are at 
grade crossings and the like. Are we making sufficient 
progress? I know in my part of the country we have emphasized 
the LOSSAN project to improve the grade crossings between Los 
Angeles and San Diego. And we are making general progress and 
this committee has been very generous in helping us to fund 
that project. Are we making progress on the grade crossings 
around the country?
    Mr. Hall. I would like to ask Mr. Lauby and then Dr. 
Ellingstad to discuss this issue. We have an ongoing study on 
passive grade crossings. We made progress but there is still 
alot to do. We were able to get the most common sense thing--an 800 
number at rail crossings. We had several accidents where vehicles were 
stuck and there was no notification. The accident could have been 
prevented.
    Let Dr. Ellingstad tell you a little about passive grade 
crossings, and then Mr. Lauby might want to add a thing or two 
as well.
    Dr. Ellingstad. We are in the process of completing a study 
of passive grade crossings, and in connection with that study 
we will be holding a forum in Jacksonville the first week in 
May to further elaborate some of the issues there. A good bit 
of the attention in terms of grade crossing safety, as you 
know, has been directed toward relatively expensive kinds of 
counter measures making passive grade crossings into active 
grade crossings, for example.
    There are a large number of passive crossings in the 
country. Some of them, are not amenable to that kind of 
approach, so we are examining as close as we can other kinds of 
issues, such as ditch lights, involving cross visual acuity 
issues, sight distances and approaches to these passive 
crossings.
    There are still a number of things that we believe that can 
be done in this area. And, again, those kinds of approaches we 
hope to flush out and to gain more information on during the 
course of this hearing.
    Mr. Hall. The Board did a study on cross visual acuity in 
the 70s. Some of those things adopted back then. Some 
recommendations we make again.

                   grade crossing safety improvements

    Mr. Packard. Have we provided adequate--and I do not only 
mean the federal government but local and county and state 
governments, provided adequate resources for grade crossing 
improvements?
    Mr. Lauby. That is a very complicated subject. There is 
lots of money that has been dedicated to helping the grade 
crossing problem but there are still many things that we can 
do. But everything does not have to cost a lot of money. Just 
as Chairman Hall stated, our recommendations on 1-800 number 
basically say that if you have a crossing that there should be 
posted right on the crossing post a number that you can call to 
report a problem at that crossing, whether it is the gates are 
not coming down or in a passive crossing if you have a truck 
hung up, or another problem where the track is blocked that you 
can easily go and dial a number, get in contact with the 
railroad and stop traffic.
    Now we have had two such accidents. We had one in Sycamore, 
South Carolina, where a truck hung up for probably 30 minutes 
on a crossing. I believe the driver had a cellular phone with 
him, but did not figure out how to inform the railroad of his 
plight.
    Just recently in Jacksonville, Florida, we had another 
situation where we had a truck trying to turn around at a grade 
crossing and got hung up on the crossing. Again the driver had 
a cellular phone. He had not as much time in this case, 
possibly maybe eight minutes, but certainly enough time to make 
a phone call and stop train traffic. In both cases, we had a 
major derailment of an Amtrak train with injuries.
    Mr. Packard. Is your proposal to have the number posted on 
all grade crossings even out in the rural countryside?
    Mr. Lauby. It certainly seems to make sense. Yes, sir.
    Mr. Packard. Interesting. I had a brother and a nephew that 
were killed in a truck-train accident some years ago at a rural 
country road in Idaho and nowadays when we do have cellular 
phones you can guess what might have been a different scenario. 
One last question, if I may, Mr. Chairman, more and more we are 
having to combine different kinds of rail service on our right-
of-ways.
    On the Los Angeles to San Diego rail it is becoming very 
busy because we now have not only the Amtrak which used to be 
the only rail service on that line, now we have Metro Link, we 
have Commuter Rail. We are combining services at different 
levels. We have county services and regional services that are 
overlaid on Amtrak services.
    Is that creating some safety problems and are we handling 
that adequately? Are we seeing an increase of either accidents 
or near accidents because of the overlapping of services of 
different systems on our rail corridors?
    Mr. Lauby. That is certainly an area of concern. We have 
recently had a couple of commuter rail accidents where a 
passenger train has run into another passenger train. Of 
course, I am talking about the New Jersey Transit and the 
Silver Spring accident. But it could just as well have been a 
freight train in the Silver Spring case.
    In looking at these accidents, a more advanced train 
control systems will be needed to prevent collisions. Positive 
train separation systems would certainly be appropriate where 
we have a mix of freight and commuter or passenger traffic, 
especially in high density corridors where we have a lot of 
trains that need to be handled.
    I think that we are going to have to look at technology to 
solve some of these problems. At the very least, we are going 
to have to do very close safety assessments where we have mixed 
traffic to make sure that we are doing all we can to prevent 
other types of problems.
    One that comes to mind is an accident in Solomon, North 
Carolina, where a trailer fall off a passing freight train. 
Amtrak was coming in the other direction and it struck that 
trailer. It killed an assistant engineer on board. He had 
worked with us on five or six different Safety Board accident 
investigations. He was with the Brotherhood of Locomotive 
Engineers and was a person we knew very well.
    He was killed in that accident. There were also some 
serious injuries on that train and a major derailment, so we 
need to look at the collision risk. But we also need to look at 
the risk of other types of lading coming off of freight trains 
that could pose a risk to either commuter rail or passenger 
rail.

                      railroad safety improvements

    Mr. Wolf. Last year, at this time, we had a rash of 
railroad accidents, including the Fox River Grove and MARC 
accidents. Because of these accidents, the Safety Board was 
extremely busy investigating rail safety issues. Over the past 
year, as your accident investigations have concluded, do you 
believe that we have seen an improvement in rail safety 
throughout the United States?

[Page 99--The official Committee record contains additional material here.]


                    railroad safety recommendations

    Mr. Wolf. Last year, the Safety Board testified that DOT 
had been slow to address the Safety Board's recommendations on 
positive train separation, hours of service, and emergency 
escape/evacuation from passenger cars. At the time of that 
hearing, the railroad community had just experienced a number 
of accidents in which the fatalities and injuries may have been 
reduced if FRA had implemented the Safety Board's 
recommendations more expeditiously. Is the Safety Board still 
unsatisfied with FRA's responses to these three specific 
recommendations?
    [The information follows:]

    The Safety Board is cautiously optimistic based on the 
Federal Railroad Administration's (FRA) current regulatory 
program. Important safety recommendations, including the three 
you refer to, are being addressed in one or more of the FRA's 
Railroad Safety Advisory Committees (RSAC). A good example is 
the February 24, 1997, FRA Notice of Proposed Rulemaking (NPRM) 
which addresses passenger train emergency preparedness on both 
intercity and commuter train operations which is part of the 
FRA's development of a passenger safety program. Much remains 
to be accomplished. Multiple RSAC committees are addressing the 
majority of the safety recommendations that have been made to 
the FRA.
    The Safety Board would like to see a faster regulatory 
process and hopes that its patience with the RSAC process will 
be rewarded with acceptable action on most of our open 
recommendations to the FRA. We are looking to the FRA to 
expeditiously complete all of the active collaborative and 
subsequently regulatory activity as soon as possible.

    Mr. Wolf. Are there any rail safety areas that continue to 
concern the Board?
    [The information follows:]

    The Safety Board continues to be concerned about a variety 
of rail safety issues, including positive train separation, 
track safety standards, engineer fatigue, and many others. We 
have addressed these issues in the past and will continue to 
address them in future reports.
    A new safety issue that the Safety Board has begun 
exploring is Corporate Culture and its effect on safety. The 
Washington METRO accident that occurred January 6, 1997, is a 
good example of this issue. The operator of a Red Line train 
was killed when his train overran the Shady Grove platform in a 
snow storm and struck a standing train. Several individuals--
including the operator--could have taken steps to intercede and 
prevent this accident. No one did because they were not 
empowered by the Washington METRO management to be responsible 
for safety.
    The Safety Board will be sponsoring a Symposium on 
Corporate Culture April 24 through April 25, 1997. We hope to 
learn more about this issue and what can be done to establish a 
safety conscience corporate culture in all transportation 
modes.

                         grade crossing safety

    Mr. Wolf. Since last year, only a few rail accidents have 
occurred, and those have mainly been highway grade crossing 
accidents. Does the Board have any ongoing efforts, perhaps 
with the railroad community, to find new ways to reduce grade 
crossing accidents?
    [The information follows:]

    Every year about 4,600 motor vehicles are involved in 
accidents at grade crossings. These accidents kill about 500 
people, and they injure more than 1,800 people annually. 
Although two-thirds of all crossings are passive (have no 
train-activated devices), these crossings have rarely been 
targeted by Federal safety programs and research projects.
    The Safety Board has been concerned about grade crossing 
safety for many years, and we have been working closely with 
Operation Lifesaver to educate the public on this issue. 
Following the tragic grade crossing accident that occurred in 
Fox River Grove, Illinois in October 1995, the Safety Board 
also held several briefings for local officials around the 
country.
    A safety study is currently underway by the Safety Board to 
examine how a reduction in the number of accidents could be 
achieved through low-cost physical improvements at grade 
crossings. As part of this study, the Board will hold a passive 
grade crossing public forum in Jacksonville, Florida on May 8 
and 9, 1997. The forum will focus on:
    passive grade crossing concerns;
    grade crossing safety through education;
    physical characteristics of passive grade crossings;
    communications between railroad and highway officials;
    crossing closures and private/public crossings; and
    responsibility for grade crossing safety.

                         agency five-year plan

    Mr. Packard. Chairman Hall, I thought I was through but let 
me ask you one last question. On my subcommittee that I chair, 
I am asking every agency to move toward a five-year planning 
process, single year budgeting but developing that annual 
budget from a five-year plan and then updating it each year so 
it continues to be a five-year plan.
    I do not know whether that would affect or whether that 
kind of a policy would fit your work on the Safety Board but I 
think that we are moving in the direction of asking virtually 
every agency in government to look toward a long-term planning 
process. Do you do that now and, if not, would this have an 
effect, a positive effect, upon your committee's operation?
    Mr. Hall. Congressman, I would welcome putting a five-year 
plan together. We have a planning process, although it is not 
specifically on that basis. Obviously, because of the way the 
appropriations process works, and our three-year authorization, 
that tends to drive the planning that we do at the Board.
    However, I have directed General Jordan's to look at trying 
to do planning and implement a lot of the innovative things 
that I think need to be done in terms of family-friendly 
workplace, budgeting, and addressing some of the budget 
problems. But a five-year planning process is something we 
would not have any problem with and we would be glad to 
participate.
    Mr. Packard. My counsel would simply be to look at it to 
see if it might have some beneficial effects upon the way you 
operate from year to year and whether it could be a useful 
approach. I know that in my area where I deal with military 
construction and military issues on my subcommittee it is much 
easier to do that and frankly much more important to do that 
than perhaps maybe in some kind of an investigative agency like 
your own.
    But would you just look to see if a five-year planning 
process might give you some benefits that you----
    Mr. Hall. We would certainly be glad to do that. Our 
resources, Congressman, are a little like the fire department. 
It depends on what is going on. But look at the growth in 
transportation. To be honest with you, one of the reasons I 
asked for such a large increase with OMB is that we do not have 
enough people in some of our surface modes to meet the mandate 
that Congress presently has given us. I have tried to ask the 
Congress for specifically those resources that I thought we 
needed.
    Mr. Packard. Well, as other agencies that you deal with go 
on to a five-year planning process, it may help you then to 
really implement a plan of your own that would dovetail in with 
theirs because there may be some relationship. Mr. Chairman, I 
have taken much more time than I intended to. Thank you very 
much.

                           railroad personnel

    Mr. Wolf. Thank you, Mr. Packard. Mr. Packard raises a good 
point about the rail with the merger of CSX and Conrail and 
Norfolk Southern.
    Mr. Hall. Now we would like Mr. Lauby to tell you how many 
investigators he has that we have for rail so you can 
appreciate----
    Mr. Lauby. My entire staff is 21 people, and that includes 
the administrative assistants. And that is in the regions and 
everywhere.
    Mr. Wolf. Of course I would say that if you come to us and 
tell us that you need more in that area, you are probably the 
only agency that we have been pretty much open to working with 
you to make sure, also in the area of the FAA, we have actually 
put more money in these safety areas than they have actually 
asked.
    In fact, sometimes I think it is almost a game. They know 
that we are going to be responsible and so therefore it gives 
them the opportunity to be irresponsible and not ask for 
something knowing that you would have to be crazy not to fund 
it. And it troubles me a little bit because there is a game 
going on.
    The other thing I want to ask you----
    Mr. Hall. Well, Mr. Chairman, we would be glad to go back 
to our original request for 412 people and ask your committee 
to seriously consider that.
    Mr. Wolf. Well, let us talk about it.
    Mr. Hall. Okay.

                    faa administrator vacancy impact

    Mr. Wolf. I have been concerned, and I would like you to be 
candid with me here, that with the vacancy at the FAA for so 
long, is that potentially going to create a problem having no 
Administrator for four months, five months?
    Mr. Hall. Could I mention something, Mr. Chairman, before 
Congressman Packard leaves because, Congressman Packard, you 
and the Chairman have been supporters of our agency over the 
years, and I will respond to the Chairman's question in just a 
second.
    On April 1 there will be a very significant event and that 
will be the 30th anniversary of when the Safety Board was 
created. And we are going to have an open house and some events 
on that day and we would certainly be honored for the Chairman 
and any of the members of the committee that would like to come 
and join us.
    We have invited all the former employees, present and 
former employees of the NTSB and former Board members to be 
there that day. I hope Senator Kay Bailey Hutchinson is going 
to come. She was a former acting chairman of the agency and we 
are on the sixth floor of the Plaza Hotel and so if you have an 
opportunity, we will extend an invitation to all the members of 
the committee to come. But because of your friendship and 
support, I wanted to be sure I extended that invitation before 
you left the room, sir.
    Mr. Packard. Thank you very much. What time is it scheduled 
for?
    Mr. Hall. All day. All day. We will get you a schedule of 
the activities.
    Mr. Wolf. Your comments with regard to the vacancy at the 
FAA of no Administrator. Having Mr. Hinson notified them in 
July, that he left the building in November. Linda Daschle, the 
deputy, left in January. Now we are in to March and I do not 
know how close they are to having an appointment. We also had 
testimony yesterday by the GAO that said they believe it takes 
upward to two to three and even higher years for the 
Administrator to get up to speed. What could the impact be to 
have a vacancy over at an agency for a period of four months or 
more?
    Mr. Hall. Well, I will answer that question specifically. I 
thought the FAA was well served by David Hinson and Linda 
Daschle. I thought they were both outstanding individuals and 
did an excellent job. I applaud Congress for putting a five-
year term in for the Administrator.
    As Chairman of the Safety Board, I have learned it takes a 
year to figure out everything that is going on in any of these 
jobs in Washington, D.C., and mine is certainly small compared 
to the Administrator of the FAA. I do not think it is a 
desirable situation, Mr. Chairman. I do not know what all the 
facts are.
    I know that it is a very difficult job to fill. Considering 
the compensation that an individual gets and the amount of 
abuse the Administrator of the FAA is subject to, it is 
probably difficult to find somebody. There have been a number 
of names discussed and I hope the position will be filled 
promptly.
    But given the fact that there was a change in the Secretary 
of Transportation, as long as the FAA is a part of that 
department and not an independent agency, it probably has been 
desirable that Secretary Slater has an opportunity to have 
input on who on the new Administrator would be.
    Mr. Wolf. There would be a problem at the Safety Board if 
there was an absence of a chairman for that period of time?
    Mr. Hall. Well, the staff probably would not think so.

                          rail transit safety

    Mr. Wolf. We have the Inspector General coming at 1:00 so 
we are going to go right up to the hour. But transit, in the 
past the Safety Board has been seeking to improve the level of 
safety of rail transit operations, however, FTA has told the 
Board that states, not the federal government, are responsible 
for transit safety. With the rash of recent transit accidents 
over the last year, does the Safety Board believe that the 
states are doing an adequate job of overseeing transit safety? 
Do you believe that more needs to be done? We are not talking 
about the rail, but the transit level.
    Mr. Hall. My personal opinion is the FTA should do more 
than they do. All they do is give money out. But given the 
circumstances of last year's accidents, I think a lot of 
progress has been made. I think we have gotten the attention of 
the transit associations, and a lot of progress has been made 
compared to where we were at year ago. Unfortunately it took a 
couple of accidents to drive the changes.

                        washington metro safety

    Mr. Wolf. The Shady Grove station accident, could you 
comment on the WMATA situation?
    Mr. Lauby. I would be happy to comment on Washington Metro. 
Washington Metro has had a complete change in management in the 
past year. We did a very thorough investigation on the Shady 
Grove accident, and found many issues that we felt needed to be 
addressed. We issued several recommendations, and every one of 
those recommendations is being actively acted on by Washington 
Metro.
    The Chairman is scheduled to meet with Mr. White, the 
general manager of Metro, in April. At that time we will 
receive a full report on their actions on all of the 
recommendations, and I fully expect that some of them will be 
closed out at that meeting, so they have responded very well.
    In the past year since we have had these accidents, the 
American Public Transit Association has come to the Safety 
Board and has asked us for our assistance and our participation 
in many of their conferences and events. We were given the 
opportunity to get the safety message out.
    I believe that the public transit industry is looking for 
the FTA to do more and to be more of a resource to them in 
tackling some of the new issues that are coming up such, as 
fatigue. We have seen fatigue in a couple of our accidents and 
there seems to be a need to get that word out.
    My impression is that the transit industry wants the FTA to 
be more active in the safety area and help them out with 
resources that they need to properly address it.

                       shady grove metro accident

    Mr. Wolf. On January 6, 1996, a WMATA subway train on the 
Red Line failed to stop as it entered Shady Grove station near 
Gaithersburg. The train continued beyond the station platform 
and struck a standing train, killing the train operator. Please 
summarize for the Committee what the NTSB determined to be the 
probable cause of this accident.
    [The information follows:]

    The determination of probable cause of the railroad 
accident that occurred January 6, 1996, at the Shady Grove 
station in Gaithersburg, Maryland was:
    The failure of Washington Metropolitan Area Transit 
Authority management and board of directors (1) to fully 
understand and address the design features and 
incompatibilities of the automatic train control system before 
establishing automatic train operation as the standard 
operating mode at all times and in all weather conditions, (2) 
to permit operating department employees, particularly 
Operations Control Center controllers and supervisors, to use 
their own experience, knowledge, and judgment to make decisions 
involving the safety of Metrorail operations, and (3) to 
effectively promulgate and enforce a prohibition against 
placing standby trains at terminal stations on the same track 
as incoming trains. Contributing to the severity of the 
injuries to the train operator was the disproportionate amount 
of crush sustained by the lead cars of the colliding trains.
    Mr. Wolf. In its investigation of the accident, what 
specific safety recommendations did you make to WMATA?
    [The information follows:]

[Pages 106 - 109--The official Committee record contains additional material here.]


                      washington metro management

    Mr. Wolf. Your report was critical of WMATA's management in 
many areas, noting that it failed: (1) to provide continuing 
proficiency training in manual train operations; (2) to 
understand fully the design features of the automated train 
control system; and (3) to base its change in policy on 
intermittent routine manual train with an untested policy of 
full-time automatic train operation. As you know, WMATA has 
experienced a sea-change in its top management since the 
accident. Has the new management at WMATA now resolved these 
problems in your opinion?
    [The information follows:]

[Page 111--The official Committee record contains additional material here.]


                        washington metro safety

    Mr. Wolf. Are you fully satisfied that WMATA has taken the 
appropriate steps to correct both the administrative and 
operating deficiencies the NTSB identified as part of its 
investigation?
    [The information follows:]

    The Board is reviewing WMATA's responses to our 
recommendations. Although indications are favorable that WMATA 
is committed to complying with our recommendations, we are 
analyzing their response and the recommendations have not been 
closed. We are pleased by some of the steps taken by the new 
management team: e.g. implementing a recurrent training 
program, and the safety department now reports directly to the 
General Manager.
    WMATA's new General Manager has shown a very strong 
interest in the recommendations adopted in the Shady Grove 
report. His recent letter to the Safety Board indicates that 
WMATA is committed to implement each safety recommendation.

                       air bag safety rulemaking

    Mr. Wolf. Air bags, very briefly. In order to prevent the 
fatalities that were talked about earlier, NHTSA has issued 
notice of proposed rulemakings that would allow air bags to be 
depowered by up to 35 percent and allow consumers to deactivate 
their bags. What is the Safety Board's opinion on these rules, 
both on depowering and deactivation? Do you believe that 
depowering air bags will prevent deaths of unbelted occupants 
in low and high-speed crashes?
    Mr. Hall. Mr. Chairman, those are all good questions. I 
brought all our modal chiefs and I would like you to meet them 
and have an opportunity to hear from them. Joe Osterman is the 
head of our Highway Division. Elaine Weinstein works for Dr. 
Ellingstad and they are putting together the air bag forum next 
week. I will ask Mr. Osterman if he would respond and then I 
will have some remarks.
    Mr. Osterman. Mr. Chairman, one of the issues that we are 
looking at is depowering. There are a whole host of other 
issues regarding the air bag deployment threshold and putting 
children in the rear seats.
    We are not yet ready to take a position until we complete 
this forum and gather all the information on the best way to 
protect adult passengers and children. Clearly, air bags as a 
supplemental device need to be used in conjunction with 
seatbelts. The seatbelt is the first place to start.
    Mr. Hall. When I worked for the Governor of Tennessee for 
six years, I saw that most of the highway safety initiatives in 
the state of Tennessee were a result of safety programs being 
tied to federal highway dollars, not initiatives of our own 
state unfortunately. I think that has now changed somewhat.
    But the unwillingness to have adequate enforcement of 
seatbelt and child restraint laws by the states probably cost 
more lives and more money than any one thing in the whole 
transportation area in the United States. I try to relate to my 
folks in Tennessee, nobody has any problem if we tell them they 
need to turn their lights on at night, or they have to stop at 
a stop sign, or they have to turn their windshield wipers on 
when it is raining. But somehow we have made this great 
individual freedom thing out of not putting a seatbelt on.
    It is political will that needs to be done at the state 
level to save a number of the 41,000 lives that are lost on our 
highways every year. Air bags were originally going to save 
some 8,000 to 10,000 lives per year. The actual usage now has 
indicated that some 1,600 lives were saved per year by air 
bags. I do not mean to diminish that, but over 50percent of 
those are saved because the individual is not restrained in a seatbelt.
    The most effective thing that can be done for anyone in 
terms of personal safety when they are in an automobile for 
themselves and their children is to be properly restrained. 
That is going to be our emphasis. We are having a hearing so we 
can get all the facts out for the American people in terms of 
everything that is known about air bags.
    We are bringing individuals in from Australia and from the 
European car companies to try to look at exactly where we are 
in terms of air bags, so that we can eliminate this tragic 
situation of children being killed by a safety device that is 
required by government to be put in automobiles.

                       air bag safety depowering

    Mr. Wolf. NHTSA's current proposed rulemaking states that 
``depowering could necessitate foregoing the opportunity to 
save a significant number of unbelted teenagers and adults. 
There could be a reduction of up to 650 unbelted drivers and 
between 86 and 280 unbelted passengers that would otherwise 
have been saved by the air bags.'' These numbers are 
significantly higher than the current losses we are 
experiencing in the United States. Is it your guess that the 
Safety Board and Congress and others will be revisiting this 
issue again in the near-term, once depowered air bags become 
common place in motor vehicles?
    Mr. Hall. I do not know what their final rule is going to 
be, but we have discussed the possibility of an off-on switch 
until the technology was there to know exactly what needed to 
be done. The real crux here is whether you are going to 
continue using an unbelted test or whether you want to go to a 
belted test.
    All of these issues will be discussed next week in great 
detail. We have made some initial recommendations in regard to 
a higher threshold, depowering the air bags and the on-off 
switch until we have a smart bag.
    Mr. Wolf. Has NHTSA missed the date, if you recall at the 
hearing the manufacturer said that if there was not a rule by 
mid-February, if my memory serves me, that they would miss this 
year. Since there are 1 million cars that roll off the assembly 
line every month, have they missed the year?
    Mr. Osterman. Each of the auto manufacturers runs a 
different cycle, but they all roughly begin their tooling up 
operations in the spring. Without a final rule before early 
February the opportunity----
    Mr. Wolf. Early February. It is March.
    Mr. Osterman. Correct. The opportunities have passed for 
the coming model year.
    Mr. Wolf. So they actually missed a year.
    Mr. Osterman. I believe so. I will make sure with the 
automotive--
    Mr. Wolf. That is actually criminal. I mean when you think 
in terms of 12 million cars that are out there rolling around 
because they were not able to do it. And that was the 
indication that the manufacturers gave back in December.
    Mr. Osterman. That is correct. They all roughly begin their 
tooling up operations for the new model year about the same 
time. One other comment I would like to make is that depowering 
air bags is only one of a variety of potential solutions that 
could be implemented to deal with the air bag situation as we 
see it today.
    It is a solution that can be readily implemented, and I 
believe that is why NHTSA today is focusing on that. Many of 
the other solutions are longer term.
    Mr. Wolf. Well, I just think it is due to neglect that the 
rule is not out yet. It is easy to talk in terms of these as 
numbers and statistics but if your mom or your dad or your son 
or your daughter or your young infant is involved in an 
accident, then it is not a statistic, it is a real person.

                       air bags and child safety

    Mr. Wolf. The Safety Board has been very active in the air 
bag issue for the past two years. Does the Safety Board plan to 
stay involved in investigating and reviewing the issues 
surrounding air bags and child safety? If so, please highlight 
what your future plans may include.
    [The information follows:]

[Page 115--The official Committee record contains additional material here.]


                            seat belt usage

    Mr. Wolf. Seat belt usage, we will just ask those questions 
for the record.
    In July, 1995, NTSB recommended state governments enact 
legislation that provides for primary enforcement of mandatory 
safety belt use laws and consider provisions such as adequate 
fine levels and the imposition of driver license penalty 
points. Since issuing these recommendations, has NTSB 
undertaken any efforts in conjunction with state governments 
that do not have primary safety belt use laws? If so, please 
provide details on these efforts.
    [The information follows:]

[Page 117--The official Committee record contains additional material here.]


                        motor vehicle insurance

    Mr. Wolf. In an October 21, 1996, letter to states and U.S. 
territories, NTSB recommended that the states should consider 
setting aside one-tenth of 1 percent from all motor vehicle 
insurance premiums for policies written to establish a highway 
safety fund to be used to educate the public about the 
importance of safety belt usage and placing children in the 
back. Are any states considering this idea?
    [The information follows:]

    No States are actively pursuing the insurance premium set-
aside program. We have received information from Florida and 
North Carolina that they might be interested in looking into 
the concept.

    Mr. Wolf. Did NTSB estimate how much money this would 
generate? If so, how much?
    [The information follows:]

    The Safety Board has estimated that setting aside one-tenth 
of 1% of all motor vehicle insurance premiums for policies 
written would provide $113,500,000 for highway safety 
activities.

                      speed limit and helmet laws

    Mr. Wolf. As you know the National Highway System Act of 
1995 repealed the federal speed limit law and allowed states to 
revisit the motorcycle helmet laws. Have you seen any negative 
changes with regard to either of those, speed limit and helmet?
    Mr. Hall. We have issued only one recommendation on 
motorcycle helmets and that was to NHTSA in 1973. We joined 
with Congressman Mineta in 1994, who was very active in this 
area, to oppose the repeal of state laws.
    Mr. Wolf. Have you seen any increase in deaths?
    Mr. Hall. Not at this time. Not that I am aware of.
    Mr. Wolf. I thought there was.
    Mr. Hall. Mr. Arena is with me. I am not up to speed on 
that.
    Mr. Arena. In some states, Mr. Chairman, there has been an 
increase in fatalities. Certainly there have been some reports 
issued with respect to increased speeds and fatalities, 
especially I believe in Montana. But all the numbers are not 
in, and I think that the dramatic reduction we saw when speed 
limits were lowered and the savings of lives and the reduction 
of critical injuries when the helmet laws were passed, we are 
still waiting for.
    Mr. Wolf. When will you have that, do you think?
    Mr. Arena. I am sorry?
    Mr. Wolf. When will we have enough data to know if----
    Mr. Arena. I am not sure. There are a lot of folks that 
have their eyes on the data, and the Board includes each of 
these issues in the appropriate investigations that we conduct. 
I would be happy to get back to the committee as soon as we 
have information.

                           aviation forecasts

    Mr. Wolf. I am going to move fast because a lot of these I 
would like to get your answers to help me but I would like you 
to elaborate for the record. On aviation safety, last year as 
you know Mr. Hinson gave a number of speeches in which he 
quoted statistics from the Boeing Company that, unless today's 
accident rate is substantially reduced, there will be a major 
airline crash somewhere in the world approximately--he said in 
the world, not in the United States, every week. The recent 
report of the Gore Commission stated ``Boeing projects that 
unless the global accident rate is reduced, by the year 2015 an 
airliner will crash somewhere in the world almost weekly.''
    However, some people have interpreted this to mean we will 
have a crash in the U.S. every week, not somewhere in the 
world. Could you shed some light on how we should interpret 
this statistic, and while this statistic may be useful for 
Boeing to assess its future liabilities, what does it mean for 
us as we look at this and as the FAA looks at it?
    Mr. Hall. I think Boeing's statistics obviously are looking 
at the projected growth in aviation worldwide. The greatest 
growth will be in Asia. We are looking at a 60 percent growth 
here in aviation and about 150 percent growth in the next ten 
years among our regional airlines.
    We will obviously need to get our accident rate lower or we 
will have an increased number of accidents. What we saw last 
year was an anomaly or a beginning of a trend in that area. It 
is too early to say.
    Of course, Mr. Chairman, this is going to take place in all 
modes of transportation. A 7 percent increase on our highways 
is anticipated in the near future. I could mention each area in 
which we are going to see a substantial growth. Transportation 
is 12 percent of our gross national product, so I think what it 
tells us is that we have a safe system in our country, 
certainly in the aviation area.
    Since the Board was created, we have seen a 75 percent 
decrease in the aviation accident rate in the United States. 
Aviation accidents are truly random events. But they are random 
events because federal agencies, the manufacturers, this 
committee and our agency work very hard at safety. If we do not 
keep that continued focus, we will see more loss of lives 
because of the increase frequency in accidents. We need to 
continue to work to bring the accident rate down.

                        foreign aviation safety

    Mr. Wolf. Since just about every country in the world has a 
higher aviation accident rate than we do, isn't it true that 
much of this worldwide disaster in aviation could be avoided if 
other countries implement safety practices and equipment now 
commonly used in the United States?
    [The information follows:]

[Page 120--The official Committee record contains additional material here.]


                           aviation research

    Mr. Wolf. The Gore Commission claims that it is possible to 
reduce our aviation fatal accident rate fivefold within the 
next ten years, and they call for NASA and FAA to conduct a 
joint research program to meet that goal. In your view, is such 
a goal attainable, and if so, what specific research program 
should be given the highest priority (e.g., human factors, 
weather, aging aircraft)?
    [The information follows:]

    Although a precise percentage cannot be placed on the role 
of human factors in aviation accident causation, it certainly 
is involved in a significant percentage of the accidents. Human 
factors encompasses the entire spectrum of aviation, from the 
designer of the airplane and its systems, to the pilot who 
flies it. It involves the mechanics, inspectors, weather 
forecasters, dispatchers, air traffic controllers, airport 
operations and crash/fire/rescue personnel. Corporate culture 
has recently been identified as another important human factor 
in accident causation. In summary, research into a means to 
prevent human error causes or to break the error chain that 
leads to accidents should prove fruitful.

                      aviation safety improvements

    Mr. Wolf. If we could make only two or three major changes 
to our aviation system which would improve safety, what would 
they be, in your opinion?
    [The information follows:]

    One of the most important changes to our aviation system 
would be to require expanded flight data recorder (FDR) 
parameters and installation of expanded parameter FDRs. 
Enhanced FDRs can facilitate more thorough and timely 
identification of accident cause factors so immediate and 
accurate accident prevention measures can be implemented. 
Moreover, the investigation of serious incidents can be greatly 
enhanced by enhanced FDRs for the purpose of accident 
prevention.
    Development and installation of improved automated air 
traffic control separation technology, such as AMASS and Mode C 
intruder software, is essential to prevent ground and air 
collisions in our ever-expanding traffic volume.
    Human factors prevention measures for all aspects of 
aviation, including maintenance and inspection, pilot 
performance, controller performance, etc. would significantly 
improve aviation safety.

                           faa staffing needs

    Mr. Wolf. In the fiscal year 1998 budget, the FAA is 
requesting funds to hire additional controllers, inspectors, 
and airport security staff. It may prove impossible to provide 
enough funds for all of those staff, and Congress may have to 
set priorities. From your recent accident investigations and 
studies, would you say it is more important to hire more air 
traffic controllers, more aviation safety inspectors, or more 
airport security personnel?
    [The information follows:]

    The Safety Board has not evaluated the staffing needs of 
the FAA and is not in a position to recommend a priority for 
hiring of controllers, aviation safety inspectors, or airport 
security personnel. However, the Safety Board has in the past 
identified inadequate management or allocation of the existing 
FAA staff in safety-related positions. We are not able to 
recommend a minimum level of personnel required; however, 
effective management of safety-related personnel is essential. 
For example, the circumstances of the ValuJet DC-9 accident in 
the Everglades and the events following that accident 
illustrate ineffective management of the hazardous materials 
program and the airline safety inspection program.

                  boeing 737 aircraft rudder problems

    Mr. Wolf. We have some questions for the record on the 
rudder problems in the 737 but, golly, you ought to be pushing 
it. As soon as there is a new Administrator you ought to be 
over there the first day and pushing that item because with the 
number of 737's--2,700--that are available, the FAA ought to be 
making sure that the pilots are trained with regard to their 
foot on the rudder. It just seems to me that that is something 
that ought to be done now.
    The Safety Board recommended a number of changes to the 
Boeing 737 rudder, including the installation of a newly 
designed power control unit within two years. However, Boeing 
has not yet completed designing the replacement unit. Does this 
delay concern you?
    [The information follows:]

    The Safety Board believes that it is imperative that the 
Boeing 737 fleet be equipped with a newly designed main rudder 
power control unit (PCU) as soon as possible. The Safety Board 
has adopted safety recommendations to the Federal Aviation 
Administration that the design and installation of the new PCUs 
be accomplished as expeditiously as possible, and that pilots 
be trained to recognize and recover from uncommanded rudder 
deflections. Recent discussions with Boeing representatives 
indicates that the new PCU should be available for 
certification testing in the next few months, and that efforts 
are underway to ensure that the new units can be produced as 
quickly as possible.

    Mr. Wolf. On February 20, 1997, the Board reported that 
rudder problems in the 737 aircraft most likely caused the 
fatal accidents at Colorado Springs and Pittsburgh. To prevent 
additional catastrophes, the Board is urging FAA ``to take 
expeditious action to replace the suspect system and older 
special training for 737 pilots to react appropriately to a 
dangerous rudder anomaly''. Has FAA begun to take these 
actions?
    [The information follows:]

[Page 123--The official Committee record contains additional material here.]


                        human error in aviation

    Mr. Wolf. FAA's research program. For many years the Safety 
Board has pointed out that most aviation accidents are due to 
human factors, not equipment or aircraft problems. And despite 
this committee's strong support and urging, the FAA's fiscal 
year 1998 budget proposes to reduce funding for human factors 
research by about 60 percent.
    What are your thoughts about that? I watched a program last 
night on NBC about pilots. They pointed out how human error is 
the major issue. What are your feelings about human factors and 
their cutting back of that funding?
    Mr. Hall. Mr. Chairman, I have not examined the President's 
budget or the internals of that. Obviously, an emphasis in that 
area is what is needed as we continue to look at the growth of 
technology in the human interface with that technology.
    To give you one example. As a result of Pittsburgh and our 
investigation of the Colorado Springs accident, the aviation 
industry now has a whole new training in the area of human 
factors for the pilots and flight crew called upset training. A 
lot of this training came out of fundamental research that was 
done at NASA and the FAA and other places.
    Mr. Wolf. So generally I have a concern. You would oppose a 
reduction?
    Mr. Hall. And the same for weather research?
    Mr. Wolf. They are cutting that too?
    Mr. Hall. Yes.
    Mr. Wolf. If FAA's budget is cutting it, you would think 
that would be a mistake?
    Mr. Hall. Yes.

                       aviation weather research

    Mr. Wolf. FAA is also proposing deep reductions in aviation 
weather research, a program long supported by the Congress 
because of its contribution to aviation safety. Should we go 
along with this proposed reduction?
    [The information follows:]

    The Safety Board would be greatly concerned if the Federal 
Aviation Administration were to curtail its aviation weather 
research efforts. Weather has been cited frequently as a factor 
in aircraft accidents for many years, and despite many advances 
in collecting, forecasting, and timely reporting of weather 
information, much remains to be done to reduce this pervasive 
threat to aviation safety. Moreover, weather remains the single 
largest source of disruption resulting in costly delays in the 
operation of our nation's air traffic control system.

                     faa's capital acquisition plan

    Mr. Wolf. In FAA's most recent update to its capital 
acquisition plan, the agency announced they will no longer 
provide airport lighting systems or landing aids to airports 
because they are no longer perceived to be safety systems. This 
raises the possibility that airports will forego the use of 
such systems. Would this have a detrimental impact on aviation 
safety? What are your feelings about it?
    Mr. Hall. It would clearly have a detrimental effect on 
aviation safety. I do not know what is proposed as an 
alternative, but clearly that would have a detrimental impact.
    Mr. Wolf. Well, if we just did the human factors which 
would not be good and they are going to reduce that. We just 
did weather research and they are going to reduce that. Now we 
are talking about airport lighting systems or landing aids and 
they are going to reduce funding in these areas as well. It 
does not sound really good to me. I mean it sounds to me that 
these are areas that certainly ought to be maintained or 
perhaps even increased.
    They are planning to terminate development of the 
Integrated Terminal Weather System which is designed to provide 
high-resolution weather graphics to terminal area controllers. 
And we have been told by the FAA that benefits are primarily 
economic and not safety. Do you agree with this? Are they 
economic or are they safety?
    Mr. Hall. That depends on how they intend to handle the 
traffic in IMC conditions, and whether they intend to try to 
close up or keep spacing. You can do an awful lot of things 
without some of these safety enhancements, providing you allow 
the conservatism in the system.
    I suspect we will not see opening up of traffic patterns 
and spacing out further and fewer airplanes. Aviation 
especially is growing. It is not diminishing, so I do not see 
how these things can be accomplished without having some safety 
effect.

                        flight service stations

    Mr. Wolf. Today, the FAA operates a number of flight 
service stations around the country, which provide assistance 
and information to private pilots on weather, flight training, 
and other areas. The FAA plan is that, over the next few years, 
flight services would evolve to where the private pilot is 
considered self reliant. In other words, they plan to close the 
flight service stations and leave the pilots up to their own 
skills. In your opinion, will this have any impact on aviation 
safety?
    Mr. Hall. The approach is to provide a lot of automated 
services. However, we have some concerns that you cannot 
automate everything, and it is difficult when you try replacing 
a human being who is there to provide some information with 
machines that can only do what they are programmed to do so is 
of some concern.

                           runway incursions

    Mr. Wolf. With regard to runway incursions, Mr. Chairman, 
for many years the Safety Board has been advocating and pushing 
a reluctant FAA to develop and field better runway incursion 
equipment, notably the ASDE-3 radars and their associated AMASS 
computer processing system.
    In a February 1995 letter to Mr. Hinson, you wrote that 
``AMASS project should move ahead immediately.'' I notice this 
program has been zeroed in FAA's fiscal year 1998 budget. Do 
you agree that we have all the AMASS systems that we need or 
what are your feelings about that?
    Mr. Hall. No. I was very concerned that the program got 
zeroed, and I think it was a mistake. It certainly is not the 
commitment that we thought we had from the FAA to move forward 
in that area.
    Mr. Wolf. Well, okay. The Administration allowed the 
aviation ticket tax to expire and we lost $2\1/2\ billion. Do 
you realize what we could have done and not one penny was ever 
returned to the consumer. At least you could have argued if 
your family or somebody's family had paid less money but I do 
not believe that anybody--in fact, as I even saw a report that 
the ticket prices went up in some respects and we lost about a 
half a billion dollars.
    And can you imagine with that money--that money is gone.

                             amass systems

    Mr. Wolf. Are you satisfied with FAA's progress in fielding 
the AMASS systems bought to date?
    [The information follows:]

    After repeated delays totaling more than two years in the 
Federal Aviation Administration's (FAA) schedule for 
development of a prototype AMASS, since May 1996 one such 
system has been installed and tested operationally at San 
Francisco International Airport. Under a contract awarded in 
June 1996, Northrop Grumman Norden is installing three AMASS 
full-scale development systems in Detroit (September 1997), St. 
Louis (November 1997), and Atlanta (February 1998). 
Additionally, in January 1997, the FAA awarded a $26 million 
contract to the company to deliver, install and support 20 
production versions of AMASS. The first is scheduled to be 
delivered to Boston Logan Airport in July 1998. The Board is 
concerned that, although the contract includes options to 
procure 16 more AMASS systems, the FAA apparently has not 
reserved funding for these future installations. We believe it 
is essential that the FAA not permit further delays in getting 
these systems in service at our Nation's busiest airports.

    Mr. Wolf. The FAA has been very slow in commissioning these 
new systems. Even though this system takes about 2 years to 
manufacture, FAA data indicates it typically has taken between 
8 and 10 years after the appropriation for the system to be 
delivered to the FAA--and there are further delays after that 
point. Since your 1995 letter, has the FAA been more forceful?
    [The information follows:]

    Yes. As outlined above, it appears that the Federal 
Aviation Administration (FAA) has taken positive steps to move 
ahead in getting the new systems operational. However, we 
believe it is essential that FAA continue to manage this 
program aggressively, in order to avoid any further delays in 
its implementation.

                           asde radar systems

    Mr. Wolf. FAA has been testing a number of low-cost ASDE 
radar systems to determine whether it would be cost-beneficial 
to provide this safety service to more than the 46 airports 
currently scheduled to have the ASDE-3 system. Have you been 
monitoring this evaluation, and if so, what is your opinion of 
the potential of these type of systems?
    [The information follows:]

    Although we are aware that the Federal Aviation 
Administrator (FAA) is considering options for low-cost ASDE 
radar systems, we are not sufficiently knowledgeable about them 
to comment in detail at this time. However, because of the 
susceptibility of airport air traffic control operations to 
human error, we support the installation of some form of ASDE 
radar system as a needed backup to controllers at as many busy 
airports as practical.

              air traffic control standardized phraseology

    Mr. Wolf. According to representatives of the air traffic 
controllers union, there is a need to develop a standardized 
international phraseology for the use of English by pilots and 
controllers. The number of U.S. pilots flying into non-English 
speaking foreign countries is on the increase, going down to 
Honduras, going down to Colombia, going down to Guatemala, 
going down to El Salvador, going into Bucharest, going into 
Slovenia, going into to the Soviet Union--you know, you name 
it.
    They are experiencing an increase in the number of problems 
communicating with foreign air traffic controllers, which 
potentially has some obvious safety implications. For example, 
your report of the American Airlines crash in Cali, Colombia in 
December 1995 noted the following, and I quote: ``The approach 
controller . . . lacked the English language fluency needed to 
probe the flightcrew . . . to learn the extent of the 
difficulties''.
    To what extent is there a need for FAA to become more 
involved in developing standards for more effective use of 
English by foreign controllers and pilots? And if my memory 
serves me, the crash on Long Island the pilot had a difficult 
time communicating their state of emergency.
    Dr. Hall. Worldwide that is probably one of the most 
difficult and emerging problems and Dr. Loeb might want to get 
into more detail on it.
    Dr. Loeb. We did make a recommendation for exactly that 
following the American Airlines accident at Cali. The FAA has 
responded to us, and we are evaluating their response.
    Mr. Wolf. But how long has that been?
    Dr. Loeb. It has been a while.
    Mr. Wolf. But if what you said was accurate regarding the 
Cali, Colombia accident, you did say ``the approach controller 
lacked the English language fluency----
    Dr. Loeb. We were concerned about phraseology. It is one 
thing to be able to use certain words and say things, but if 
something comes back to you slightly differently there may be a 
problem if you do not have that capacity in the English 
language. If there is standard phraseology and trained required 
then you may be able to avoid some of those difficulties.
    Mr. Hall. Mr. Chairman, this is not just a problem in the 
aviation area. Margorie Murtagh, is the head of our marine 
division. We are presently looking at an accident in New 
Orleans and language is one of the issues that we are looking 
at. I do not know if Margorie would want to briefly comment on 
that.

                        marine and communication

    Ms. Murtagh. Yes, sir. In fact, communication for all 
marine accidents has always been an issue for us, in particular 
for the foreign flag cruise vessels.
    Mr. Wolf. They are almost all foreign flag now.
    Ms. Murtagh. That is correct. There are very few U.S. flag 
vessels. In particular, we do most of the investigations of 
foreign flag vessels. This is not a foreign flag cruise vessel, 
it happens to be a foreign flag bulk carrier but it came very 
close to hitting a number of cruise vessels and a casino vessel 
in New Orleans.
    Mr. Wolf. And language was the problem?
    Ms. Murtagh. No, sir, we are not saying that that is the 
problem. We have not determined what the probable cause is. 
However, there were communication----
    Mr. Wolf. I read in the paper that it was a problem, that 
the crew was foreign and as they tried to communicate they 
hollered at them a couple times and nobody seemed to be 
understanding. Is that accurate to that degree?
    Ms. Murtagh. Well, sir, no, we could not say that that was 
the cause.
    Mr. Wolf. I am not saying that it was the cause but there 
was a problem with communication?
    Ms. Murtagh. There were difficulties, I believe, because it 
is a foreign crew and the pilot was English speaking. However, 
the pilot did say he had no difficulties personally 
communicating with the Chinese crew. However, it is an issue we 
will still continue to look at.

                    american airlines/cali, columbia

    Mr. Wolf. Your report on the Cali accident notes that the 
international (ICAO) standards require only that controllers 
who are not native English speakers have sufficient proficiency 
in English to handle routine aeronautical situations. In other 
words, they require the ability to speak the standard phrases 
in ATC operating procedures, but not the basic spoken English 
which is more likely to be used in unusual or critical 
emergency situations. Isn't it even more important that the 
pilot and controller be able to understand each other in 
emergencies? Why are the standards limited in this way?
    [The information follows:]

    Since English is the ``international'' aviation language, 
non-English speaking pilots are required to use English in 
international operations. It is virtually impossible to train 
all pilots operating internationally to be fluent in English. 
Consequently, it is important that standardized phraseology and 
standardized procedures be in place so that pilots and 
controllers are operating with a common baseline. Emergency 
procedures can and should be developed and standardized to a 
certain extent. It is important that there be a standardized 
means to evaluate the actual proficiency level of controllers 
and pilots in the routine, as well as emergency, aeronautical 
situations. There are initiatives at ICAO to address these 
issues as the result of safety recommendations made by the 
Safety Board as the result of the American Airlines accident 
that occurred in Cali, Columbia.

                          pilot recordsharing

    Mr. Wolf. The Safety Board has been a strong supporter of 
providing background data on the training and operational 
performance history of airline pilots. Where does this issue 
stand today and what more remains to be done, and are you 
satisfied with the results?
    Mr. Hall. Mr. Sweedler, did you bring the forms here with 
you for the record?
    Mr. Sweedler. Yes, sir. We can provide the committee with 
copies of the forms that the airlines are now using as required 
by last year's legislation. The forms started to be used on 
February 7, 1997. The airlines are now exchanging information 
on past performance of their employees when they move to other 
airlines. We are very pleased with this.
    As Chairman Hall mentioned, this issue is on our Most 
Wanted List. We made recommendations after four fatal 
accidents, and it took legislation to put this in place. We are 
sorry that it took so long, but we are pleased that we now have 
something to help solve the problem of sharing information.

                          aviation safety data

    Mr. Wolf. What about sharing of aviation safety data with 
the public, do you believe the FAA's recent decision to provide 
additional safety information will help consumers. Is it in a 
form that they will understand? Did the FAA go far enough?
    Mr. Hall. I think I will let Dr. Loeb get into the 
specifics of it. Let me say, Mr. Chairman, that my viewpoint on 
that is the public pays for that information, they pay for the 
inspectors to go out and inspect the airlines. The information 
needs to be handled in a responsible fashion, but clearly the 
information is paid for by the public and should be made 
available to the public.
    Dr. Loeb. I agree. I think it is very important to do it. I 
think they are going to have some bugs that they have to work 
out in the process and it will take them a little while to make 
certain that they are not getting information out there that is 
either misleading or incorrect.
    Mr. Wolf. So you think they went far enough or they did not 
go----
    Dr. Loeb. I think they are. I think what the FAA is doing 
is going to ultimately be very helpful. I just think they have 
some----
    Mr. Wolf. It is on the Internet now.
    Dr. Loeb. It is on the Internet.
    Mr. Wolf. What if you do not have a computer?
    Mr. Hall. Usually the responsible press will be picky 
enough in being sure that anything that is of concern is well 
publicized, but possibly it could be addressed in other 
formats. The important thing is that the first steps have been 
taken, and it is an evolving area and one that will require 
some development. But it is one I hope that by getting it out 
there on the Internet we will not see it turned back, it will 
just continue to develop.
    Mr. Wolf. Do you think they should be more specific, 
particularly in the area of foreign carriers too? When you get 
on a foreign carrier in some countries, you may be getting on a 
carrier that certainly does not have the same safety standards 
that we have in the United States or in many of the western 
European countries.
    For instance, I think if you get on an aircraft in China--I 
was on an airplane from Moscow down to Grozny and Chechnya and 
half the people on the airplane had weapons. It was wild.
    Mr. Hall. It sounds like Alaska.
    Mr. Wolf. Do you think something more should be done to--
because the travel advisories that I see published in the paper 
does not really seem to tell you very much and I just think 
that if you are a mom or dad and your daughter is going off on 
a mission project to China or if your son or daughter has 
joined the Peace Corps or if you are over there visiting 
someone, I think it is helpful to know.
    And I believe that we should be doing more to allow the 
consumer in the United States to know that the airlines or the 
country that they are going on may be potentially dangerous.
    Dr. Loeb. I think anything that they can do that is 
responsible and provides appropriate information would be 
useful. I do not know how much access the FAA has to the intra-
lines within the foreign countries, because if they do not fly 
into the United States then they are not Part 129 and access to 
the information may be difficult for the FAA.
    Mr. Wolf. But I know there for a while they had a notice 
for the embassy personnel in the Soviet Union, the former 
Soviet Union, not to fly and yet if you were visiting your son 
who was in the Peace Corps you would not have known that 
information.
    Dr. Loeb. It is not being made available and it is 
something we can look at and talk to the FAA about.

                         flight crew duty time

    Mr. Wolf. Last year, there was considerable debate over the 
FAA's proposed regulation limiting the duty time of airline 
flight crews. The Air Transport Association insists the new 
rules are not necessary and will cost billions. The FAA 
believes the new regulation is needed. What is the status of 
this rule, and what is your opinion of the need for further 
regulation in this area?
    Dr. Loeb. There was an NPRM from the FAA, but there has 
been no final rule. We made comments on the rulemaking, and one 
of the things that we felt that they did not take into 
consideration is the circadian rhythm issue, the back side of 
the clock, the effect of flying across time zones and more 
importantly the night flying versus day flying.
    But they have not done anything since I believe our 
comments went in in June. We are rapidly approaching a year 
since the NPRM, and they have not done anything as a final 
rule.

                        commuter airline safety

    Mr. Wolf. A couple of the staff is trying to tell me we 
should wrap up but just a couple more questions. Commuter 
airline safety. In November 1994, the Safety Board issued a 
special study on the safety of commuter airlines which made a 
number of recommendations to improve safety.
    Since that time the FAA has issued its one level safety 
rule which was designed to address the issue. Have your major 
recommendations been implemented?
    Mr. Hall. The final implementation of that rule will not be 
completed until the end of this year, but when that is done it 
will satisfactorily meet our recommendations in that specific 
area. We were very pleased to see the accident rate among 
regional airlines in 1996 was actually superior to that of the 
major carriers.

                       monroe, michigan accident

    Mr. Wolf. What is the status of the Comair accident 
investigation in Southeastern Michigan?
    [The information follows:]

    On January 9, 1997, at about 3:50 p.m. Comair flight 3272 
crashed near Monroe, Michigan. On board the airplane were 3 
flightcrew and 26 passengers. The airplane was destroyed and 
all on board were fatally injured.
    The airplane was being operated on a scheduled commuter 
flight under instrument meteorological regulations from 
Cincinnati, Ohio to Detroit, Michigan. Weather at the time of 
the accident was reported to be winds from 040 degrees at 7 
knots, visibility was about \1/2\ mile in light snow, and the 
ceiling was 1,100 feet. There were reports of light to moderate 
icing in the area; however, the flightcrew did not report any 
problems before the airplane went off radar coverage.
    Issues being examined include: pilot performance and Comair 
procedures, weather dissemination, air traffic control 
procedures, and airframe icing. Although there is no estimate 
for completion of this investigation, we expect the public 
docket to be opened on this accident in May.

                             casino vessels

    Mr. Wolf. Is there a concern about gambling on casino 
vessels with regard to safety, particularly those that are 
operating----
    Mr. Hall. Mr. Goelz and Ms. Murtagh may want to respond on 
that.
    Mr. Wolf. Hopefully they were not out on there gambling, 
they were just----
    Mr. Hall. Mr. Goelz has got a strong interest in this area 
and that is why I wanted to ask him to respond.
    Mr. Goelz. Thank you, Mr. Chairman. There has been a 
concern about the safety of casino vessels, but we have not 
seen any significant deaths directly related to cruising 
vessels.
    Mr. Wolf. But that is fairly new though.
    Mr. Goelz. That is right, but it is a concern. Those that 
are cruising are generally cruising on rivers that have 
currents and sometimes have treacherous navigations, the 
Mississippi, the Missouri, and some of the tributaries leading 
into the Mississippi, so it is a concern.
    Mr. Wolf. Do you think they are regulated enough?
    Ms. Murtagh. We are going to take a look at a lot of the 
safety issues for the casino vessel, in particular the one 
accident in New Orleans. The largest number of people who were 
injured were those who were trying to get offthe casino vessel 
because they were concerned that the ship would hit them. Escape from 
casino vessels is certainly something we want to take a look at.
    Again, it is a large number of people. As Mr. Goelz said, 
they are on fast-running rivers. They have done some retrieval 
efforts, search and rescue that the Coast Guard has done in the 
last few years.
    Mr. Wolf. They were not positive either, were they?
    Ms. Murtagh. That is correct, they were not. A very small 
percentage of those people could be saved, in fact.
    Mr. Wolf. That was down in----
    Ms. Murtagh. That was in New Orleans again.
    Mr. Wolf. Whereas if it had been on colder water perhaps it 
would have been more difficult.
    Ms. Murtagh. That is correct.
    Mr. Wolf. I think we ought to look at making them safer. 
While I opposed casino gambling and I have made no secret of 
it, whether I support it or not really is not important. I 
think for the people that are out on there, I would predict 
that if something is not done to increase the safety, I think 
we will have a major accident and then everyone who has been 
promoting this and thinking it is wonderful will say, gee, why 
didn't somebody do something, so I would ask you to look at 
that.

                         fishing vessel safety

    Mr. Wolf. What improvements are needed to make fishing 
vessels more safe? Does the Coast Guard agree these 
improvements are needed?
    [The information follows:]

    Structural fire protection/fire detection and fire 
suppression systems when carrying more than 16 persons should 
be required. The Coast Guard was asked to revise the CFR to 
require the phasing in of such regulations. The Coast Guard and 
the National Fire Protection Association were also asked to 
develop fire safety standards for these vessels. The Coast 
Guard declined to change the regulations but agreed to work 
with the NFPA to develop a fire construction standard.
    Licensing and Vessel Inspection. The Coast Guard submitted 
a package on each of these subjects to Congress after the 
passage of the Commercial Fishing Industry Vessel Safety Act of 
1988; however, no action was taken although the need still 
exists. The Safety Board is currently working on a Fishing 
Vessel Safety Study, and these two subjects are issues being 
studied, in addition to, stability and sea keeping 
characteristics.

                   electronic marine charting systems

    Mr. Wolf. Your annual report says ``A $100,000 electronic 
charting installed on the Exxon Valdez may have saved Exxon 
billions of dollars. An electronic charting system installed on 
the towing vessel Mauvilla may have prevented the September 
1993 Mobile Amtrak derailment that took 47 lives.'' What are 
these systems, and if they are so important for safety, why 
aren't they required?
    [The information follows:]

    We recognize that these systems (GPS with electronic 
charting) were not available at the time of these accidents. 
However, it appears that the work to develop them is fragmented 
and uncoordinated with no clear mechanisms for balancing safety 
and economic objectives.
    As a result of the MAUVILLA accident, the Safety Board 
recommended that the Department of Transportation, Coast Guard, 
and USACE work together to develop a low-cost electronic 
charting navigation devices for inland rivers.
    The Coast Guard has agreed and is testing, developing and 
evaluating systems.

                     coast guard search and rescue

    Mr. Wolf. The Safety Board found a number of deficiencies 
in the Coast Guard's oversight of search and rescue operations 
in the investigation of the capsizing of a motorboat near 
Juneau, Alaska in the summer of 1994. In this case, a Coast 
Guard Auxiliarist responded to the case, with the permission of 
the Coast Guard, and ended up capsizing the distressed vessel 
due to faulty towing procedures, resulting in one fatality. 
Would you summarize this accident, and tell us what the Coast 
Guard could do to prevent similar actions in the future?
    [The information follows:]

[Pages 133 - 134--The official Committee record contains additional material here.]


                     coast guard search and rescue

    Mr. Wolf. The Safety Board's final report says: ``At one 
point, Group Ketchikan, the SAR mission coordinator, briefed 
17th District SAR personnel that a helicopter from Coast Guard 
Air Station Sitka, Alaska, was on the way to the accident site, 
that the FAERING was transporting the Questar's passenger to 
rendezvous with an ambulance, and that Station Juneau's 25-foot 
patrol boat was en route to Auke Bay to pick up a dive team, 
none of which was accurate.''
    Do you know why Coast Guard personnel would make up such an 
elaborate story when none of it was true?
    [The information follows:]

    During the Safety Board's review of communication records, 
investigators found that SAR personnel accepted and passed on 
inaccurate information without question or verification. There 
was no one individual in the SAR communication network that 
verified and assessed the streams of information for quality 
and significance during the Questar response.

                      coast guard auxiliary units

    Mr. Wolf. In this report, the Safety Board expressed 
concern as follows: ``The Coast Guard, responding to downsizing 
pressure, plans to shift more of its small boat operational 
workload from regular Coast Guard units to Auxiliary resources. 
The Safety Board believes that this accident demonstrates a 
need to clearly define limits in the use of Auxiliary resources 
when weather and sea dictate the use of better trained and 
equipped regular Coast Guard units.''
    Have these limits been clearly defined? If so, in what form 
have they been published?
    [The information follows:]

    The Coast Guard has not yet responded to the Safety Board's 
recommendation about setting limits on the use of Coast Guard 
Auxiliary resources based on weather and sea state.

    Mr. Wolf. The Coast Guard is proposing no additional 
funding for Auxiliary support in fiscal year 1998, even though 
the service is counting on the Auxiliary to do more. Do 
accidents such as this one point to the need for more resources 
to ensure the Auxiliary is better trained to perform both their 
existing and their new missions?
    [The information follows:]

    The Coast Guard recently reorganized its functional 
responsibilities, and the Coast Guard Auxiliary now reports 
directly to the Director of Operations rather than the Chief of 
Recreational Boating Safety. The Safety Board hopes that the 
Coast Guard will have the resources to adequately train 
Auxiliary members to meet new and existing operational 
commitments. Since the Auxiliary is a volunteer organization, 
it is difficult to assess their mission capability based solely 
on funding levels.

                       ntsb supplemental request

    Mr. Wolf. The President's budget includes a $20,300,000 
supplemental request for NTSB for fiscal year 1997. This 
funding will allow for the continuing investigation of the TWA 
800 accident. What specifically will this money be used for? 
For the record, please provide a detailed table summarizing 
these needs.
    [The information follows:]

[Page 137--The official Committee record contains additional material here.]


    Mr. Wolf. How much of this funding is required to fulfill 
the FBI's investigation?
    [The information follows:]

    Calverton Facility Costs  $5,625,602.
    The FBI originally contacted the Navy regarding the use of 
the Calverton facility, and the Navy had attempted to negotiate 
a Memorandum of Understanding for its use with the FBI. It is 
our understanding that the FBI backed away from signing an 
agreement when it was learned that doing so could make them 
potentially liable for an undetermined level of environmental 
cleanup costs. Also the FBI has not wanted to discuss moving 
the wreckage to a less expensive facility because they were 
concerned about potential ``evidence'' leaving the jurisdiction 
where the accident occurred.
    Trawling  $5,524,000.
    A primary reason the trawling was expanded beyond the 
original area of 2.5 square miles (estimated to cost 
$1,474,000) was the FBI request that a larger area be covered.
    Fuselage Wreckage Mockup  $896,238.
    The mockup was undertaken primarily because of interest in 
it by the FBI. NTSB investigations traditionally focus on more 
``micro'' evidence such as material stress/fractures, chemical 
residues, and heat evidence, as opposed to the more ``macro'' 
view such as the reconstructed fuselage.

                  fbi contributions for twa flight 800

    Mr. Wolf. Since the FBI and Safety Board are partners in 
this investigation, is the FBI contributing any funds for the 
aircraft mock-up, dredging, or the continued use of the 
Calverton hangar? If not, do you believe the FBI should 
contribute to these costs?
    [The information follows:]

    The FBI contributed $150,000 toward the trawling for TWA 
Flight 800 wreckage. In the latter part of 1996, because of the 
unavailability or uncertainty of other funding sources, the 
Safety Board sought agreement from the FBI to fund from 
appropriate monies the costs of trawling, mockup, and occupancy 
at the Calverton facility. Those items totaled $12,045,840. 
There is no entirely satisfactory method for allocating these 
costs between agencies, but from the standpoint of newly 
appropriated funds, FBI participation in these matters is at 
least as substantial as that of the Safety Board, and a 
contribution is appropriate. It is, however, necessary that all 
funds appropriated, whether as offsets or newly established 
items, be directed to the Safety Board, as contracting for the 
control over on-going projects should not now be divided among 
the agencies.

    Mr. Wolf. Of the $20,300,000 supplemental request, what 
would be an appropriate amount for the FBI to contribute?
    [The information follows:]

    We believe $8,186,801 would be an appropriate amount for 
the FBI to contribute. This would be equivalent to recovery of 
all of the trawling (scallop dredging costs) and half of the 
costs of occupancy at the Calverton facility.

    Mr. Wolf. I appreciate your taking the time and these are 
important issues. We will do a letter on TWA 800. I think it 
would be helpful to have somebody go over and sit down with Mr. 
Salinger because I think the credibility of the United States 
government could be tarnished if this thing continues too much 
longer.
    Secondly, if you have any funding concerns, feel free to 
come up and talk to us privately off the record or on the 
record. I am a little bit concerned on TWA 800 and I get the 
sense from some of the people at your agency that they may 
share that concern, especially on the split jurisdiction of the 
operation. It would seem to me that in the future the Board 
ought to be the lead and then at that time that you believe 
that there may be a criminal activity involved that you would 
then call in the FBI.
    And I have great respect for the FBI. I think some of the 
finest people literally that serve in our government serve in 
the FBI. But I think it is very difficult for two people to 
split the investigation and I think now you have a third, the 
military, which makes it even more difficult.
    If you recall the issue that is going on Desert Storm and 
the chemical issue, the government said no problem, there was 
no problem and do not worry about it, and then as men got 
sicker and sicker and women got sicker and sicker. Now I have 
been reading in the paper some of the data that came out. They 
knew of some of those things and now they are going to try to 
find the records and the records are not available.
    And having served in the military, only as a private, the 
military does a very good job of keeping records and they do an 
outstanding job of defending this country, but when you see the 
records are gone and all that was taking place there, you move 
over into this area. I think it is very important to get to the 
bottom of it.
    And I would urge you, Mr. Hall, that if you think you 
should take the lead or that there should be a change in the 
approaches taken, I would really speak out with the idea. I 
have had the experience of the Safety Board investigating 
incidents like this so I would just urge you to speak out and 
say it is time for us to take the lead or whatever because I 
think it is important for the families, for the traveling 
public, and for everybody else that we find out what happened 
as quickly as possible whereby people are confident when the 
investigation is over.
    But again I appreciate very much you coming and I 
appreciate the good work you people do. The hearing is 
adjourned.


[Pages 140 - 242--The official Committee record contains additional material here.]








 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  1998

                              ----------                              

                                           Tuesday, March 18, 1997.

                    FEDERAL AVIATION ADMINISTRATION

                               WITNESSES

BARRY L. VALENTINE, ACTING ADMINISTRATOR
MONTE R. BELGER, ACTING DEPUTY ADMINISTRATOR
DR. GEORGE DONOHUE, ASSOCIATE ADMINISTRATOR FOR RESEARCH AND 
    ACQUISITIONS
GUY GARDNER, ASSOCIATE ADMINISTRATOR FOR REGULATION AND CERTIFICATION
IRISH FLYNN, ASSOCIATE ADMINISTRATOR FOR CIVIL AVIATION SECURITY
SUSAN KURLAND, ASSOCIATE ADMINISTRATOR FOR AIRPORTS
EDWIN VERBERG, ASSOCIATE ADMINISTRATOR FOR ADMINISTRATION
LOUISE MAILLETT, ASSISTANT ADMINISTRATOR FOR POLICY, PLANNING, AND 
    INTERNATIONAL AVIATION (ACTING)
BRADLEY MIMS, ASSISTANT ADMINISTRATOR FOR GOVERNMENT AND INDUSTRY 
    AFFAIRS

                            Opening Remarks

    Mr. Wolf. Good morning. Welcome to the hearing. What I 
thought we would do is go until about one o'clock and then take 
a recess so you can have some lunch or something to eat, then 
we will start up about 1:45 or two o'clock, somewhere in that 
range.
    Welcome to the Committee. I would like to just make a 
comment that I think it is important that the administration 
appoint an FAA administrator soon. I have written four letters 
to the administration beginning last year, since Mr. Hinson 
notified the administration that he was leaving in July of last 
year. You have had July and August and September and October 
and November and December and January and February, and now we 
are into March. Because I do think it is important, and I hope 
you will take the word back. I think everyone would agree that 
it is important that there be a permanent administrator on 
board as quickly as possible. With that, I will recognize Mr. 
Sabo.
    Mr. Sabo. Welcome. I look forward to your testimony.

                          FAA Opening Remarks

    Mr. Valentine. Good morning, Mr. Chairman, and members of 
the subcommittee. I welcome the opportunity to appear before 
you today on the Federal Aviation Administration's budget 
request of $8.46 billion for fiscal year 1998. I want to take 
this opportunity to thank you and the other members of the 
subcommittee for your continued interest in and support of the 
FAA and its programs. With me today is Monte Belger, who is the 
Acting Deputy Administrator. And in the front row behind me are 
the Associate Administrators of the FAA who are available to 
answer any questions today as well.
    Before I address our fiscal year 1998 request, I would like 
to say that with the support of the subcommittee, the FAA made 
great progress over the past year in a number of areas vital to 
our ever-growing air transportation system. To put our new 
achievements in context, let me first mention our ongoing 
achievements.

                            1996 Operations

    In fiscal year 1996, en route controllers handled 40.3 
million operations under Instrument Flight Rules, 300,000 more 
than the previous year. Overall, on an average day, controllers 
handled three aircraft operations per second, moving 1.6 
million commercial air travelers.
    Last year, FAA flight service specialists processed an 
estimated 12 million flight plans, supplied more than 8 million 
briefings for general aviation pilots, and contacted 3.8 
million aircraft. During fiscal year 1996, equipment service 
availability continued at a consistently high 99.84 percent.

                    Personnel and Acquisition Reform

    Let me now talk about our recent advances. I am pleased to 
report that under our new personnel system in place since April 
1, 1996, the average time for outside hiring has been reduced 
from seven months to about six weeks. The goal for the new 
acquisition management system is to cut acquisition time in 
half and reduce costs by 20 percent for new acquisitions.
    With the use of the acquisition management system, we were 
able to issue in just five days a letter contract for the 
continued development of the Wide Area Augmentation System used 
to enhance the basic signals from GPS, and were also able to 
award a $1 billion contract for the Standard Terminal 
Automation Replacement System or STARS in just six months 
without a protest.
    These results, from the use of our new systems, are in 
accord with the recommendations of the White House Commission 
on Aviation Safety and Security, which was led by Vice 
President Gore. We are ready to work with the White House, the 
Congress, and the aviation community to see that these 
recommendations are implemented as quickly as possible.

                     Introduction of New Technology

    As the Congress stated in the Federal Aviation 
Reauthorization Act of 1996, the Federal Aviation 
Administration is a unique agency, being one of the few 
nondefense government agencies that operates 24 hours a day, 
365 days a year. With the help of Congress and of this 
subcommittee in particular, we have made significant advances 
towards continued introduction of new technology this pastyear. 
I am pleased to report that the final Voice Switching and Control 
System arrived at the Jacksonville, Florida, Air Route Traffic Control 
Center in June, finishing the site deliveries of this high technology 
communications equipment that greatly improves the clarity and speed of 
communications between controllers and pilots. In all, over 5,600 
pieces of new equipment were delivered in fiscal year 1996 and some 
2,400 were commissioned, including 620 major systems.
    We continue to be ahead of schedule and below budget on the 
Display Channel Complex Replacement (DCCR), that is DCCR, 
system, which is replacing critical aging and failing equipment 
located at five en route centers in the country. We 
commissioned the new DCCR at the Chicago Center in February, 
and DCCR has been delivered to the four other centers.
    We, in partnership with the aviation community, are 
developing new air traffic management concepts which will allow 
pilots, under certain circumstances, to choose their own route 
of flight. The National Route Program (NRP), for instance, 
offers flexible, cost-effective routing options to pilots 
operating at and above 29,000 feet. Average participation in 
January of this year was over 1,200 NRP flights per day, which 
represents a 300 percent increase in just two years. Also, in 
April of last year, a joint FAA-industrywide task force was 
formed to develop implementation strategies and an action plan 
to phase in Free Flight by the year 2012.

                            Airport Revenue

    Now, let me turn to financial matters. Aviation is a 
growing industry, and we must ensure that the monies dedicated 
to this industry are spent wisely. The FAA is charged with 
ensuring that all revenues generated by a Federally assisted 
airport be used for capital and operating costs of the airport.
    In response to the 1994 Reauthorization Act provisions and 
as a result of the Inspector General's audits of selected 
airports, and our internal reviews and discussions with airport 
operators and sponsors, last year we issued a notice proposing 
a comprehensive policy statement on the use of airport revenue 
in compliance with the Federal requirements. We recently issued 
a supplemental policy notice seeking public comment on several 
specific controversial issues, and are reviewing the public 
comments on this notice. We will be issuing a comprehensive 
final policy statement on revenue diversion after consideration 
of these comments. We are also working on policies and 
procedures to implement the new pilot program for privatization 
of public commercial airports.

                 National Performance Review Objectives

     At the FAA, we are carefully managing our resources. At 
the close of the fiscal year 1996, the FAA had made substantial 
progress in meeting its National Performance Review objectives, 
including eliminating over 50,000 pages of internal directives, 
which is a 49 percent reduction, eliminating seven obsolete or 
outdated regulations and simplifying 68 others. We also reduced 
our full time equivalent employment by 11.7 percent from its 
baseline. These reductions were achieved, without adverse 
impacts on safety, through buyouts, retirements, and attrition.

               National Civil Aviation Review Commission

    Over the past year, the FAA has continued to evolve into a 
more businesslike operation, replacing old-line bureaucracy 
with common sense, replacing ``How has it been done in the 
past?'' with ``What is the right thing to do, and the right way 
to do it now?''
    Last year's Reauthorization Act established a National 
Civil Aviation Review Commission to assess FAA financial needs 
and to develop funding options to provide for the long-term, 
efficient, cost-effective support of the FAA and the aviation 
system. An initial independent assessment of FAA financial 
needs, to include airport capital needs and to evaluate the 
cost users impose on the FAA, has recently been received and is 
under review.

                         Cost Accounting System

    We are also developing a cost accounting system which will 
permit the allocation of costs to users and meet the mandates 
of recent legislation, including the establishment of 
performance metrics and the establishment of linkages between 
budgets and performance objectives, including cost containment, 
which is required by the Government Performance and Results Act 
(GPRA). We plan to implement this baseline cost accounting 
system by the end of 1997.

                               User Fees

    The fiscal year 1998 budget includes a total of $400 
million in aviation user fees, $100 million for overflight 
fees, and $300 million from new user fees. The FAA has been 
working on a fair and reasonable implementation of the 
authority to collect overflight fees granted to us last year. 
And, incidentally, the overflight fee rule went on display at 
the Federal Register yesterday.
    We are planning to institute a comprehensive set of fees, 
and as you have previously asked, we are prepared to discuss 
our proposal to collect $300 million in new user fees for 
fiscal year 1998. This approach is a reasonable and proactive 
step towards ensuring a reliable revenue stream that can grow 
as the demands for the FAA's services grow.

                        Fiscal Year 1998 Request

    For fiscal year 1998, we are requesting $5.386 billion for 
FAA Operations. This would fund growth in our safety 
workforce--controllers and inspectors--fund the operation and 
support of new systems coming on-line, and ensure adequate 
training of FAA safety personnel.
    The budget request before you reflects an increase of 500 
controllers, 326 flight standards and certification personnel, 
25 field maintenance technicians, and 173 security staff. We 
have increased our safety workforce each year since fiscal year 
1995, and by the end of fiscal year 1998, the safety workforce 
will have grown by almost 2,300.
    We are requesting $1.875 billion for Facilities and 
Equipment. This funding will support major systems such as the 
automation programs in terminals and en route centers, as well 
as next generation weather radar and satellite navigation. This 
will further our goal to replace antiquated and obsolete 
equipment.
    Our request of $200 million for Research, Engineering, and 
Development concentrates on increased initiatives in security 
and aircraft safety technologies, as well as satellite 
navigation, aging aircraft, and human factors research.
    Our fiscal year 1998 budget assumes an obligation 
limitation of $1 billion for airport improvement projects to 
enhance capacity, improve safety and security, and mitigate 
noise. This is a reduction of $460 million from last year and 
was not an easy decision to make. However, large airports can 
obtain funding from many sources for their capital financing, 
including landing fees, concession revenue, and passenger 
facility charges. We are looking at ways to mitigate the impact 
on smaller airports, which are much more dependent on Federal 
aid.
    We are in an era of tough choices, as we as a government 
move towards a balanced budget, and yet at the same time 
prepare to meet the myriad challenges of the 21st century. I, 
the executives sitting with me, and the thousands ofdedicated 
employees of the Federal Aviation Administration rise to the challenge 
of making and implementing these tough choices.
    In closing, Mr. Chairman, we would like to thank you and 
the members of this subcommittee for the support you have 
provided for and to the FAA, and to assure you of our 
willingness to work closely with you. That completes my 
prepared statement, and we would be happy to answer any 
questions you may have. Thank you.
    [The prepared statement and biography of Barry Valentine 
and biographies of FAA senior staff follow:]

[Pages 248 - 268--The official Committee record contains additional material here.]


    Mr. Wolf. Thank you very much, Mr. Valentine. Mr. Belger, 
do you have a statement?
    Mr. Belger. No, sir.

                 user-fee proposal--faa response to ost

    Mr. Wolf. With regard to the user fees, Mr. Valentine, the 
President's budget proposes collection of $300 million in new 
user fees in fiscal year 1998 and $8.7 billion--enough to fund 
the entire agency--in fiscal year 1999. According to a report 
in Aviation Daily, this rapid implementation of fees was OMB's 
idea, not the FAA's. They report that Acting Administrator 
Linda Daschle advised the Secretary in a December 2, 1996, 
internal memorandum that the user fees proposed by OMB for 
fiscal year 1998 were ``unrealistic, given strong bipartisan 
congressional opposition.'' She is also reported to have 
written that the user fee proposal ``prejudges the work of the 
Department of Transportation Secretary and of the National 
Civil Aviation Review Commission.'' Are these reports accurate?
    Mr. Valentine. We believe that in an ideal world we would 
like to wait for the results of the process to be undertaken by 
the National Civil Aviation Review Commission to determine, 
first of all, how best to fund the FAA and if that includes 
fees, what the appropriate fee structure might be.
    In the meantime, however, we are looking at a need to 
generate $300 million in fees in fiscal year 1998, in addition 
to the $100 million to be generated from the overflight fee 
rule, which, as I mentioned, was put on display yesterday. And 
we think that we have identified some fee sources that would at 
least meet the immediate need for the $300 million in 1998 
while awaiting the results of the NCARC in terms of how to 
really address on a long-term basis FAA funding.
    Mr. Wolf. Did the letter from the FAA's highest official 
also state that OMB's fiscal year 1998 user fee proposal 
``would place the agency in a very precarious situation with 
sharp cuts and an unpredictable financing scheme''?
    Mr. Valentine. That is what the letter stated. That is 
correct, sir. And we think that with the fee structure we are 
proposing that we can address that issue for 1998.
    Mr. Wolf. But that is what the letter said?
    Mr. Valentine. That is what the letter said. That is 
correct.

                     effect of user fees on budget

    Mr. Wolf. The President's budget includes a cut of one-
third in the AIP program, cuts in the modernization program, 
cuts in research, and makes $300 million in operating funds 
dependent on approval by legislative committees and subsequent 
collection of user fees, which have not been defined. Shouldn't 
we consider this a budget which ``would place the agency in a 
very precarious situation with sharp cuts and an unpredictable 
financing scheme''?
    Mr. Valentine. Mr. Chairman, I think, as everyone knows 
here, we are all trying to--well, Congress and the 
Administration--achieve the goal of a balanced budget in the 
beginning of the next decade, which is the beginning of the 
next millennium. And in order to achieve that, all agencies of 
government are looking at their budget and making tough choices 
and decisions about how best to continue to provide services 
while at the same time achieving the balanced budget goal. We 
at FAA and the Department are trying to do our share in that 
effort. We think that we are proposing a budget that allows us 
to continue to meet our safety obligations and provide services 
to the aviation community while at the same time making our 
commitment toward fiscal responsibility and achieving a 
balanced budget.

                            overflight fees

    Mr. Wolf. You lost five months in the overflight fee 
collections?
    Mr. Valentine. That is correct for this year we have.

                 user fee proposal--ost response to omb

    Mr. Wolf. And that was only for $100 million. Now two days 
after the Daschle letter, Secretary Pena wrote OMB that he 
wholeheartedly supported the user fee approach. In fact, he 
pushed OMB to be even more aggressive by implementing 100 
percent user fee financing by the middle of fiscal year 1998. 
Is it fair to conclude that the fiscal year 1998 user 
feeproposal before us had more support from the previous Secretary of 
Transportation than it did from the FAA?
    Mr. Valentine. The proposal that is being put forward, 
which we would be happy to discuss here this morning with you, 
is a proposal that has not been heretofore seen in public. But 
as I go into the details of it this morning, people here will 
be learning about its particulars for the first time. We 
welcome comments and input from all parties as to their 
thoughts on this particular approach to achieving the $300 
million.
    Mr. Wolf. For the record, would you provide a copy of 
Acting Administrator Daschle's December 2, 1996, letter 
regarding FAA's fiscal year 1998 budget and also the 
Secretary's letter to OMB?
    Mr. Valentine. Yes, sir.
    [The information follows:]

[Pages 271 - 279--The official Committee record contains additional material here.]


                         alternative user fees

    Mr. Wolf. Well, rather than establish one set of fees this 
October for fiscal year 1998 and then a different and much 
larger fee schedule a year later, one possibility for the FAA 
would be to wait until next summer, then propose one fee 
schedule to fund the entire agency, but begin collecting a few 
weeks early to collect the $400 million needed for fiscal year 
1998. Is that under active consideration?
    Mr. Valentine. That is one of several approaches that have 
been considered, but the approach that we are recommending here 
this morning is for three smaller fees for fiscal year 1998 and 
then to wait for the recommendations of the National Civil 
Aviation Review Commission for fiscal funding for the fee 
structure for 1999.

                user fees--current legislative authority

    Mr. Wolf. The User Fee Statute provides broad and general 
authority for federal agencies to impose user fees. Do you 
believe the FAA has the legal authority to impose new user fees 
in fiscal year 1998 without specific legislative authorization 
from Congress?
    Mr. Valentine. As I understand it, there has been some 
debate about whether we do or do not, but I think that we will 
most likely be approaching Congress for authorization for these 
fees.
    [Additional information follows:]

    The User Fee Statute (31 U.S.C. 9701) permits a Federal 
agency to establish new user fees, although there are 
significant limitations associated with the fees that may be 
imposed under that statute. (See, for example, OMB Circular A-
25.) Thus, the FAA will need additional legislation to 
authorize the imposition of new user fees.
    Mr. Wolf. And will there be enough time?
    Mr. Valentine. Time is going to be very critical in this 
effort in order to have them in place in sufficient time to 
collect the money. So it is going to be incumbent on everybody 
to work as quickly as possible to have all of this in place.
    Mr. Wolf. Well, the $100 million took five months, and you 
lost the time. And I think you are running out of time. Let me 
defer now to Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman. As it relates to the 
authority you need to have user fees in place for the new 
fiscal year, is there an assumption that the authorization for 
them might be included in this appropriation bill to make sure 
they are in place?
    Mr. Valentine. Yes, there is.
    Mr. Sabo. And I assume we will have a list of what these 
are at some point today?
    Mr. Valentine. Yes. I am prepared to discuss this morning 
what they are in general. Yes.

                 planning process--controller training

    Mr. Sabo. I have many questions about the controller work 
force over the next several years as many of them become 
eligible for retirement. And I have specific concerns about 
adequate training. But rather than talk about numbers of 
controllers and the relative number of controllers versus 
supervisors, what is the FAA's planning and analysis process to 
address the long term personnel needs and the training 
requirements for air traffic control?
    Mr. Valentine. Congressman Sabo, let me ask Monte Belger if 
he would address that particular question. That is his area of 
expertise.
    Mr. Belger. I think there are three factors that we should 
all consider in making decisions about future hiring for air 
traffic controllers. One is the predictions that have 
consistently been made about the increase in air traffic and 
the increase in operations between now and the next 15--20 
years. Two, I think the second factor we need to consider is 
that between now and the year 2005 or 6. The FAA is going to be 
delivering an unprecedented number of new systems and an 
unprecedented amount of new technology that is going to require 
training, require familiarization, and in the short term will 
probably require more people in order to conduct that training 
and familiarization and keep the system running. The third 
factor that I think we need to consider is that shortly after 
the year 2002, we will see an increase in attrition retirements 
by virtue of the fact that those folks who were hired in 1982, 
'83, '84 will be coming up against their 20 year retirement 
eligibility. And I think it is just logical that we will see an 
increase in retirements.
    So primarily for those three reasons, that is why we asked 
for an increase in the number of controllers, both this year 
and in fiscal year 1998. Our plans, as we have spoken to them 
consistently over the last year, would be to continue to 
increase the controller workforce up until about the year 2000 
at least in order to be better prepared for these three factors 
that I said--the new equipment and the training associated with 
that, retirements, and increase in traffic.
    Mr. Sabo. That answer doesn't get to the heart of what I am 
concerned about. What is the internal FAA planning and analysis 
process to reach those conclusions, and how do you evaluate 
training needs when there are a variety of options available.
    For instance, I understand that there is one recommendation 
that all traffic controllers should be trained at Oklahoma City 
in the future. I am not sure I agree with that, but how do we 
come to these conclusions? What internal planning process does 
FAA have?
    Mr. Belger. We do have a process, and we have some pretty 
knowledgeable folks who look at our training and hiring needs 
for the future. Part of our decisions for the future will, 
obviously, be based on history and our historical success in 
hiring air traffic controllers from a variety of different 
sources.
    We know that we have been relatively successful when we 
have had the money to hire in hiring college training 
initiative graduates. We know that there is a relatively small 
pool of graduates available both this year and will be 
available in 1998, and we intend to hire those people.
    So we know that is an option, and we know it has been a 
successful option. And we will continue to hire from that pool. 
In fact, we would like to increase the number of schools that 
are participating in that program. We know in the short term 
that we have a pool of folks to hire from who were fired back 
in the early 1980's, and we will continue to look to that pool.
    We know that we have well-qualified and adequately trained 
military controllers who will be leaving the military, and we 
will look to that source to hire also. In fact, those are the 
three basic sources that we will be hiring from this year.
    So I think, in short, the answer to your question is the 
FAA does a pretty good job of predicting future operations and 
future activity. We know that is going to increase. We know our 
attrition is going to increase. We know our overtime and 
training is going to increase. I mean, we are doing I think the 
analytical work to be prepared for that.

                  ratio of supervisors to controllers

    Mr. Sabo. We hear regularly that the number of controllers 
has gone down, and the number of supervisors has gone up. Does 
your study and evaluation examine the appropriate relationship 
between people who are working full time as controllers versus 
the numbers who are supervising either full time--or do I 
understand that some do a minimal amount of actual air traffic 
controlling at the same time that they are supervisors?
    Mr. Belger. Yes, sir, it is. Part of the reason for this 
type of discussion has to do with the fact that for several 
years based upon some historical agreements with the Congress, 
we have reported on a controller workforce number. That number 
includes air traffic controllers who are the front-line folks 
keeping the system going. It also includes first level 
supervisors, and it includes traffic management coordinators. 
These are people who are not doing the front-line hands-on 
control work but are helping in monitoring the flow of air 
traffic throughout the country. So air traffic controllers are 
a part of that larger number; obviously, the biggest part. 
Today, for example, our controller workforce goal for fiscal 
year 1997, our current year, is 17,300. Our goal for the 
controllers--air traffic controllers--our front-line folks 
doing the work--is 14,560.
    To answer your question specifically, having given that 
background, if you look in our budget, number 1, every year we 
predict a goal for controllers, for first level supervisors, 
and for traffic management coordinators--those three categories 
that make up that larger number. So it is clear what our goal 
is for 1998. For example, our goal for 1998 for controllers is 
15,060, an increase of 500. Everybody we hire in 1998 is going 
to go into the controller ranks. That is point number 1.
    Point number 2, if you compare fiscal year 1992 to today, 
for example, where we really got serious about downsizing and 
complying with the governmentwide emphasis to reduce our 
staffing, the number of supervisors has decreased 
significantly. The number of people in our regional 
headquarters has decreased significantly. The controller ranks 
have decreased about five percent during that same time period. 
There has been a much higher decrease in supervisors and 
regional office headquarters folks during that time period.
    Mr. Sabo. Thank you, Mr. Chairman.

                          user fees--new types

    Mr. Wolf. Before I recognize Mr. Packard, why not--and I 
think it would be a help to the whole committee--explain the 
user fees so we know, because members may want to ask questions 
about them. And afterward, Mr. Packard.
    Mr. Valentine. Okay. Mr. Chairman, in addition to the 
overflight fee that will go into effect in about 60 days, weare 
proposing three other fees to raise the $300 million in fiscal year 
1998. One of those is a fee on general aviation turbine aircraft for 
the purpose of capturing the cost of air traffic services provided to 
that segment of the aviation fleet. The second is a fee on 
international cargo operations. We currently collect a fee--a waybill 
fee on domestic cargo operations. We do not currently charge any fee on 
international cargo operations. And the third one is a fee for security 
services in recognition of the fact that we are making significant 
investments in security at airports. We believe that the public is 
willing to pay for those increased levels of security. So those are the 
three areas we are looking at.
    Mr. Wolf. 100, 100, and 100?
    Mr. Valentine. Not necessarily. That is as yet to be 
determined as to what the appropriate ratio would be among the 
three of those, but the numbers we have run show that 
collectively from those three sources we can raise $300 
million.
    Mr. Wolf. Mr. Packard.

                  wide area augmentation system (waas)

    Mr. Packard. Thank you, Mr. Chairman. Mr. Valentine, last 
May the FAA switched prime contractors on the Wide Area 
Augmentation System, WAAS. How would you characterize the 
performance of the new prime contractor?
    Mr. Valentine. I would characterize it as excellent.
    Mr. Packard. It has gone well.
    Mr. Valentine. It is going very well.
    Mr. Packard. This subcommittee has been told that one of 
the justifications for the WAAS program is that it will allow 
FAA to begin decommissioning groundbased navigational aids. 
What would be the effect to the FAA and user benefits if WAAS 
was not fully funded or the system was delayed a year?
    Mr. Valentine. To the extent that the system is delayed for 
any reason, the decommissioning over time of groundbased 
systems would be delayed commensurately. For example, if WAAS 
never happened, we would still continue to be using groundbased 
systems. And as WAAS goes into effect over time, we will be 
able to decommission various ground-based systems, but the rate 
at which we do that will be predicated on the rate at which the 
WAAS system is in place.
    Mr. Packard. Will that affect flight safety, do you 
believe? What effect is WAAS having on flight safety especially 
in terms of precision approach capability?
    Mr. Valentine. We believe WAAS will greatly enhance flight 
safety because it will provide the opportunity for precision 
approaches to literally every end of every runway in the 
system.
    Mr. Packard. And what is your goal in terms of WAAS to have 
it implemented and how widespread will it be?
    Mr. Valentine. Throughout all of the United States and the 
way the system is constructed, it can overlap easily into 
Canada and Mexico particularly with their participation in the 
program as well. So ultimately you would be looking at probably 
an entire North American system of WAAS.
    Mr. Packard. Do you have a time line?
    Mr. Valentine. Within the next several years as it is 
phased in, we hope to have it in place. In fact, it was 
encouraged in the Gore Commission report that we have this 
system accelerated and in place by the year 2007--excuse me, 
2005.
    Mr. Packard. And does your budget request in this year's 
budget--in the 1998 budget--fiscal budget year--does it 
parallel with that goal?
    Mr. Valentine. Yes, it does.

              automated surface observation system (asos)

    Mr. Packard. This subcommittee has been very interested in 
the status and implementation of the automated surface 
observing system, ASOS, program. This year the Administration 
requests more than $14 million to continue buying and 
installing ASOS. Yet, we have received no assurance from the 
FAA that the problems of the agency in commissioning the new 
ASOS sites have been resolved. Would you give us an update on 
those problems and how we are proceeding?
    Mr. Valentine. I will ask Mr. Belger if he will answer 
that.
    Mr. Belger. Yes, sir. ASOS has been a somewhat frustrating 
program because on the one hand for those airports that don't 
have or have not had in the past this type of capability, it is 
a welcome addition. We can't commission them fast enough at 
those airports. At other airports where our plan had been to 
remove the human weather observer when ASOS was commissioned, 
we have not been very successful. Quite frankly, the users are 
not convinced that ASOS is adequate to replace the human 
observers.
    We know what we need to do to commission the systems. It is 
a question of having the money to provide the communication 
links particularly to commission them. And we are well on the 
way to do that. We are commissioning at a rapid rate this year. 
I think the bigger question is one of whether or not we will be 
successful in working with the industry to reach the point 
where ASOS is adequate as a stand-alone system without the 
contract weather observer. That is the real issue I believe.
    If I could just add one more thing to my answer, last year 
in an effort to try to reach agreement with the industry on 
standards that we could rely upon to allow the withdrawal of 
the contract weather observer, one of the things we agreed to 
was to review those standards on an annual basis. It is about 
time to do that. We have got an agreement with the weather 
service to start that review. The decision I made last week was 
until we finish this review, which will take about 120 days or 
so, we are going to put a moratorium on removing any additional 
contract weather observers.

                  automated weather observation system

    Mr. Packard. Last year, this committee included $1.1 
million in new funding for FAA to purchase AWOS units, and we 
did so because AWOS is commercially available and cost less 
than ASOS, but it performs essentially the same functions.
    We were optimistic that FAA would use these fundings to 
acquire this new state-of-the-art AWOS units and reduce the 
cost of obtaining automated weather observations. But I 
understand that this has not occurred; instead, the FAA 
apparently spent this funding on a study and on some kind of 
remote television monitoring system in Alaska. Is this correct 
and could you explain why?
    Mr. Belger. Could I take an IOU on that to either get back 
to you later this morning or--I will get back to you today. I 
am not certain about that.
    Mr. Packard. We would like to know what the money was spent 
for and why. We think that there was a fairly clear 
congressional intent in this. According to the language in last 
year'sbill, what makes the FAA believe that we gave you the 
liberty to transfer this to other purposes?
    Mr. Belger. And you are asking about AWOS
    Mr. Packard. AWOS.
    Mr. Belger. Okay. Yes, sir. Let me get back to you if I 
could please.
    Mr. Packard. And I will let that ride for now. I have 
another question, but I will wait.
    Mr. Wolf. If you want to, Ron?
    Mr. Packard. No, go ahead.
    [The information follows:]

    The AWOS production program was completed more than three 
years ago. The equipment procured under that contract is 
reaching the end of its viable life cycle. The FAA is 
developing a procurement plan for an upgrade/replacement of 
AWOS and will use the subject funds in support of that 
activity.

                         MODE-S, AAS, AND WAAS

    Mr. Wolf. Mr. Torres.
    Mr. Torres. Well, thank you, Mr. Chairman. Welcome, Mr. 
Administrator, and it is good to see you here with your 
colleagues and your staff. I would like to follow up on the 
question that Mr. Packard has just raised. He raised the ASOS 
issue, and I would like to ask about three other programs with 
similar types of acronyms.
    In the past few years, the FAA has had significant problems 
really maintaining budgets and schedules on at least three 
major programs. That is the MODE-S, that is the wide band 
random access surveillance system--the AAS, which is the 
Advanced Automation System, and, most recently, the WAAS, the 
Wide Area Augmentation System of which Mr. Belger said would be 
probably in place by 2002.
    Consequently, in trying to make up for lost funds, the past 
Administrator has chosen to take money from smaller, less 
visible programs as a source to recuperate the losses. This has 
had an impact on the planned procurement of other essential 
equipment as outlined in the Capital Investment Plan, the CIP.
    What can be done to get these programs back in line? And, 
additionally, what can be done to force the prime contractors 
to deliver on these services as proposed?
    Mr. Valentine. Let me take the second part first. I think 
that the experience that we had this past year with the WAAS 
program demonstrates how as a result of the new acquisition 
procedures that we have in place enable us to address those 
very problems you are mentioning.
    We were having difficulty with the WAAS contract, I would 
suggest that had that occurred three or four years ago or five 
years ago, sometime in the past, what most likely would have 
happened would have been that a contractor would have said, 
``Gee, we are having problems where, you know, we can't meet 
our budget. We can't meet our time line. We are going to need 
more money. We are going to need more time.'' And the FAA, if 
it was typical of some past performance, would have said, 
``Okay. How much more time do you need? How much more money do 
you need?'' and just grab the shovel and go through that 
process.
    This did not happen this time. We set very strict standards 
and expectations for the contractor. When they were not met, we 
pulled the contract, and in a very short period of time, 
reissued it and have that program in a comfortable position 
right now. I think that is an example of the type of behavior 
you will see from the agency from here on. I think that also 
puts contractors on notice that from here on out the old days 
of not having to worry about being behind schedule or over 
budget are gone; that we are going to be strictly enforcing our 
expectations in those areas. I think that that bodes very well 
for the agency. Obviously, that should reduce over time the 
cost of the programs that we are pursuing, and that reduction 
in cost, going back to the first part of your question, should 
allow more flexibility and more financial ability to address a 
whole range of programs small and large.

                SMALL BUSINESS AND MINORITY CONTRACTORS

    Mr. Torres. Speaking of small programs, in the past the FAA 
has had a good track record in supporting its small business 
base and minority contractors as the case in point. Under the 
new plan, will the FAA maintain its network of smaller 
established and certified contractors? Additionally, with the 
shrinking dollars and procurement activity, how will you ensure 
that small businesses aren't squeezed out by the large prime 
contractors?
    Mr. Valentine. I think we are still committed, as we have 
been for some time, to seeing that small and minority 
contractors get to play an active role in the providing of 
services and products to the FAA. We are committed to 
continuing in that process.

                          PASSENGER PROFILING

    Mr. Torres. I am happy to note that. Mr. Administrator, the 
White House Commission on Aviation Safety and Security made a 
number of recommendations which, if implemented, could 
exacerbate existing problems in aviation security screening.
    One of those recommendations was that a nationwide computer 
profiling system be put in place so that a computer would 
identify the passengers whose purses and luggage would be 
subjected to heightened security measures. The system is being 
developed by Northwest Airlines, and tests of the system are 
already underway.
    Mr. Administrator, no one could be more concerned about 
airline safety than myself, and I am sure my colleagues here. I 
have logged in over in excess of 2 million miles on airlines 
traveling to and from my district.
    Passenger profiling is expected to be tested, as I said, 
beginning next month. And already passengers, my constituents, 
my staff included, are reporting that they have been selected 
for heightened security measures such as intrusive questioning 
and stigmatizing luggage searches which other passengers are 
not made to endure based onconsttutionally protected criteria 
such as race and religion and national origin.
    Currently, if a passenger objects to discriminatory or 
overly intrusive security screening, the airline at fault will 
almost invariably say that the screening is required by you, 
the FAA. When the passenger objects to the FAA, the passenger 
is often told and is often given an unsatisfactory response, 
one such as the assertion that the airlines are primarily 
responsible for airline security measures.
    Again, I don't want to negate the security question. It is 
important. I feel very strongly about this. To cope with this 
problem, the Civil Liberties Advisory Panel to the Gore 
Commission unanimously recommended that an entity independent 
of the FAA and the airlines be established to monitor aviation 
security measures and make recommendations to ensure that no 
groups are inappropriately subjected to heightened security 
measures based on constitutionally protected characteristics.
    So my question to you would be, does the FAA currently 
receive complaints of discriminatory or overly intrusive 
security screening? Are such complaints tracked? If not, why 
not? Are passengers told what to do if they believe they have 
been subjected to discriminatory or overly intrusive security 
screening? And would the FAA be willing to furnish 
documentation about such complaints to the subcommittee?
    Mr. Valentine. Congressman Torres, if I may, may I ask 
Assistant Administrator Irish Flynn to address that question 
for you? He is more knowledgeable about the details of that 
than I and would be happy to address it.
    Mr. Torres. Thank you. Mr. Flynn?
    Mr. Flynn. Congressman Torres, first, I want to assure you 
and the Committee that no constitutionally protected criteria 
are used in the process of selecting passengers whose bags 
might be subjected to additional security measures. Those 
determinations are not based on race or national origin of 
United States citizens. We abide by the--and fully support--all 
of the liberties that are given in the United States 
Constitution and law.
    Now, with regard to the profiling system that is being 
developed by the FAA and Northwest Airlines and which, you are 
correct, will be tested in April and will be deployed, that 
will be an automatic system based on information in the 
passenger name record of the reservation system. Its intent is 
to reduce the number of passengers whose bags need to be 
matched with them for security reasons or whose bags will need 
to be screened by very expensive and still rather slow 
screening equipment.
    At the present time, and for well over a year, we have had 
additional security measures in place because of the increased 
threat that we have become aware of in the United States as 
investigations followed the World Trade Center bombing 
particularly. We became aware that there was a threat in the 
United States, associated to a certain extent with the 
threatened bombing of aircraft in Asia early in 1995. So we 
have had these measures. They involve the necessity to do hand 
searches of checked bags. In order to improve the effectiveness 
of the screen checkpoint, we have augmented the X-raying with 
increased opening and searching of the bags coming through 
there.
    At the screening checkpoint, there basically is no 
profiling in effect. At check-in the profile criteria have to 
do with the passenger's itinerary and the way in which tickets 
are purchased. If I may, I would prefer not to detail what 
those criteria are in open session. To make them openly 
available I think might help those who would try to circumvent 
security.
    Now, with regard to the objections of people, I have met 
many times with representatives of the Arab-American community, 
with the American-Arab Anti-Discrimination Committee. They have 
expressed those things that you did, Congressman Torres, that 
people have been singled out on the basis of their names or 
their national origin. We have said that we will engage with 
the American-Arab Anti-Discrimination Committee in inspection 
of that, and we will proceed with that. Sometimes those things 
that are attributed to security happen as a result of INS 
activities and customs activities for incoming passengers. But 
however that might be, to the extent that there are people who 
believe that discrimination is at work, we will endeavor to 
find out what that is and to take corrective action.

                            RACIAL PROFILING

    Mr. Torres. Thank you, Mr. Flynn. You must understand that 
I am reacting, as I said, to constituent complaints. As 
recently as last week, I have had constituents make these 
charges that because of the hue of their skin they were set 
aside and searched while others who were not dark complexioned 
were able to move on through security. You have stated the Arab 
community is also being perhaps targeted in this area because 
of the obvious. But to what degree has a profile been tested 
for disparate racial impact? Has anything been done on that?
    Mr. Flynn. Well, I mentioned, Congressman Torres, we will 
set up some tests particularly with the American-Arab Anti-
Discrimination Committee. The basic scheme is that we will 
observe check-in. We will observe the process of selection. And 
then we will find out if those people were selected for the FAA 
mandated criteria or for some other reason that might have to 
do with invidious discrimination.
    Mr. Torres. But you must know that it is not only just 
Arab-Americans but anybody that fits a certain Third World or--
--
    Mr. Flynn. Congressman Torres, I am not aware----
    Mr. Torres. Well, you should be--Latinos and Asian-
Americans, Latino-Americans. Anybody that is not explicitly a 
light-skinned Caucasian will get the brunt of these seizures.
    Mr. Flynn. I am not denying that that might have happened. 
It is just that this is the first time that I have heard of 
that in connection with Hispanic-Americans or people of dark 
complexion. That I had not heard before.
    Mr. Torres. Well, I am advising you as such. As of now, my 
own staff, members who are dark complexioned, and appear to 
be----
    Mr. Flynn. And I will----
    Mr. Torres [continuing]. Not Irish-English, Anglo-looking 
are stopped and go through these searches--screening.
    Mr. Flynn. I hope that it is coincidental, but if it is 
discriminatory, what I would like to do is know of these 
instances, and we will look into them.
    Mr. Torres. I appreciate your answers, Mr. Flynn. Mr. 
Chairman, I yield back the balance of my time.
    [Additional information follows:]

    The FAA receives complaints directly from the public and 
responds in writing to each of them. A record of the 
correspondence is maintained. Passengers who believe they have 
been victims of discrimination are informed that they may file 
a formal complaint with the Assistant General Counsel for 
Aviation Enforcement and Proceedings of the Department of 
Transportation. The FAA would be happy to provide records of 
such correspondence to the Subcommittee on request.
    The FAA does not silently acquiesce to improper application 
of security procedures. FAA-mandated profiling has been in use 
for more than 20 years with the security programs of U.S. 
airlines; it has never been, nor will it ever be based on any 
legally impermissible distinctions involving race or national 
origin of United States citizens.

                           CERTIFICATION FEES

    Mr. Wolf. Mr Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. I want to welcome the 
FAA to our hearing. I appreciate you coming. I do want to, for 
the record, encourage the administration to fill the vacant 
slots for the Deputy Administrator and the Administrator.
    I have got several concerns. The first one is user fees. I 
think it is probably going to be a hot topic, and I want to 
cover that first. As you know, user fees can be abused. I think 
they have been abused elsewhere in the world, not necessarily 
in the United States, but certainly in Europe. And I am 
concerned about the way they can be applied. You did mention, 
the three areas, Mr. Valentine, that were international cargo 
fees, the security services, and the general aviation turbine I 
think is what you said?
    Mr. Valentine. Correct.
    Mr. Tiahrt. And I guess there are other areas where you 
already assess some fees like you mentioned domestic cargo. 
Certification fees, for example, are a concern of mine, because 
certification fees are really for the public, and yet they are 
assessed on the industry. And they don't provide a value to the 
industry as such.
    Industry has a vested interest in keeping planes from 
falling out of the sky, of course. But certification fees do 
not provide a defense, for example, in lawsuits. So it is 
mostly a public service.
    Now, there was a report. I think the report was called the 
Challenge 2000 report that suggested the FAA streamline some of 
their certification process, that they delegate some of it, and 
that perhaps it was inefficient. I think that if we allow you 
to expand fees including certification, it may add to an 
expansion of fees that would be detrimental to the industry.
    I have got some pictures of what has happened over in 
Europe, and you may have been over to see your counterpart. I 
would like to show those to the people. This Eurocenter here is 
where the--is the counterpart, and it is called the Taj Mahal, 
not necessarily from the outside, but from the inside, their 
conference room here is very high tech.
    It has the latest in technology. It is very expansive; a 
lot of very, very expensive wood--and as a result of 
certification fees or fees, excuse me, in general that have 
gone unchecked. So I am very concerned that giving the 
opportunity to raise fees may be something that can be abused.
    And so I want to express my concern for those fees and also 
tell you that I would rather see something like an aviation 
fuel tax which is based on use. People fly. They burn gasoline 
when they fly, and there is a fee that goes along with that. 
And I would rather see an expansion of that rather than having 
fees.
    If you implement certification fees, what would you 
certify? The final assembly? And if that is so, is the wing 
considered a final assembly? Is the engine considered a final 
assembly? What about the downstages, and where do you stop? It 
ends up being a value-added tax.
    That makes us less competitive, and we may end up with the 
same situation in Europe which is a subsidized socialized 
aerospace industry. And I don't think we want that here in 
America. It is very difficult to compete with that, as you 
know. So I think certification fees, in particular, are 
something that I would want to avoid. The option, of course, 
would be an aviation fuel tax.
    The international cargo fees--I guess we do that already on 
domestic. Why is the need then for an additional authority to 
go to international if you already have cargo fees locally, Mr. 
Valentine?
    Mr. Valentine. The cargo fee actually is part of the tax 
structure on aviation that includes the 10 percent passenger 
tax, of the gasoline tax, and the waybill for freight--six and 
a half percent tax on waybills.
    Mr. Tiahrt. So it was previous legislation?
    Mr. Valentine. It was previous legislation. That is 
correct.
    Mr. Tiahrt. It would be an expansion of previous 
legislation?
    Mr. Valentine. Yes, or new legislation--however you want to 
view that in terms of the authority to do that.

                 FLIGHT INSPECTION FLEET MODERNIZATION

    Mr. Tiahrt. Okay. I guess that would take a legal change 
then. You couldn't expand it on your own. All right. One of the 
things that I would like to encourage you to do is you have a 
flight inspection fleet modernization program, and it consisted 
of two large aircraft, 12 medium-range aircraft.
    The two large aircraft and half of the medium-range 
aircraft have been filled out in your requirements. There are 
still six remaining requirements out there, and you have 
already extended the contract or the options one year. So they 
are kind of hanging out there.
    And I want to encourage you to fill that. I know that it 
fills a very important need for the FAA as far as maintaining 
instrumentation, et cetera. And I have to admit that I do have 
some parochial interest in that it is in my district that these 
six aircraft would come. But just about all aircraft come from 
my district. I guess tomorrow you will be in the air capital, 
Wichita, Kansas?
    Mr. Valentine. That is correct.

                            WRIGHT AMENDMENT

    Mr. Tiahrt. Mr. Gardner was there not long ago with the 
Aviation Subcommittee of Transportation and Infrastructure and 
had a good tour of Raytheon which we affectionately call Beech 
aircraft from its founder, Walter Beech. So I hope you enjoy 
your stay.
    While you are there though, I would like you to know that 
it is difficult for travelers to get in and out of Wichita 
because of the Wright Amendment. There have been several 
studies done recently. In 1992, the Department of 
Transportation said in their study of the Wright Amendment that 
a change to the Wright Amendment--and I quote, ``A change to 
the Wright Amendment will result in more service, more 
competition, lower fares, and more traffic for the Dallas-Fort 
Worth metroplex and region. Travelers to or from the metroplex 
region will save an estimated $183 million per year in 
airfares.
    Now, Dallas-Forth Worth is building their seventh runway. 
This has been 18 years since the Wright Amendment was passed. I 
think DFW is pretty well established and that was the concept 
behind the Wright Amendment. Now, the penalty of travelers, 
many of them which fly out of Wichita, Kansas, is higher air 
fares--that is the penalty--and the Wright Amendment has 
hampered expansion and growth in that area.
    So I was wondering, given these facts--would the FAA 
support legislation that would remove these costly restrictions 
that are affecting air travelers and taxpayers here in America? 
Do you have a position on it?
    Mr. Valentine. I do not have a position on it. No, sir. I 
would be happy to discuss that with my colleagues and give you 
an answer of one form or another before the day is over with.
    [The information follows:]

    The Wright Amendment is a provision in the 1979 Air 
Transportation Competition Act limiting air service from Love 
Field, the major airport serving Dallas, Texas, before DFW 
International airport opened in 1974. To ensure success of DFW, 
the cities of Dallas and Fort Worth agreed to move commercial 
passenger operations from Love Field in Dallas and Meacham 
Field in Fort Worth to DFW when the airport opened. Most of the 
carriers serving the area signed an agreement to transfer their 
operations. Southwest Airlines, then a small, intrastate 
carrier, did not sign and was found eligible by the courts to 
continue to provide intrastate service from Love Field. With 
airline deregulation in 1978, Southwest, with court approval, 
expanded its service to New Orleans from Love Field. In order 
to preclude other carriers from expanding service from Love 
Field, a move that might financially harm DFW, Congress passed 
the Wright Amendment (sponsored by Jim Wright, then a 
congressman from Fort Worth), which prohibits non-stop air 
service (including through-ticketing and through-service) 
between Love Field and cities other than those in Texas, 
Arkansas, Louisiana, New Mexico, and Oklahoma.
    In 1991, Senators Dole and Kassebaum of Kansas asked 
Secretary of Transportation Samuel Skinner to support repeal of 
the Wright Amendment, in order that Kansas and other states 
might benefit more directly from the low cost service offered 
by Southwest Airlines. The Secretary promised that the 
Department would review the issues and respond to their 
request. The FAA in conjunction with the Department, contracted 
a study of the impacts of modification and repeal, Analysis of 
the Impact of Changes to the Wright Amendment, July 1992. The 
report made no recommendations and the Bush Administration 
never took a position on the amendment. It is the current 
position of the FAA that since aviation safety is not the 
primary issue, disposition of the Wright Amendment is best left 
to Congress.

    Mr. Tiahrt. Okay. Mr. Chairman, I don't know if I am on a 
time limit, but I would like to also submit questions for the 
record.
    Mr. Wolf. Go ahead.

                               USER FEES

    Mr. Tiahrt. I want to just touch back on the user fee one 
more time because I am very concerned about user fees. There 
can be an inherent bias built into the system of fees. Your fee 
structure is that you maintain a budget from one entity, then 
the relationship with that entity becomes tainted in my mind.
    And I go back to the relationship that the Surface 
Transportation Board has with the railroads. We have a very big 
problem in Wichita where the railroads are coming through with 
increased traffic, and the Surface Transportation Board did not 
even consider a bypass to the City of Wichita, which, of 
course, would have been an additional cost to the railroads and 
no cost to the taxpayers of that local area.
    So that wasn't even considered. All the fees or all the 
solutions are directly related to taxpayers in one stretch of 
rail going right through the center of Wichita, cutting off the 
west from the east.
    So using that as a basis, and the only reason I bring it up 
is because user fees can, I think, affect a relationship with 
the body that they are either governing or obtaining their fees 
from. So another caution why I think that it is better to use 
an aviation fuel tax than use certification fees or other fees 
for one reason or another. Thank you, Mr. Chairman.

                            PROFILING SYSTEM

    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I would like to follow 
a couple of lines of questioning here for a short time, and 
maybe from some of your answers I may think about those answers 
for a while.
    Mr. Chairman, I don't know whether Mr. Flynn is going to be 
coming back in this process. Perhaps I should--well, maybe I 
will just--yes, here he comes. I hope that we would take Mr. 
Flynn up on the idea of having a discussion, if necessary, in 
private along the lines of what Mr. Torres had followed 
earlier.
    Mr. Wolf. Sure. I would be glad to do that.
    Mr. Olver. I would be very interested in that profiling 
system myself.
    Mr. Wolf. I think that is a good idea. Why don't we, if you 
can, Mr. Flynn, after the Congressional break in the first week 
of April or second week, work out a convenient time, could you 
come up and brief the Committee in a closed session?
    Mr. Flynn. Certainly, Mr. Chairman.
    Mr. Wolf. Okay. We will do that.

                review of passenger profiling complaints

    Mr. Olver. I am also interested in--and if we can answer 
that at the same time--as to what sort of appeal procedure or 
review procedure there is going on in case there are 
complaints, though my impression was, Mr. Flynn, that you had 
said that you really were not aware of complaints about the 
profiling system?
    Mr. Flynn. Excuse me. I was aware of those from the Arab-
American----
    Mr. Olver. From the Arab-American community but not from 
Latino-Americans?
    Mr. Flynn. Not on the basis of race or discrimination on 
the basis of physical appearance.
    Mr. Olver. Do we have a system for review of those 
complaints?
    Mr. Flynn. Well, indeed. The White House Commission has 
recommended, as Congressman Torres mentioned, that there be a 
review, and the Department of Justice will be reviewing our 
program.
    Mr. Olver. But you don't have an internal or sort of a 
judicial review?
    Mr. Flynn. Yes. The Offices of Civil Rights of FAA and of 
the Department do make me aware if they receive any such 
complaints, and we work together to resolve them.

                        canadian overflight fee

    Mr. Olver. Well, I will follow that one further when you 
are up speaking with us probably. Let me ask a couple questions 
about the user fee system. Do we have a system in place for 
overflight fees for Canada-to-Canada overflights?
    Mr. Valentine. What we have in place, as I mentioned went 
to the Federal Register yesterday, is an overflight fee for 
aircraft flying through U.S. airspace but not originating or 
terminating in the United States territory. We discovered in 
developing this that there are instances where people in Canada 
flying from point A in Canada to point B in Canada fly through 
U.S. airspace. And there are people in the United States who 
flying from point A to point B in the United States fly through 
Canadian airspace. We also have some overlapping boundaries for 
our flight information regions, our FIR's as they are called, 
that sort of aerial boundaries that cross over ground 
boundaries.
    As we were developing this, the Canadians brought to our 
attention the potential impact of including Canada-to-Canada 
flights in the overfee structure. The Canadians themselves, 
incidentally, are going to be introducing in November of this 
year their own overflight fee structure. They had asked us if 
we would at least eliminate fee collection for the Canada-to-
Canada portion until such time as we can work together with 
them to make sure that as we set up each of our fee structures 
we don't cause people to engage in practices that are, one, 
unsafe or, two, inefficient and crowd up airspace where it 
ought not to be. We have honored that. So in our proposal, we 
will not initially be collecting fees from aircraft flying 
Canada-to-Canada. We have postponed that until October 1.
    Mr. Olver. I see. And are they collecting overflight fees 
from U.S.-to-U.S. at the moment?
    Mr. Valentine. No. They are not. They currently do not do 
so.
    Mr. Olver. Are we collecting fees on any of these 
overflights at the present time?
    Mr. Valentine. No. We do not in the U.S. have any 
overflight fees at all at present.

                          scope of overflights

    Mr. Olver. So this proposal--I am having a little bit 
difficult time sort of conceptualizing what we are talking 
about here. Is this polar flights like going to Mexico City or 
something?
    Mr. Valentine. These are polar flights going to Mexico 
City.
    Mr. Olver. Mexico to London?
    Mr. Valentine. Mexico to London--if it goes through U.S. 
airspace, which it generally does, because we control a good 
deal of the airspace out into the Atlantic Ocean into the North 
Atlantic.
    Mr. Olver. What other kinds of flights would there be? I am 
trying to see where we would be having overflights in long-
distance travel, say, from the Far East to Europe, which would 
probably be polar and not touch anything of ours.
    Mr. Valentine. Flights to Canada from virtually anywhere in 
South America or Central America; flights from Europe, 
particularly northern Europe, to almost anywhere in the 
Caribbean, particularly. That is where a lot of the flights are 
going--or Mexico, Central America, or South America. If you 
follow the----
    Mr. Olver. Now, are you talking about airspace over our 
territories like the Virgin Islands and Puerto Rico as opposed 
to the states?
    Mr. Valentine. We are talking about the airspace over which 
we have management control, and I could provide you with a map 
showing you where those boundaries are. For example, in the 
North Atlantic, we control airspace in almost all the way out 
to Iceland and Greenland--going in that direction, for example.

                       user fee collection system

    Mr. Olver. Okay. Do we have a system for collection of 
those fees?
    Mr. Valentine. Yes, we do.
    Mr. Olver. When does that go into effect for the fees other 
than the Canada-to-Canada and U.S.-to-U.S.?
    Mr. Valentine. The rest of the fee structure will go into 
place 60 days after the rule is printed in the Federal 
Register. It is there now. And--
    Mr. Olver. The fee schedule should go into effect by June 
or thereabouts?
    Mr. Valentine. By--
    Mr. Olver. Basically U.S.-U.S. or Canada-Canada?
    Mr. Valentine. Right. It would be at this time two months 
hence so it will be late May--third week in May when it goes 
into effect, and we will start the actual billing and 
collection process 30 days after that starts.
    Mr. Olver. And do you have a process that you----
    Mr. Valentine. Yes, sir, we do.
    Mr. Olver [continuing]. Believe will be workable for doing 
that?
    Mr. Valentine. Yes, we do.
    Mr. Olver. Do you have any idea what the balance is likely 
to be of Canada-to-Canada versus U.S.-to-U.S. overflights?
    Mr. Valentine. That would--you mean in terms of numbers or 
in terms of fee collections? In terms of the volume of activity 
or in terms of the amount collected?
    Mr. Olver. Well, supposedly those would be proportionate.
    Mr. Valentine. We would hope that they would be at least 
designed in terms of the Canadian fee structure and our fee 
structure such that it doesn't cause people to change their 
habits.

                            staffing levels

    Mr. Olver. Okay. Let me, if I may, follow one other thing 
here. I have a hard time reconciling numbers that are claims 
made by different people that I see and hear about the staffing 
and so forth. How many employees are there of the FAA?
    Mr. Valentine. Let me ask anyone if they have the exact 
number? The last number I saw was in the high 47,000's, but let 
me see what the current number--anybody offhand want to venture 
the exact number today?
    Mr. Olver. Does anybody dispute that? Is it roughly a 
correct number? Okay. How many of that would be controller 
workforce, what one might call the traffic controller 
workforce?
    Mr. Valentine. If you include air traffic controllers and 
people who--it looks like somebody is giving me some numbers 
here on employment. I will give you the exact numbers here. 
Okay. The 1996 actual number currently is 47,665 so I guess I 
was in the ballpark.
    Mr. Olver. Okay.
    Mr. Valentine. The number of people related to air traffic 
services, and that is controllers, field maintenance personnel, 
and others--
    Mr. Olver. Field maintenance?
    Mr. Valentine. Field maintenance--people who maintain all 
of the navigation equipment referred to as field maintenance--
and other support staff--altogether in the air traffic 
services, 34,929.

                  controller workforce (cwf) staffing

    Mr. Olver. How many of those would be in air traffic 
control?
    Mr. Valentine. Controllers--a little over 17,000 of people 
we call controllers.
    Mr. Olver. And what are the categories within that?
    Mr. Valentine. Do you want to go ahead and give the details 
of that?
    Mr. Belger. Sure. You are asking about the controller 
workforce? As Mr. Valentine said, it is a little over 17,000--
roughly 17,000. By the end of the year, it will be----
    Mr. Olver. A little over 17,000?
    Mr. Belger. Right. By the end of the----
    Mr. Olver. Controller workforce so there is a controller 
category which we can agree on is controller workforce which is 
a little over 17,000?
    Mr. Belger. That is right.
    Mr. Olver. What were the subcategories there?
    Mr. Belger. There are three. One is air traffic control 
specialists. That number today is about 14,300 and something.
    Mr. Olver. Air traffic control specialists?
    Mr. Belger. That is correct.
    Mr. Olver. Yes? That is one.
    Mr. Belger. The other two categories are made up of 
supervisors--first level supervisors who are current and do 
some air traffic control work--a small amount--and traffic 
management coordinators. These are people who are not actively 
controlling traffic but are working the system on a daily 
basis, monitoring the flow of traffic.
    Mr. Olver. And what are the number of the traffic 
management people?
    Mr. Belger. If you will give me--I don't have that in my 
head. Traffic management--it is roughly 500 I think. I will 
give you that precisely in a second, but it is roughly 500.
    Mr. Olver. Okay. All right. So I now know that the 
controller workforce, which is 14,000--well, 17,000 rather--a 
little over 17,000--contains three groups. All right. Now, 
would the numbers then be roughly 14,300 and something of the 
air traffic control specialists and 2,117----
    Mr. Belger. I will give you the precise numbers from the 
budget.
    Mr. Olver. Okay.
    Mr. Belger. We can always go to the factual source. These 
are our targets for the end of the year. Our current numbers 
will be close to that, but these are our targets in those three 
categories for the end of this fiscal year--fiscal year 1997. 
As I said, for controllers, 14,560; for first level 
supervisors, 2,053; for traffic management coordinators, 687. 
That should be 17,300.

             controller workforce--reduction in supervisors

    Mr. Olver. Okay. My understanding is if we use the same 
controller workforce definitions that the number at the time of 
15 years ago at the time of the controller strike was something 
like 169 of the category of traffic management controllers, and 
you are saying that it should go by the end of this year to 
687, and today it is probably somewhat less--that the number of 
what you would call--what you have called air traffic control 
specialists was 16,200 or thereabouts, that the number of 
supervisors was a bit over 2,100 at that time, does that strike 
a--didn't I hear you say earlier that the number of supervisors 
has gone down----
    Mr. Belger. I said since----
    Mr. Olver [continuing]. More than the other categories?
    Mr. Belger. Since 1992 was my reference point. When we got 
serious about reducing overhead, administrative, supervisory 
positions and meeting the national performance review targets 
1992 to the current was my frame of reference.

             controller workforce--traffic management staff

    Mr. Olver. Okay. All right. That helps a lot because I am 
seeing a set of numbers what I understood and why I had to go 
through this business of understanding what we were defining is 
numbers over time. But you were using a different reference 
point certainly than 1981 then, and you are saying that since 
1992, the number of supervisors has gone down more. Then why 
has the number of management controllers--traffic management 
controllers gone up so much, or is that also--is that to be 
included in the comment about supervisors, or is that something 
that is just going up?
    Mr. Belger. No, sir. Well, it is not just going up. I mean, 
it has gone up because of conscious decisions that we have 
made. We wanted that number to go up. We have added people to 
that function. One of the reasons why, in my view, it is not a 
good idea to compare today's system to 1981 or previously is 
the emergence of a traffic management capability that we did 
not have in 1981.
    The establishment of an air traffic command center or flow 
control facility, which is not--I want to add for the record--
not nearly consistent with the picture that you saw there. It 
is leased space in a building out in Herndon that was not 
available in 1981. The ability that we have today to monitor 
and direct and control the flow of traffic on a national basis 
is somethingthat just was not available in 1981. So we have 
grown that workforce which are people in the facilities who do the day-
to-day, minute-by-minute, second-by-second coordination with the 
command center and with other facilities on purpose. I mean, we have 
consciously done that.
    Mr. Olver. Mr. Chairman, I could stop and think for a while 
and come back at another round here if you want to continue.
    Mr. Wolf. No, go ahead. It is okay.

                      controller staffing standard

    Mr. Olver. I will want to continue it at some point. Okay. 
I will go on for a minute then. But the standard for 
classification of the air traffic controllers is the same 
standard that has been in place through 1981, is it not?
    Mr. Belger. No, sir, it is not.
    Mr. Olver. It is not?
    Mr. Belger. No, sir. I have been told that we virtually did 
not have staffing standards in 1981. In fact, we revise and 
update those standards every year based upon workload, based 
upon projected workload, and based upon the complexity of the 
operation. So I think the short answer is we really didn't have 
staffing standards in 1981.
    Mr. Olver. So you would--the classification standard that 
was in place then based upon--purely upon the volume of 
traffic----
    Mr. Belger. Okay. You are asking----
    Mr. Olver [continuing]. Is no longer----
    Mr. Belger. No. You are asking now about classification 
standard which was different than staffing standard.

                  controller classification standards

    Mr. Olver. All right. I apologize. If I didn't use the word 
classification, then you have caught me, but I meant the 
classification standard.
    Mr. Belger. Yes, sir. You are absolutely right. The 
classification, which is that standard upon which pay is based, 
has been around for well over 20 years and is antiquated, and 
it needs to be changed.
    Mr. Olver. Okay. It has been around a long time, and it was 
based solely on volume of traffic?
    Mr. Belger. Fundamentally based on volume of traffic, and 
that is certainly the driver. There are some other factors, but 
the real driver was pure and simply volume of traffic. And what 
has happened over the years is if you look at the air traffic 
control centers, as an example--we have 21 centers in the 
United States--when that standard was established, there were 
three levels of pay, three levels of classification based upon 
the activity and the volume.
    Well, as you might suspect, over the past 20 or so years, 
with the increase in traffic, almost all but one of those 
facilities now are at the top pay level. There is no 
distinction between those that used to be, a category three I 
will say, and those that are all now in the category one. So we 
have----
    Mr. Olver. That means because there is much greater traffic 
in some than the others, that there must be no incentive then 
for anybody to move from one to the other, to the more complex 
location?
    Mr. Belger. You have hit the nail on the head. That is 
exactly right, and that is why we have been saying for several 
years now that we need to review those classification 
standards. We need to change them. We need to make them 
current. We need to make them so that they actually reflect the 
complexity of the work that is being done in the various 
facilities, and that we provide an incentive for people who are 
fully proficient at a facility to want to go to the next bigger 
and more complex facility. We don't have that incentive today.
    Mr. Olver. What is the impediment, if this has been 
understood for several years at least--I don't know how long 
several is--to getting a new classification standard in place 
or what stage are we in getting such a thing in place?
    Mr. Belger. Let me tell you where we are today. For the 
first time, we just last week--the Director of Air Traffic and 
the Vice President of the Air Traffic Controllers Union--co-
signed a document which sent out to the workforce a new 
standard.
    It is an objective, factual standard which we have agreed 
to with the union, and it is out for comments and review. That 
will come back hopefully with very few changes I would hope at 
this stage of the game. And then the next step would be to use 
that--this new standard--this new objective criteria--to kind 
of put facilities into that criteria so that we know where they 
fall. And then, secondly, and most importantly, and this is 
where the impediment is that you asked about, is to look at a 
pay scale--compensation that goes with that objective standard. 
That will happen this summer.

             new cwf classification standard implementation

    Mr. Olver. So what would be your guess as to the time frame 
if things go well in which such a new standard would be in 
place?
    Mr. Belger. We had set a target to have the standard and 
the compensation--I mean, the standard is no good without the 
compensation scheme that goes with it. We had set a target to 
have that done and available for us to use in fiscal year 1998.
    Mr. Olver. I will come back in another round.
    Mr. Wolf. Just so we know, I have about 30 pages of 
questions. So we are not nearing the end. In fairness, I know 
Mr. Tiahrt and Mr. Sabo and others want to have another round. 
Then we will come back. So, Mr. Tiahrt, if you want to ask 
some, then Mr. Sabo and Mr. Packard, before we go on.

                     air traffic control automation

    Mr. Tiahrt. Mr. Chairman, thank you for letting me go out 
of turn. I have got two things that I would like to touch on. 
First, I know we are upgrading equipment for air traffic 
control, and it was a contract I believe was held by IBM. And 
they made a valiant attempt to suck the life blood out of the 
whole system, and it was turned over to Raytheon, and now 
Raytheon is working on it. Can you tell me if they are on 
schedule? Are we getting the new equipment on-line necessary 
for upgrading our air traffic controllers?
    Mr. Valentine. I am not sure which system you are talking 
about. But the one that IBM had then became part of Lorale; 
Lorale, in turn, became part of Lockheed-Martin; that was the 
original AAS system. And the answer is that that is back on 
track.
    You may recall not too long after, I am not sure if you 
were here, Administrator Hinson came on board, he had Deputy 
Administrator Daschle look at that whole issue. They concluded 
that it was time to stop the hemorrhaging on that program and 
terminated it as it was and started the program over again. 
They ended up saving a considerable amount of money that 
otherwise would have been a case ofthrowing good money after 
bad on that particular project, but that is now on track and where it 
ought to be.
    Mr. Tiahrt. And you have oversight of the program, and it 
is on schedule to the best of your knowledge?
    Mr. Valentine. Yes, sir.

                    global positioning system (gps)

    Mr. Tiahrt. I have looked through your research and 
engineering development in your budget here. One of the things 
I think is very important that we look into in the future, and 
it really shouldn't be very far off, and that is air traffic 
control through the use of Global Positioning System or GPS.
    Now, you know, you can go out and buy a handheld unit now 
for under $500--commercially available. I know that about six 
years ago or so the Army bought about 20,000 units, and they 
were heavier duty and they cost a little more and probably made 
less than $500 units available or more available at a lower 
cost anyway. And I think the system has 24 satellites up now, 
is that right? Mr. Gardner probably knows being a former 
astronaut.
    Mr. Valentine. That is correct. There are 24.
    Mr. Tiahrt. Twenty-four. And I think you only need five to 
acquire your latitude and your longitude and your altitude 
above sea level. So if you knew where the runway was, 
obviously, and you knew where you were through GPS, it would be 
kind of easy to land an aircraft.
    And I think in previous conversations, Mr. Valentine, that 
we have had, you said that that could be on any airport in 
America once we got the documentation. Are you currently 
expending research, engineering, and development money to 
develop a landing system that relies on GPS?
    Mr. Valentine. Yes. In fact, we already have in place some 
landing systems that rely exclusively on GPS--up in Aspen, 
Colorado, for example. The very first GPS approach in the 
country was put into place there a couple of years ago. GPS is 
the air navigation system of the future. It has been recognized 
internationally as the system of the future.
    What we refer to as GPS, as I referred to, internationally 
is CNS/ATM, communication navigation surveillance/air traffic 
management and the first phase of that. The first step of that 
is recognized by ICAO, and, in fact, most new aircraft come 
equipped with a system referred to as FANS I. It is Future Air 
Navigation System, sort of phase one--so that they will be able 
to take advantage of the satellite navigation capabilities in 
the future.
    The whole WAAS program that we mentioned earlier is 
designed to put into place the augmentation system you need to 
be able to verify, among other things, the accuracy and 
reliability of the GPS system if you are going to be using it 
particularly for approaches, particularly category one 
approaches, into airports.
    We are currently each year designing GPS approaches to 
airports all over the U.S. We have done well over 1,000 of them 
now. Many of them were able initially to just overlay over to 
existing VOR or NDB approaches and we will be continuing with 
that process. Over time, eventually, as I said earlier, 
literally every end of every runway would be eligible to have a 
GPS approach, assuming terrain and other features, you know, 
would permit it.

                            operational waas

    Mr. Tiahrt. Mr. Valentine, I assume there is some schedule 
when we are going to have this available, or I would think 
there would be. And I know you wouldn't know specific 
locations. I am interested in Hays, Kansas, of course, and 
other areas in Kansas which are relatively flat and would be 
easy to land in. But right now they lack an instrument landing 
system.
    And when weather gets bad, Congressman Moran has to drive 
about 200 miles to the closest airport with an ILS. And he has 
brought this to my attention, being late for a meeting that he 
had with me, and so I am curious when we will have this on-line 
for even small airports in the United States?
    Mr. Valentine. I have a note here that tells me that by the 
end of 1998, the WAAS system will be fully in place, and then 
it is simply a matter of one by one designing the approaches 
for each airport. And, as I said, we are doing that now in an 
overlay fashion for those places that do have them; for a place 
like Hays which presumably does not have or at least does not 
have, you know, an ILS for a precision approach, but would 
simply be a matter of going through the normal design process 
for that approach for that airport.
    Mr. Tiahrt. I am going to ask for more information and 
write it on your schedule and give you some time to----
    Mr. Valentine. I would be more than happy to visit with you 
and to have some other folks visit with you and explain the 
whole program. GPS is now used for en route navigation.
    I will mention though that in order to get the cost of the 
GPS units down to a level where they would be affordable by 
everyone, it is one of those standard market situations where 
you would have to have more people looking for them.
    We require that a unit used in an aircraft currently for 
actual navigation purposes, not as a supplement but as for 
actual navigation purposes, meets standards that render it more 
expensive than the handheld units that you and I are familiar 
with.
    Mr. Tiahrt. Plus or minus so many meters or yards?
    Mr. Valentine. Right, right, and a reliability rate as 
well. You know, we normally require things in airplanes to 
have, you know, a failure rate of one in a million or one in 10 
million or something on those levels, and that tends to bring 
the cost up, obviously.
    Mr. Tiahrt. I would be interested in knowing more. Thank 
you, Mr. Chairman.
    Mr. Valentine. I would be happy to.
    Mr. Wolf. Mr. Sabo. Mr. Packard.

                     inglewood, ca--noise abatement

    Mr. Packard. Thank you, Mr. Chairman. The first question I 
have is a little bit parochial. The FAA has done an excellent 
job over the years in working with the City of Inglewood 
adjacent to LAX in removing noise impacting the residential 
housing around the airport.
    In fiscal year 1998, I understand that the City of 
Inglewood has been discussing plans with the FAA to acquire 
housing in a Darby-Dixon neighborhood for a specific 
redevelopment project. Does the budget request include 
sufficient funds to support this acquisition? I understand it 
will cost somewhere around $13 million for a two-year period. 
Could you give me an update, or are you familiar with that?
    Mr. Valentine. I will give you a general, then ask someone 
for a specific. The Airport Improvement Program AIP includes 
funding for those types of purposes. Now, where that particular 
program is within that context, I am not sure. But I would ask 
Susan Kurland if she by any chance knows? She is the Assistant 
Administrator for Airports.
    Mr. Packard. Thank you, Susan.
    Ms. Kurland. Good morning, Congressman. Yes. 
Therepresentatives from the City of Inglewood have been in to visit 
with us on this particular topic, and we are taking their request into 
consideration. As you know, there are many requests for discretionary 
funds for noise purposes and the like so we will be considering their 
request very carefully.

                        reduction in aip funding

    Mr. Packard. What is in the budget as the President 
submitted it?
    Ms. Kurland. For fiscal year 1997 or----
    Mr. Packard. For fiscal year 1998.
    Ms. Kurland. For fiscal year 1998. For discretionary funds, 
we are taking a look at the impact on discretionary funds of 
the billion dollar budget. We don't have a detailed estimate 
yet. As soon as we have the details, we would be happy to 
provide them to you. But there will be cuts in many of the 
discretionary areas.
    Mr. Packard. I would like to know, if you would provide it 
for the record for me, if, in fact, the $13 million for the 
next two fiscal years, 1998 and 1999, are included in the 
President's budget submission in regard to this project.
    [The information follows:]

    We are familiar with the City of Inglewood's noise 
compatibility program. The FAA has issued 10 grants for over 
$30 million to the City since 1987 to support this program. We 
are aware of the City's desire to accelerate the program. 
However, the demands for noise program discretionary funds 
nationwide from airports and many other cities like Inglewood 
far exceeds the limited funds available. Consequently, we have 
limited the maximum amount granted to a location the past two 
years in order to assist more locations. Nevertheless, because 
the City's accomplishments have been exemplary, we will give 
the City every possible consideration for increased funding in 
the current and following fiscal years.

    Mr. Packard. An additional question that I asked Mr. Slater 
when he was before the subcommittee last week that I would like 
to ask you, if I could, Mr. Valentine, the AIP funding--airport 
improvement funds for the fiscal year 1998 request is $1 
billion, and it was almost $1.5 billion in fiscal year 1997. 
That is a significant reduction. Why? Is that a lack of 
commitment to AIP and how do you justify that significant a 
cut?
    Mr. Valentine. That was one of the toughest decisions we 
had to make in developing our budget recommendations for 1998. 
In order to ensure the ability to provide air traffic 
management system support and in order to ensure appropriate 
safety oversight for all operations and recognizing that that 
is going to grow because of increasing activity and at the same 
time recognizing the desire to keep budget increases to a 
minimum level, we had to make a decision in shifting monies and 
the place that we had to take the money was from the AIP 
budget. That was a difficult decision. We would obviously 
prefer to see much larger source of funds there but in keeping 
with not having an enormous increase in the overall FAA budget 
and being able to meet the needs that growth causes in those 
other areas, we had to make a priority decision and that was 
the decision we made.
    Mr. Packard. Well, that is a 33 percent cut or thereabouts 
and I am not aware of any single cut that could be justified to 
that extent without sending a message that there is really a 
lack of confidence in the program. I am sure this committee 
will have to look at that seriously in terms of where we would 
like to place our priorities. Thank you very much, Mr. 
Chairman.

             overflight fees--effect of canadian exemption

    Mr. Wolf. We will have other questions following up on some 
of the answers you have given to the members on the last round. 
But one of the things the discussion triggered was on the 
Canadian exemption. By not charging Canada you are basically 
charging others more, is that correct, on the overflights? You 
are exempting Canada, therefore, if Canada were in the mix, 
others would be charged less to reach the target.
    Mr. Valentine. Well, our fee structure was based on 
distance traveled and its relationship to the cost to provide 
the service.
    Mr. Wolf. But if you had not exempted Canada there would be 
more in the mix and therefore the charges for others would be 
less?
    Mr. Valentine. I would have to ask somebody whether that 
would be the case. Obviously, by exempting Canada or bringing 
in--it is not very much incidentally. It is a nominal amount.
    Mr. Wolf. Well, they are a large percentage of the 
overflights though.
    Mr. Valentine. We are talking now just the Canadian 
overflights?
    Mr. Wolf. Yes.
    Mr. Valentine. Yeah, but those are fairly small distances 
that they travel as compared to going from Canada to Mexico.
    Mr. Wolf. But the fact that they are not in the mix means 
that others pay more while they are out.
    Mr. Valentine. Or that we collect less money depending on 
which way you want to look at that. I am not sure when we made 
that determination. I would be happy to ask----
    Mr. Wolf. If you are trying to raise $100 million the more 
people that are participating in the $100 million the lower the 
rate. If you take people out of that then you raise the fees on 
those that are participating. I just think----
    Mr. Valentine. If I could, let me ask, if I may ask Louise 
Maillett, who is the Acting Assistant Administrator for Policy 
International to address that. She oversaw the work in 
developing this particular regulation.
    Ms. Maillett. Good morning.
    Mr. Wolf. Good morning.
    Ms. Maillett. With the deferral of the Canada-Canada, we 
did not increase the cost of the other people that would be 
charged for the overflights. We are charging people for the 
cost of providing the service to them so we are under 
recovering because of this temporary deferral.
    Mr. Wolf. You are under recovering?
    Ms. Maillett. Yes.
    Mr. Wolf. Well, there are two ways of looking at it. 
Clearly, you are trying to raise so much money. The FAA is not 
flush in money. The FAA just booted the opportunity to come up, 
and the administration did, on the ticket tax. Mr.Packard 
talked about the AIP funding. That was missed.
    This is a missed opportunity. You are looking at it from 
the other way. If Canada were in, more money would be coming 
in. If Canada is not in and you have to raise this amount of 
money, then others that are in are paying more. That is just 
common sense.
    Mr. Valentine. Well, let me try to clarify what she was 
saying. In order to establish our fees, we did not say we want 
to raise $100 million and this is how many operations there 
are, therefore, this is how much we have to charge per 
operation. That is not how it was done. It was done, this is 
how much it costs to provide that service and in looking at the 
overall mix originally it looked like it would raise somewhere 
in that particular case in the neighborhood of about $75 
million. It was not going to be $100 million anyway.
    Mr. Wolf. We are not charging Canada when we are charging 
others.
    Mr. Valentine. That is correct. We are not charging Canada 
for flights from Canada to Canada in U.S. air space nor are 
they--they have agreed not to do that to us either. And 
incidentally had we put that in one of the first things they 
would have done is impose a charge, for example, on flights 
between Alaska and the Northwest U.S. or New York. However, 
come October 1, we will be charging Canada to Canada.

                 overflight fees--scope of collections

    Mr. Olver. Mr. Chairman, could I follow up on that just for 
a moment? It seems to me that if I understand you correctly 
from my previous questioning, your overflight fees do not go 
into effect until the first of July or thereabouts.
    Mr. Valentine. In late May.
    Mr. Olver. All right, or first of June, so there would be 
four months of this in any case and you are collecting 
overflight fees--by the way, are we paying Canada an overflight 
fee of any sort at the moment?
    Mr. Valentine. We are not because Canada will not until 
November 1 of this year begin charging overflight fees.
    Mr. Olver. Okay, so when this goes into effect on the first 
of June, we will be getting overflight fees for the Toronto-
Montreal to the Caribbean and Latin America.
    Mr. Valentine. That is correct.
    Mr. Olver. But we will not be getting, at least until 
November, anything from the overflights from St. John to 
Montreal or Toronto or whatever little bit there may be from 
Hamilton that goes over Michigan to get to Winnipeg or things 
of that sort which are probably considerably less than the 
overflight fees, the return, the reciprocal overflight fees, 
anything from Alaska to the states or anything that we are 
doing from Seattle or Detroit or whatever to Boston.
    So it would be my guess at least in terms of these U.S. to 
U.S. versus Canada to Canada kinds of things and we are going 
to end up owing them more in this game than they will owe us 
would be my guess just in the geography because we are getting 
already the overflights which are not Canadian origin and 
destination. We will be as of June or thereabouts.
    Mr. Valentine. One of the very important distinctions here 
is that when Canada puts its structure into place it is 
charging everybody. That is putting in place an air traffic 
management fee for all users of the air space. Theirs is not an 
international fee. Canadians will be paying for use of Canadian 
air space. They are simply going to do what the rest of the 
world is doing and all we are going to be doing by comparison 
is just the overflight.
    Mr. Olver. Overflight. Okay, thank you.

                         fixed costs in budget

    Mr. Wolf. What percentage of your budget is fixed in the 
sense that it is not directly traceable to system users?
    Mr. Valentine. I do not know that any part of the air 
traffic management system cost is not related to providing of 
services ultimately and therefore attributable to the users. 
Monte, do you have any thought on that? I mean it seems to me 
that anything we are doing in order to ultimately provide air 
traffic services is done for the benefit of the user.
    Mr. Belger. I agree. All of our costs should be 
attributable to a user in some form, either manufacturer, 
airline operator, or whomever.

                           security user fee

    Mr. Wolf. When Secretary Slater was here, he told us you 
are considering a security user fee, and you mentioned that 
earlier. Would you contemplate using the security fees to cover 
expenses unrelated to your airport security program or will 
those fees just be used for that purpose?
    Mr. Valentine. Our objective is to, as you know, raise $300 
million through a source of fees, so I do not know how the 
balance would work out, but it is not being designed 
specifically to say that each dollar collected from a security 
source is for a security purpose. Now whether it might work out 
that way, I am not certain, but that at least as I understand 
it right now is not the way it would be structured.
    Mr. Wolf. Well, then you will not be tracing the fee back 
to the cost then?
    Mr. Valentine. There will be a relationship between cost 
and fee in some fashion but not in the same way as air traffic 
management.

                    user fee--budget ``safety net''

    Mr. Wolf. In one aspect, the Administration's user fee 
proposal may be much worse than what you have today, because it 
withholds the obligation of appropriated funds until those 
funds are specifically authorized by law. Today, the 
appropriations bill contains an inherent authorization upon its 
enactment. In the fiscal year 1998 budget proposal, isn't it 
true that if we appropriate these funds but they were not 
authorized by the legislative committee, you would not be able 
to spend them?
    Mr. Valentine. That is my understanding. I am not the 
budget expert but that is my understanding.
    Mr. Wolf. If that were the case, what would the agency do 
if such a situation caused you to consider furloughs of air 
traffic controllers, aviation inspectors, and other safety 
personnel mid-way through the year?
    Mr. Valentine. I am sorry.
    Mr. Wolf. What would you do if it caused you to furlough 
people midway through the year?
    Mr. Valentine. If we did not raise sufficient funds, for 
example, we were running the numbers, the $300 million 
translates roughly into about 4,000 jobs so to the extent that 
we do not have all of the $300 million, we would be looking at 
a budget shortfall certainly and then we would have to start 
making the hard decisions about what we would have to do in 
order to make up that difference.
    Generally, our approach would be to probably look, and this 
is just a guess, but to look at low activity facilities, and 
start at that level and work one's way up until the difference 
between $300 million or whatever was collected as adjusted.

                       user fee contingency plan

    Mr. Wolf. If the agency were to become fully fundedthrough 
the user fees, what contingency plans do you have to keep safety 
employees and controllers on the job if there were a significant drop 
in user fee collections during the year, due to a recession, court-
ordered injunctions, strike, or something like that?
    Mr. Valentine. Without money to pay for paychecks and in 
the FAA, as you know, payroll is where almost all of our money 
goes.
    Mr. Wolf. Have you thought of that? What would happen? What 
would you do?
    Mr. Valentine. If for whatever reason we--for whatever 
circumstance did not end up with the money we would end up 
having to make decisions----
    Mr. Wolf. If there was a recession in the country.
    Mr. Valentine. We would have to make decisions about where 
we would have to cut services. We would obviously try to cut 
those services that have the least safety impact and again work 
our way up from the bottom as it were. That would be true this 
year or last year or any year if we were in that picture.
    Mr. Wolf. But you have not faced this.
    Mr. Valentine. No, we have not.
    Mr. Wolf. So it is a totally different circumstance.

                          Overflight User Fees

    Mr. Wolf. Last year, Congress approved the collection of 
$100 million in fees for overflights. Five and a half months 
into the fiscal year, you still have not collected any of these 
fees. What has caused the delay?
    [The information follows:]

    The FAA began drafting a notice of proposed rulemaking 
(NPRM) in early 1996 to establish user fees for overflights of 
U.S.-controlled airspace. Subsequently, the Federal Aviation 
Authorization Act of 1996 directed the FAA to establish a fee 
schedule and collection process for air traffic control and 
related services provided to aircraft overflying U.S. 
controlled airspace other than aircraft of the U.S. government 
or of a foreign government and for non-ATC services to foreign 
governments. The Act also directed the FAA to go directly to an 
interim final rule. The FAA revised the draft overflight NPRM 
to comply with the Act. The interim final rule was published in 
the Federal Register on March 20, 1997, and will be effective 
May 19, 1997.

    Mr. Wolf. Given the delay, what is your current estimate of 
fiscal year 1997 collections?
    [The information follows:]

    With an implementation date of May 19, 1997 and a temporary 
deferral of Canada-to-Canada overflights so as to allow time 
for NAV CANADA to implement its en route fee system, the FAA 
expects to collect approximately $20 million in user fee 
revenue.

                    Benefits of a User-Fee Approach

    Mr. Wolf. The main attraction of user fees is that they 
have the potential to link the agency's costs with benefits 
provided to specific, identifiable users of that service. In 
this way, no one pays for someone else's use of the system, and 
users can exert pressure to keep costs down by using the system 
less. Would you agree that this system is an improvement over a 
tax-based system mainly to the extent that you can directly 
trace your costs to specific, identifiable users?
    [The information follows:]

    Yes, by adopting a user fee approach to the provision of a 
government provided service, service recipients are charged for 
the services they receive. Providers are able to match the 
benefits and costs associated with the use and provision of a 
service in a fair and equitable manner. Unlike a tax-based 
system, non-service users do not subsidize service users.

                             Ramsey Pricing

    Mr. Wolf. Most people think that user fees are a superior 
form of financing because they directly link the fee to the 
service provided by the agency. According to Coopers and 
Lybrand, your cost allocation models depend in large measure on 
a technique known as Ramsey pricing, which allocates fixed 
costs not by directly tracing them to the user, but by a 
calculation of each user's willingness to pay. Would you 
explain how, in a user fee environment, you will use 
econometric models like Ramsey pricing to spread your fixed 
costs among system users?

    [The information follows:]

    Whether an agency uses cost allocation or a modern cost 
accounting system, there will always be a component of common 
and fixed costs--essential for the provision of products and 
services--which must be allocated to different service 
recipients. Ramsey allocation, which is an economic principle 
and not an econometric model, represents the most economically 
efficient method of resource allocation given the constraint 
the service provider must recover the cost of providing the 
service. By referencing the price elasticity of demand, Ramsey 
pricing allocates common and fixed costs to users. This 
allocation will result in the minimum change in the consumption 
of air traffic control services.

                         cost accounting system
    Mr. Wolf. FAA officials advised us in last year's hearing that the 
agency was developing a comprehensive cost accounting system which 
would support the justification of user fees. The Coopers study 
indicates that much of this effort is unfunded. Is this true?
    [The information follows:]
    The fiscal year 1997 cost to develop the cost accounting system is 
estimated to be $3.6 million including both internal personnel and 
contractor costs. The FAA will fully fund the baseline cost accounting 
system in fiscal year 1997.

    Mr. Wolf. The agency has indicated that this new cost accounting 
system will be complete by September 1997. However, it is my 
understanding the agency will only have a few prototype sites in beta 
(software) test by that time. Is this so?
    [The information follows:]
    The baseline cost accounting system will provide full fiscal year 
1997 actual cost data (as compared to obligation data) in support of 
the franchising activity at the Aeronautical Center, the Civil Aviation 
Registry, and the Office of Commercial Space Transportation. Full cost 
information includes assignment of all direct costs, distribution of 
all operational indirect costs, and allocation of all overhead costs.
    The baseline system will also provide partial cost information in 
support of Air Traffic Services (ATS). For ATS the system will provide 
fiscal year 1997 actual cost data for each Air Traffic and Airway 
Facilities field facility. This data will include direct cost for the 
facilities and allocated overhead costs. It will also include 
redistribution of some, but not all, indirect operational costs (i.e., 
operational leased telecommunications costs, NAS supply support costs, 
flight inspection costs). Complete redistribution of indirect 
operational costs will be completed by March 1998.
    The baseline system will also provide an FAA-wide project coding 
structure which will enable R&D, F&E, and Operations Appropriations 
costs to be rolled up to the Capital Investment Plan (CIP) level. The 
baseline system will provide a project cost accounting capability for 
the Research and Acquisition (ARA) organization at FAA Headquarters. 
The system will also prototype a labor utilization cost reporting 
capability for the ARA organization beginning October 1997.

    Mr. Wolf. What is your schedule for full completion and operational 
use of the new cost accounting system?
    [The information follows:]
    The system will be fully completed and operational by the end of 
fiscal year 1998. The fully operational system will provide full cost 
information for all FAA lines of business. During fiscal year 1998, the 
LOB's will be refining their requirements in terms of their customers, 
products and services, performance metrics, and information 
requirements. The cost accounting system selection and subsequent 
development process will ensure that the system implemented offers the 
flexibility to satisfy the increasingly refined user requirements.
                       User Fees--Outlay Scoring
    Mr. Wolf. By CBO's scoring, user fees cost us more in first-year 
outlays than a regular appropriation from the general fund or the 
aviation trust fund. User fees outlay at 100 percent compared to 88 
percent for the regular appropriation. The results, that for the same 
amount of outlays, we could provide $34 million more with a regular 
appropriation than with user fees. If the FAA's needs are so great, 
would you explain why the administration didn't take this approach, 
rather than the user fees?
    [The information follows:]

    The Administration's 1998 budget assumes an overall spend-out rate 
for FAA Operations of 88 percent in the first year and 12 percent in 
the second year. In 1998, the budget proposes that FAA Operations 
receives funding from three different sources--the general fund ($1,611 
million), the airport and airway trust fund ($3,425 million), and 
aviation user fees ($350 million). To administer all funding for FAA 
Operations from one account, rather than three, the $3,425 million from 
the ``Trust Fund Share of Operations'' account and the $350 million 
from the ``Aviation User Fees'' account are outlayed 100 percent from 
those accounts and paid into the general fund operations as offsetting 
collections. Once in the general fund account the $3,425 million and 
$350 million spend out at the regular 88 percent/12 percent rate. Net 
outlays among the three accounts work out to be 88 percent in the first 
year and 12 percent in the second year.
    Thus, the 100 percent outlay rate for the ``Aviation User Fees'' 
account is merely a technical move necessary to transfer the aviation 
user fees into the general fund operations account. There is no 
programmatic reason why funds derived from aviation user fees would 
outlay faster than funds derived from the general fund or the trust 
fund, since funds from each of these three sources are being used to 
support the same program--FAA Operations. Regardless of the mix of 
general funds, trust funds, and user fees that the Committee may choose 
to appropriate for FAA Operations in 1998, the overall spend-out rate 
that should be used to score the total amount appropriated for FAA 
Operations is 88 percent/12 percent.
             User Fees--Proposal to Raise Discretionary Cap
    Mr. Wolf. The administration proposed that obligations for all FAA 
user fees be contingent upon Congressional authorization and 
appropriation, and that all expenditures be accounted for under the 
domestic discretionary budget allocations. Doesn't this treatment 
undermine the FAA's very reason for wanting user fees--which was to get 
out from under the discretionary budget caps?
    [The information follows:]

    Under the administration's proposed scoring rule for user fees, it 
would no longer be necessary for the FAA to get out from under the 
discretionary budget caps in order to spend the amounts collected from 
users of FAA's services. The proposal would establish a direct link 
between aviation user fee collections and the FAA's funding level, 
without removing the FAA's programs from the discretionary side of the 
budget.
    Spending of the FAA's new fees will be accounted for under the 
domestic discretionary budget and an initial adjustment will be made to 
increase the cap by 75 percent of the estimated receipts. Because the 
fees would have the effect of reducing certain corporate income taxes 
that would otherwise be paid to Treasury's General Fund, a 25 percent 
offset rule for the loss in revenue applies. Consequently, the FAA user 
fees will be appropriated 100 percent, but other discretionary spending 
will be reduced by an amount equal to 25 percent of the fee.

    Mr. Wolf. How does such a concept promote funding stability--a 
presumed goal of user fees?
    [The information follows:]

    In determining the amount to charge users, a fee rate would be 
established that took into consideration annual increases and decreases 
in collections. If there is a long-term, significant drop in user fee 
collections, presumably with less service required of and provided by 
FAA, user fee rates would be adjusted accordingly.
    Historically, however, FAA operations has not decreased due to 
recessions, temporary fluctuations in the economic climate, and other 
such factors. Air carriers continue to fly but with fewer passengers 
and less cargo. Since fees would be based on the service provided and 
not on the number of passengers and the amount of cargo carried, fee 
collections would not be materially impacted by a recession or similar 
factor.
              faa funding for major study recommendations
    Mr. Wolf. Mr. Valentine, the FAA is now in the middle of an 
extraordinary, multi-faceted review of its operations, programs and 
priorities. Last year, the Gore Commission issued findings to improve 
aviation safety and airport security, the FAA issued its Challenge 2000 
report, as well as a 90-Day Safety Review of inspection activities in 
the wake of Valujet.
    The Gore Commission issued more findings last month, and we had the 
Coopers and Lybrand independent financial assessment of the FAA. Of the 
studies issued thus far, which major recommendations are funded in the 
fiscal year 1998 budget request, and which ones are not?
    Mr. Valentine. The Challenge 2000 recommendations are funded, I 
believe, to the tune of $13.2 million in the 1998 budget and the 90-Day 
Safety Study recommendations are included to the tune of about $16 
million in the 1998 budget.
    Mr. Wolf. So were there any recommendations that were not funded in 
either?
    Mr. Valentine. The funding allows us to address those 
recommendations I think that we feel we can put into place during the 
time frame of the 1998 budget.
    Mr. Wolf. Which of these initiatives are being started 
during fiscal year 1997, and since some of the studies were 
completed after submission of your fiscal year 1997 budget, 
what impact is this having on your 1997 operating and 
modernization budgets? Are other activities being deferred?
    [The information follows:]

    The 90 Day Safety Review and the initial recommendations of 
the Gore Commission are funded in fiscal year 1997 and 
implementation of those studies findings has begun. The Omnibus 
Continuing Resolution contained funding for the fiscal year 
1997 costs of the 90 Day Safety Review and the initial Gore 
Commission findings.
    The final findings of the Gore Commission issued in 
February 1997 are not funded in fiscal year 1997. Except for an 
advance appropriation of $100 million requested for fiscal year 
1999, funding is not included in the fiscal year 1998 budget 
submission since the budget was completed prior to the final 
recommendations being issued. The final findings of the Gore 
Commission are being reviewed to determine the details of 
implementation as well as the additional costs, if any. Once 
the costs have been determined, it may be necessary to request 
a supplemental appropriation for fiscal year 1997 and/or submit 
a budget amendment for fiscal year 1998.
    Regarding the Challenge 2000 initiative, further work with 
industry interest groups is taking place in fiscal year 1997. 
Implementation of the Challenge 2000 initiative will begin in 
fiscal year 1998 and the President's Budget included the funds 
necessary for fiscal year 1998.

             Impact of Legislative Changes of FAA Authority

    Mr. Wolf. Over the past 18 months, Congress has authorized 
major changes in the way FAA does business, changes a lot of 
other agencies would love to have. We have freed the agency, 
and this Committee was partly responsible, from OPM personnel 
regulations, hiring rules and fixed pay systems.
    We have freed the agency of government-wide procurement 
requirements and small business set-asides. We have freed the 
agency of oversight from higher authorities like the Office of 
the Secretary and OMB. We have established a Management 
Advisory Council to help guide the agency's decisions. To talk 
about some of these, let us see how well the agency is doing.
    The FAA Reauthorization Act of 1996 states the 
Administrator ``shall not be required to coordinate, submit for 
approval or concurrence, or seek the advice or views of the 
Secretary or any other officer or employee of the Department of 
Transportation on any matter with respect to which the 
Administrator is the final authority''. The act declares the 
FAA Administrator to be the final authority in the following 
areas: appointment and employment of all officers and employees 
other than Presidential and political appointees; acquisition 
and maintenance of equipment; and promulgation of regulations, 
rules and orders.
    How have your procedures changed relative to the Department 
of Transportation and OMB as a result of this wide-ranging 
degree of independence?
    Mr. Valentine. I think in most of our acquisition efforts 
since last April and most of our personnel efforts since last 
April, we have been conducting them within the agency without 
particular involvement or influence from OST at all.
    Mr. Wolf. Do you submit proposed regulations to them for 
review and approval?
    Mr. Valentine. Under this new procedure, we submit to them 
those regulations that we are required to as triggered by 
either the amount or the subject matter, its degree of 
seriousness.
    Mr. Wolf. What about the acquisition program?
    Mr. Valentine. The acquisition program is pretty much 
conducted right in-house in the FAA.

                         Benefits From Reforms

    Mr. Wolf. There were huge expectations over the promise of 
procurement and personnel reform at the FAA. The department 
made a big pitch for the increased flexibility that would come 
from such reforms, and Congress passed that legislation. In 
signing the fiscal year 1996 appropriations bill, President 
Clinton made special note of these reforms. However, it appears 
that the promised cost savings and management efficiencies have 
not yet materialized. What identifiable benefit can FAA show 
today from these significant reforms?
    Mr. Valentine. I think one fairly obvious benefit is 
theincreased rate at which we are able to hire people and get the right 
kind of people and the increased rate at which we are able to issue 
contracts, and as a result of that, field systems. But I think earlier 
I mentioned some examples of that. There are a number. I would be happy 
to mention some others.
    It will be a while before one will be able to look back and 
translate that into savings that one can put a dollar value to 
but clearly any time that you are doing something in six months 
that used to take two years you have got to be saving money. 
Any time that you can hire somebody in a matter of weeks 
instead of in a matter of months and go through a much less 
cumbersome process, you have got to be saving money.

                      Effects of Personnel Reform

    Mr. Wolf. So you think it is working well?
    Mr. Valentine. I think it is working very well. I remember 
Dave Hinson the first day, I think that Monday after the April 
1 passage went out and hired one of our senior scientists that 
day right on the spot. We, incidentally, since that time, and 
at that time we only had two on board, we now have all 16 on 
board.
    Mr. Wolf. And what would that normally take to hire that 
person?
    Mr. Valentine. Months. Particularly in looking for people 
of that stature would have been a very involved process 
previously.

                        Personnel Reform Savings

    Mr. Wolf. Two years ago, the FAA claimed that OPM personnel 
regulations and position classification held them in a straight 
jacket, costing the agency millions in hiring costs and 
preventing the agency from hiring talented people and placing 
them where they are most needed.
    Yet the first implementation of personnel reform led to new 
pay incentives which may lead to increased costs in the long 
run. Can you give us any examples of how you have used the 
personnel reform to save money?
    Mr. Valentine. I think as I mentioned a moment ago, our 
ability to hire the kind of people we need when they need them, 
that we have been able to do that is an example of how that 
works. I will note that a great many of our employees are of 
course members of unions and we are not in a position to act 
unilaterally with regard to those members who are part of 
bargaining units.
    We have, however, recently through our personnel process 
developed in conjunction with the union recommendations for 
whole new personnel procedures, and in fact I believe April 30 
is the date at which we will have that document out so very 
shortly. But we have revised the whole personnel process with 
regard to staffing, compensation, travel, training, all of 
those issues. And as of the end of April, we will have 
basically the newly designed personnel processes available.

                           Procurement Reform

    Mr. Wolf. What about procurement reform? We heard you saved 
six months in the contracting time to award the STARS computer 
contract, but the GAO just told us that this amount still has 
significant risks to its schedule, and that you met the 
accelerated schedule, in part, by deferring critical decisions 
until later. We have seen some new equipment successfully 
fielded, but that was bought under the old system, not the new 
one. Can you point to concrete changes in particular major 
acquisition programs that are directly the result of 
acquisition reform?
    Mr. Valentine. I think first of all, as I mentioned 
earlier, the way in which we were able to solve the problem 
with the WAAS contract was entirely different than the way we 
dealt with those kinds of problems in the past and I think you 
are probably very much aware of that from previous programs.
    Mr. Wolf. Have you saved any money?
    Mr. Valentine. Pardon?
    Mr. Wolf. Have you saved any money?
    Mr. Valentine. Had we not been able to make that rapid 
adjustment, we would have invested money that would have been 
producing no result or no timely result. The fact that that 
program is back on track where it otherwise would not have been 
translates certainly into saving quite a bit of money in that 
case.
    We have a number of other programs that I mentioned in my 
opening speech that are under way and that are on track and on 
schedule. In some cases some of the larger ones are even 
slightly ahead of schedule so we think that the new acquisition 
process is showing very definite benefits.

                  Impact of a Full-Time Administrator

    Mr. Wolf. Do you think if there had been a full-time 
administrator on early that more could have been done?
    Mr. Valentine. I do not know that the absence in the last 
few months of an administrator has made any difference in that 
part of the program, no. We have good competent staff people 
managing programs in the FAA.
    Mr. Wolf. So not having an administrator has had no impact?
    Mr. Valentine. I do not think it has had an impact on the 
acquisition program, at least at this point anyway.

               Coopers and Lybrand Report--Reform Savings

    Mr. Wolf. Back in 1995, the FAA told us that acquisition 
reform was expected to save 20 percent of your average 
acquisition costs. This could be hundreds of millions of 
dollars, yet Coopers and Lybrand says your budget assumes no 
explicit savings from acquisition reform. Is this true?
    Mr. Valentine. The Coopers report did say that in looking 
at our budget it did not encompass any savings. Our budget 
reflects basically a status quo operation. I do not know that--
--
    Mr. Wolf. No savings because----
    Mr. Valentine. No savings. I do not think at this point we 
are in a position to be able to quantify the magnitude of the 
savings that we will see from those personnel and procurement 
reform. I think in future years it will be much easier to do 
that, but I think it is too early in the program to be able to 
say with certainty as a result of this we are going to save X 
because if we are wrong then we are going to be in that bind 
you were talking about earlier.

                             Travel Reform

    Mr. Wolf. For many years, the Inspector General and 
Congress have been encouraging reforms in permanent change of 
station policy that could save the agency millions. Several 
improvements were suggested five years ago by the IG, but they 
were never implemented. Last year, Administrator Hinson told 
us, and I quote, ``it is one of our immediate priorities to 
address our travel costs, our PCS moving costs and all of these 
issues where we can put into place common sense savings''. Even 
the agency's ``immediate'' priorities in reform seem to take a 
long time. What travel reforms have been made?
    Mr. Valentine. As I mentioned earlier at the end of the 
month we will have the new personnel program available and that 
will include travel reform. In terms of specific details, Mr. 
Chairman, I am not aware of it. I would be happy to ask 
somebody here if they would like to address that. We have folks 
who are familiar with it.
    Mr. Wolf. Okay.
    Mr. Valentine. I will ask Mr. Verberg who is our assistant 
administrator for administration.
    Mr. Verberg. Mr. Chairman, we have been working at this 
since the last hearing. This is something that has been a high 
priority. We have worked with our management board on this 
initiative. We have briefed the unions twice and we developed a 
variety of proposals including, for example, a flat rate for 
temporary duty station that would reduce the costs for the FAA, 
including also flat rates for permanent change of station which 
would reduce the cost.
    Our estimated reduced cost for 22 initiatives would be 
about $6 million a year. As Barry mentioned, toward the end of 
this month we expect to pull that together and get approval for 
proceeding with those initiatives.
    Mr. Wolf. When will that be because it was actually 
approved last summer, was it not?
    Mr. Verberg. Yes, sir. We had the authority to move forward 
with these but we formed a task force to work out what the 
initiatives should be for travel reform. We came up with a list 
of initiatives and we narrowed those initiatives down to the 
ones we thought would bear the most fruit for the agency and 
those came down to 22, and that is the $6 million estimate 
mentioned.
    Mr. Wolf. Last year, the FAA told us it costs the agency 
$40 to process a single travel voucher. The GAO says it costs 
$20 in the private sector. With your large travel budget, 
implementing the findings of the GAO, IG, and the President's 
Council on Integrity and Efficiency to streamline travel would 
save the agency millions in administrative costs, is that----
    Mr. Verberg. As we indicated, we are going to save this 
amount and we do have other initiatives under consideration.

                         travel reform savings

    Mr. Wolf. How much of that will be reflected in the 1998 
budget then?
    Mr. Verberg. Once we start these initiatives, and they are 
implemented, our estimate is $5.91 million per year when they 
are actually implemented. I will point out some of these we are 
trying on a prototype or a pilot basis, if you will, in some of 
our regions to see how they work. There are several that are 
going to be pilots. If they work well, and we see the savings, 
we will roll them out through the whole agency. There are some 
that will roll out starting up front right away.

                      management advisory council

    Mr. Wolf. Another recent reform was the legislative 
directive for the FAA to establish a Management Advisory 
Council. The FAA Authorization Act of 1996 required the council 
to be up and running not later than three months after its 
enactment, which would have been two months ago. Has this 
council been established, and if so, can you tell us who the 
members are?
    Mr. Valentine. The members of the council have not yet been 
identified, Mr. Chairman, but what we have been doing within 
the agency is developing basically an outline of what we think 
the appropriate role would be for the commission in dealing 
with the FAA and what kind of support services we as an agency 
would have to apply to make that happen. We have that fairly 
well outlined and are awaiting the identification of the 
specific individuals.
    Mr. Wolf. Well, then maybe it did matter not having an 
administrator. You are two months late now. When do you think 
this will be up and running? Will you do it before a new 
administrator comes on or will you do it even without a new 
administrator coming on?
    Mr. Valentine. That issue is being coordinated with the 
White House presently and I would be happy to get an update for 
you as to when we might expect that.
    Mr. Wolf. Will you move ahead? What if an administrator 
does not come on for two or three more months?
    Mr. Valentine. I think in the ideal there was hope that the 
new administrator would play a role in that process but if it 
looks like there is going to be an extended period of time 
before we have one, then I think we would have to reconsider 
undertaking that beforehand.

                            personnel reform

    Mr. Wolf. Do you have any goals for the personnel reform 
effort, and if so, is one of those goals to achieve cost 
savings for your annual operating budget, which is increasing 
faster than the rate of inflation?
    [The information follows:]

    The underlying objectives of personnel reform include 
getting the right skills in the right place at the right time, 
providing increased flexibility, incorporating state-of-the-art 
best practices, and supporting enhanced productivity. Cost 
containment and potential cost savings, particularly with 
regard to the administration of agency human resource programs, 
are basic tenets of personnel reform.

    Mr. Wolf. With the flexibility provided through personnel 
reform, FAA is now developing, with its unions, a new pay 
classification system for FAA personnel. This could replace the 
current ``GS'' pay scales with a wider pay scale. Do you expect 
that this will lead to increased costs for the agency?
    [The information follows:]

    No. One of the primary objectives that has been adopted for 
the FAA compensation system is to ensure fiscal responsibility, 
and we expect that the new system will be budget-neutral for 
the agency as a whole.

                     gainsharing personnel program

    Mr. Wolf. Personnel reform also offers the opportunity to 
more effectively reward successful personnel through a program 
called ``gainsharing''. Essentially, if your staff bring a 
program in under budget and under cost, the agency shares some 
of those savings with the employee. This might address some of 
the GAO's concerns about the FAA acquisition culture. A year 
after personnel reform began, have you implemented gainsharing? 
Why not?
    [The information follows:]

    The Federal Aviation Administration (FAA) has worked over 
the last year on a goalsharing program for its ``lead the 
fleet'' acquisition reform projects. Goalsharing differs from 
gainsharing in that it awards achievement of ambitious goals, 
rather than sharing of monetary gains. FAA's Compensation 
Committee approved goalsharing last fall for eight ``lead the 
fleet'' programs. The program will make substantial awards to 
members of integrated product teams who achieve their goals.
    We expect the program to be implemented this spring, 
pending resolution of issues involving unions, program funding 
stability, and identification of an appropriate source of funds 
for the awards.

                             travel reform

    Mr. Wolf. What savings in PCS reform are reflected in your 
fiscal year 1998 budget?
    [The information follows:]

    Union coordination of the PCS reform recommendations in 
travel reform are not yet complete. Therefore, the FAA is not 
reflecting the savings in the fiscal year 1998 budget.
    The FAA anticipates overall savings from travel reform. The 
projected savings fall into 2 categories: (1) cost avoidance 
(such as staff time to process travel documents will be made 
available to do other duties), and (2) real savings that depend 
on approved travel funding levels. The projected overall 
savings annually in travel reform is $5.91 million.

    Mr. Wolf. Coopers and Lybrand tells us that the FAA 
Executive Board approved 21 of 26 proposed travel reforms last 
summer--but no action has been taken. Is it true that even top 
FAA executives approved many of these reforms, yet nothing has 
been implemented?
    [The information follows:]

    The Board was initially presented 28 travel reform 
recommendations, not 26. The Board approved 21 of the travel 
reform initiatives. We have been working to resolve issues on 
the remaining recommendations. The approved and pending draft 
travel reform initiatives have been presented to union 
representatives in preparation for coordinating with the 
bargaining units.

                    independent financial assessment

    Mr. Wolf. An important component of the aviation's 
commission work will be to review the independent financial 
assessment of the FAA, recently completed by Coopers and 
Lybrand. What is the agency's overall response to the Coopers 
report?
    Mr. Valentine. I think first of all the Coopers report 
verified or confirmed the numbers that we had developed in 1995 
regarding what we estimated to be our shortfall over the period 
of 1995 through the turn of the century, through 2002 
principally. That number was based, as I said, on a 1995 
estimate and assumes status quo operations.
    Obviously, if there is a larger than expected growth in 
activity that would go up. If there are economies that can be 
achieved through the aforementioned personnel and procurement 
reform and in other areas that number could go down, but first 
and foremost Coopers did at least verify that there is a 
difference between that which we will need and that which 
budget projections for the next several years suggest we will 
have.
    Secondly, Coopers looked at the issue of the capital needs 
for airport programs, airport development. Their estimate is, 
and they acknowledge that it was a rough estimate, is $7 
billion to $8 billion per year over the next five years. The 
airline industry suggests that it is less. The airport folks 
suggest that it is more. It is probably in the ballpark given 
those parameters.
    Coopers suggests that there are a number of things the 
agency should consider and we have taken the whole Coopers 
recommendation and pulled out of it those things that they 
suggest we consider to better run the agency and we will 
continue to be looking at ways to bring those into play. I 
think the important part is that it did at least verify that 
the numbers that we have been using are in the ballpark at 
least.
    Mr. Wolf. How has it been received in the agency?
    Mr. Valentine. I think it has been received fairly well 
given the fact that it did support many of our contentions. I 
think within certain subject areas we felt that because of the 
very short period of time that Coopers and Lybrand had in which 
to conduct this study that they were not able always to look as 
closely at some of those areas that I think even they would 
like to have had they had more time to do it. But within the 
context of those limitations I think we were satisfied with the 
report.

              employee protection in user fee environment

    Mr. Wolf. I have some other questions that I will submit 
for the record on that. When air travel flattened out due to 
the recession between 1990 and 1993, many airline and aviation 
industry employees were furloughed because there was not enough 
revenue to sustain their pay. Some companies went out of 
business completely when demand dropped off and they could not 
compete in a harsher environment.
    By contrast, even though they support the industry, during 
that time FAA employees were protected and continued to receive 
pay raises because they were federal employees covered by the 
general schedule rules. How would these employees be protected 
in an environment where the FAA is totally financed by user 
fees if the demand for their service drops off?
    Mr. Valentine. If the demand for the services dropped off 
in such a way that it resulted in less fees, and I will comment 
on that in a moment, and we had less money, if you were to 
assume that that dropoff was a trend, and that is the key, I 
think, to the long range planning year. If you assume that that 
dropoff reflected a trend, then it would behoove the agency to 
look at those areas in which it would reduce its staffing level 
commensurate with the reduced workload.
    One of the things that I always caution, having been in 
this business in various segments for many years, is to not 
make decisions on the basis of short-term trends in aviation.
    Mr. Wolf. No, but how do you protect--I mean I think those 
employees should know that they are protected.
    Mr. Valentine. I understand your question, and if the 
agency relied solely on fees and had no other mechanism in 
place including supplemental action or support on the part of 
Congress than if the money is not there you cannot pay 
thepaycheck. So if it was strictly fee-based and activity dropped, and 
fees dropped, then there would be the issue of what services you would 
have to discontinue. One way to address that is----
    Mr. Wolf. It could deal with safety issues too.
    Mr. Valentine. It could. It could. My expectation is that, 
and just looking at history, whenever there have been 
recessions and dropoffs in activity, even though there have 
been drops in passenger activity, the drop in the demand for 
FAA services has not been commensurate with the drop in 
passenger activity.
    If you look back at the numbers there were not significant 
reductions in flights. There were simply lower loads, passenger 
loads, on the carriers when that happened and they lost money 
but they did not cut back significantly to the point where it 
was reflected in any significant decrease or if any decrease at 
all in the demands on our services.

                    effects of recessions on flights

    Mr. Wolf. Can you--not that I do not take you at your 
word--but can you develop that for us so we can see where the 
recessions are. Look at the number of flights so we can see. 
The concern is what if we had a recession, would you have to 
increase rates? If flights did decrease, would you have to 
increase rates?
    Mr. Valentine. That is an alternative as a way of counter 
balancing a reduction in activity.
    Mr. Wolf. But isn't that the very time the airlines would 
have a more difficult time in making payments?
    Mr. Valentine. That is correct.
    Mr. Wolf. So you are cross pressuring----
    Mr. Valentine. You could find yourself in that fix, that is 
correct.
    Mr. Wolf. Some of these airlines have been in chapter 11 
and have had a difficult time. So if flights were to drop and 
fees were to go up and we were in a recession, you could have a 
difficult situation. And the protection for the federal 
employee, which I think is important, is no longer there.
    Mr. Valentine. That would be a possibility. The current 
structure is such that regardless of whether or not there is a 
recession, the industry continues to pay its 10 percent or 
whoever you want to assume pays that, however you want to argue 
that. The gasoline taxes, the ticket tax, the freight bill, all 
of those remain in effect regardless of whether or not there is 
a drop in activity. There is a proportional reduction in 
payment as a result of that reduction in activity.
    [Additional information follows:]

    The extent to which user fee revenue fluctuates over the 
business cycle depends on how the fees are structured. Fee 
revenue based on enplanements may suffer significant 
fluctuations over the business cycle. Fee revenue based of 
aircraft operations will experience little variation. Aircraft 
operations experience less variation over the business cycle 
than the number of enplanements. The user fees the FAA are 
considering are generally based on aircraft operations.

                         lapse in excise taxes

    Mr. Wolf. The ticket tax was off for quite a while.
    Mr. Valentine. I know, because we had enough of a balance 
in the trust fund to be able to support ourselves.
    Mr. Wolf. But you lost how much money?
    Mr. Valentine. A lot of money, yes. That is correct. But 
that was at a time, incidentally, when the industry itself was 
seeing significant increases in activity.
    Mr. Wolf. Then did consumers save?
    Mr. Valentine. According to the numbers I have seen, they 
saved a little but apparently not as much as some might suggest 
they ought to have.
    Mr. Wolf. Where did that money go then?
    Mr. Valentine. I do not know.
    Mr. Wolf. Really?
    Mr. Valentine. I am not an airline stockholder and I do not 
follow the market so I do not have any idea what the results 
were for those who are on that side of the business.

            funding levels--impact on modernization program

    Mr. Wolf. Coopers points out that as the FAA's original 
budget winds its way through the OST and OMB review process, 
and then through Congress, an increasing amount of money is 
taken from the modernization programs, while the operating 
account is ``protected'' because the growth covers pay and 
benefits of employees. Do you agree with Coopers that cost 
growth in operations make it difficult to provide higher levels 
of funding for modernization and AIP grants?
    Mr. Valentine. I think any time there is a cost growth in 
any area it puts a strain on the ability to provide resources 
to any other area so I would say on its face that is a correct 
statement.

                c&l comments on organizational structure

    Mr. Wolf. Coopers said one of the most consistent comments 
throughout their interviews was that the FAA organizational 
structure was inefficient. They say many of your administrative 
functions are duplicated between headquarters and field staff, 
and that you have ``shadow staff'' performing many of the same 
duties. After reviewing a substantial number of internal 
studies, they concluded, and I quote, ``the potential for 
efficiency savings through the realignment of the FAA, both at 
the headquarters and the regional level, is significant''. 
Would you agree?
    Mr. Valentine. I would agree that there certainly are 
opportunities for savings by taking a look at the overhead 
costs, both at headquarters and the regions, to take a look at 
duplications of effort, to take a look at areas where we can 
consolidate, so I would certainly agree that there are 
opportunities for savings. Whether they are significant or not 
I could not say at this point but I would say that certainly 
there are opportunities there, yes.

                   c&l comments on management support

    Mr. Wolf. They went on to say, ``While many initiatives 
have been undertaken, they have yet to yield any material 
results. A major contributor to this is the lack of senior 
management backing. Perhaps the greatest challenge to the FAA 
in capitalizing on opportunities to improve efficiency through 
better business practices and reforms, and to re-engineer and 
restructure the regions, headquarters andbusiness lines, will 
be its culture and management's ability to change. Without senior 
leadership's commitment and willingness to put aside political 
posturing, this effort, like the ones preceding it, will not result in 
any meaningful savings for the FAA. It does, however, represent a 
tangible opportunity for the agency.''. What are your thoughts about 
that?
    Mr. Valentine. I think we agree at the agency that, as I 
said earlier in my statement when I said we have to change the 
way we do business rather than looking back on how we have done 
it in the past and repeating those efforts that we need to 
continue to look at better ways to do it. And that is the kind 
of change in our culture that I think needs to take place.
    I think everybody at the FAA would concur that there 
continue to need to be changes. We think that in the last three 
or four years we have introduced some of those changes. We 
think that with the help of Congress and our opportunities for 
procurement and personnel reform we are already seeing the 
fruit of those changes, but we recognize that that is an 
ongoing process that we need to continue to work at.
    And we would certainly acknowledge that an organization as 
large and as, how shall I say it, active day to day as the FAA 
is, we are sort of on a vehicle we cannot stop and get off 
because, as I mentioned earlier, we are operating 24 hours a 
day, 365 days a year. So while we are trying to make changes we 
are trying to make changes, as somebody once said, it is like 
changing a tire on a moving bus. We are trying to make changes 
to something that is large and in motion but we do need to make 
those changes continually and we recognize the need to reflect 
on our culture and to look at ways to improve that culture 
certainly.

                 c&l comments on regional consolidation

    Mr. Wolf. The last question and then I will recognize Mr. 
Sabo. According to Coopers and Lybrand, even though the two 
options studied for regional office consolidation resulted in 
savings of 638 and 978 staff years, the FAA took no actions on 
the recommendations. Why not?
    Mr. Valentine. On which consolidations are those?
    Mr. Wolf. Coopers and Lybrand had two options for regional 
office consolidation that the FAA's task force and regional 
organization, they made the recommendation for regional office 
consolidation in March of 1995.
    Mr. Valentine. If I may ask Mr. Verberg to address that. He 
would be more familiar with that. He oversees the regional 
offices.
    Mr. Verberg. Mr. Chairman, I know what section of the 
report you are referring to regarding regional offices. A 
number of the studies were done by the FAA and looked at, for 
example headquarters, and another was for regions. They were 
different slices, if you will, of the pie. The study you are 
referring to looked at two regions and the savings you referred 
to are related to those two regions.
    What we did not have was a complete look at what the FAA 
should be like in the next five or ten years, how we should be 
operating and, what should we be doing in the next five or ten 
years. What we had were looks at the immediate, if you will, 
situation versus where we should be going and how should we 
organize comprehensively.
    What was decided at that time was a referral to the 
productivity work group which Monte Belger chairs. And they 
have recently come up with some findings and suggestions in 
terms of how we can look more comprehensively at the 
organization instead of one slice at a time, so that we get a 
full look of how we should be organized for the future instead 
of looking at one part.
    So that is part of what I think some of the thinking was 
that we should look more broadly. I think there are some 
organizations in town that have used that approach. For 
example, the U.S. Customs Service, and U.S. Coast Guard, they 
have looked broadly across their organization. They have looked 
at what their business should be in the next ten years and then 
they organized around that instead of reorganizing and deciding 
what you should be for the future.
    The proposal was referred to the productivity work group 
and, as I said, Monte Belger has been working that issue. He 
may wish to add to the working of that group over the last 
eight to ten months.
    Mr. Belger. Thank you. I have worked for the FAA for 24 
years now and for all of those years it has been clear to me 
that there are enormous efficiencies that we could gain through 
looking at our regional structure. That is basically what he is 
talking about. The productivity work group which includes 
senior managers in the FAA and the union presidents from all of 
our unions identified dozens and dozens of potential areas for 
cost saving and efficiency.
    The number one item on our list, the number one item, was 
our regions, the structure of our regions. And that is going to 
be presented to the new administrator and I would hope that he 
or she working with you all and the other folks on the Hill 
would help us make the right decisions in the next year or so 
about our regional structure.
    The way we are approaching it now is different than the way 
I think the FAA has ever approached it in the past. We can all 
think of dozens of studies that have been done that looked at 
either closing regional offices, consolidating regional 
offices, downsizing regional offices, forming lead regions 
where one region did something for another.
    And we have been very unsuccessful in implementing any of 
those things with the exception of the closing of a region back 
in the mid-1980 time frame. We need to look at that a 
completely different way. We need to look at that in the 
context of what are the operational requirements, the 
operational requirements that the FAA has in its different 
functional areas, safety, security, air traffic management, 
maintenance, airports administration, for example. What are the 
operational requirements that lead you to some type of field 
structure. Rather than saying we have nine regions what can we 
do fiddle with them on the margins and try to get some savings.
    We really need to take a clean sheet look at what type of 
field structure do we need to provide the services that the FAA 
provides on a day to day basis and that is the philosophy we 
are going to give to the new administrator or the philosophical 
approach to the new administrator. I mean we know we need to do 
something with our regional structure. It is the top--it is 
number one on the list and it is kind of obvious to us that we 
need to approach that.

                      resistance to consolidation

    Mr. Wolf. Has most of the resistance been within the FAA or 
outside?
    Mr. Belger. Well, I think both. Obviously, there is a lot 
of--it is very difficult to close offices, as you know, and 
when you are talking about a large regional office with 
hundreds of people in a large metropolitan area it is just very 
difficult to do.
    I do believe, though, that the FAA has not done the best 
job in the past that we could do in justifying those decisions 
because it has lacked the operational impetus to make those 
decisions. I did not say that as clearly as it is in my mind. 
But, for example, and let me use quickly, if I could, an 
example and I will use our maintenance program.
    It is clear that in our maintenance area we are moving to 
fewer field offices. We have consolidated well over half of our 
field maintenance offices in the last couple years. We are 
moving to centralized operational control centers and we are 
moving to more remote maintenance monitoring capability. In 
other words, they do not have to have a technician at every 
site waiting for something to break. You have got a remote 
monitoring capability.
    All of those things have an impact on our traditional 
regional structure. When you establish operational control 
centers or regional maintenance centers it just inevitably 
leads to the question why do you still need the same type of 
regional infrastructure that we have always had. The same type 
of thing is happening in the safety organization where they are 
looking at the Challenge 2000 recommendations and the 90-Day 
Safety Review recommendations, and establishing a different 
type of operational organizations to perform their function.
    That is inevitably going to lead to questioning why do we 
need the same traditional regional structure. And it is a 
different way of looking at this problem which in the past we 
have not been very successful in pulling off.
    Mr. Wolf. That will be one of the first things that an 
administrator----
    Mr. Belger. Yes, sir. As the Coopers report said, this 
concept, if you will, was endorsed by the productivity work 
group. It was briefed to the FAA management board. We are in 
the process now of gathering some more specifics along the 
examples that I just used and it will all be presented to the 
administrator.
    Mr. Wolf. Mr. Sabo.

                      operations trust fund share

    Mr. Sabo. What percentage of FAA Operations does your 
budget assume to come from the trust fund?
    Mr. Valentine. It is roughly 70 percent--77.
    Mr. Sabo. For operations?
    Mr. Valentine. Oh, no, that is what percentage of the FAA 
is funded from the trust fund. Operations are 100 percent 
funded from the--I mean everything else but operations is 100 
percent funded from the trust fund and about 60 percent of 
operations.
    Mr. Sabo. 60 percent. Thank you.
    Mr. Wolf. Mr. Olver.

                        productivity work group

    Mr. Olver. Thank you, Mr. Chairman. Is the productivity 
work group a different work group from the work group that is 
working on classification standards?
    Mr. Belger. Yes, sir.
    Mr. Olver. How many other work groups do we have going?
    Mr. Belger. Well, we have several.
    Mr. Olver. Well, let us not get into the several, please. 
The productivity work group has been working for how long?
    Mr. Belger. It was established probably in the late summer 
of last year.
    Mr. Olver. Of 1996?
    Mr. Belger. Yes, sir.
    Mr. Olver. And is the Coopers and Lybrand study a source 
book for the productivity work group?
    Mr. Belger. Oh, absolutely, absolutely.

                  classification standards work group

    Mr. Olver. How long has the classification standard work 
group been working?
    Mr. Belger. Let me answer that two ways. At the FAA 
headquarters level we have had a concerted effort for the past 
year roughly but to answer your question in the real longer 
term, we have had folks looking at potential revisions to the 
classification standards for several years.

                     controller work force staffing

    Mr. Olver. From your earlier comments--Mr. Chairman, I am 
sort of going back trying to draw from where I was earlier, one 
thing that I forgot to ask you was since once I finally 
discovered what the base year was I never asked you and maybe 
you could tell me, Mr. Belger, what were the work force group 
numbers in the base year, the controller specialists and the 
supervisors and the management, traffic management people.
    Mr. Belger. I am sorry, help me understand what you mean by 
base year.
    Mr. Olver. You used the base year 1992. I finally accepted 
your base year because that was the one from which you told me 
you were counting the changes in staffing.
    Mr. Belger. Okay, let me see if I have that real quickly. 
Some of that data is in the budget itself.

                    cwf new classification standard

    Mr. Olver. You look for that for a moment, and let me ask 
Mr. Valentine a different question. In the fiscal 1998 budget, 
does it reflect the new classification standard, the proposed 
classification standard that we were discussing earlier, does 
that take into account that for fiscal year 1998 budget request 
and proposal?
    Mr. Valentine. Let me ask a question of someone back here. 
I do not think so but--it does not, no.
    Mr. Olver. Fiscal year 1998 does not involve the 
implementation of that standard?
    Mr. Valentine. No.
    Mr. Olver. Would you expect to have that in the fiscal year 
1999 or don't you even consider that? I mean it sounded to me 
as if we ought to be in position to put into effect a new 
classification standard which has been needed for a long, long 
time with the changes in traffic patterns and traffic usage and 
so forth. We ought to be putting that into effect fairly 
quickly, as quickly as we can.
    Mr. Valentine. We should be and I would assume that by the 
time we put together the 1999 budget that we ought to be able 
to reflect in there whatever the economics consequences are of 
the classification activity.
    Mr. Olver. Didn't I get the answer earlier, maybe I 
misunderstood it, that the new classification standard could be 
in effect by the beginning of fiscal year 1998?
    Mr. Belger. Yeah, let me follow up. I did say that. That is 
our goal is to have that done.

                 cwf new classification standards cost

    Mr. Olver. How do you implement it all if you do not have 
it provided for in the budget?
    Mr. Belger. We have no idea at this point what it will 
cost.
    Mr. Olver. You have no idea what it will cost?
    Mr. Belger. As I said earlier, that is the potential, the 
potential problem to implementing if it increases our costs.
    Mr. Olver. But it is possible to have that and you would 
hope that that new classification standard would be in effect 
at the end of this fiscal year, by the end of this fiscal year?
    Mr. Belger. That would be ideal.

                          cwf staffing levels

    Mr. Olver. That would be ideal. Okay. While you are still--
tell me whenever you have those numbers.
    Mr. Belger. Okay, well, I can give you two of the--I think 
there were four pieces of data. I can give you two of those 
right from the budget and I will have to go back and do some 
research to get the----
    Mr. Olver. All I am really interested in is the traffic--
the controller work force which I understood had three 
components.
    Mr. Belger. Right. If you look in the budget document 
itself which we submit in 1992 which is the year I used to make 
the statement about the reduction in supervisors the controller 
work force, this is an end of year number now, these are people 
on board at the end of fiscal year 1992, there were 17,982. The 
controller part of that number was 15,147. I do not have the 
precise numbers on supervisors and traffic management 
coordinators but we can certainly provide that.

                            oceanic traffic

    Mr. Olver. Okay, well, maybe somebody can provide that 
because that is pretty critical to my concerns about this, I 
think. I at one point asked earlier what was the reason for the 
very large increase in traffic management people over a period 
of time and actually I will defer any further until I know what 
the 1992 base year was for those because I am looking at 1981 
and 1992 and 1997 and what we see further down the road.
    So let me just follow a couple other things. My guess is 
that the TransAtlantic traffic has gone up greatly in this 
decade. Is that true? Do we know how much the--by what 
percentage TransAtlantic traffic has gone up and how much 
TransAtlantic or TransPacific traffic has gone up, traffic to 
the Far East out of the U.S. insofar in this decade?
    Mr. Belger. We certainly have that data in our analysis 
that the FAA does in looking at forecast information. I do not 
have that in my head but I can say safely that in the past few 
years the traffic over the Atlantic and the Pacific for that 
matter has increased pretty steadily and significantly and we 
have forecasts that that will continue.
    [Additional information follows:]

    For the period fiscal year 1986 through fiscal year 1996 
total U.S. and foreign flag carrier passenger traffic in the 
Atlantic market increased at an annual rate of 7.5 percent. For 
the Pacific market total U.S. and foreign flag carrier 
passenger traffic increased 8.8 percent per year.
    Or latest forecasts (March 1997) show that for the period 
fiscal year 1996 through fiscal year 2008 total U.S. and 
foreign flag carrier passenger traffic in the Atlantic is 
expected to increase 4.7 percent a year, and in the Pacific 6.3 
percent annually. Scheduled U.S. commercial air carrier 
enplanements are forecast to increase 4.1 percent annually in 
the Atlantic and 6.5 percent a year in the Pacific. (See 
following table.)

[Page 325--The official Committee record contains additional material here.]


    Mr. Olver. Okay. What I am leading to with that is I was 
going to go through a couple of sort of just operational 
questions here and, Mr. Chairman, I know you are about to start 
in this area and I have lots of questions to ask. Mine are 
probably a little bit different but I do need to go to 
something and I was thinking that I hope I will be back in time 
to continue a bit later.
    Mr. Wolf. Well, we are going to recess at 1:00 and we are 
going to come back about 1:30 or 1:40 so we are going to be 
here the rest of the afternoon.

                    new york tracon and retirements

    Mr. Olver. Okay, well, let me go on for a couple minutes in 
any case, if I may. I am reading the New York Times which is up 
in my general area. I keep hearing that the New York Center and 
New York TRACON, that they are rather badly understaffed and 
then as a third kind--that is a second sort of concern.
    The third sort of concern is that my impression is and from 
the Coopers and Lybrand there is estimates of when the 
retirements of people in the line traffic controllers will 
occur which looks as if got--certainly if one is going to take 
care of the attrition from retirements and increase the total 
numbers you have got to be hiring somewhere in the range of 100 
a week--a month rather, for the next ten years to cover those 
attritions.
    I do not get much impression that at least there is any 
history of being able to deal with a situation like that so 
when I see those pattern things, both the increases in traffic 
in major areas and some very serious shortage problems in a key 
market area, the New York are which has three huge 
international airports as well as lots of other stuff, and then 
the need for replacement both for increases in the workforce 
that had been funded and you are asking for more funds for and 
the attrition that needs to occur because of retirements or 
replaced because of the retirements going on over the next ten 
years, I am just wondering what are the mechanisms in place to 
handle all that at the present time.I am seeing some real 
problems in how we get those kind of situations dealt with.
    Mr. Belger. Let me answer your question in two ways, first 
in the aggregate and then more specifically to the New York 
area. As I said earlier, attrition or retirements is one of the 
three fundamental things that we have to closely analyze over 
the next six or eight years so we recognize that. We know we 
have to do that.
    Last year there were 218 retirements in the centers and 
towers from the controller ranks. We just had about 250 or so 
retirements this year, next year probably a little over 300. So 
we have a pretty good handle on the retirements. Certainly for 
the next three or four years it is still somewhat of an unknown 
as to how many people will actually retire after the year 2002 
when the larger numbers become available. That uncertainty is 
why we are asking to actually have the funds to hire more 
people.
    We are actually going to ask as we have briefed for the 
past two years, when we get to those years to slightly exceed 
even the staffing standard level for that particular year so 
that we can be prepared for subsequent years and retirements. I 
mean we continually look at the retirements, the eligibility, 
and try to make those projections to adjust our hiring 
appropriately.
    As to the New York area, I have spent more of my personal 
time on the staffing in the New York area probably than any 
other part of the country. There is no doubt it has been 
difficult.
    Mr. Olver. Will the classification standard help with that?
    Mr. Belger. Well, I certainly hope so. That is one of the 
objectives.
    Mr. Olver. We should all hope so.
    Mr. Belger. One of the objectives is to have standards or a 
classification compensation system that would encourage people 
to want to go from a less complex to a more complex facility. 
But I should mention also that we are doing other things beyond 
just looking at compensation systems. We have re-initiated a 
local hiring program in the New York area, what we call a co-op 
program. It is where we take college students who are working 
perhaps in their last two years of college, they go to school 
but they work part time for the FAA also, get some credit, and 
learn the air traffic control occupation.
    We will have about 15 co-op students in New York facilities 
by the end of this year. We are trying to do as much as we can 
to build a local hiring pool in areas like New York so that we 
can have more of a chance of hiring folks who really want to be 
there and will stay there for a longer period of time. We are 
doing that. We have committed to having the New York Center and 
the New York TRACON up to their authorized staffing levels by 
the end of fiscal year 1998. That is a commitment we have made.
    Mr. Olver. Mr. Chairman, I am going to ask Mr. Belger when 
we come back after 1:00 again for the number of--the base year 
number across the board so that I can think about that a bit. 
Thank you very much and I shall come back a bit later.

                     labor cost growth--air traffic

    Mr. Wolf. In particular, Coopers says that you must get a 
handle on labor cost growth. In the air traffic program, from 
fiscal year 1993 to 1996, the cost per staff year rose 18 
percent, from $71,250 to $84,341. The total estimated cost 
growth per staff over the five-year period 1993 to 1998 is 
projected to be 30 percent. And Coopers says 60 percent of your 
cost growth between 1997 and 2002 will be in operations--and 
heavily composed of increasing salary costs. Are these cost 
growth factors higher than we see in the labor force as a 
whole, and if so, why can't the FAA control its labor costs 
better?
    [The information follows:]

    Air Traffic's labor costs have been increasing at a higher 
rate than the labor force as a whole. The largest part of our 
labor costs is in the salaries of our controller work force 
which numbers over 17,000 men and women. One of our key 
priorities is to accelerate training of developmental 
controllers and move them up to full performance level status 
as soon as possible. This results in accelerated promotions for 
air traffic controllers and Air Traffic incurring higher costs 
for grade-to-grade promotions and within-grade increases than 
the rest of the FAA. Controllers also have a very high average 
grade level. The full performance level for air traffic control 
specialists at larger facilities is FS-14 grade. As our hiring 
of controllers accelerates (500 in fiscal year 1997 and 800 in 
fiscal year 1998), Air Traffic labor costs are expected to 
continue to increase at the current rate of about 6 percent per 
year as these new hires moves up to full performance level 
status.

    Mr. Wolf. In line with the Coopers report, have you set as 
a goal in your development of a new pay system for FAA 
employees, and as a goal in your union negotiations later this 
year, reductions in the rate of growth of pay?
    [The information follows:]

    One of the primary objectives of the FAA compensation 
system is to ensure fiscal responsibility. We will strive for 
the same objective in our negotiations with our labor unions.

    Mr. Wolf. I am reminded of the situation in the Washington 
area with bus drivers. WMATA insists on paying relatively high 
wages for bus drivers, which leads suburban communities to 
expand their own bus systems at lower wages. The FAA 
experiences high labor cost growth, and as a result finds that 
contracting out its low-activity towers to private companies 
makes good business sense and saves money. Wouldn't it make 
more sense to just keep your internal costs down?
    [The information follows:]

    Air Traffic has made concerted efforts to control internal 
costs. Since January 1992, we have reduced staffing from 27,404 
to 23,904 at the end of fiscal year 1996. That is a reduction 
of 3,334 or 12 percent. We have streamlined the organization 
and reduced the number of managers and supervisions from 4,122 
to 3,483 in the same period. This is a reduction of 639 or 15.5 
percent. Air Traffic has taken other cost saving initiatives 
such as the contracting of low activity Level I towers which 
will reduce the controller work force work load requirement by 
the equivalent of 1,000 controllers and save over $20 million 
per year. In addition, we have closed CONUS flight service 
stations and reduced flight service staffing from 4,156 in 
January 1992 to 3,374 at the end of fiscal year 1996, an 18.8 
percent reduction.
    Controlling aircraft is a complex, critical occupation that 
requires 3 to 4 years of intense training to reach full 
performance level. As a recognition of the importance of air 
traffic controllers to aviation safety they have relatively 
high average grade levels. Full performance level controllers 
at large facilities are FS-14 grades and also receive various 
premium and incentive pay.
    Air Traffic will continue to control costs to the extent 
possible, but it must be realized that over 93 percent of Air 
Traffic's operation costs are salaries and driven by the size 
of the highly skilled and well paid controller work force. 
These costs will continue to increase as the size of the 
controller work force grows to keep pace with increasing air 
traffic activity. The controller work force will grow to 17,300 
in fiscal year 1997 and to 17,800 in fiscal year 1998.

    Mr. Wolf. Under the GS pay system, there are many fixed 
rules on compensation. Within grade increases are more or less 
mandatory, as are special pays, night differentials, and grade-
to-grade promotions in the career ladder. However, the FAA has 
been freed of all those fixed promotional rules. Don't you have 
the flexibility now to design a new pay system which addresses 
Coopers' concern that pay costs are rising too rapidly?
    [The information follows:]

    Under personnel reform, we have the flexibility necessary 
to develop a new compensation system that places increased 
emphasis on fiscal responsibility. As we continue the 
development of a proposal for a new compensation system for FAA 
employees, we are reviewing all aspects of the existing 
compensation system to determine if they support the objectives 
and tenets of the new compensation system. However, we have not 
finalized any proposals for specific components of the new 
compensation system, and we must negotiate most provisions of 
the new system with our labor unions before making final 
decisions and beginning implementation of the new compensation 
system.
    Mr. Wolf. Coopers says ``ATC operation costs continue to 
increase faster than demand for FAA air traffic control 
services'' (p. III-9). If FAA transitions to a more business-
like environment, do you believe it possible to sustain cost 
growth which exceeds the demand for your services?
    [The information follows:]

    Air Traffic can explain to the users of air traffic 
services the significant actions we have taken to minimize cost 
increases of the air traffic system. Air Traffic cost growth is 
not exceeding the demand for air traffic services. Air traffic 
activity is projected to continue to increase. These increases 
will require that the controller work force grow by almost 
1,000 from the 17,080 level at the end of fiscal year 1996 to 
18,022 by fiscal year 2002. As Air Traffic operations costs are 
93 percent salary, large increases in the highly paid 
controller work force will require continuing increases in Air 
Traffic costs. From fiscal year 1992 to fiscal year 1996 Air 
Traffic reduced the overall work force by 12 percent from 
27,404 to 23,904. These large reductions have taken Air 
Traffic's other-than-controller to a level that precludes 
significant additional reductions in the other-than-controller 
work force. As a result, large reductions in the other-than-
controller work force will not be available in the future to 
offset the increases in the controller work force.

                EXECUTIVE RESOURCE COMMITTEE 1995 STUDY

    Mr. Wolf. Would you discuss the results of the Executive 
Resource Committee's 1995 study into ways of reducing FAA's 
costs at headquarters and in field operations, and tell us why 
those ideas were not implemented?
    [The information follows:]

[Page 330--The official Committee record contains additional material here.]


                  TASK GROUP ON REGIONAL ORGANIZATION

    Mr. Wolf. Would you discuss the results of FAA's Task Group 
on Regional Organization, which made recommendations for 
regional office consolidation in March 1995?
    [The information follows:]

    The Acting Associate Administrator for Administration 
chartered a task group to complete an organizational plan for 
servicing FAA's geographically diverse administrative and 
operational activities in view of National Performance Review 
and DOT mandates for change. Three recommendations were 
developed:
    1. Extend the Lines of Business (LOB) concept to the 
Regional Headquarters and Field Office Level and consolidate 
administrative support staffs within LOB to form self-
sustaining organizations.
    2. Establish an Integrated Administrative Support System 
(IASS) concept for the FAA. An IASS concept would have 
administrative support service direct providers housed within 
line organizations where appropriate, create administrative 
consultation teams to advise them and establish centralized 
processing centers to accomplish standardized, labor-intensive 
transactions.
    3. Two options were presented for restructuring within 
current regional office organizations:
    Option A: 5-6 regions with full division representation of 
all LOB and 3-4 regions with some LOB representation, but not 
at the division level. No region is closed, but line presence 
in some is greatly diminished.
    Option B: Mixing and matching of Lines of Business within 
all nine regions. Under this option, each region would have 
varied representation of LOB according to the demographics of 
the customer.
    The Group's recommendations were presented to FAA Associate 
Administrators and an implementation strategy was developed, 
which can be briefly summarized as follows:
    The implementation of Recommendation #2 should proceed as 
recommended. An evolutionary approach should be taken in 
implementing Recommendation #3, Option B. The Associate 
Administrators should begin to reduce the number of field 
divisions as opportunities appear, while maintaining a presence 
in those regions that will no longer have a division office.
    As a follow-on to this effort, the Acting Associate 
Administrator for Administration charted a Regional Structure 
Design and Transition Plan Team which developed options and 
presented recommendations on regional configuration to the FAA 
Administrator.

                      aviation fatal accident rate

    Mr. Wolf. The Gore Commission recommends a national goal to 
reduce the aviation fatal accident rate by a factor of five 
within ten years, and to conduct safety research to support 
that goal. Which segments of the aviation industry will you 
focus on to achieve this goal: commercial airlines, general 
aviation, charter aircraft or military aircraft?
    Mr. Valentine. The answer is all of the above.
    Mr. Wolf. Commercial airlines, general aviation, charter 
aircraft and military aircraft.
    Mr. Valentine. The answer is all of the above.
    Mr. Wolf. But is there one area that you think----
    Mr. Valentine. Well, I think the area that the public is 
most concerned about is in the commercial aviation area as that 
is the one that affects most of their lives. At the current 
rate what most people focus on is the commercial aviation rate, 
the airline industry rate.
    Mr. Wolf. And that is where you think the opportunities 
are?
    Mr. Valentine. When you look at the causes of accidents 
currently you recognize that, first of all, human factors plays 
the single largest role overall. Depending on whose numbers you 
use, about 70 percent of the accidents involve human factors 
either as the direct cause or a contributing cause to an 
accident.
    Mr. Wolf. 70 percent?
    Mr. Valentine. About 70 percent is a number typically used. 
You can probably adjust that plus or minus ten percent either 
way but that is a pretty commonly used number in the industry, 
about 70 percent. When you look at the types of accidents, that 
are responsible for most of the accidents, there are two that 
jump out immediately. One is the continued flight into terrain 
or CFIT, as we call it. And the other one is loss of control. 
Both of those usually result in pretty spectacular accidents 
when either of those things happen. If you take the two of 
those together, you are again seeing that somewhere in the 
neighborhood of 60 or 70 percent of the accidents we currently 
have seem to fall into those two categories.
    We are now seeing the installation of enhanced ground 
proximity warning systems which will address some of the CFIT 
problem. Currently the systems let you know when you are about 
to reach the ground prematurely, but they do not necessarily 
let you know that you are about to run into the side of a 
mountain where you ought not to be. There are systems that are 
available. There are airlines that are now installing them and 
that will address part of that particular problem.
    Loss of control is one that is a little bit more 
mystifying. Some of that is tied to aircraft characteristics 
and some of it is tied to pilot performance. One of the things 
that will help improve safety in that area is training to make 
sure pilots recognize when they are approaching that set of 
circumstances and also to know what to do when they find 
themselves in that set of circumstances. So those two areas in 
particular will generate some benefit immediately. Even if you 
go back a few years looking at the controlled flight into 
terrain, the CFIT accidents, before we put ground proximity on 
airplanes the accident rate from CFIT was about .6 per million 
departures. Today it is about .1 per million departures, so 
there has been a sixfold increase in safety in that area.
    The overall accident rate is about .3 per million 
departures right now so even that is half of what just the CFIT 
part was a few years ago. So we are working in the margins. If 
you look at the history of safety in aviation and the accident 
rate, it dropped dramatically from the 1950s and 1960s into the 
1970s and early 1980s. That was the result primarily of the 
introduction of turbine powered aircraft. We have extracted 
most of what we can extract out of airplanes. We are going to 
have to extract a good deal of what we extract in the future 
out of human performance.

                     human factors safety research

    Mr. Wolf. Well, that leads to the next question. The Gore 
Commission goes on to say that this safety research should 
emphasize human factors and training, but this is inconsistent 
with your fiscal year 1998 budget request which proposes to 
reduce human factors research by 12 percent, from $19,504,000 
to $17,081,000. And not only the Gore Commission, but also the 
ATA and the Safety Board support more funding for human factors 
research. Shouldn't we be increasing this based on the Gore 
Commission recommendation and not decreasing it, not holding it 
at the current level but even increasing but not decreasing.
    Mr. Valentine. When looking at our whole research budget, 
and we have got a number of projects underway, again we had to 
make the difficult decision as to where we think we should best 
employ our resources. In developing the budget that was where 
the numbers ended up falling. The human factors is more than 
just research, at least from my point of view, and I have been 
a pilot for nearly 40 years.
    Human factors problems can be addressed in a number of 
ways, not just through the FAA or just through NASA or some 
program funded by the government. It also needs to be addressed 
by the airline industry. It needs to be addressed by individual 
pilots in developing, in my opinion, a mindset that is hard to 
develop because we are all humans and we all operate under 
pressures. It is to know when to say no; to know when to 
execute what somebody once said is the safest maneuver in 
aviation, the 180-degree turn; and to know when circumstances 
are ganging up on you, to be more aware of those kinds of 
things. I think those play a very important role. Some of that 
can obviously be addressed through research and through 
government efforts, but I think much of it has to be addressed 
in the aviation community as a whole for a multi-faceted 
approach.
    Mr. Wolf. But don't you agree it would probably be a 
mistake to cut it, human factors, in the budget?
    Mr. Valentine. Well, one of the other agencies of 
government incidentally that is dealing with human factors 
issues is NASA and----

                      nasa aeronautical r&d budget

    Mr. Wolf. I understand that and so you do not step on it, 
let me just tell you what the two questions are and you can 
comment. After the Gore Commission's report, NASA indicated 
they would expand their aeronautical research program by $500 
million over the next five years, and I saw Mr. Donohue 
reaching forward to tell you, to address the findings of that 
study.
    The question is how firm is their commitment? At a recent 
hearing before the Science Committee, NASA Associate 
Administrator Robert Whitehead said that $500 million would 
include civil service salaries under NASA's ``total cost 
accounting methods''. In fact, he said only about 15 percent of 
the agency's existing research budget would need to be 
rearranged to handle these priorities.
    He told the Science Committee, which was concerned about 
the impact of the new initiative on NASA's existing efforts, 
``it sounds more than it is''. Does that mean it will not be 
the $500 million? What do you think it will be?
    Mr. Valentine. May I ask Mr. Donohue to address that?
    Mr. Wolf. Sure.
    Mr. Valentine. He is very familiar with that subject.
    Mr. Wolf. Who I think does a very good job for the FAA. Let 
me just say on the record, to put him on the spot, that I hope 
he stays at the FAA for many more years to come when there is a 
new administrator, because if Mr. Donohue were to leave and we 
lost his good corporate memory and knowledge and his efforts, 
it would really be a setback. I have not put you on the spot, 
have I? I want to ask you for the commitment publicly under 
oath if you are going to stay, but I do think that is 
important. [Laughter.] Go ahead.
    Mr. Donohue. I will address the NASA issue. Bob White 
correctly testified that what NASA's original commitment was to 
do a reprogramming, not request for new funds, a reprogramming 
of approximately $500 million over the next five years which 
would equate to about $100 million per year. They have been 
expending a considerable amount of money, as you know, on 
aviation research.
    What they are trying to do is take within their NASA 
allotment and at the margin move more into specifically looking 
at aviation safety. That involves adding some money that was 
going to other areas in the past and moving toward aviation 
safety, it also means taking the aviation safety research that 
they are conducting and be more focused in redirecting 
activities of their own researchers in their laboratories 
towards specifically the issues where we, the FAA, working with 
NASA are identifying as major safety problems.
    NASA in the past has done a lot of research on a wide range 
of areas. Many of them did not have a safety component to them. 
What they are trying to do, again with very close cooperation 
with the FAA, is identify what are the safety components of 
research to try to get the fivefold increase in safety.
    The amount of research dollars available are very 
constrained. We must work interagency with ourselves and NASA 
and also with the Defense Department, who has also a fairly 
sizable aviation research budget, to try to get the efficiency 
of our research higher. I think NASA, DOD and ourselves have 
been working over the last year and a half, after we had a 
considerable reduction in our research account to try to get 
better utilization of other agencies activities and resources 
towards our needs. That is what we have been doing with 
national research plans, coordinating with the White House, 
Office of Science Technology Policy, and coming up with 
national research plans. I think we have made considerable 
gains in improving the efficiency of our research.

                     air traffic controller hiring

    Mr. Wolf. You are requesting an appropriation to hire 500 
net new controllers in fiscal year 1998. In other words, you 
will hire enough to cover your attrition, plus 500 more to grow 
the workforce. However, as of the end of January 1997, four 
months into the year, you have not hired enough new controllers 
to keep up with attrition, even though we gave you enough money 
to cover attrition plus 250 more. The numbers appear you are 
deeper in the hole than you were when you started out, based on 
attrition.
    Mr. Belger. I think you are absolutely right looking at 
today. The reason that we did not start hiring on an even 
schedule earlier in the fiscal year is very simply because we 
did not have the salary in the whole program to support it. You 
are absolutely right and we obviously appreciate the funds that 
were provided for the additional staffing.
    But the reality is in our air traffic program we started 
the fiscal year with a salary deficit and we had to make some 
adjustments to insure that we had money to pay people for the 
year. Therefore, we made the priority decision to defer the 
hiring for a few months and we will start in April, hiring 
about 85 people per month through August. It will go to about 
50, I think, in September. We will meet the end of year target 
level that we have, as I said, starting with an even flow and 
hiring in April.
    Mr. Wolf. When is the last time you have ever met that 
target date of 85 for an intensive period of time? Is there a 
record in the FAA that that has been done before, and if so, 
when?
    Mr. Belger. Well, it would have to be back in the late 
1980s or early 1990s because from 1992 to 1996 the controller 
work force decreased so there was no significant hiring during 
those periods.
    Mr. Wolf. You can just submit it for the record, if you 
could just submit the time period.
    Mr. Belger. I would say the late 1980s or early 1990s.
    Mr. Wolf. What the level was, the top level per month, and 
how long----
    Mr. Belger. We can do that for the record but it would be 
in that time frame, I am sure.
    [The information follows:]

    The last time we hired at the rate of more than 85 per 
month for an intensive period of time was fiscal year 1991 when 
we hired 1,235 controllers. This completed the rebuilding of 
the controller work force from the strike of 1981, and got the 
CWF to a size that exceeded the CWF staffing standard. We 
reduced controller hiring from fiscal year 1992 through fiscal 
year 1996 for several reasons: The CWF was over the staffing 
standard, initiation of the level I contract tower program 
which required transferring about 250 controllers a year, 
starting fiscal year 1994, to higher level facilities and 
reducing our controller hiring accordingly, and finally, 
initiation of the National Performance Review and the push for 
a balanced Federal budget resulted in pressure to reduce 
staffing throughout the Federal government.
    The decline in the size of the CWF was reversed in fiscal 
year 1997, and we are continuing the process of increasing the 
CWF is fiscal year 1998 to 17,800. The CWF is now growing 
because the level I contract tower program is coming to 
conclusion and air traffic activity is continuing to increase. 
There is no shortage of people desiring to become air traffic 
controllers, and we do not anticipate any difficulty hiring 
additional controllers.

                       outyear aviation forecast

    Mr. Wolf. The Coopers study concluded your aviation 
forecasts for future years are overestimated, which would 
affect your requirement for additional controllers. They say 
``the high likelihood that future FAA workloads are 
overestimated needs to be among the factors considered when 
estimating future controller staffing needs'' (p. III-9). What 
is your response to that?
    Mr. Belger. Well, I believe this is one area where perhaps 
we could help by adding some information to what Coopers looked 
at. I believe that they were basically talking about passenger 
enplanement forecasts. The fact is we really do not use that in 
projecting air traffic controller work requirements because it 
takes just as much for an air traffic controller to provide 
service to an empty 727 as it does a full 727. So we look more 
at operations, aircraft movements, than we do passenger 
enplanements in looking at our air traffic controller workload 
generators.
    Mr. Wolf. Could you develop that a little bit so we could 
go back. This is going to be a big issue, figuring how you fund 
salaries and pay and all. If you could look at that and get 
their comments and go back to them and submit us something for 
the record.
    Mr. Belger. Yes, sir, I would be glad to.
    [The information follows:]

    The aviation forecasts are used to generate the staffing 
standards figures. It is important to note that the 
relationship between traffic growth and increased staffing 
required to support that growth is not one-to-one. In other 
words, a ten percent increase in traffic, would require only 
about a six percent increase in staffing, although this varies 
from one facility to another. Thus the errors implied by 
Coopers and Lybrand overstate the actual figures. Futhermore, 
revenue passenger miles forecasts, which had the largest error 
cited, are not used to generate staffing requirements. 
Operations, such as IFR aircraft handled which have smaller 
errors, are used. Finally, the staffing standards are reapplied 
each year and new figures are generated for the past year, 
current year, and at least ten future years using the latest 
traffic activity data and forecasts available as well as the 
most current attrition figures. So all controller requirements 
are updated annually, including required CWF, pipeline, and 
estimated attrition. Hiring plans are then carefully adjusted 
to reflect our best estimates of our future requirements. So 
the likelihood that too many controllers would be hired far in 
advance of the requirement is very small indeed.

                           patco controllers

    Mr. Wolf. In fiscal years 1995 and 1996, the FAA hired 24 
percent and 75 percent, respectively, of all its new hires from 
the PATCO ranks, former controllers. In 1997, the FAA plans to 
hire 75 percent of its new hires from this group. This targeted 
hiring is part of an initiative announced a year ago to give 
former PATCO controllers top priority.
    The Coopers study said this policy is ill-advised, because 
between 1997 and the year 2000, about 34 percent of the 
controller workforce will be eligible to retire. To the extent 
the FAA continues to hire from the PATCO pool, the agency is 
doing little to prepare for the reality of replacing these 
people because they themselves are close to retirement age. Is 
this a dangerous policy, and what is the age of the PATCO 
controllers you are rehiring?
    Mr. Belger. The average age of that group is between 50 and 
51, it is about 50\1/2\ years.
    Mr. Wolf. Isn't that a little dangerous? Whenever I go 
through an air traffic control facility, as I mentioned the 
other day, they are telling me how many are leaving and how 
high the burnout factor is. And, secondly, you talked about the 
future retirements based on the hiring that came in 1982 and 
1983 after the strike. Those people will be leaving. And they 
are younger than the PATCO people that are coming on. Is this a 
concern?
    Mr. Belger. Well, as I said earlier, we do only because of 
the uncertainty of how many people will retire in the 2002, 
2003, 2004 and 2005 time frame. I think it is fair to say that 
there is some concern but, again, that is why we have asked for 
the increases in these next several years.
    Mr. Wolf. That does not help you in the outyears. It seems 
to me if you are hiring--the average age is 51. Are there some 
older than 51?
    Mr. Belger. Oh, sure. Yes, sir, in order to get that 
average.
    Mr. Wolf. What is the oldest one?
    Mr. Belger. I do not have that. We have it in our data, but 
I do not have that in my head.
    Mr. Wolf. What is the oldest one that you know of?
    Mr. Belger. Probably late 50s.
    Mr. Wolf. I do not know if this is a political decision or 
whatever it is but I do think it is a little bit of a concern 
and----
    Mr. Belger. I would agree with you that it is a little bit 
of a concern. We are doing, I think, a very good job in 
selecting the folks that come back to try to make sure that we 
select the folks who have the highest chance of being 
successful and getting through the training.
    Mr. Wolf. If a 57-year-old person comes back, how long do 
you expect they will stay?
    Mr. Belger. It really depends on the individual.

                    training of rehired controllers

    Mr. Wolf. And what would the cost of training that person 
be, although less because they have experience, what would that 
cost be?
    Mr. Belger. The initial five-week training which all of the 
rehired controllers go through, it ranges from about $10,000 to 
$14,000 for that training. It depends on whether they are going 
to the terminal or the center option but it isin that range. 
And then, as you know, there is a period of on-the-job training when 
they go back to the facility which costs money also.
    Mr. Wolf. Is there a reflex problem, speaking at age 58 
myself, when I go out to the centers and talk to the FAA 
employees, the controllers, they do maintain there is an age 
problem. Is there a problem there?
    Mr. Belger. Well, I think that research has shown whether 
it be in the--well, I will say it in a more general way. 
Research has shown in a variety of different occupations that 
one does lose some reflexes as you get older whether you are an 
athlete or in any other job. I think though in the case of 
these folks in the facilities the training is rigorous. They 
have got to pass the same standards or meet the same standards 
as anybody else from a health standpoint, from a vision 
standpoint. They have to go through the on-the-job training in 
the facilities and be certified just like anybody else.
    Mr. Wolf. Okay, I think it is a concern perhaps and 
obviously I am not against taking care of men and women that 
are 58 years old but I think you understand----
    Mr. Belger. Yes, sir, I do.
    Mr. Wolf. Every time I go out there. Okay.

                 controller hiring in fiscal year 1997

    Mr. Wolf. I thought personnel reform was supposed to allow 
the agency to hire people faster. In this case, it sure hasn't. 
Why not?
    [The information follows:]

    The delay in hiring controllers in fiscal year 1997 was due 
to a shortfall in Air Traffic's salary accounts and was not 
related to any personnel system issues. As Air Traffic's budget 
is 93 percent PC&B, there is almost no flexibility to address 
salary shortfalls except through slower hiring. Air Traffic 
plans to increase hiring of controllers to a level rate 
starting in April.

                           controller hiring

    Mr. Wolf. If Congress approves the additional 500 
controllers, you would have a controller work force of 17,800 
at the end of fiscal year 1998. Yet your planning studies show 
a need for only 18,022 controllers in the year 2002. Given your 
problems in recruiting, and looking at this long-term goal, why 
wouldn't it make more sense to ``flatten out'' this curve, and 
hire at a lower rate through the year 2002 rather than loaded 
in the early years?
    [The information follows:]

    In connection with controller hiring, the amount of time 
needed to train an individual to the full performance level 
(FPL) must be considered. It takes approximately 3 to 4 years 
for a new hire to be fully certified on all operational 
positions at an en route center or a busy terminal facility. It 
is expected that many of those hired in fiscal year 1998 will 
become FPL's in 2001. Additionally, not all of those hired will 
successfully complete the training program. So it is not a 
matter of loading the system prematurely, but of hiring 
sufficient controllers at the proper time, recognizing that 
there will be some training failures and that it takes a long 
time to certify as an FPL controller.
    We do not have problems in recruiting new controllers. Our 
limited hiring in the past several years has been constrained 
by available funding and the fact the controller work force was 
over the staffing standard at that time. We have a large pool 
of former controllers, interested veterans, and college 
training initiative graduates seeking to become controllers. We 
anticipate no difficulty recruiting the additional controllers 
in fiscal year 1998.

                   renegotiation of union agreements

    Mr. Wolf. What is the schedule this year for renegotiation 
of the union agreements with NATCA and PASS and how does that 
schedule correspond with your personnel reform efforts?
    [The information follows:]

    The first negotiating session between PASS and Airway 
Facilities was held in late February/early March. Monthly two 
week sessions are scheduled for April through September except 
for August. Two-week sessions between NATCA and Air Traffic are 
scheduled for July and August. We believe we will be able to 
successfully merge our reform timeline with the negotiations.

    Mr. Wolf. What are your agency goals in this important 
effort?
    [The information follows:]

    The agency is determined to identify significant cost 
savings through the elimination of inefficiencies and 
streamlining of our compensation systems, so that we may stay 
within our current funding profile into the next century.

                     new pay classification scheme

    Mr. Wolf. NATCA and PASS are actively involved with the FAA 
in developing a new pay classification scheme for FAA 
employees. Would you give us the broad outlines of their 
proposals, and can you comment on them?
    [The information follows:]

    A joint project was undertaken by NATCA and the FAA to 
design a new classification standard that would accurately 
reflect the complexity of work in Air Traffic control towers 
and centers. The current standard does not address complexity 
of the work environment. In addition, a goal of this project 
was to more accurately reflect traffic count at facilities.
    Ultimately, a system will be designed that makes 
compensation distinctions among facilities that are currently 
all compensated the same, despite vast differences in 
complexity and density. For example, all centers are Level III, 
and the busiest and most complex centers are compensated at the 
same full performance level (FPL-FG-14) as the least busy and 
least complex centers. The same is true of towers and TRACONS: 
all controllers at Level V facilities, for example, are paid at 
the same FPL despite vast differences in work.
    The classification standard has been completed and is now 
in its final review and comment phase. The pay system design, 
which is an effort separate and apart from the classification 
standard design, has yet to begin. We anticipate that 
discussions around a new pay system will begin in early April.
    The FAA and PASS are jointly developing a new pay system 
that, if approved, would cover approximately 5,000 Airway 
Facilities technical work force employees. The new pay system 
would include employees currently classified as Computer 
Operators, FG-332, Engineering Technicians, FG-802, Electronics 
Technicians, FG-856, and Airway Transportation System 
Specialists, FG-2101, who are directly responsible for the 
maintenance and/or operation of the National Airspace System 
(NAS). The new pay system is competency or skill based.
    Under the proposed pay system, an employee's base pay will 
be comprised of three factors:
    Basic Qualifying Pay--This factor reflects a common entry 
salary for all covered employees.
    Job-Related Competency Pay--This factor represents the pay 
an employee earns in recognition of the various categories of 
equipment (competencies) he/she is required to maintain. It 
also includes pay for certain developmental course work 
required before an employee can begin to acquire specific 
equipment-related pay within this block.
    NAS Impact Pay--This factor recognizes the impact of an 
employee's work on the NAS in terms of the amount of air 
traffic making use of the facilities maintained by the 
employee. It is a multiplier of the sum of an employee's Basic 
Qualifying Pay and Job-Related Competency Pay.
    Employees progress in the new pay system as they acquire 
and make use of additional equipment competencies. There are no 
grades in the proposed pay system and no longevity pay 
increases. Premium pay has not yet been addressed.

    Mr. Wolf. Will pay classification result in lower pay for 
any existing FAA employees?
    [The information follows:]

    Section 253 of the FAA Reauthorization Act of 1996 states 
that until July 1, 1999, basic wages (including locality pay 
and operational differential pay) shall not be reduced unless 
done by agreement with FAA's labor unions.

    Mr. Wolf. Is it likely to result in higher operating costs 
for the FAA? (If so, how much?).
    [The information follows:]

    Until we have developed proposals for the various 
components of the new compensation system and successfully 
reached agreement with our labor unions, we cannot identify 
specific operating costs of the new system. However, we have 
adopted as one of our primary objectives of the new system that 
it will ensure fiscal responsibility and will be budget-neutral 
for the FAA as a whole. Ultimately, it is intended that the 
cumulative result will create some savings for the agency, 
while avoiding direct adverse impact on current employees 
wherever possible. We do expect that, over time, we will be 
able to reduce the administrative costs of the compensation 
system as we implement simpler, more understandable pay 
programs and expand our use of automated tools.

                       productivity improvements

    Mr. Wolf. For many years, this Committee has been trying to 
get the FAA to implement more precise staffing standards for 
air traffic control facilities. The recent study by Coopers and 
Lybrand looked into this issue, and stated, ``The staffing 
standards used by the FAA in projecting its staffing needs for 
over 80 percent of the workforce are outdated and deficient. 
Moreover, the standards for ATCs consistently overstaff 
facilities during nonpeak periods''. They pointed out that if 
the standards overstaff by 10 percent, the annual savings would 
be $21 million. Do you believe productivity needs to be further 
investigated for cost savings?
    Mr. Belger. Oh, productivity absolutely needs to be 
investigated. There is no question of that. I am not sure that 
I would agree with Coopers' assessment in terms of overstaffed 
facilities. Are there things that we can do to improve the 
productivity? Absolutely. But I would say for the record that 
the productivity of the typical air traffic controller and the 
typical maintenance inspector from that standpoint has 
significantly increased over the past several years.
    We have data and charts that show, for example, if you look 
at a controller per operation it has steadily and significantly 
gone up in the past ten years. If you look at maintenance 
technicians versus equipment and systems theymaintain, the 
ratio has consistently gone up. So I think in the United States you can 
be pretty proud of the productivity of air traffic controllers and 
maintenance technicians and safety and security inspectors too, for 
that matter. But are there things we can do in the future? Absolutely 
there are.

                        c&l report--faa comments

    Mr. Wolf. Has the FAA done, I do not want to say a rebuttal 
to Coopers and Lybrand, but have you done a commentary because 
while it was a good study obviously they are not perfect. No 
one is. Have you looked at that? Has anyone looked at that with 
regard to taking all of their comments and----
    Mr. Valentine. Yes, in fact we did that during the process 
because Coopers produced----
    Mr. Wolf. Was it circulated? We have not seen it.
    Mr. Valentine. I do not know if it was circulated. We had 
originally received draft copies.
    Mr. Wolf. Could we have a copy that we can see what the FAA 
felt with regard to those comments?
    Mr. Valentine. Sure, if those documents are available I 
would be happy to see that you have them.
    [The information follows:]

    Before the assessment was finalized on February 28, there 
were three draft reports that were reviewed by the FAA. In 
response to these drafts, voluminous comments and suggestions 
were provided back to Coopers & Lybrand to correct factual 
errors and to present FAA's perspective on specific key points 
and conclusions. Attached are two documents responding to the 
preliminary draft and the final draft that summarize the FAA's 
significant concerns. Also, early in the engagement, Coopers 
was asked to provide FAA with information on the structure and 
format for the report to assure that the contract effort would 
yield useful work products. Our comments on this deliverable 
are provided too.

[Pages 341 - 355--The official Committee record contains additional material here.]


                      cwf rotating shift schedules

    Mr. Wolf. Thank you. Air traffic controllers work a 
relatively unique, rapidly rotating shift schedule called the 
``2-2-1''. Problems associated with this type of shift in other 
occupations include issues related to health, family 
relationships, sleep patterns, and performance on the night 
shift. A 1995 study by FAA's Civil Aeromedical Institute found 
the current scheduling practice significantly disrupts the 
sleep pattern of controllers, with their quality and quantity 
of sleep deteriorating over the course of the workweek.
    As the chart shows that I have here, and I am sure you have 
seen it, the amount of sleep drops continuously during the 
week, reaching a low of 3.7 hours on Thursdays. Friday must be 
a tough day. Then controllers catch up on their sleep over the 
weekend. It sounds like Congress or other jobs, but perhaps 
more important because I have to be at work. Does this indicate 
the FAA could raise the alertness by changing the schedules or 
looking at some of the schedules?
    Mr. Belger. Well, I would say that perhaps the answer to 
the question is maybe. The recent human factors study that was 
just completed, the first phase that was just completed by the 
National Academy of Sciences, also looked at this issue of work 
schedules and the effect on the body for working various 
schedules.
    As I recall reading their report, they came to the 
conclusion that it is something that the FAA ought to look at 
more closely. In the same sentence they also came to the 
conclusion that they could not come up with any empirical data 
that shows one schedule necessarily has more of a negative 
impact than another, but again they looked at it in a very 
relatively short period of time. We do need to look at that. We 
need to continually make sure we are taking advantage of the 
state-of-the-art research that has been done in those areas.
    Mr. Wolf. I think you should. My dad was a policeman and he 
worked shift work and I know the differences between the 4:00 
to 12:00 and the 12:00 to 8:00 made a big difference, hard to 
sleep, people playing outside, noise, different things like 
that. Secondly, if you notice the accident that took place on 
the GW Parkway the other day. The young woman was coming up 
there in mid-afternoon, at 4:00 I think. The body clock begins 
to shut down and I think there is a lot that gets back into the 
human factors that do make a big difference.
    And I know in our own life, if you just think in terms of 
how you are after a good night's sleep versus how if you only 
get 3.7 hours.
    Mr. Wolf. Does FAA know whether there is a cumulative 
effect on the performance of individuals who maintain such 
schedules, with disrupted sleep patterns, over years and years 
of work?
    [The information follows:]

    Any shift schedule that includes a midnight shift will 
disrupt both sleep and performance. There is no optimal shift 
schedule to cover night operations. The best possible option is 
to minimize exposure to the midnight shift. The agency is 
currently evaluating the types of schedules used in air traffic 
control (ATC) facilities, but FAA believes that Air Traffic 
Control Specialists' exposure is already minimized to a great 
degree (1-2 nights per week). One schedule of research interest 
is the 2-2-1 (2 afternoon shifts-2 morning shifts-1 night 
shift), because of the counterclockwise, rapid rotation of 
shifts. It has been used in facilities for approximately 20 
years without any documented adverse or chronic changes in 
performance.
    The FAA is not aware of any direct investigation of the 
relationship between performance at ATC tasks and chronic 
exposure to shift schedules which disrupt sleep. However, a 
laboratory-based study investigating an acute (1 week) exposure 
to the 2-2-1 shift rotation schedule resulted in only slight 
decrements in performance on the night shift on a complex, 
cognitive task measuring skills and abilities required in ATC. 
This suggested that performance, itself, was very robust. Of 
greater concern is the implementation of appropriate shift work 
coping strategies designed to minimize any possible acute or 
chronic performance effects, as well as health effects of shift 
work. These are currently under investigation at the FAA's 
Civil Aeromedical Institute.

             agency savings from productivity improvements

    Mr. Wolf. Coopers and Lybrand said that productivity needs 
to be further addressed by the FAA. Has FAA's Productivity 
Working Group estimated the agency-wide savings that could 
result from improved productivity?
    [The information follows:]

    The Productivity Work Group (PWG) was not chartered to 
develop an estimate for agency-wide productivity savings. 
Instead, the group has focused their time and attention on 
identifying and supporting discrete opportunities for FAA to 
cut costs or improve productivity. The group has also actively 
monitored the productivity and cost reduction studies that have 
been or are taking place (whether generated by PWG 
deliberations or elsewhere) to ensure that the financial 
impacts are clearly defined and understood prior to proceeding 
into implementation.

    Mr. Wolf. Coopers said ``while one would think that the 
Productivity Work Group would be the major driver behind the 
initiative, this does not appear to be the case. The C&L 
project team had a difficult time assessing the Productivity 
Work Group's accomplishments or intentions . . . The FAA would 
benefit from a mandate created by the Administrator that 
addresses specific expectations for the Productivity Work 
Group''. (VI-87). What is the exact mission of this group, and 
would you consider issuing such a mandate?
    [The information follows:]

    The mission of the Productivity Work Group (PWG) is to 
identify opportunities and develop strategies to decrease costs 
and increase the level and quality of FAA services and 
products. This group has identified several major areas for 
cost reduction/productivity improvement that are being actively 
pursued within the FAA by the appropriate organization or 
group. These areas include: workers' compensation management, 
travel/PCS reform, compensatory time reform, gainsharing, cost 
accounting system development, and financial reform and user 
fee development. In addition to identifying possible 
productivity areas, the PWG actively supports the development 
and implementation activities on productivity initiatives by 
providing a high-level forum to work issues, remove roadblocks, 
and reach consensus on concepts. However, the PWG relies on the 
established agency process for negotiating actual changes with 
bargaining units.
    The FAA is already under severe pressure to improve our 
productivity and reduce our costs while improving and expanding 
our services. A mandate from the Administrator to the PWG 
specifically would provide no additional benefit, as the PWG is 
currently not a decision-making or authoritative body.
    Mr. Wolf. For many years, this Committee has been trying to 
get the FAA to implement more precise staffing standards for 
air traffic control facilities. The recent study by Coopers and 
Lybrand looked into this issue, and stated: ``The staffing 
standards used by the FAA in projecting its staffing needs for 
over 80 percent of its workforce are outdated and deficient. 
Moreover, the standards for ATCs consistently overstaff 
facilities during nonpeak periods''. They pointed out that if 
the standards overstaff by 10 percent, the annual savings would 
be $21 million. Do you believe productivity needs to be further 
investigated for cost savings? Why or why not?
    [The information follows:]

    The FAA does not agree that the staffing standards 
currently used are ``outdated and deficient.'' Air traffic 
staffing standards undergo a major review every 3 to 5 years to 
update and validate methodology, mathematical models, and 
processes. Also, updated data on facilities and minor 
methodology improvements are made to the staffing standards 
yearly. These staffing standards have been recently 
independently reviewed by outside industrial engineering 
experts. Although they made suggestions for possible 
improvements to the standards, the experts believe that FAA's 
staffing standards processes and procedures are reasonable and 
produce accurate results at national and regional levels.
    It has been FAA policy for over 20 years to develop and 
utilize air traffic staffing standards which provide adequate 
staffing for peak air traffic activity demands. Staffing for 
peak traffic periods at facilities prevents excessive delays of 
aircraft, with the accompanying serious negative impacts to 
users of the airspace system and to the national economy. Those 
unfamiliar with air traffic facilities may conclude that this 
results in ``over staffing'' at some facilities during non-peak 
periods. However, the FAA frequently uses such times to 
accomplish recurrent and proficiency training, as well as other 
necessary administrative functions.
    FAA uses staffing standards to predict long term staffing 
requirements, not day-to-day nor hour-to-hour variations in 
requirements. It is impossible to predict exactly when future 
peaks and valleys will occur, but the FAA has the 
responsibility to maintain staffing appropriate to handle a 
wide range of fluctuation in air traffic activity. FAA 
management adjusts staffing as required to meet short term 
requirements due to unique operational facility needs, such as 
airline hub expansion, military exercises, and changes to the 
airspace system.
    Air Traffic has implemented significant productivity 
improvements since fiscal year 1992. These include:
    Reduction of overall staffing by 12 percent from 27,404 in 
January 1992 to 23,904 in fiscal year 1996.
    Closure of Continental U.S. Flight Service Stations (CONUS 
FSS) resulting in a reduction of FSS staffing from 4,156 in 
January 1992 to 3,374 in fiscal year 1996.
    Streamlining the organization by reducing managers and 
supervisors from 4,122 in January 1992 to 3,483 in fiscal year 
1996.
    Contracting Level I towers, saving over $20 million per 
year when completed.

                split shifts for air traffic controllers

    Mr. Wolf. Coopers and Lybrand suggests the FAA should 
seriously consider allowing split shifts for air traffic 
controllers. Why is this not allowed today, and what promise 
does that offer for the agency?
    [The information follows:]

    The FAA disagrees with the concept of split shifts for air 
traffic controllers. The Coopers and Lybrand team was briefed 
that there are peak air traffic volume periods throughout the 
day. These peak periods are driven by airline marketing in 
response to customer demand. Generally, these periods are early 
morning from approximately 7 to 10 am locally, a brief busy 
period during the noon hour, and in the evening from 
approximately 3 to 8 pm locally. It was explained that these 
peak demand periods are one of the many challenges we must 
consider when staffing our field facilities.
    Coopers and Lybrand determined that requiring controllers 
to work split shifts was the answer to this staffing challenge. 
Their approach would require, for example, that some 
controllers would be assigned shifts from 7 am to 10 am be sent 
home until 3 pm when they would return and work until 8 pm. Not 
discounting the obvious human factors considerations: two 
commutes a day, quality of life outside the work place, proper 
rest between work periods, etc., we have tried to identify 
other work environments where split shifts are used and have 
been unable to find a single one.
    It is important to understand that even though we 
experience peak demand periods during the day, there is still a 
significant amount of air traffic still flying during the non-
peak periods. Facility management uses the non-peak periods for 
employee counseling, training, team meetings, etc.

                            airport security

    Mr. Wolf. The Gore Commission said we should consider 
aviation security a national security issues. I think I 
understand but perhaps you may want to just elaborate.
    Mr. Flynn. Yes. The terrorists who want to attack the 
United States and see civil aviation, see aircraft, as one of 
their targets. It is not that they have any particular animus 
to civil aviation, it is to the nation. And there is a 
consequent recommendation from the White House Commission to 
fund aviation security at the rate of approximately $100 
million a year.
    Mr. Wolf. Yes. When the Gore Commission says the Federal 
Government should provide substantial funding for capital 
improvements in the airport security area, what do they mean? 
How much?
    Mr. Flynn. They had in mind, I believe, because we worked 
with the staff, to pay for the purchase and installation of 
explosive detection equipment systems, to improve the screening 
checkpoints, to install the profiling system that we talked 
about earlier, the automatic profiling system, and to continue 
research for improvement of some of that equipment. But in 
order to be able to screen, with the profile the bags checked 
at the 76 busiest airports in terms of enplanements, that--with 
some other items--is around $750 million. So given that there 
was about 150 in the Continuing Resolution and that continues 
from fiscal year 1997 and fiscal year 1998, and you are looking 
at $100 million a year, we go on for six more years.

                   baggage screener pay and training

    Mr. Wolf. One frequently-heard criticism, repeated last 
week by the IG, is that the baggage screeners at airports are 
paid so little that we can hardly expect the highest quality 
personnel. A recent media report on the quality of our airport 
``front line of defense'' quoted an FAA official saying the 
following: ``In this country, we pay screeners generally less 
than we pay people to clean the toilets at the airport. I don't 
think too many other countries do that, and it is probably a 
bad idea''. What is the average pay for the baggage screeners 
and how does that compare with other countries?
    And do you think it is a problem?
    Mr. Flynn. The pay is about $5.00 to $6.00. It is not much 
over minimum wage. When you do objective tests of how people 
perform, you find that it is not related directly to pay. 
However, when you control for other things, a key element is 
retention of people. Pay relates to turnover and the turnover 
rate of screeners in the United States is too high.

                    baggage screeners turnover rate

    Mr. Wolf. How high is the turnover rate and, how does it 
compare with other nations, European nations?
    Mr. Flynn. Well, within the United States the screeners, 
the turnover rate at many airports is 100 percent.
    Mr. Wolf. 100 percent in a period of?
    Mr. Flynn. Annually.
    Mr. Wolf. Annually?
    Mr. Flynn. Yes. And at some airports it goes as high as 400 
percent.
    Mr. Wolf. Wow.
    Mr. Flynn. Now the----
    Mr. Wolf. What is it at European airports?
    Mr. Flynn. At many airports Europeans make it a life's work 
where people are paid----
    Mr. Wolf. What is the scale then, to make the case? What is 
the average salary?
    Mr. Flynn. In some countries we have looked at this, the 
pay is not all that much greater and they have turnover 
problems. Where they have stability of pay, in American terms 
they would be paying people in the range of $20,000 a year 
plus.
    Mr. Wolf. So this is a significant problem. You can put a 
lot of money into technology.
    Mr. Flynn. If you do not control in some way either through 
pay or other incentives to reduce the turnover, then people 
will not be able to operate especially the new technology. 
Since there is more information to deal with, the screeners 
will not succeed at the present turnover rates.
    Mr. Chairman, we are addressing that and one of the 
recommendations of the White House Commission and indeed in our 
authorization was to certify screening companies. We have 
published an advance notice of proposed rulemaking on that to 
see how we would certify screening companies. We are not going 
to be looking at how they hold their board meetings. What we 
are looking at is how are their screeners performing and I 
think that retention is a very important aspect of that.
    Mr. Wolf. Well, I thought when we put the question down you 
would say 30 percent or something like that, but 100 percent is 
really much higher than I expected. In Fairfax County where I 
live, I think at the MacDonald's they are making $5.50, $5.60, 
even $6.00 an hour. That is why when the minimum wage issue was 
up it was not a big deal because everyone in our region was 
making the higher minimum wage.
    And then I go out and if I look at the poor person at 
Dulles or National Airport who is screening now, I think this 
is an issue that I think the government is going to have to 
speak out on. You cannot have 100 percent. If you had 100 
percent turnover in your office you can imagine the chaotic 
nature you would have.
    I have a couple more questions and I just want to finish 
this section. Well, I will not be able to. Let me just ask you 
this last question which fits into that technology. There are 
concerns in the industry that today's screeners will not be 
able to handle new, sophisticated explosive detection equipment 
like the CTX-5000 machines bought with last year's supplemental 
funds. A representative of one of the screening companies who 
has been training his people to use the CTX-5000 said ``I've 
got people in Manila who have college degrees, highly educated, 
excellent employees who have had a hard time with the CTX-5000. 
It takes a radiologist to operate the machine.'' Is it true 
that the screener qualifications and training will need 
significant changes to enable the new technologies to be used 
effectively?
    Mr. Flynn. Yes, it is true. It is an exaggeration that you 
need the same amount of a training that a radiologist has, but 
it does require considerable classroom training on a system 
before a continued period of on-the-job training. It will take 
months for screeners to become effective in using all of the 
information that is available to them in the CTX.
    What it can mean, I hasten to say, is that one would 
require that they not resolve an alarm from the automatic alarm 
of the CTX when in doubt so that there would be a higher 
intervention rate, a higher number of bag openings that result 
from the less skilled operators. That is the way that you 
ensure security while people are learning how to operate these 
systems. But certainly, at minimum wage and if minimum wage 
continues to equate to the kind of turnover rates that I 
mentioned, it can't be done.

                   baggage screeners--qualifications

    Mr. Wolf. We saw a media report that they only need--the 
standards are only to hear, distinguish colors, and speak and 
read English. Is that accurate, or are the standards much 
higher than that?
    Mr. Flynn. Well, they require eight hours of formal 
training, 40 hours of on-the-job training.
    Mr. Wolf. Do you think that is sufficient?
    Mr. Flynn. No, it needs to be more. I believe it needs to 
be more, but we will approach all of that through the 
rulemaking.
    Mr. Wolf. When will that be? When could somebody in the 
audience or listening know that the standards will be changed 
whereby when they are on an aircraft that the standards will be 
raised where it will be implemented that people will be up to 
speed to the degree that you think they should be?
    Mr. Flynn. I think that will come about--forgive me for my 
somewhat long answer because I don't know for sure of a date 
certain. What we need to do is to go forward with some of the 
technical things we are doing, the X-ray, for example, the 
threat image projection, which in effect is a simulator for 
bomb detection that will be on at all times, and we will much 
better measurement of the screener's performance. We then will 
hold the airlines to a higher standard of performance.
    Mr. Wolf. You have been very patient. It is after 1:00. Why 
don't we recess and get a sandwich? Is 1:45 enough time for 
you? Until 1:45 then.
    [Recess.]

                               user fees

    Mr. Wolf. Welcome back. We will reconvene, and I will 
recognize Mr. Livingston, the chairman of the full committee.
    Mr. Livingston. Thank you very much, Mr. Chairman, and 
thank you, gentlemen, for appearing. We are glad to have you 
here and I realize that the hearings have been going on all 
morning, so I will try to be brief.
    Mr. Wolf has called to my attention a problem that he has 
touched on this morning, and I just wanted to be absolutely 
sure exactly where we stand.
    As I understand it, the government-wide 1998 President's 
budget proposes a 143-percent increase in the collection of 
user fees, from $1,000,000,000 to $2,600,000,000, and over the 
next five years, the administration wants to collect 
fromtaxpayers an additional $37,200,000,000 in new user fees.
    Probably the biggest contributor to those fees will be the 
FAA, which under the administration's proposal would bring in 
$36,300,000,000 over the next five years, and that includes the 
proposed $400,000,000 in fiscal year 1998.
    That is an ambitious agenda to say the least, and it 
assumes, of course, that those fees would be passed by 
Congress, and I am not sure that that is necessarily a valid 
assumption.
    But the budget assumes that in fiscal year 1999, only 18 
months away, that the entire $8,700,000,000 budget for FAA will 
be raised in user fees. Is that realistic? What is the pretext 
for that assumption, and can you tell me exactly what fees 
would be involved?
    I know that you are planning user fees for security, cargo, 
and overflights. What are the other fees that are expected to 
be raised?
    Mr. Valentine. It was a GA turbine, international cargo, 
and security were the three, plus the overflight fee which will 
be going into effect in 60 days.
    Mr. Livingston. How will that go into effect? How will that 
overflight fee be charged?
    Mr. Valentine. It is being charged to aircraft that overfly 
U.S. air space, but do not originate in or terminate in U.S. 
air space and U.S. ground space.
    Mr. Livingston. Did we work that out by international 
agreement?
    Mr. Valentine. We worked that out by charging those 
operators who fly through our space. We don't have to work it 
out specifically through international agreement.
    Mr. Livingston. So we are just assessing any planes----
    Mr. Valentine. That is correct.
    Mr. Livingston [continuing]. That fly through. Does that 
cover the dope runners as well?
    Mr. Valentine. It would.
    Mr. Livingston. You might have a little difficulty 
collecting.
    So we have no treaty with our allies that fly planes over 
here? We are just saying automatically ``we are going to start 
assessing you,'' is that correct?
    Mr. Valentine. We have informed the aviation community 
through ICAO that we plan to do this, but just as other 
countries do the very same thing and most already have, that is 
what we are going to be doing.

                           security user fees

    Mr. Livingston. I understand from Mr. Wolf on the security 
user fee, you are going to be providing enhanced security 
arrangements for passengers and planes and companies that do 
business at the airports and so forth, but you intend to charge 
more than the value of those services, is that correct?
    Mr. Valentine. No, on the contrary, we expect the cost of 
the services to be provided to continue to increase and these 
fees would recapture some of that cost.
    Mr. Livingston. Recapture some of the cost, but I was given 
to understand that monies applied for security would actually 
be in excess of the cost so that you could apply that to other 
avenues and other expenses of the FAA. Is that not true?
    Mr. Valentine. We have not determined among those three 
fees how much each of them would generate, in other words, 
whether it would be an equal amount with all three or some 
variation thereof. The premise is that we are going to be 
encountering continuously increasing costs for security and 
that that is one of the areas in which there is a direct 
relationship between the service we are providing and the cost 
associated with it, and therefore propose to collect fees in 
that area. We are trying to orient these fees around services 
that we provide in those areas where we are not currently 
capturing any payment for those services being provided back to 
the users.

                           turbine user fees

    Mr. Livingston. Tell me about the piston charge.
    Mr. Valentine. It is a turbine charge, not a piston charge. 
It is a charge applied to turbine aircraft on the premise that 
they currently use pretty much the same air traffic services as 
the turbine aircraft airlines use, but the general aviation 
turbine aircraft are not currently under our structure, because 
they pay only a fuel tax. Currently under the structure, they 
are paying an amount of money equal to the air traffic services 
that we provide to that segment of the community.

                            cargo user fees

    Mr. Livingston. And the cargo charge.
    Mr. Valentine. Currently, domestic cargo operations have a 
charge applied to them which is the six-plus percent waybill 
fee applied to cargo, and likewise, passengers pay their ten 
percent ticket tax. Even international passengers pay a $6 
departure fee. The one segment of the industry right now that 
does not contribute is international cargo, so currently, 
domestic passengers, domestic cargo, and international 
passengers contribute. International cargo does not, and that 
is the missing segment that we are trying to capture there.

                    user fees--overflight and cargo

    Mr. Livingston. So the overflight fees and the fees which 
you envision putting on international cargo would in effect be 
tariffs on people presumably in trade with the United States if 
not directly through these activities, is that correct?
    Mr. Valentine. I am not knowledgeable enough about tariff 
structures to be able to address that, sir.

                      user fees--contingency plans

    Mr. Livingston. It would seem that this would be a matter 
for GATT or for the WTO, because obviously, our trading 
partners who trade with us in so many other areas will be 
significantly affected by these additional fees. They may have 
some concerns to register.
    According to the budget proposal, beginning in fiscal 1998, 
if the user fee collections don't meet the original estimates, 
the FAA will have to take whatever actions are necessary to 
live without those funds, and that could lead to the furlough 
of employees.
    What contingency plans do you have in place to address the 
possibility of a drop in user fee collections? Have you warned 
your employees that they may be unemployed for some lengthy 
period of time while the collections are made?
    Mr. Valentine. I think our employees are very much aware of 
the fact that we need to raise all together $400,000,000 in the 
1998 budget and to the degree that the fees raised are short of 
that amount, we have a gap in our 1998 budget. How we would 
address that gap remains to be seen, but depending upon, should 
there be a shortfall. The magnitude of that shortfall, as I 
explained earlier, we would have to look at services we 
provide, particularly services at low level activity 
facilities.
    Most of the money we spend in the FAA, the overwhelming 
amount of the money we spend is for air traffic services 
andfunctions related to that service. We would probably look at low 
activity facilities and begin at that level and work our way up until 
such time as we adjust it to the amount necessary to meet the gap if 
there should be one.
    Mr. Livingston. Well, I appreciate your optimism, but in 
view of the devastating crashes of the Valujet and the TWA 
plane in the last year, the whole world's attention is 
concentrating on the security of our airlines.
    If those planes are threatened in any way, I think that we 
might find ourselves on the horns of a rather significant 
political dilemma. I would think a $400,000,000 shortfall in 
FAA could trigger such a dilemma, but worse, by the end of 
fiscal year 1999, it is your whole budget, your whole 
$8,700,000,000 budget depending on user fees.
    Do you think that the country can do without an FAA? Is 
that the proposal here?
    Mr. Valentine. On the contrary. Let me go back to fiscal 
year 1998 for a moment. We are putting into place this year the 
overflight fees, so I think I can say safely that we will not 
have a $400,000,000 shortfall in 1998. Whether we have any 
shortfall at all remains to be seen. I would also say in that 
context that we would not compromise safety as a result of a 
shortfall in funds. We would look elsewhere in the agency to 
make up that difference. The area we would not affect would be 
anything related to safety. We have several other programs that 
we would have to look at if that were to be the case. As a last 
resort, service on the efficiency side suffers before service 
on the safety side suffers, so we will not compromise safety.

                      user fees--impact on outlays

    Mr. Livingston. I appreciate that, Mr. Valentine, but when 
you are taxing security, cargo, overflights, certain specific 
types of planes, those companies that have to pay those taxes 
presumably have to either make it up by passing on the cost to 
their consumers or else absorb them, and if they are absorbing 
them at the cost of overhead and maintenance, if they are 
incapable of competing with foreign competitors or other 
competitors who don't have to make up this difference, it seems 
to me that the chances are they won't be able to pass it off, 
and that it could very well deal with safety and affect safety.
    Worse, I understand that the user fee proposal doesn't save 
the government any money at all in outlays. In fact, the user 
fee dollar costs are more in the first year in outlays than if 
we had done a regular appropriation from the trust fund.
    Why would we try to invoke user fees if in fact we are 
paying more money on the bottom line than we would with the 
normal appropriation?
    Mr. Valentine. As you noted a few minutes ago, the 1999 
budget proposes that all of the FAA be funded through the use 
of user fees. This is the first stage in the process in 1998 as 
movement toward an all user-fee-funded organization.

               productivity improvement and rising costs

    Mr. Livingston. This is what the budget calls for. I am 
just not too sure that it is realistic to expect that this will 
happen.
    Some people have suggested that to the extent that user 
fees are a way to get around the oversight of the 
appropriations process, costs will rise with little or no 
pressure. Looking at your fiscal year 1998 budget, it appears 
that you are proposing a ten percent increase, increase not 
decrease, in program costs, $478,000,000 offset only by a one-
percent decrease in costs, some $46,000,000.
    Now, I thought that when the President said the era of big 
government is now over, and that he was for a balanced budget, 
that we were going to be talking about how to decrease the cost 
of government and government agencies, not to increase them and 
to raise taxes and user fees on the American people to justify 
bigger government. But that is exactly opposite of where you 
are going with this proposal.
    When you are asking for so much additional money, roughly 
$500,000,000, isn't it important for the agency to show a 
little more productivity improvement than a one percent 
savings?
    Mr. Valentine. I think as we talked about earlier today, 
there are a number of examples where the agency has improved 
productivity over the years.
    One very evident example mentioned earlier was looking back 
several years at the number of air traffic controllers we had 
versus the magnitude of activity. Comparing that to today, you 
will see dramatic increases in productivity over the last 
several years with the FAA.
    What is also true is that our costs, the cost of this part 
of government, will continue to grow indefinitely into the 
future under its current structure. As long as we, the 
government, are going to continue to provide air traffic 
control services and safety oversight, the cost of this service 
will continue to grow because the workload that we have will 
continue to grow.
    Mr. Livingston. Well, there is no doubt that this nation 
and the world are going to increasingly depend on air travel 
and with that will come a demand for the FAA to do its job.
    It does seem that one would have to question whether or not 
we are really looking for efficiency in the cost of government, 
or whether we are just looking for a way to budgetarily justify 
increasing expenses by saying that we are going to impose user 
fees that quite frankly may never come to pass.
    You have some international questions here, you have some 
safety issues here, you have numerous committees of the United 
States Congress that are going to have to look at these 
requests very, very intensely, and I think to expect that 
$400,000,000 in user fees are going to be appropriated in time 
for this year's appropriation, and $8,780,000,000 in time for 
next year's appropriation is terribly unrealistic, and just 
highlights some of the great flaws in the budget that we are 
dealing with.
    Let me ask you this, Mr. Valentine. Do you think it is 
realistic?
    Mr. Valentine. I think it is ambitious and challenging.
    Mr. Livingston. I agree with that. Thank you, Mr. Chairman.

                          impact of user fees

    Mr. Wolf. Thank you, Mr. Livingston. Let me just comment 
while the Chairman is here. He does make a very good point, and 
just as he was asking the questions, I was thinking of the 
President's State of the Union message, where he laid out a 
whole series of new programs, to build schools at the local 
level and then to come into the user fee area here, and I think 
Linda Daschle, who was the Deputy Administrator, was right when 
she said that what you ought to do, is come back with the 
$100,000,000 which the Congress already approved. We gave you 
that opportunity. Then allow the commission to come back and 
make recommendations where there could have been a consensus 
with Congress.
    You have really left a big hole, and there is probably no 
way that we could ever fund the $8,700,000,000, and I think 
this city would be in an uproar. I don't know. Things could 
have changed since I was practicing law. We don't charge user 
fees for everyone on food and drug safety, and we don't charge 
user fees when the FBI is involved, and the person who made the 
case with regard to airport security and national security. We 
don't charge user fees for the Coast Guard going out. We don't 
charge user fees for the Navy steaming. We don't charge user 
fees for the military. I think Mr. Livingston is right, and 
when you compare it again with all the new programs, which is 
not your fault, but that this administration has come out with, 
I think you do see the problems of new spending at a time when 
things are very, very critical, and let me say, as critical as 
I have maybe been to the FAA.
    The FAA is made up of a lot of very good career people. In 
fact, were it not for good career people with the vacancies 
that you have had for all these periods of time, things would 
be falling apart, but it is unrealistic, I think, to expect 
that.
    I think what you have done, maybe because Secretary Pena 
sent it up, is just send up a budget with a big hole saying, 
``let us see how Congress deals with this.'' But a hole of 
$8,700,000,000 would really be impossible.

                gore commission security recommendations

    Mr. Wolf. Returning back, maybe we could just get you up 
here quickly, the issues with regard to the Gore Commission, 
and I was uncertain what you meant. I think I do, but I want to 
get it on the record.
    Do the Gore Commission recommendations potentially extend 
as far as mandating minimum training levels, maybe even minimal 
rates of pay for airport security personnel such as bag 
screeners?
    Mr. Flynn. I think the Gore Commission recommendation was 
not so specific. The rule for which we have an advance notice 
of proposed rule-making, could include some setting of pay. But 
I think--my approach to it, I think, would be more along the 
lines of establishing what maximum allowable turnover rates 
would be and having some good performance measurement for the 
screeners. I think that in turn will drive what they are paid, 
because to keep them, you are going to have to pay them more or 
compensate them in some other way.
    Mr. Wolf. In the late 1980s, the FAA began publishing the 
list of airlines who failed airport security tests. Why was 
this practice stopped, and have you considered reviving it now?
    Mr. Flynn. The stopping of it, Mr. Chairman, was before my 
time, so I could get you an answer for the record.
    Mr. Wolf. When was it stopped?
    Mr. Flynn. The publishing of inadequate performance?
    Mr. Wolf. Yes, sir.
    Mr. Flynn. Well, we have had publicity. I have been at this 
job somewhat over three years, and we have had publicity of 
penalties against air carriers. We will continue that practice 
as part of our----
    Mr. Wolf. I am trying to get some sense of, if we stopped 
it just when there was not quite the security threat that there 
is today or have things changed that would require the FAA to 
go back and look at that again?
    Mr. Flynn. I believe the concentration was on improving the 
screener checkpoint at the time.
    [Additional information follows:]

    In the late 1980's, the FAA published a list of civil 
penalties assessed against airlines for failing of checkpoint 
security screening tests. Certain airlines had extremely poor 
performance in screening. Publication was stopped when airlne 
checkpoint screening test reached and maintained an acceptably 
high level of performance.
    The levels of detection of weapons have since been 
maintained. There has, however, been a change of screening 
requirements since the late 1980's. We now require the 
screening checkpoints to detect sophisticated improvised 
explosive devices (i.e., bombs). That is a much more difficult 
task than detecting weapons or crude bombs. The FAA and 
airlines are now working to improve detection of improvised 
explosive devices. The joint efforts include using new 
equipment and improving human factors (i.e., the screeners' 
performance).

    Mr. Wolf. All right. There was the IG report, if you 
recall, that was so controversial whereby the IG went through 
and came through certain points.
    Mr. Flynn. And indeed, the performance did improve on the 
screening checkpoints. There was a concentration some years ago 
on detection of weapons. Screening checkpoints got better at 
detection of weapons and they will remain quite effective at 
detecting weapons. They detect thousands of them per year.
    It is the problem of finding very sophisticated types 
ofimprovised explosive devices, that is to say bombs, that is very 
challenging in this undertaking. Improving that performance requires a 
combination of systems and again, the human factors that we have been 
talking about.
    Mr. Wolf. I understand that the publishing was--I wanted 
you to say for the record, the publishing of the list stopped 
in the late 1980s. The circumstances, were they different then? 
And secondly, have you thought of going back to that, in light 
of where we are with the Gore Commission?
    Mr. Flynn. Yes. We are looking at that. For example, if a 
screening checkpoint is not performing adequately, I think it 
is something to be considered to say this screening checkpoint 
is under close monitoring by the FAA. Passengers ought to be 
aware that it is going to take a little longer to get through 
it.

                 professionalism of security personnel

    Mr. Wolf. The Gore Commission recommends that FAA work with 
the private sector and other federal agencies to promote the 
professionalism of security personnel. How do you intend to 
meet this recommendation, and when will you be prepared to 
announce specific programs or recommendations?
    Mr. Flynn. To improve the professionalism?
    Mr. Wolf. In working with the private sector as they talked 
about.
    Mr. Flynn. There are two aspects of it. One is through 
rulemaking. The other is through the consortia at all of the 
airports where we were tasked in bringing to the consortia the 
results. Here is what happened when we tried to gain access to 
the ramp without having the right authority.
    Mr. Wolf. But the appropriations, too, maybe.
    Mr. Flynn. That, too. How do things work at the screening 
checkpoint; what happened when we submitted small packages 
without the right identification; were the packages properly 
processed? We bring that information to the airport consortia. 
We also deal with the airlines in greater teamwork, inspecting 
and bringing the information quickly to them. This is what 
happened when someone whose bags should have been searched were 
not. We should bring that kind of information to the airlines.
    We are good at inspecting. Security is an airline and 
airport function, and we bring them the data on their 
vulnerabilities, whether they are procedural or whether they 
are matters of equipment or organization.
    Mr. Wolf. Who would be more likely to act faster, the 
airport operator or the airline?
    Mr. Flynn. On improving screening performance, I think that 
we have it right. The responsibility for the aircraft and 
things that go into it is the carrier's. One can think of the 
screening checkpoint as being an extension of the aircraft.
    Mr. Wolf. Are some carriers better than others?
    Mr. Flynn. The screening checkpoints tend to be operated by 
screening companies under contract to the airlines.
    Mr. Wolf. Are they nationwide companies?
    Mr. Flynn. Many of them are, but there are some 70 
companies in all. Some of them are quite small and local, but 
there are major companies.
    I think that information is very important. We have through 
systematic testing that we have done much better data on how 
those screening checkpoints are operating. We have a clearer 
indication of what needs to be done. For the new equipment, we 
formed an integrated product team that is different in that it 
has the airlines and airports as members for the introduction 
of new equipment and systems. We do know that we can't just do 
it by fiat from FAA. We have to have cooperation and work as a 
team with the airlines and airport on it.

            vulnerability assessments of high risk airports

    Mr. Wolf. The Gore Commission required the FAA to conduct 
vulnerability assessments of high risk airports. According to 
the FAA, these assessments are to begin in June of 1997. How 
many do you intend to conduct each year?
    Mr. Flynn. We would intend to do the category Xs and ones 
in the course--that is some 70 airports--in the course of the 
next year, and then continue on with that through the category 
two and three airports.

                      explosive detection systems

    Mr. Wolf. The funding requested for FAA's facilities and 
equipment account in fiscal year 1998 is $62,700,000 below the 
fiscal year 1997 level. Notable among the reductions is that 
explosive detection systems goes from $142,200,000 to zero. 
What was the reason for requesting no additional funding for 
the equipment?
    Mr. Flynn. Well, the funding that was in the continuing 
resolution was multi-year funding, and the actual spending of 
it will continue into fiscal year 1998.
    Mr. Wolf. So the fact that it wasn't in the budget this 
year has----
    Mr. Flynn. Well, it will have some effect. If on an 
accelerated program, the purchase of equipment would conclude 
at the end of 1997, calendar year 1997, then the additional F&E 
money would not come in until the first of October of 1999.
    In the 1998 budget appendix, there is a request for the 
appropriation of $100,000,000 for fiscal year 1999, so there is 
a gap there. Our best way of managing that would be to extend 
the purchases instead of concluding them in December, to take 
them on through the summer of 1998.
    Mr. Wolf. A couple more.
    The airport in Manchester, England, is often cited as a 
model in the airport security area. Baggage screeners at 
Manchester are paid about twice the salary, and that is what I 
was trying to get at before, of the minimum wage of their U.S. 
counterparts, and they work directly for the airport instead of 
for subcontractors to the airlines. They have modern CTX-5000 
explosive detection machines to screen baggage.
    How would you rate the Manchester airport security system 
compared to that of the average international airport in the 
U.S.?
    Mr. Flynn. It is much better. They have a system where they 
can screen 100 percent of international departing bags and with 
effective equipment. We do not yet have a single airport where 
there is 100 percent screening of checked baggage on 
international departure flights with equally effective 
equipment.
    Mr. Wolf. Is that the standard we should be shooting for 
then?
    Mr. Flynn. I think we should do it on the basis of a 
profile. There are some aspects of the difference in confidence 
between a profile, knowing the passengers, as against the first 
level equipment that they use that I think are best looked at 
in closed session.

                    financing security improvements

    Mr. Wolf. One last question, and then I will defer to Mr. 
Olver as we change subjects.
    In Manchester, they financed these security improvements 
with a separate security charge on top of the airline's normal 
lease rates. This figures to be about 90 cents per passenger. 
The costs are levied at the airport and are used at the 
airport, much like other lease charges at our nation's 
airports. Has this type of financing system been controversial 
in Manchester to your knowledge?
    Mr. Flynn. To my knowledge, no. I don't think there has 
been any objection to it by passengers, and I think that the 
carriers there have accepted it as an acceptable part of 
business.
    Mr. Wolf. We might also consider the security at nuclear 
power plants a national security issue in the same sense as 
airport security. However, I believe the utilities are 
responsible for buying and installing federally certified 
security systems, not the federal government. Security of both 
types of facilities are extremely important. Why should we 
treat the financing of airport security equipment in a 
different manner than we treat nuclear plant security?
    [The information follows:]

    A major difference is airport security's immediate and 
personal effect on the public, the citizens of the United 
States. The public freely uses airports and commercial aircraft 
while access to nuclear power plants is restricted. Tens of 
millions of citizens use the air transportation system every 
year. The terrorist threat is directed at the nation, at our 
collective sense of national security, not at the airlines as 
such. Protecting the people who use civil aviation is in line 
with the constitutional responsibility to provide for the 
common defense.

                       turnover rate of screeners

    Mr. Wolf. What is the annual turnover rate at these 
screener companies and how does that compare to the situation 
in Europe, for example, where the pay rates are reportedly 
higher?
    [The information follows:]

[Pages 371 - 373--The official Committee record contains additional material here.]


                customs service role in airport security

    Mr. Wolf. The Gore Commission recommends the U.S. Customs 
Service become more involved in airport security because of 
their existing presence at major U.S. airports. What is the 
Customs Service doing to implement this recommendation?
    [The information follows:]

    Airport security is a critical part of border integrity, 
and the Customs Service continues to place a high priority on 
its responsibilities in this area by supporting efforts at the 
U.S. airport consortia and by taking aggressive action in other 
areas.
    Since the February 12 report by the White House Commission 
on Aviation Safety and Security was released, Customs developed 
plans to deploy 140 Customs inspectors, investigators, and 
intelligence analysts, and a technical support specialist to at 
least 14 airports. These positions would be used to support 
increased anti-terrorism efforts and support any additional 
enforcement efforts required for cargo and passengers departing 
the U.S.
    To further assist in anti-terrorism efforts, the Customs 
Service is in the process of evaluating, selecting, and 
deploying high technology equipment such as mobile baggage and 
cargo x-ray units. Also, the FAA and Customs are jointly 
studying the feasibility of enhancing the Customs Service's 
Automated Targeting System (ATS) for application to anti-
terrorism efforts in air cargo. This study is planned to be 
completed by June of 1997.

                    GORE COMMISSION--AVIATION SAFETY

    Mr. Wolf. The Gore Commission recommended that the Federal 
Government commit greater resources to improving aviation 
safety. They specifically said the government should provide 
approximately $100,000,000 in capital improvements in airport 
security. Yet this budget request appears to back away from 
that recommendation. Why?
    [The information follows:]

    The FAA's 1998 budget contains a request of $100 million 
for non-competitive contracts or cooperative agreements with 
air carriers and airport authorities, which provide for the FAA 
to purchase and assist in the installation of advanced security 
equipment. These funds are to become available on October 1, 
1998, and remain available until expended.

                    SAFETY AND SECURITY IMPROVEMENTS

    Mr. Wolf. The Gore report further states ``improvements in 
safety and security will result from a focus on faster 
introduction of proven new technologies''. What are the proven 
technologies and has FAA certified any particular technologies 
in the security area?
    [The information follows:]

    FAA certifies explosives detection systems (EDS) based on 
performance criteria required by the Aviation Security 
Improvement Act of 1990. The CTX 5000, manufactured by InVision 
Technologies of Foster City, CA, was certified as the first EDS 
in December 1994 to screen checked bags.
    Several other devices using proven technologies are 
available for use to screen checked bags, but none has yet met 
the certification standard. These devices include automated 
dual energy x-ray machines manufactured by: Vivid Technologies 
of Woburn, MA; EG&G Astrophysics of Long Beach, CA; and Heimann 
Systems of Wiesbaden, Germany. Also included is a quadrupole 
resonance device manufactured by Quantum Magnetics of San 
Diego, CA.
    Even with assistance from the National Academy of Sciences, 
FAA has not produced a standard for trace explosives detection 
certification, but several devices manufactured by the 
following companies have proved effective: Barringer 
Instruments of New Providence, NJ; CPAD Technologies of Ottawa, 
Ontario, Canada; Graseby Security of Bushey, Watford, Herts, 
United Kingdom; Ion Track Instruments of Wilmington, MA; and 
Thermedics Detection of Chelmsford, MA.
    The effectiveness of screening can be complemented by the 
use of hardened containers. Containers that can contain a 
considerable amount of explosives have been developed by JAYCOR 
of San Diego, CA. Development of all of this equipment makes 
screening more effective and more efficient in the airport 
operational environment.

                            Z-SCAN MACHINES

    Mr. Wolf. The Manchester airport also uses automated X-ray 
machines called ``Z-scan'' machines. Although the machines are 
made here in the United States (In California), they are not 
certified for use here. If these machines work in Manchester, 
why aren't they certified for use in this country?
    [The information follows:]

    EG&G Astrophysics, the Z-scan's manufacturer, has not 
applied for FAA certification testing. The Aviation Security 
Improvement Act of 1990 (P.L. 101-604) required that, prior to 
widespread deployment of explosives detection systems (EDS), 
FAA certify the equipment based on tests designed to validate 
ability to detect the amounts and types of explosives likely to 
be used by terrorists to cause catastrophic damage to 
commercial aircraft. Certification standards were published in 
1993. In-Vision Technology's CTX 5000 was presented for 
certification testing at the FAA Technical Center in August 
1994, passed the tests, and became the first certified EDS in 
December 1994. No other manufacturer has applied for 
certification testing.
    Since 1992, the FAA has encouraged air carriers to 
voluntarily use enhanced x-ray machines like the Z-scan. None 
has done so voluntarily. Commercially available, less-than-
certified automated explosives detection equipment, including 
the Z-scan, has been deployed in foreign airports. The FAA has 
performed limited assessments of the equipment and will 
continue to monitor the progress of foreign deployments. The Z-
scan will be part of the procurement of 20 automated x-ray 
machines for use within the United States recommended by the 
Commission and funded in the fiscal year 97 continuing 
resolution.

                          CONTROLLER WORKFORCE

    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I am going to try to 
confine myself to something close to where we have been for the 
moment, though. If I may, Mr. Belger, I would ask you for those 
other two numbers.
    Mr. Belger. I have passed the first credibility test 
because the numbers that my staff gave me are the same as I 
gave you earlier.
    Mr. Olver. Good.
    Mr. Belger. For 1992, which is the year that we were 
talking about, as I said, the controller workforce number was 
17,982. I think that is the number I gave you this morning.
    Mr. Olver. Yes.
    Mr. Belger. The number of controllers was 15,147. The 
number of first level supervisors was 2,341, and the number of 
traffic management coordinators and traffic management 
specialists was 494. Those three should add up to 17,982.

                              FAA MISSION

    Mr. Olver. I think that is probably true. While I think 
about that, let me ask, just to follow up on a couple points.
    I take it that your role is a combined role of the nature 
of the impact, the economic impact that air travel has in the 
total American economy, and then in promoting the economic 
impact to be larger at one level, but also obviously safety.
    Are there other large categories of purposes that we have 
here, the FAA?
    Mr. Valentine. I would be happy to answer that and say that 
I think our mission, and it is the mission of almost anybody in 
aviation but ours in particular, is for a safe, secure, and 
efficient air transportation system. You can lump secure and 
safe together if you wish, so safety first and foremost.
    Mr. Olver. And efficiency has to do with the economic 
impact.
    Mr. Valentine. Yes, how well we manage the system for our 
customers and how well we provide service to our customers 
which has a direct economic impact on them and their 
operations.

                     USER FEES IN FOREIGN COUNTRIES

    Mr. Olver. To explore this user fee issue, do other 
countries pay for similar services? I would imagine that they 
have them. I don't know. Maybe you can tell me. Do other major 
industrial countries have proposals other than those and if 
they don't, then how do they pay for it? Do we have comparative 
studies about how these services are paid for in making certain 
that there is security for the populace as a total using air 
travel?
    Mr. Valentine. We do. We are reasonably knowledgeable about 
what practices are used in other countries to fund safety and 
security oversight.
    Many countries do not have an FAA structured as is ours. 
Very often, air traffic management is conducted by an entity 
entirely separate from the safety oversight function. In fact, 
that is probably more the rule than the exception in many parts 
of the world.
    Almost all of the industrialized countries and many of the 
developing nations charge some sort of overflight fee. They 
apply a charge for the use of their air traffic services. In 
some cases, those fees fund just that service, and in some 
cases in some countries, those fees are a cash generator.
    Mr. Olver. A cash generator?
    Mr. Valentine. A cash generator for their economy. A small 
nation, because it happens to be positioned right underneath a 
major airway between two large nations, may be able to take 
advantage of the overflight not only to pay for the cost of the 
service they provide, but for a little extra for something 
else.
    Mr. Olver. What service do they provide?
    Mr. Valentine. Air traffic, in other words, if you are 
flying between Europe and Asia and you pass over a small 
country somewhere in between, that country may provide a 
nominal amount of air traffic management services, but may 
charge a somewhat healthy fee for it, and if that exceeds the 
amount of money they need for the service, that money may be 
used for other purposes.
    Mr. Olver. You do air traffic management and you also do 
safety.
    Mr. Valentine. That is correct.
    Mr. Olver. Other countries do this, both of these 
functions, maybe in a structure that is different, a structure 
which may separate the two, but they must pay for both of 
these.
    If one took ours, which is dealt within the FAA and now 
partly comes out of general funds and partly, we are moving 
towards some fees, if you take the same combination of things 
in other major industrial countries, is that coming out of 
general funds or is that coming out in its total or net, or is 
it coming out of user fees? Did we have any studies of that?
    Mr. Valentine. We do, and the answer is all of the above. 
It varies significantly from country to country. In some 
countries, it is paid entirely for by the government and in 
some, it comes from user fees for air traffic. In some, those 
functions are separate; they charge specific fees for even 
inspecting an airplane or for certification services.
    It varies enormously, but usually, more often than not, it 
is a fee applied to the users of the system more commonly than 
not.
    Mr. Olver. More commonly than not.
    Mr. Valentine. Yes.
    Mr. Olver. Are there some countries that completely pay 
these services out of user fees?
    Mr. Valentine. Yes.
    Mr. Olver. There are?
    Mr. Valentine. Yes. In fact, most countries pay for their 
air traffic management services out of user fees, that portion 
of them.
    Mr. Olver. Management out of user fees.
    Mr. Belger. Air traffic control.
    Mr. Olver. Safety is more likely to be paid out of general 
funds?
    Mr. Valentine. It may be paid out of general funds, it may 
be paid out of a portion of the air traffic service fees, or it 
may be paid for by fees applied to or charge applied to the 
airlines that operate in the country. There are numerous ways 
of doing it.

                               USER FEES

    Mr. Olver. Do you have any idea whether the costs for these 
kinds of services in their totality are greater or lesser or 
comparabilities of the costs by--I don't know what criteria I 
am even asking for, whether it is by per flight or per 
passenger mile or freight mile or some other thing, some set of 
composite comparabilities that we would be able to apply?
    Mr. Valentine. Yes. We have been studying the practices of 
many other countries and obviously in preparation for looking 
at how we would approach it in this country.
    The most common way of charging overflight fees, for 
example, or air traffic control fees in Europe is through a 
formula that takes into account distance and weight of the 
aircraft; actually, it is the square root of the weight of the 
aircraft.
    Mr. Olver. Thank you. Is there any document that the 
uninitiated would find edifying on this subject?
    Mr. Valentine. We would be happy to, because our 
international office looks at this; our operations offices look 
at the subject.
    We do have some data on that, and we would be happy to 
share with you what information we have on what other countries 
do.
    Mr. Olver. I don't know that it is relevant in what we do. 
We usually pride ourselves on our independence on those sorts 
of things, but I am sort of curious, especially given what the 
chairman had been saying earlier, the big chairman had been 
saying earlier, what the comparabilities are in this situation, 
and I would like to know whether we are at the midpoint or at 
the far end of the distribution of what major industrial 
countries might do, the G-7 countries if you would like or some 
other such categorizations.
    Overflights are probably quite different in some dense 
parts of Europe than they are here, so I don't know. It is 
obviously an extremely complicated kind of comparison, but now 
that we are into this and we are clearly going to be into it, 
because you are suggesting the movement of essentially the 
whole FAA budget onto user fees, I would sort of like to know 
sometime during my stay in this committee over the next two 
years whether--what are the comparisons? What are we striking 
for? What are the authorities, so to speak, if any, for doing 
this sort of thing? Is it the way people just are going and 
that it has been a steady movement in that direction or not?
    Mr. Valentine. The genesis behind this approach is to 
provide to the FAA a steady, predictable source of revenue. 
That is fundamentally why we are taking this approach.
    Mr. Olver. Mr. Chairman, I will stop here. Thank you.

               national civil aviation review commission

    Mr. Wolf. Hopefully, Mr. Olver, the commission will also be 
looking at that. That will be the purpose of it.
    Mr. Olver. The commission?
    Mr. Wolf. Yes, the commission that was set up by Congress 
last year to look at these issues, and if you have any 
thoughts, you might want to meet with the people. They have all 
been announced now. I don't know if the congressional ones have 
been, but sit down with them and talk to them----
    Mr. Olver. So it hasn't been named yet or it has just been 
named----
    Mr. Wolf. Yes.
    Mr. Valentine. I think Congress is just about to name--
    Mr. Wolf. A little late, though. I think ours are 
finalized. I think we were waiting for the FAA to move.
    Safety, and I just thought of something as Mr. Olver was 
asking a question.

                              faa mission

    Mr. Wolf. Last year when the bill passed, it said that the 
FAA should no longer be in the business of promotion of 
airlines. How has it dramatically changed your life?
    I know Mr. Donohue's life has been dramatically changed. 
How has it changed yours? Mr. Pena was for it and everyone was 
for it. Has it had any change, I guess, is what I am saying, 
honestly?
    Mr. Valentine. I would honestly not characterize it as 
having dramatically changed the way we conduct our business 
from a day-to-day basis.
    Mr. Wolf. Just about the same.
    Mr. Valentine. For those in the field, probably not a 
noticeable change. I think that the change has been in 
clarifying at least in the public's mind where our emphasis is.
    We have always believed principally that our emphasis is 
safety, but I think there was a lot of public misunderstanding 
and misconception there, and I think if nothing else, that this 
has helped clear that up and that is important as well.
    Mr. Wolf. And the airlines that come in have offered to 
pick up some of the things that you do that they should be 
doing, they have been in to see Mr. Donohue asking that they 
have that responsibility, or have they not been in?
    He is shaking his head no.

                        faa's inspection program

    With regard, Mr. Valentine, to the Valujet disaster, the 
investigations and safety board hearings into the accident 
revealed an FAA inspection program that was not adequately 
performing its oversight duties. FAA's own studies showed some 
of these weaknesses, yet nothing happened. After Valujet, 
Administrator Hinson asked Linda Daschle to head up an 
assessment of ``lessons learned'' from Valujet. What were the 
major recommendations from this 90-Day Safety Review, and when 
will the major improvements be put into place?
    Mr. Valentine. The recommendations of the 90-Day Safety 
Review are in process right now. Among the principal 
recommendations were that we focus our inspective resources 
where they most logically ought to be applied, and when you 
look at a new entrant airline about which in the early stages 
you know very little and which, because it is new, has growing 
pains, that would suggest that paying attention to that entity 
would make more sense than say, paying attention to American or 
Delta or somebody who had been around for years, with whom you 
have experience and about whose performance you know quite a 
bit.
    One of the recommendations is to put particular focus on 
new entrant airlines, at least during the first five years of 
their operation.
    Mr. Wolf. Has that been done?
    Mr. Valentine. That is underway right now.
    Mr. Wolf. Underway, meaning it is----
    Mr. Valentine. We are currently making sure that as new 
entrants apply and come on board, that we are committing the 
resources necessary to make sure that we can oversee them 
adequately.
    Mr. Wolf. I am sure there are a number of other 
recommendations which maybe you could elaborate for the record, 
but are they being implemented or are they waiting for the new 
administrator to come on?
    Mr. Valentine. They are being implemented. They started 
being implemented right at the end of the 90-Day Safety Review.
    Mr. Wolf. One of the recommendations was to establish a 
special unit at FAA called the national certification team.
    Mr. Valentine. That is right.
    Mr. Wolf. What is the team, where is it located, and is it 
fully staffed?
    Mr. Valentine. That is another recommendation from the 90-
Day Safety Review, and that is to--it is in sort of keeping 
with our Challenge 2000 recommendations to create centers of 
excellence, and this would in fact be a center of excellence 
for a certification of new airlines.
    We are in the process of forming it. I am told that 
thebids, so to speak, for those inspectors interested in pursuing this 
is on the street right now, so we are seeking those people who are 
interested in being part of that team in order to put that team 
together.
    I would be happy to have Mr. Gardner elaborate further if 
you need that, but that is what we are doing.
    [Additional information follows:]

    The following is a list of all of the 90-Day Safety Review 
recommendations. Please note that the FAA began implementation 
of these recommendations as soon as the 90-Day Safety Review 
was completed.
    Rigorously enforce Office of the Secretary of 
Transportation (OST) and FAA application procedures. This 
recommendation has six steps that apply.
    Improve air carrier surveillane systems and follow-up 
activities to mitgate safety risks and increase the leverage of 
FAA resources. Ensure that safety information reaches the right 
people at the right time and continue efforts to improve data 
quality and analysis. This recommendation has eight steps that 
apply.
    Ensure that newly certificated air carriers have adequate 
resources and infrastruture to support stable an safe 
operations and growth. This recommendation has three steps that 
apply.
    Ensure that all air carriers have adequate resources and 
infrastuture to support outsourcing and operation of a varied 
fleet mix. Require specific information related to outsourcing 
and fleet mix in the OST and FAA application. Increase OST and 
FAA scrutiny of these factors in determining an air carrier's 
initial and continuing qualifications to operate. This 
recommendation has seven steps that apply.
    Ensure consistency, timelines, usefulness, and 
accessibility of guidance material provided to inspectors and 
air carriers. This recommendation has three steps that apply.
    Ensure that Flight Standards resources and training are 
adequate to meet safety requirements. This recommendation has 
four steps that apply.

               on-line aviation safety information system

    Mr. Wolf. Maybe for the record, if you can elaborate. 
Another recommendation was to increase funding for and 
accelerate deployment of laptop computers for aviation 
inspectors called OASIS [on-line aviation safety information 
system]. Last fall's supplemental appropriations bill provided 
$3,500,000 to accelerate the procurement. How many inspectors 
have this tool today?
    Mr. Valentine. Let me ask Mr. Gardner. I don't know the 
exact number.
    Mr. Gardner. The supplemental addresses OASIS II. Last 
year, we fully put in the OASIS I system as the prototype 
system, and those were about, 80 computers.
    For the supplemental for this year, we are deploying 630, 
and it is a new software development. What we are calling OASIS 
is also known as Performance Enhancement System (PENS). We just 
signed the contract on those earlier this month, and we plan to 
start putting those in the field in April.
    Mr. Wolf. Good. Thank you. We will do the next ones for the 
record.
    [The information follows:]

    Mr. Wolf. The 90-Day Safety Review recommended a fiscal 
year 1998 requirement in facilities and equipment of $8.8 
million for further deployment of OASIS computers. How much is 
in your F&E budget for 1998?
    [The information follows:]
    The facilities and equipment budget request for 1998 
contains $11 million for the Performance Enhancement System 
line item (3A09) which is also known as the On-Line Aviation 
Safety Inspection System (OASIS) program. The increase of $8.8 
million, recommended by the 90-Day Safety Review, along with 
the $2.2 million in the original Capital Investment Plan 
baseline, will deploy 1,429 workstations to the entire Flight 
Standards safety workforce in 3 years.
    Mr. Wolf. The FAA has another laptop-based system which 
would provide inspector with up-to-day national data on the 
violation histories and inspection records of companies in 
their geographic area, thus helping target their resources to 
the highest need. This is SPAS (Safety Performance Analysis 
System). The GAO and Congress have been critical of FAA for 
moving so slowly to get this system into the hands of actual 
inspectors. This is now planned for the second version of the 
equipment, called SPAS II. When will your field inspectors be 
able to use SPAS in their day to day work?
    [The information follows:]
    The Safety Performance Analysis System (SPAS) is a safety 
assessment system that can be used either on a desktop or 
laptop computer. Its purpose is to assist inspectors to 
identify certificate holders that may present a greater safety 
risk thus warranting further surveillance. Implementation of 
SPAS is on schedule. SPAS I, the Operational Test version, was 
delivered in 1995 to the 60 \1\ principal inspectors assigned 
to the 20 largest air operators who carry over 90 percent of 
the public who fly on scheduled carriers. In accordance with 
the 90-Day Safety Review, an analytic unit is being created to 
provide data from SPAS to those inspectors who do not yet have 
the system. SPAS II, the enhanced production version, will be 
released beginning in September 1997. All inspectors, 
supervisors, managers and analysts will have the production 
system for use in their day to day work by September 1999.
---------------------------------------------------------------------------
    \1\ A total of 200 inspectors have been using the system since 
1995, including developers and evaluators.
---------------------------------------------------------------------------

                     RISK-BASED INSPECTION PROGRAMS

    Mr. Wolf. The GAO reported last year, and again in our 
hearings last week, that your safety inspectors do not 
prioritize their work to concentrate on the carriers and 
facilities with the biggest number of problems. You were 
referring to the new ones coming on, and that is a form of 
prioritizing, but also for those that are out there with the 
largest number of problems. We have seen many of the DOT 
agencies going to such a risk-based inspection program over the 
past five years, including FRA and RSPA.
    What causes situations to develop at the FAA and why didn't 
executives at the agency notice that most of your inspection 
time was being spent on entities with a relatively good 
enforcement record?
    Mr. Valentine. Again, I may ask Mr. Gardner to address 
that, because I am not familiar with the historic nature of the 
use of the inspector force, but Guy, if you would like to 
address that, I would be happy to have you do it.
    Mr. Gardner. Yes, sir. Traditionally in the past, we have 
assigned our inspector workforce based on activity of the 
carrier.
    Mr. Wolf. Like the number of flights?
    Mr. Gardner. Number of flights, yes, sir. The bigger the 
carrier, the more inspectors we have.
    What the 90-Day Safety Review has pointed out and what we 
are in the process of doing is looking at the risk of the 
carrier, because in reality, most of our large carriers have 
very good safety programs of their own that go beyond the 
minimum standards that we require. We are looking at applying 
more resources to the high-risk carriers, the new carriers. We 
are also looking at the compensation systems we have.
    Traditionally in the past, your new, lower-paid inspectors 
went to what in reality is the higher-risk airlines and then 
you worked your way up to the big ones. We are trying to 
reverse that situation by working with the unions.
    Mr. Wolf. That is where it is hard to send them out and 
say, you are going to have a different pay scale to give you 
the ability to make the changes that allow you do that?
    Mr. Gardner. Yes, sir.
    Mr. Wolf. Is that similar to what you are talking about, 
Mr. Belger, with regard to the New York Center?

       certification, standardization, and evaluation (cset) team

    Mr. Gardner. Yes, sir. The CSET team is our first step, and 
that is an example. That is the team we just referred to who 
will look at new carriers. The job applications should close 
this month, and that team is looking for the high experience, 
high quality inspectors who will be paid appropriately and will 
be a prestige in the workforce to be working on that team.
    Mr. Wolf. How will the pay work? Will it be a certain 
percentage?
    Mr. Gardner. I don't know the details of the pay system 
right now, sir. I can get that to you.
    Mr. Wolf. If you would, I would appreciate it.
    Mr. Gardner. Yes, sir.
    [The information follows:]

    The Certification, Standardization, and Evaluation Team 
(CSET) will be staffed by operations, maintainance, and 
avionics aviation safety inspectors at the FG-14 level and non-
supervisory operations, maintenance, and avcionics aviation 
safety inspector team leaders at the FG-15 levels. The FG-14 
and FG-15 pay scales are equivalent to the GS-14 and GS-15 
levels established by the Office of Personnel Management for 
employees in other Federal agencies. Inspectors selected for 
CSET assignments will serve on a two-year temporary assignment, 
with the possibility that the temporary assignment may be 
extended for an additional year. For many selectees the 
temporary assignments will be processed as temporary 
promotions, leading to a six percent annual increase. CSET 
personnel will remain in the geographic area where they 
currently reside and earn the locality pay for that geographic 
area. CSET duties will be performed through the use of advanced 
automation concepts and periodic travel. The establishment of 
non-supervisory team leader positions at the FG-15 level will 
enable the CSET to attract the most experienced principal 
inspectors to be responsible for such functions as the 
development of guidance for new entrant air carriers, the 
development of training for FSDO personnel certifying new 
entrant carriers, and the oversight of the issuance of 
certificates to new entrant air carriers.

       aviation safety inspector/administrative personnel hiring

    Mr. Wolf. The September 1996, supplemental appropriation 
for fiscal year 1997 provided emergency funds at the FAA's 
request to hire an additional 146 aviation safety inspectors 
and 74 administrative personnel which support the inspectors. 
Combined with the 410 additional personnel funded in the 
regular bill, the FAA received funds to increase the safety 
inspection workforce by 630 positions during fiscal year 1997.
    Last week, we saw some data which indicated that few of the 
positions had been filled. Would you tell us how many of these 
630 new positions have been filled, and after attrition, how 
large your workforce is now compared to the end of fiscal year 
1996?
    Mr. Gardner. The data we had a few months ago said we were 
behind in that hiring, and the explanation that I have received 
is that a lot of our attrition occurs in the December, through 
January 3rd time frame. That time is most advantageous to folks 
who do retire.
    In addition, the hiring of the new inspectors, a plan 
needed to be developed on exactly where we wanted those people 
to go along with an attrition side, understanding where and 
when they were leaving.
    We have stepped up the pace of hiring. We have hired 60 
inspectors last month, in February, and are anticipating hiring 
60 in March, our plan is that we should have by the end of June 
the additional inspectors hired, and cover most of the 
attrition by the end of September, to be up to full speed.
    Mr. Wolf. Since the supplemental funds were designated as 
an emergency requirement, we would expect the FAA to use 
whatever authority it has to hire these new inspectors quickly. 
Given personnel reform, you have the authority to hire them 
quickly. Why has the hiring been so slow, particularly since it 
was viewed as an emergency supplemental?
    Mr. Gardner. I think the best explanation is making sure we 
hire the people we know have the best qualifications out there. 
We need to make sure we are hiring them into the right places 
and understand where the attrition is going to be.
    I also suspect that I probably could have put a little fire 
under that process a little sooner than I did, and we could be 
up a little better than we are now, but the basic reason is 
making sure we are hiring people into the right places.

                             hazmat program

    Mr. Wolf. Last June, the Washington Times got a copy of a 
1992 internal report by the FAA's office of civil aviation 
security in which one FAA employee said, ``A lot of us think we 
are going to have a Pan Am 103 in HAZMAT'' and other said 
``lumping together cargo, HAZMAT, anything that goes into the 
belly of a plane, we are just waiting for an accident to 
happen.''
    In his letter transmitting this report to the 
administrator, the FAA's head of aviation security wrote, ``The 
basic problem is that it has not been viewed with the same 
level of concern as some of our other programs, namely keeping 
bombs out of airports and airplanes. Nonetheless, the risks are 
potentially just as high and the consequences just as deadly.''
    Why didn't the FAA act on this report immediately to 
increase the quantity and training of HAZMAT inspectors and put 
in place an upgraded program?
    Mr. Flynn. I think that should be my answer, because the 
HAZMAT and dangerous goods inspectors are in my part of FAA.
    There was an increase in inspections. There was a 
reorganization following that internal report. We 
underestimated the amount of resources and then secondly, in 
1995, particularly, we were faced with a pretty ferocious, 
real, actual terrorist threat, and it required a great deal of 
diversion of personnel. We had to deal with the immediate 
threat, and the number of our HAZMAT inspections fell off in 
1995 prior to the Valujet crash.
    Mr. Wolf. During last year, we provided $10,500,000 to 
increase funding for HAZMAT security and program. Have all the 
funds been obligated?
    Mr. Flynn. Some of that, of course, is for operations, for 
hiring people, and that equates to 118 inspectors. We have 
hired 58 of them and will have them all hired by the end of the 
third quarter, by 30 June of this year.
    Mr. Wolf. Are you asking for more money in the 1998 budget?
    Mr. Flynn. Yes. It is in the 1998 budget for them to be 
annualized. The full-time equivalents will be annualized in 
1998 and are in that basis. On the other hand, there is the 
security workforce that was increased by the continuing 
resolution, perhaps it is too early to be talking about it, but 
that will need to be annualized in 1999. It is covered from the 
continuing resolution for 1997 and 1998.

                            valujet accident

    Mr. Wolf. During the Valujet investigation, FAA flight 
standards manager in Atlanta testified the he had repeatedly 
asked for more staffing as early as April of 1995, but his 
efforts had been in vain. Another FAA staff person said his 
letters requesting staff were never answered, and he was told 
informally by his boss that if he couldn't do the job, they 
would find someone who would.
    To what degree does FAA allow field managers and executives 
to play a role in development of the annual budget, and is the 
budget developed top-down or bottom-up?
    Mr. Valentine. We take into account the input of people 
from the bottom-up. The people who best know what the resource 
needs are in the field are those people in the field. They 
provide the foundation of information that we use from which to 
construct our budget, so on that basis, I would call it a 
bottom-up driven budget in terms of our needs.
    That in turn gets balanced with the top-down, bigger budget 
picture that comes out of the Administration and comes out of 
Congress.
    Mr. Wolf. Are the people willing to speak out? I saw a 
survey whereby it did not appear that FAA personnel were overly 
willing to speak out, for various reasons.
    Mr. Valentine. I have had some experience in that area, and 
I have heard those same comments and complaints before.
    I have not generally, since I have been in the FAA or for 
all of the years before FAA, found FAA folks to be all that 
bashful, and this past summer, for a period of four months, I 
was acting as associate administrator for certification and 
regulation before Mr. Gardner came on board, and during that 
time, I went out into the field, visited all of the directors 
around the country and had all-hands meetings with folks, and I 
didn't find, once I got them generated and got them to start 
speaking, that they were at all bashful about telling me what 
they saw the problems were.
    Mr. Wolf. Are you aware of the survey that I am talking 
about?
    Mr. Valentine. Yes.
    Mr. Wolf. That is a private survey that people answer 
without having their name identified, and that indicated that 
it was not the case.
    Mr. Valentine. Yes, and I have heard that, and the question 
we have to ask ourselves is whether somewhere between our level 
and the field level, the people I talked to who were at the 
very entry and basic level of the FAA, whether in between our 
level and their level, our information gets down and their 
information gets up, and that is a concern we have.
    I am not convinced entirely just from my personal 
experience that we have addressed that to make sure that we 
have complete, connected communications. I think there is some 
amount of evidence to suggest that somewhere along the line, 
sometimes, information reaches a point and somehow, it gets 
filtered out going up and gets filtered out coming down, and we 
need to make sure we are paying attention to that.
    Mr. Wolf. In the AAS program, we found that when problems 
developed, FAA managers threatened their employees and their 
support contractors to keep quiet about it in hopes that people 
wouldn't find out. Rather than dealing with the problem, these 
people try to hush it up.
    The GAO tells us that the FAA has a cultural problem, and 
that the FAA's own survey shows a majority of the employees are 
afraid to talk for fear of retribution.
    Now that we have this report from the Valujet inspector 
that he was told much the same thing, to stop complaining. Do 
you see a problem with the FAA culture? I know that is a word 
that is thrown around a lot, but do you see a problem there? 
Should something be done? Should a notification go out to 
everybody urging people that you would like them to speak out? 
It comes up all the time.
    Mr. Valentine. I know it does. I am aware of that, and I 
have no doubt that there are instances in which that is the 
case where an employee for whatever reason feels intimidated or 
feels that they can't take something to their boss.
    It is unfortunate that that is the case. I will tell you 
that with the advent of e-mail, people, if they are so 
compelled, will skip several levels of the chain of command and 
as I find evidence on my e-mail when I turn my computer on in 
the morning. At least folks are not at all bashful of going 
right to the administrator with their concerns.
    I think within the agency as within any organizationwhere 
you have what we have, which is a vertical structure, chain of command, 
not unlike in many regards a military chain of command, that there may 
be some reluctance on the part of people in some offices to communicate 
the way that they need to be communicating.
    I would ask Guy if he wants to address that in terms of 
what he thinks is going on within the current workforce, 
particularly on the safety side, because we want to make sure 
that we, all of us here in this room, know about problems, hear 
about problems, so somebody isn't checking that somewhere 
between the top and the bottom so that we don't find out about 
it.
    Obviously, what we don't want to see happen, and you have 
seen it happen, is after some unfortunate event, the old I-
told-them-so-but-nobody-listened-to-me routine. We can't have 
that.
    Mr. Gardner. I would have to echo what Barry has said about 
the workforce.
    We also, on top of that in the flight standards service, 
have unions, and we are growing a very strong partnership 
program with the unions, and I get quite a bit of my input 
through the union organization as well as from the employees 
directly. I do get the same kinds of e-mail that Barry alluded 
to.
    Mr. Wolf. Can they do it without signing it? Is there a 
mechanism for anybody in the department to come forward without 
identifying who they are?
    Mr. Valentine. Yes.
    Mr. Wolf. What is that process?
    Mr. Valentine. It is the FAA hotline that we have that 
anybody can use in the agency. Anybody and people outside the 
agency who are aware of problems can bring them to our 
attention, too.
    People in industry who see a particular problem that they 
feel isn't being addressed via our personnel, they can let us 
know as well.
    Mr. Wolf. What about for personnel?
    Mr. Valentine. Same thing as well. Yes.
    Mr. Olver. Mr. Chairman.
    Mr. Wolf. Yes, Mr. Olver.
    Mr. Olver. Would you yield for one question on this point?
    Mr. Wolf. Sure.

                        whistleblower protection

    Mr. Olver. It would appear to me that in an effort to 
increase the overall safety of the airline industry that 
several members in a bipartisan effort, actually, Senator Kerry 
from my state and Representative Boehlert from New York and 
Representative Jim Clyburn from South Carolina have introduced 
legislation that would establish whistleblower protection for 
aviation workers.
    I am not sure exactly who that is focused on. Do you have 
any views on that legislation? Do you know of that legislation? 
Do you think there is a need for it, either in relation to the 
FAA's operations or of airlines within the industry as a way of 
protecting workers and whistleblowers?
    Mr. Valentine. I don't know that I am familiar enough with 
the broad issue to be able to tell you the extent to which that 
is needed, but I think that any time someone sees a problem, 
they ought to be able to bring it to the attention of someone, 
some appropriate party without fear of retribution or any 
consequence, and if it requires legislation to make that 
happen, then so be it.
    Mr. Olver. Thank you.

                       faa employees speaking out

    Mr. Wolf. I think that is important. There was a problem, 
and I don't want to get into the whole Gregory May thing. I 
think that was the last time, but there was a problem, and a 
lot of your people live in my district. They go to my church. I 
see them at the Safeway. People come up and they happen to know 
that I serve on this committee, and I have had a record of 
being very supportive of federal employees.
    People come up and say different things, and I think there 
is a certain problem, and I think the more you can do, and 
obviously, all three of you are good people; I am not 
suggesting that you are going to do something, but the higher 
the comfort level is in my office, I tell anybody, you have any 
problems, come in, but my office is a lot smaller than yours.
    But I think the more you make it clear that they are 
welcome to come in, because some of the best ideas I get from 
my staff and some of the best ideas I get are from people that 
come up to me.
    I just think that your culture has had a reputation in the 
past, and the IG's office has been very critical, and there was 
a period that I think the FAA was out of control.
    You had a former administrator using the FAA airplane to go 
out and apply for a job. You had people that weren't connected 
with the NAS who were involved in activities. You had people 
leaving to go out as contractors. You just had a lot of things 
going on, and I think the Gregory May thing and all, so I think 
the more you are just open and say, we want to hear from you. 
That doesn't mean that you are going to do everything that they 
say, because clearly, there can be only one FAA administrator 
and Mr. Belger does a good job. He is the person who has the 
responsibility.

            aviation safety inspector hiring at atlanta fsdo

    Mr. Wolf. I think just to hear that can be very, very 
positive.
    The Valujet inspectors told the Safety Board last summer 
that due to cutbacks, when positions opened up, the agency 
didn't fill them. However, we were told that the FAA's cutbacks 
resulting from the NPR and government-wide downsizing 
specifically exempted the field workforce insafety-critical 
areas like inspection. Why weren't the positions in Atlanta filled, the 
vacancies?
    Mr. Valentine. I don't know the answer to that. I don't 
know if Guy does.
    Mr. Wolf. You weren't there. Could you check around and 
submit it for the record?
    Mr. Gardner. Yes.
    [The information follows:]

    Between fiscal year 1991 and fiscal year 1994 inspector 
staffing declined from 2,582 to 2,324. The fiscal year 1995 
appropriation provided staffing increases for the Flight 
Standards aviation safety inspector work force for the first 
time since fiscal year 1991. In October 1994, staffing in the 
Georgia Flight Standards District Office (FSDO), including 
those inspectors responsible for management of the Delta 
Airlines certificate, was 68 against a staffing standards 
estimate for that office of 98. By the end of fiscal year 1995, 
there were 81 inspectors assigned to the Georgia FSDO. In 
meeting the National Performance Review (NPR) targets during 
that same fiscal year, the number of supervisors was reduced 
from 11 to 6, providing 5 additional inspector resources to 
that office. During fiscal year 1996, staffing remained at that 
same level, as inspector staffing was increased in other FSDOs 
throughout the Southern Region where staffing levels were lower 
than in the Georgia FSDO (including the newly formed Delta 
Certificate Management Office). Today, staffing for those two 
offices is 88 against a staffing standards level of 97, with 
additional increases planned as part of the fiscal year 1997 
hiring plan. The agency has elected to exempt the safety work 
force from NPR and downsizing reductions.

                     TECHNICAL TRAINING SHORTFALLS

    Mr. Wolf. Last spring, the GAO told us that you had funding 
shortfalls in technical training. Are you friendly to the GAO 
people when you see them in the building?
    Mr. Valentine. Oh, yes.
    Mr. Wolf. Do you have lunch together, do you go bowling 
together?
    Last spring, the GAO told us you had funding shortfalls in 
the technical training of your inspector workforce. Their 
interviews with FAA inspectors revealed that many inspectors 
were performing inspections for which they were not fully 
trained.
    As the GAO said, ``This has been a persistent problem at 
the FAA.'' How does your fiscal year '98 budget address the 
technical training needs of aviation inspectors and other 
safety personnel?
    Mr. Gardner. Yes, sir. The reports I have are that we have 
the right amount of funding for the training of the inspectors. 
Obviously, there is a limit as to how much training you can 
give in any one year, and we have the right balance for that 
amount to get them appropriately trained in the jobs that they 
need to do.
    It all falls in, of course, with all of the efforts of 
reprioritization of people and their jobs and making sure they 
are trained to do perhaps new tasks that they weren't 
specifically asked to do in the past.
    Mr. Wolf. Then you are comfortable with the standards?
    Mr. Gardner. Yes, sir.
    Mr. Valentine. Mr. Chairman, if I could note, that is an 
example of the kind of thing that was brought to me when I was 
doing the field visits last year, people telling me that they 
didn't feel that they were receiving an adequate level of 
training, and I think we have recognized that and reflected 
that in the budget.

      PROTECTION OF SAFETY PERFORMANCE ANALYSIS SYSTEM (SPAS) DATA

    Mr. Wolf. In responding to a recent GAO report, the Office 
of the Secretary stated that legislation would be needed to 
protect SPAS data from freedom of information act [FOIA] 
requests in order to allow vital company-specific information 
to be made available for those who need it--your safety 
inspectors. Would the usefulness of SPAS be limited without 
such a change? If so, how?
    [The information follows:]

    If critical company-specific safety data is released under 
FOIA, inspectors would be inhibited from providing information 
about a potential problem to the underlying safety systems that 
supply information to the Safety Performance Analysis System 
(SPAS). Information about potential problems is based on 
inspector opinion and could be considered subjective. Since the 
purpose of SPAS is to identify potential safety problems and 
trends in advance of more serious incidents, the resulting loss 
of this (expert opinion) data would inhibit the usefulness of 
SPAS.

           STAFFING STANDARDS FOR AVIATION SAFETY INSPECTORS

    Mr. Wolf. In other areas such as air traffic control and 
facilities maintenance, the FAA has admitted its staffing 
standards are inadequate. Are you comfortable your staffing 
standards for aviation safety inspectors are adequate? Was this 
part of the problem with oversight of the new entrant carriers?
    [The information follows:]

    The current aviation safety inspector staffing standards 
have documented the need for significant increases in the 
aviation safety inspector work force since those standards were 
initially used in the development of the fiscal year 1995 
budget request. However, as identified in the 90-Day Safety 
Review, those staffing standards are based on mathematical 
models that do not easily capture the impact of new and 
modified industry practices, such as outsourcing of maintenance 
or pilot training, that change the nature of the aviation 
safety inspector's job functions. Additionally, those staffing 
standards do not reflect the impact of regulatory changes on 
inspector workload in a timely fashion.
    To fulfill one recommendation of the 90-Day Safety Review, 
the agency is developing a new integrated staffing model that 
will address the deficiencies in the current standards and 
provide a tool that is more sensitive to the changing aviation 
environment. The existing staffing standards did not provide 
staffing specifically for the workload associated with 
applicants for air carrier certificates or for the workload 
associated with rapidly expanding air carriers. However, as 
aviation safety inspector staffing has historically been below 
the level identified in the staffing standards, it is more 
likely that inadequate staffing contributed to problems 
associated with the oversight of new entrant air carriers.

       inspection and certification staffing levels at facilities

    Mr. Wolf. In the air traffic control area, we are told that 
the standards do a good job of estimating the number of 
controllers needed in the aggregate, but not at a particular 
location. In the aviation inspection area, if you had the right 
number of inspectors, but they weren't in the right location, 
it wouldn't have helped in situations of fast-growing small 
airlines like Valujet.
    How do you decide staffing needs at the individual facility 
level for your inspection and certification workforce, and is 
this process adequate?
    [The information follows:]

    The aviation safety inspector staffing standards are most 
accurate at estimating total staffing requirements at the 
national level. The current staffing model estimates the total 
number of aviation safety inspectors required at the national 
level through a formula based on projected future aviation 
activity levels. That national total, through the application 
of formulas, data, and complexity factors specific to each type 
of certificate holder, air operator, air agency, airmen, and 
associated work functions, identifies regional staffing 
estimates for each of the three aviation safety inspector 
options (operations, maintenance, and avionics). Through an 
additional application of the various formulas and complexity 
factors, staffing estimates can be produced at the field office 
level. However, the application of the formulas at the field 
office level does not maintain the high level of statistical 
validity corresponding to the national application of those 
formulas.
    Producing field office staffing estimates is useful to 
provide guidance to regional and field office managers in 
allocating resources to each office, by option. Regional and 
field office managers have the authority to adjust staffing 
levels across option lines within the office and across office 
lines within the region to meet changes in the aviation 
environment within the office and region. At the beginning of 
fiscal year 1995, the onboard percentage of aviation safety 
inspectors against the staffing standards was at 80 percent. 
Congressionally authorized increases will raise that percentage 
to nearly 100 percent when the fiscal year 1997 hiring is 
completed on June 30, 1997. At that relatively low percentage 
in fiscal year 1995 managers did not have the right number of 
inspectors in the right locations to work with a fast-growing 
airline such as ValuJet. Flight Standards has under development 
a new integrated staffing model that, when completed, is 
designed to produce additional tools for managers to determine 
the staffing mix (types of positions) necessary to meet the 
unique staffing needs of the organization at all levels.

                      english language proficiency

    Mr. Wolf. On English language proficiency. The Safety Board 
and the GAO both told us this year that more needs to be done 
to ensure foreign air traffic controllers have the English 
language proficiency to handle emergency and nonstandard 
situations. The lack of English language proficiency was cited 
as a factor in the Avianca crash up in Long Island at La 
Guardia, and the Cali crash last year in Colombia.
    Is the FAA concerned about this? Are you doing anything to 
deal with the language issue, which is also a problem in ships? 
The Coast Guard testified that the ship down in New Orleans, I 
think the captain was trying to communicate with the Chinese 
crew and it was a language problem. Maybe language will turn 
out to be the cause of it, I am not sure.
    What are your concerns and what is the FAA doing with 
regard to the language problem?
    Mr. Valentine. Let me start with that and then ask Mr. 
Belger to talk about some specifics.
    It is a great concern of ours. In fact, it is a great 
concern of the international aviation community. It is a 
worldwide problem.
    Mr. Wolf. The worldwide standard is English, is that 
accurate?
    Mr. Valentine. That is correct. English is the 
international language of communication in aviation, so the 
whole world in international operations is required to speak 
English.
    It is obviously a lot more challenging for most other folks 
than it is for U.S. folks since it is already our language, but 
it is one of the items that has been highlighted in the 
international community as something that needs to be 
addressed, because it is in fact a causal event and has been in 
a number of accidents.
    Mr. Wolf. How many accidents over the last couple of years 
were caused by language? The pilot ran out of fuel in the one 
up in New York and wasn't able to----
    Mr. Valentine. New York, and it is a combination of 
language and culture. In some cultures, it is the difficulty of 
getting a co-pilot to tell the pilot that he is doing something 
wrong, because you are not supposed to criticize a superior, 
that sort of thing.
    It gets down to that, so it is a mixture of culture and 
language in many cases, but it is on the most-wanted list in 
the international community of areas that need to be addressed 
and corrected.
    Mr. Wolf. I think it ought to go very high, because if you 
look at the number of international flights, just go out to 
Dulles or go out to Kennedy and you go abroad. People from the 
United States are flying all over the world, to Pakistan and 
places like that, and I think it is a very important issue.

                      travel ratings in countries

    That leads me to something that I asked a couple of years 
ago. Have we considered putting out a travel rating or 
something with regard to countries where the flying is not very 
safe, i.e., China, and certain parts of Africa? Should we not 
be doing more to tell the American citizen that when they take 
the trip to China, that there may be a danger if they are 
flying on a certain airline or flying a certain place?
    I know that the embassy in Moscow was prohibiting the 
American embassy people from flying on Russian planes. I took 
an aircraft down to Chechnya and I know it didn't meet your 
standards. I can assure you of that, and yet I went on my own, 
and I knew, but other people don't know that.
    Should we not be doing more to tell the American passenger 
flyer that when they fly in certain countries, that they may be 
in danger because of the safety records?
    Mr. Valentine. There is a process through the consular 
service, through the State Department to provide----
    Mr. Wolf. But everyone doesn't know. I spoke to a family 
the other day, and their daughter was going to an area, and 
they didn't know anything about that.
    Mr. Valentine. I am not sure how well known that is either 
among the American public, and I think maybe it would behoove--
whether it is the State Department or FAA or the Department of 
Transportation or whomever to try to get that information out 
to the public, that there is a source that they can go to, 
through the State Department's consular service, to find out 
about transportation, obviously not only air but also surface 
and other transportation and issues when they are planning to 
travel to any foreign country.
    We do, as you know, assess the capabilities of the civil 
aviation authorities of foreign countries who have airlines 
that fly to the U.S. That is one area in which we are directly 
involved, but that pertains just specifically to the ability to 
oversee the international flights.
    From that, you can draw some conclusion as to what you 
might expect for an oversight level domestically as well, 
although it is not always one and the same. Usually, if the 
international oversight isn't good, you can reasonably be 
assured the domestic oversight is not very good. It may be the 
other way around, but not that fashion.
    Mr. Wolf. Are there countries that if your wife or son or 
daughter were flying, going to, you would be concerned?
    Mr. Valentine. Certainly. I probably have a lot more 
knowledge, because my normal job is in the international arena 
of the FAA than most folks do about what goes on 
internationally.
    I have also flown internationally as a pilot, and I would 
concur with you that anything that we can do, whether again, 
whether it is the DOT, the State Department or whatever source 
to provide information to the public.
    The Internet is another----
    Mr. Wolf. I was going to suggest, could you put it out on 
the Internet the way that you are doing now with----
    Mr. Valentine. To the extent that we have that knowledge. 
One of the difficulties is that we do not do assessments of 
domestic flight operations in foreign countries so that any 
knowledge we have is----
    Mr. Wolf. The State Department knew that it was dangerous 
to fly in certain areas of the Soviet Union. Now, did that 
information come from the Secretary of State or did it come 
from the FAA?
    Mr. Valentine. That concern was originally expressed by the 
ambassador in Russia about concerns about his own people, U.S. 
government people, flying within the Russian Federation.
    What we ended up doing is, we, the FAA, are joining with 
the State Department in taking a look at operations in the 
Russian Federation. We looked, as we do through our 
international assessment program, at the oversight of the 
international Russian carriers and determined that they met 
minimum ICAO standards, but we did not in any way suggest that 
domestically, the Russian carriers met those standards.
    We do not as a matter of practice, but mostly as a matter 
of resources, and also as a legal matter, in many cases, do any 
assessment of domestic operations within a country. Once again, 
if it happens to be a country that we have assessed for 
international purposes, you can draw some conclusions, but most 
of our information is anecdotal, as is most others in those 
particular cases.
    Mr. Wolf. Could you look at it and see, because maybe----
    Mr. Valentine. We have our own people operating in those 
environments as well. We have people based overseas who can 
tell you some real horror stories about travel from point to 
point between two foreign countries or within a foreign 
country, so we are very much aware of that.
    I think that we would caution anyone to use some judgment, 
that they would go with common sense. If it is a developing 
nation that has limited resources, one can probably conclude 
that not a lot is put into safety oversight in that arena as 
well.
    We would be happy to continue as we are doing, to take a 
look at that to figure out how to get information out to folks.
    Mr. Wolf. If you would, and I think the Internet is an 
ideal way, because the newspapers could pick it up off the 
Internet. I think we have an obligation to the American 
traveling public to let them know, particularly if somebody 
from the Federal Government knows and they would have a 
concern.
    I remember when Pan Am 103, hearing the interview, that it 
was on the bulletin board and there was a warning, and yet the 
families and the people on the aircraft there didn't have the 
same warning. I just think that whenever something like that 
happens, that is a security situation.
    Mr. Valentine. Which as you know we do. We do security 
assessments of----
    Mr. Wolf. Yes, but tourism is a big industry now in China. 
They are encouraging Americans to fly around and live in China. 
I think it would just be helpful for a mom and dad to know 
and----
    Mr. Valentine. Yes. One of our difficulties is that the 
information that we have, again, tends to be anecdotal. We 
don't do formal inspections of foreign airlines, so we have to 
be a little cautious there.
    Mr. Wolf. But I bet at the FAA you sit around sometimes and 
you joke, ``well, I just got back from X, and I will tell you, 
it was just a mess.''
    I think the people should know about that, and I would like 
to ask you to develop some system that could be put out on the 
Internet whereby people who wanted to access it could at least 
find out.
    Mr. Valentine. We have had some ongoing discussions with 
the State Department on how best to do that.
    Mr. Wolf. They will never let you do it. Sometimes, the 
State Department will represent the interest of the foreign 
country where they are more than they will the interest of the 
United States.
    It is a problem that I think develops sometimes. Not in a 
critical nature do I say that, but they say, ``well, we don't 
want to offend the Chinese because we are just beginning to get 
good relationships and we think they are changing, although 
there are a lot of people in jail and they are persecuting the 
Catholic church and the protestant church, and they are 
plundering Tibet, and they are doing bad things to Moslems, and 
they are selling weapons to the Iranians, but we think they are 
changing,'' so they won't want to.
    I will guarantee you that they will raise Cain with you if 
you try to do something with regard to the China thing.
    I think I may put something in the language if you don't do 
it. I would just ask you to do it, because I think it is 
important, and I think from a conscience point of view, you 
have to realize that every time an American is on an airplane 
that goes down around the world, which happens to be quite 
frequently lately, the question is should that person not have 
had an opportunity to know? They may not have changed their 
travel plan whatsoever, but I think they have a right to know 
if they want to.
    Mr. Valentine. I will commit to you to work with our 
international office and explore ways to best try to get that 
information out to folks.

               english language proficiency and training

    Mr. Wolf. Specifically, what activities are you undertaking 
to implement the safety board's recommendation after the Cali 
crash that the FAA work to develop standards for English 
language proficiency and training?
    [The information follows:]

    Ms. Linda Hall Daschle, then Acting Administrator for the 
FAA, addressed the Safety Board's recommendation regarding the 
development of standards for English language proficiency and 
training in a letter dated December 31, 1996. In her response, 
Ms. Daschle committed that the FAA would send a letter to the 
United States Members of the ICAO requesting that the ICAO 
Secretary General issue a State letter to address this specific 
safety recommendation. The letter will suggest that ICAO 
consider inviting the National Transportation Safety Board to 
brief the ICAO Air Navigation Commission and the Council on the 
apparent need to enhance English language fluency between 
pilots and controllers. The letter has been written and is 
presently being coordinated with FAA management. It will be 
forwarded to ICAO shortly.

                 acceleration of modernization program

    Mr. Wolf. The Gore Commission recommended FAA accelerate 
its equipment modernization program in order to achieve full 
operational capability by the year 2005. This would appear to 
require a great deal of concurrence between development and 
acquisition.
    The GAO advised us last week that such an acceleration 
would make a mockery of FAA's acquisition process, which calls 
for a disciplined, stepwise process. What changes would you 
need to make to your acquisition procedures in order to 
accelerate the modernization effort to such an extent?
    [The information follows:]

    The FAA is just beginning to use the acquisition reforms 
granted by the Congress. So far, our experience has shown that 
the acquisition management system can be both disciplined, and 
flexible. The task of fully modernizing the National Airspace 
System (NAS) by 2005 will be a difficult challenge, requiring 
both a higher level of capital investment funding, and a 
temporary rise in employees and support contractors. The FAA is 
currently investigating the impacts and working cost, schedule 
and risk issues to meet the Gore Commission recommended date of 
July 15 for a plan. Concurrent development and acquisition will 
have some increased risks.
    Key to success is not the acquisition management process, 
but development of alternative funding strategies to give the 
FAA the needed capital and flexibility to be successful. 
Modernization is heavily dependent on the results of the 
National Civil Aviation Review Commission and the subsequent 
action by the Congress to prepare the national aviation system 
for the 21st Century.
    The FAA does not agree with the GAO's assessment that 
accelerating the NAS modernization will make a mockery of 
acquisition. We know we have a responsibility to deliver 
programs with proper planning, engineering, and oversight.

                          acquisition culture

    Mr. Wolf. In a report last August, the GAO concluded that 
many of the FAA's longstanding acquisition problems stemmed 
from its underlying culture. They found out that agency 
officials acted in ways that did not reflect a strong 
commitment to the acquisition mission. They said your program 
officials suppress bad news, resist making needed changes, and 
seek to control data rather than share it.
    If you could think about this question and submit something 
for the record, but just to make the point that they thought it 
was a problem.
    [The information follows:]

    FAA admits to the underlying culture of the past and is 
attacking it comprehensively on all fronts. Acquisition reform 
and personnel reform granted to FAA by Congress in 1996 have 
given the agency the means to change the culture. Introspection 
and willingness to admit to problems now allows FAA management 
to identify and attack the systemic causes. There is a new 
sense of focus and intensity throughout the workforce not seen 
in many years that is leading to real cultural change.
    Examples include:
    Mission Focus. The FAA has developed a clear architecture 
for the National Airspace System (NAS) and a plan for managing 
long range resources and programs in a coordinated, top-down 
structure. These plans have been documented for everyone to 
refer to and understand. FAA's new Acquisition Management 
System (AMS) policy stresses continuous mission analysis by 
dedicated, skilled teams of mission specialists. Top-down, 
total NAS, forward-looking mission focus is rapidly replacing 
piecemeal bottoms-up approaches of the past.
    Accountability. One of the guiding principles of 
acquisition reform has been a clear definition of 
accountability, with investment decisions made at the corporate 
level and program decisions reserved for the program level. The 
FAA has implemented an Integrated Product Development System 
(IPDS), a system of teams leading teams, with acquisition 
programs managed by Integrated Product Teams (IPT), responsible 
and accountable for conducting lifecycle acquisition programs, 
staffed with knowledgeable and competent personnel, empowered 
to make program decisions and resolve their own bad news. Teams 
and individuals are held accountable for their actions and 
decisions. There is a strong emphasis on assessing the 
capabilities and providing employees with the requisite skills 
and knowledge, by means of a new Acquisition Workforce Learning 
System now under development. In addition, personnel reform has 
given the FAA the ability to seek and quickly hire new 
employees with special capabilities when they are not available 
within.
    Coordination. The fundamental, highest-emphasis guiding 
principle in AMS is full lifecycle partnership between the 
acquisition and operational workforces to obtain quality 
products and services. Personnel from both communities are 
equal team members on IPTs and throughout the IPDS in all 
phases of the acquisition lifecycle. Corporate decisions are 
structured to balance opinions of both communities. FAA is 
working hard to change to a culture of partnerships and to 
break down past barriers.
    Adaptability. Acquisition and personnel reform has led to a 
totally new approach to acquisition and the means to respond 
positively to demands and opportunities both from within and 
outside the agency. There is a new sense of openness and 
communications, most notably in contracting with vendors. The 
many rigid acquisition and procurement rules, policies and 
regulations of the past have been replaced by a small amount of 
policy, much guidance and process, and a cultural change that 
empowers teams to do what makes sense, not just follow rules. 
Major reorganization alignment and functional responsibilities 
of personnel have taken place to accommodate acquisition reform 
processes and accept change throughout the agency.

                   Training of Acquisition Employees

    Mr. Wolf. They told us in a hearing last week that many of 
your acquisition employees have inadequate training and 
background in complex engineering. Do you deal with that in 
your 1998 budget?
    Mr. Valentine. We deal with training in our fiscal year 
1998 budget.
    Mr. Wolf. For acquisition?
    Mr. Valentine. Do you want to address that part?
    Mr. Donohue. Mr. Chairman, as you know, I have been at the 
agency for about two and a half years looking at a number of 
issues with acquisition.
    Part of our problem was an acquisition management system 
which we have changed and I think it is working quite well.
    The bigger part of our problem was in personnel, trying to 
make sure that we had an adequate personnel staff that could 
use a good acquisition system and had the technical skills and 
training to be able to deal with the complex systems that we 
have today.
    We have still to date a relatively minor training budget 
for the engineering side of the house. We are trying to make 
better use of that, and we are continuing to try to put a 
learning system in place.
    We are trying to make with limited budgets, and since we 
are a very small part of the FAA and therefore, probably a 
small part of the overall training budget, we encourage maximum 
utilization in professional societies and other things to 
improve our staff's professional skill level.
    Mr. Wolf. Are you getting the necessary support within the 
agency?
    Mr. Donohue. Yes. I think we are getting the most support 
that we can get.
    Mr. Wolf. I know Mr. Hinson was very supportive of that.
    Mr. Donohue. Yes, he was.
    Mr. Wolf. Who do you go to now for support with Mr. Hinson 
gone?
    Mr. Donohue. I go to Mr. Valentine.
    Mr. Wolf. And you have been very supportive?
    Mr. Valentine. I am very supportive.

              Acquisition Employee Training and Education

    Mr. Wolf. An FAA study two years ago showed that the FAA 
compensated for the inadequacies of the agency's in-house 
workforce by hiring a large number of highly trained support 
contractors. You have been cutting back on your use of support 
contractors the last couple of years, a trend which continues 
in the 1998 budget. Have you been providing funds to upgrade 
the training and education of your in-house staff, and you said 
you have, but what about the loss of the contractors? Has the 
increased training fit the loss of the contractors?
    Mr. Donohue. I can't give you a yes or no answer to that. 
Our F&E dollars since 1993, I think, which was our high point, 
have decreased over $600,000,000 or $700,000,000 a year in 
constant dollars.
    We have been decreasing staff because our acquisition 
activities have been greatly decreasing over the last four or 
five years. We are decreasing a number of support staff because 
our acquisition activities are going down.
    On the other hand, I also observe that we were not probably 
making the best utilization of a number of our highly technical 
support contractors because our own staff didn't have the 
degree of technical knowledge they needed to make the best 
utilization. So we are trying to find a balance of increasing 
our own core competencies, especially in the area of systems 
engineering which are, I think, essential governmental services 
and functions.
    Mr. Wolf. How are you doing that, courses at George 
Washington, George Mason?
    Mr. Donohue. We are encouraging--we have many fine 
universities in the region. We are encouraging people to go 
back to school for both course work, master's degrees; again, 
using professional organizations, IEEE, ASME.
    Mr. Wolf. Have you approached any of the universities to 
develop a consortium, or are there one or two that could come 
in? Is there a certain area that you feel you could use more 
than others, whereby we could contact George Mason or George 
Washington to come in and tailor a course that could be taught 
at FAA or taught on-site whereby your people didn't have to 
leave?
    Mr. Donohue. We have been discussing that, and we have some 
tailored courses with Embry Riddle University in Daytona Beach 
which has----
    Mr. Wolf. Do you have to go down there?
    Mr. Donohue. No, they have a remote into our technical 
center at the William J. Hughes Technical Center, Atlantic 
City, New Jersey, and so roughly half of my entire technical 
staff are located at that facility. That is a very efficient 
place to be teaching courses especially in software engineering 
and systems engineering, which are two technical areas where we 
probably have the biggest deficiencies.
    Mr. Wolf. If there is some way we could be of any help, we 
would be glad to put some money in or do something.
    Mr. Donohue. We are also working with Carnegie Mellon 
University because of their software engineering programs.
    Mr. Wolf. So you have told them, here are our needs, and we 
want you to come in and teach this type of course.
    Mr. Donohue. Yes, we are in those sorts of discussions with 
them right now.
    Mr. Wolf. I think the sooner you actually do it, and you 
are not really necessarily interested in courses for degrees, 
although that is not bad, but it can be a certificate course or 
something like that?
    Mr. Donohue. That is correct.

                       Employee Self Improvement

    Mr. Wolf. Then somebody who took the course, there would be 
an opportunity perhaps for promotions?
    Mr. Donohue. We are trying to weave that into our new 
personnel system where we are encouraging people for their 
promotions and their skills to reward them based upon self-
improvement and increasing the value to themselves and to our 
agency.
    As you said, we are not out just for rewarding degrees. We 
are out for increasing their technical competence and so where 
the programs benefit the agency, we are encouraging them to do 
so and trying to find incentives, not always direct financial 
incentives, but cost sharing, time off to take the course, 
whatever we can, working within the degrees of flexibility we 
have.
    Mr. Wolf. What about for the whole FAA? Have there been any 
thoughts of developing a consortium with George Mason, George 
Washington, or the University of Maryland here in the 
Washington area to teach any course in certain areas that you 
may feel that your people are deficient in or haven't had the 
opportunity whereby they could come on-site and teach the 
course or do it from a telecommunication point of view?
    Mr. Valentine. I think that is being approached discipline 
by discipline depending on the distinct needs, and I would be 
happy to have individual discipline members----
    Mr. Wolf. I don't think they have to do it. I think we have 
a lot of wonderful universities here, Georgetown--I don't want 
to leave any out, but I think they would be pleased to develop 
a program, even if they had to go out, Virginia Tech or UVA to 
hire somebody to come in, and I think it might be helpful.

                   Acquisition Reform--Accountability

    Mr. Wolf. The GAO concludes ``FAA program officials have 
not been held accountable'' for their acquisition management 
decisions. What are you doing to hold them accountable?
    [The information follows:]

    In the past, accountability in acquisition was not well 
defined or enforced. There were many layers of management 
review, but in many instances, decisions were only made by a 
small group of top-level managers, with everyone else acting as 
messengers in a controlling environment and hierarchical 
structure.
    Under acquisition reform the FAA has made a clear 
separation of accountability, with decision making and 
accountability at the appropriate level. Decisions related to 
mission needs and resource allocation are made by the Joint 
Resources Council, top-level managers representing operations, 
acquisition, and all of the investment areas of the agency. 
Decisions associated with program planning and execution are 
made by product teams within the Integrated Product Development 
System, a structure of teams leading teams and managing 
problems at the appropriate level. A system of rewards and 
corrective actions is under development to support 
accountability.
    Accountability depends on team members having the skills 
and knowledge to effect the right decisions. An Acquisition 
Workforce Learning System is currently being developed and 
implemented. It will provide a systematic way to identify, 
maintain, and continuously assess the capabilities required of 
the acquisition workforce and the core competencies required. 
This in turn will assure teams are competent and able to handle 
accountability and make correct decisions.

             Modernization of the National Airspace System

    Mr. Wolf. Last fall, the FAA issued its initial draft of a 
new architecture plan for modernization of the national 
airspace system. Among other things, this plan indicated that 
if you assume the outyear figures handed down by OMB for the 
1997 to 2002 time period, FAA would do little more than sustain 
the existing system. Expanding the system's capability would be 
unaffordable without more funding.
    What level of resources did the plan assume and why is so 
little modernization possible at that level, and should we be 
doing more?
    Mr. Valentine. Do you want me to take that?
    Mr. Wolf. That is for Brad Mims, I think. Brad. [Laughter.]
    Mr. Donohue. It sounded like a Brad Mims question to me.
    Mr. Wolf. He asked me to ask you.
    Mr. Mims. That is all right.
    Mr. Donohue. Yes, we have been working very hard for the 
last two and a half years to put together a comprehensive 
architecture, which included not only how the current system 
works in great detail--this plan was lacking three years ago 
when Mr. Hinson brought me in. It is a very complex system that 
has taken us awhile to try to put together in a very coherent 
way how the system works and where it needs to migrate to. We 
are now developing, I think, a very good understanding of the 
system, as well as looking at the components parts of the 
system and realizing that there are a number of what I would 
call less visible but important parts of the system that are of 
advanced age.
    And as we were starting to look into details at the cost to 
maintain those systems, we recognized that it would be 
economically desirable to replace those systems rather than pay 
increasingly high operations and maintenance costs. We have now 
factored all of those together in our Version 2.0 architecture. 
We published Version 2.0 for comment because we are trying to 
get the entire community to come together to understand the 
total problem to look at our priorities and to see if they 
agree with the way in which we think the system needs to be 
modernized. But we also for the first time looked at total 
costs, the operations costs as well as the capital costs to see 
what would have happened if we didn't invest in capital. And we 
have put our first order estimates on that to look at various 
options of sustaining versus modernization.
    Interestingly enough, as we rolled all those up, we found 
that the dollars, our best estimate right now, exceeded the 
outyear guidance that had been given to us. We have tried to 
look at different ways of trying to get the dollars down to 
that outyear guidance, as well as providing information to the 
Department. I think, in a higher fidelity than we have ever 
provided to the Department before on what we think the capital 
needs are.
    Mr. Wolf. Is the outyear guidance valid, though? Because 
OMB and other people may look at these things differently than 
the FAA, and this may be the type of thing that you want to 
deal with and you don't do some other program, some other place 
in the government.
    Mr. Donohue. Of course that goes beyond our authority. And 
so all we are trying to do is provide to the best of our 
ability the information that we have. And then we have to roll 
that up to the Department, obviously, and they have to roll it 
to OMB to make those decisions.

           purchasing of navigational aids and landing lights

    Mr. Wolf. This plan assumed that airports would begin 
buying their own navigation aids, including GPS, and landing 
lights, and that airlines would pay for aviation weather 
development and other programs. Airlines and airports believe 
they already pay for such items through the ticket tax, freight 
waybill tax and other items. In the future, these expenses 
might be covered by their user fees. What has been the response 
of the airport associations and airlines to the suggestion that 
they should pay these taxes or fees and also start buying 
equipment which is free to them today?
    Mr. Donohue. Well, first of all I think you correctly said 
that those were options which were floated in a draft document 
as we were trying to find different ways to be able to both 
sustain and modernize the system. We were looking for ways 
where the economics of the situation would align with 
modernization so that the people who get the benefits might be 
willing to pay for those services rather than not get them at 
all if we were not able to fund them because of lack of funds. 
We were trying to explore different areas where the people who 
get the benefits directly could be able to make those 
investments--and where there was a large return on investment 
for them.
    I will tell you that most people have not responded 
favorably to that. They would rather get it ``in a free 
fashion.'' But I always look at this and say there is nothing 
that is free. As you pointed out earlier this morning, most all 
of our capital investment plan comes from the trust fund. And a 
large amount of our operations amount comes from the trust 
fund, as well, to the extent that it is operating. So the users 
are paying into this system today. They should never look at 
those funds as being free funds.

               purchasing and installing safety equipment

    Mr. Wolf. You used the word might, I notice, when you 
answered the question. And the Safety Board told us that 
recommendations like this combined with your termination of 
safety programs like AMASS would undermine safety, since we 
have no assurance that airports and airlines would pick up the 
funding for these programs. And when you answered, you did say 
might. Are you going to make them buy and install the safety 
equipment? Will you mandate it?
    Mr. Donohue. Well, first of all, you mentioned the AMASS 
program. That program is a fully funded program. And that is 
clearly a safety program and there was no suggestion in 2.0 
architecture that AMASS would be picked up and paid for by the 
users. I think the intent of the people who put the 
architecture document together--those people work for me--was 
to not have a safety issue be user paid, but to look more at 
the capacity of things where most of the benefits were to 
capacity and therefore local economic benefits.
    I can't say that that happened in every case, and most 
systems have multiple benefits, safety as well as capacity, so 
you can't draw a hard line. It was, as an example, where we're 
having a very difficult time finding the budget to be able to 
pay for that system. Its primary benefit is to increase 
capacity during adverse weather conditions, but it also has a 
safety benefit.
    So that was an area where a number of airports actually 
came to us and indicated that it was so important to them that 
they would be willing to try to pay for it, if legally 
possible, because it had great benefits for their local airport 
in adverse weather conditions. Right now we recognize that we 
can't do that unless we have specific, probably, legislation to 
allow that to happen, but the other offside is that maybe we 
couldn't afford to do it at all. So those are the very 
difficult budget decisions that we are trying to wrestle with 
and within the context of a balanced budget.

                     wide area augmentation system

    Mr. Wolf. The wide area augmentation system, two weeks ago 
former FAA head of regulation and certification, Mr. Broderick, 
testified before the Senate Commerce Committee that your 
present funding is totally inadequate because ``for reasons of 
budgetary convenience the original program requirement of some 
$800 million was pared down to about $500 million to make the 
numbers work.'' Is that accurate? And what is the total 
estimated cost today?
    Mr. Donohue. That budget was put together before my time at 
the FAA, and I understand that there may be some of thatthat 
happened at the time. I believe it is mostly in the area of 
communications. It is not the system itself, but as we are now taking 
an approach of doing full life cycle costing for all of our systems 
where we look into not only the development and acquisition costs, but 
we look at the outyear maintenance costs and we look at the 
communications costs, that the numbers--and we are still trying to look 
at this--may go up above the $500 million level. I think they probably 
will.
    We are doing everything we can in our team to keep those 
costs as low as possible. We have lease costs right now with 
INMARSAT in the outyears which are probably more expensive in 
the communication bill than we initially estimated. We are 
looking at other ways. We have a five-year contract with five 
one-year options. After the five-year contract, I think we are 
looking at ways to reduce those communications costs by looking 
at some other alternatives.
    We are also looking at ways of trying to minimize the 
outyear O&M costs by proper engineering at this stage. I have 
not given up on trying to hold the cost down as much as I 
possibly can. We are holding the contractor's feet to the fire. 
We are being very tough managers, but I can't guarantee you at 
this point that we won't see some of these ancillary numbers 
coming up as we start doing full cost accounting.

                             stars program

    Mr. Wolf. Just the last issue, then I will go to Mr. Olver 
to see if he has any questions.
    The STARS program, GAO testified this year that you may be 
underestimating the cost of implementing your terminal computer 
replacement program by as much as $500 million or more. Would 
you comment on that?
    They said you awarded the STARS contract this past fall 
without getting agreement on the maintenance concept from an 
important stakeholder, that being your union. Would you comment 
on those two things?
    Mr. Donohue. Yes. We are constantly doing independent cost 
estimates inside of the FAA by an independent cost estimating 
group. Both work for me, but in order that we don't have the 
problem we had with AAS and we don't have people coming forward 
to tell us about problems, we do--we have independents inside 
of the FAA. There is a constant dialogue that goes on between 
the independent people just as IG or a GAO report, and the 
people are doing the work. Sometimes those numbers go up and 
then as they clarify the issues the numbers come back down.
    The integrated product team, I think, is doing an excellent 
job in holding the line on our budget. We are at $940 million. 
We have been holding that for the last three years. Within that 
$940 million estimate for STARS, I will say that some accounts 
go up and some accounts go down as we find that there is growth 
in one particular area, but we get clever in how we can offset 
that by decreasing our estimate at another area as we get 
smarter. I think that we have got a good chance of holding the 
cost line at the $940 million for delivery.
    Again, we are doing full cost accounting. As we look out 
beyond the acquisition phase, which means acquisition and 
installation of the equipment, and look at the outyears for the 
full life cycle cost of this system into the maintenance phase, 
I would say there are some difference of opinion on what the 
maintenance of the system is going to cost.
    We are carrying forward two options. In fact, we are 
carrying forward two options in many of our systems. And that 
is the option as to whether or not we contract out the 
maintenance or whether we do it in-house. And there are two 
factors there. One is the cost, can we do it cheaper out-house 
or in-house. And the other aspect is essential emergency 
services. Even if it were cheaper to contract it out because of 
the timeliness and the criticality of the system, is it more 
important that we do it inside?
    We keep looking at those options as we get better 
clarification on what the real maintenance costs are, how we 
find the real reliability of the system after the first year or 
two of operation. And you can make a better judgment and 
decision, I think, at that time. So we do carry options 
forward. I don't think it is wise to make a firm decision at 
this point until we have got better experience on any given 
system that we are buying.
    [Additional information follows:]

    The FAA Acquisition Management System (AMS) does not 
specifically require an agreed to maintenance concept prior to 
awarding a contract. Full lifecycle involvement and the 
Integrated Product Team (IPT) concept are guiding principles of 
AMS. IPTs are comprised of various functional disciplines that 
are represented throughout all stages of the acquisition 
process. Specific details regarding agreements with unions are 
worked within the IPT.

                    air traffic controller workforce

    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I at some point want 
to--I don't know whether you have--whether this is the end of 
what you are going to----
    Mr. Wolf. No, I have more.
    Mr. Olver. All right, you have some more. At some point I 
want to go back to where we--where I was at an earlier point 
about the air traffic controller work force, essentially. And I 
don't know whether this would be----
    Mr. Wolf. Whatever you feel like asking.

                         first line supervisors

    Mr. Olver. All right, well, I will go back, then, for a few 
minutes and then get out of everybody's way.
    Now that I have managed to get all the numbers at different 
points in the operation, I just want to, you know, make some 
comments and ask a few other questions, I guess. Can you tell 
me the supervisors--they are full time, I take it? They are 
full-time personnel?
    Mr. Belger. Yes, sir.
    Mr. Olver. And how much of their time is doing essentially 
direct air traffic control? Are they required to do some direct 
control, or are they only supervising the controllers?
    Mr. Belger. Those first-level supervisors, as we call them, 
that are in the controller work force are required to be 
current, are required to do controller work for us, work. It 
could be as little as eight hours--excuse me. It could be as 
little as eight hours during a given period. It could be many 
hours depending----
    Mr. Olver. What would that period be?
    Mr. Belger. I think it is eight hours----
    Mr. Olver. Is it a month?
    Mr. Belger. I think it is--I am not positive, to be honest 
with you.
    Mr. Olver. When you said as little as----
    Mr. Belger. It could be as little----
    Mr. Olver [continuing]. Is there an average amount?
    Mr. Belger. There is a minimum, I think. A minimum is what 
I am talking about.
    Mr. Olver. A minimum. Is there an average that they do? Is 
it eight hours per month?
    Mr. Belger. There probably is, and we can provide that. It 
depends on the facility. It depends on the individual. It 
depends on the staffing in the facility as to how often they 
need to step in and do the work. It depends on the individual, 
how often they really want to step in and do the work. They 
have to remain current. And I will provide you the precise--I 
think it is eight hours a month that is a minimum in order to 
stay current.
    [Additional information follows:]

    Operational currency requirements specify that area 
supervisors and traffic management coordinators must work a 
minimum of 8 hours per month on operational positions. Due to 
staffing needs or other considerations, some of these 
individuals work significantly more than the 8-hour minimum. 
The FAA does not maintain ``average time on position'' records 
for these employees at operational positions.

              traffic management specialists/coordinators

    Mr. Olver. And the other classification of traffic 
management, do they have a minimum that they are supposed to do 
of direct air traffic control?
    Mr. Belger. I don't believe so.
    Mr. Olver. You don't believe so?
    Mr. Belger. Uh-uh.
    Mr. Olver. My reason for asking that is that now that I 
have gotten all the numbers out, and I think I have got them 
consistently over a period of time, yes, you are correct that 
you are consistent when you have indicated that the supervisors 
are down by a larger percentage than the control specialists. 
But while they are down nine percent in the time period since 
1992, if you say to where we are at the moment, and would go 
down by 12 percent from what you have indicated the end of 1997 
is, if you have achieved those changes, that the control 
specialists will be down about four percent during that time 
period. But then the traffic management people, which happen to 
be the smallest category, are up by 40 percent in that period 
of time.
    And if one takes the period going back to 1981, the total 
number of direct line controllers are down by ten percent 
during that period of time, taking your end of 1997 figures. 
And the supervisors are indeed--taken over the 15-year period, 
are down only three percent, but the traffic management folk 
are up by 300 percent. They go up from 169 to 687. From the 
1992 baseline, you are going up from 490 to 687 by the end of 
this year.
    And the increase from where we at the moment--I know from 
the numbers as you gave them to me earlier you are intending to 
hire another 300 people, about half of which are--a bit more 
than half are line controllers, but another 130-some of those 
300 are traffic management folk, while the number of 
supervisors go down a little bit. So the control specialists go 
up. They are the largest increase, a little over 200 toward 
the--in achieving the numbers if you can achieve them by the 
end of this year. But it is that big traffic management group.
    And I have asked twice before but then never really allowed 
you to give me an understanding, I think, of what is going on 
here over a long period of time. Clearly traffic has gone up 
greatly, no question, but I thought what we were trying to do 
was to reduce the total number of management personnel, which 
clearly traffic management is the one place where the personnel 
seem to be going up the greatest. Now there may be very good--I 
am sure there are very good reasons, but not ones that I, 
quickly, can see in this process. Would either of you care to--
--
    Mr. Belger. Sure. Traffic management specialists or traffic 
management coordinators are those folks who do just what that 
title says. They are not hands-on controllers whilethey are 
doing that. They are managing the flow of traffic. They are not the 
supervisors. It is different than the supervisory number that I gave 
you.
    These are air traffic controllers, 2152s, whose jobs are to 
manage the flow of air traffic, to work with our command 
center, to work with the centers to look at what is happening 
with the flow of traffic on a daily or even an hour or a 
minute-by-minute basis, and ensure that facilities don't get 
overloaded, airports don't get overloaded, sectors don't get 
overloaded, and to ensure that our command center makes the 
best and most efficient decisions about when to allow airplanes 
to take off, how much holding should we have, how much 
flexibility should we build into the day's schedule, what is 
the weather conditions, what are runway conditions throughout 
the country.
    We have made a conscious effort to build that work force 
up. We know that that small part of the work force has grown, 
and we have done that consciously. The traffic management 
capability in the air traffic control system in the United 
States today is significantly better than it was in the early 
1980s, significantly better. And it is partly because of the 
emphasis we put on that function.

       traffic management specialist staffing levels/coordinators

    Mr. Olver. The combined numbers--I mean, it is interesting 
looking how these numbers--your baseline 1992 certainly seems 
to be--the end of the 1992 base year that you gave me earlier 
is a point at which--if you take the years before that back to 
the 1981 time, the reduction in line controllers would appear 
to have been about six or seven percent reduction in that time, 
whereas the--there was at the same time an increase of 
somewhere between 20 and 25 percent among supervisors and the 
coordinators, the traffic management coordinators.
    So for that period of time, at least, the total numbers are 
up--no, actually the total numbers are not up in the whole 
controller work force, but the--there has been a substantial 
shift into the supervisors. They are up ten percent. The 
coordinators are up by almost 200 percent in that period till 
1992. And since that time, that is when your supervisors are 
coming down, but still the traffic management coordinators are 
going up by another 40 percent, from 494 to 687 in the period 
since 1992. So that our total of management level, supervisors 
and traffic management coordinators, is over the whole of that 
period of time up very substantially.
    Mr. Belger. I am not sure what numbers you are using for 
the 1981 time frame for managers and--supervisors, I should 
say, and traffic management coordinators, because I don't even 
have those numbers available to me. But I think it is--I used 
1992 as a base year because of several reasons. One, that was 
the low point since 1989 for overall controller staffing. And 
number two, that was really the year when we got serious about, 
as I said earlier, the national performance review goals and 
trying to increase our efficiency, reduce administrative 
overhead, et cetera. So that is why I used 1992 as a base.
    To go back to 1981, as people are somewhat inclined to do 
because of that major event that year, it is very--it is like 
comparing apples and oranges to that air traffic control system 
and this air traffic control system today. In addition to those 
things I have already said, so I won't repeat myself, we have 
contracted out almost 800 jobs since that time. Right off the 
bat that accounts for a reduction of 800 air traffic 
controllers or people in the controller work force, I should 
say, by virtue of the fact that we have contracted out 127 
small towers which are no longer in our work force numbers. 
There is a large number that is, out of the air traffic control 
work force right there.
    Again, I think that accompanied by the better flow control 
procedures that we have today, is that most importantly, the 
control work force ought to get credit for the productivity 
being up significantly per person. And it seems to me, that is 
a good thing so long as the safety record and the efficiency 
record continues to improve. And in fact it is.

    traffic management specialists/coordinators position description

    Mr. Olver. So you simply think that the--all right, if I 
leave off the data prior to 1992, there still is an increase on 
that traffic management coordinator level, which is clearly an 
administrative level of----
    Mr. Belger. No, it is not administrative.
    Mr. Valentine. No, it is not. That is where the confusion 
is coming in.
    Mr. Olver. I am sorry?
    Mr. Belger. I am sorry, it is not administrative.
    Mr. Valentine. I think, if I may, Congressman, that is 
where the confusion is coming in here now. And I am picking up 
what this is. Those people are not supervisors or managers. 
They are air traffic controllers controlling and coordinating 
the national flow of traffic as opposed to an individual 
bringing an airplane in and out of an airport facility. I think 
that if they were called something other than flow managers, if 
they were called flow directors or flow controllers, it might 
take the confusion out of that. That just happens to be their 
title.
    But years ago when we first brought controllers in, their 
job first and foremost, as it is today, is to keep airplanes 
from running into each other. That is their first mission in 
life. Their second one is, once doing that, to try to have the 
most efficient flow of traffic in and out of a facility. And we 
had fewer airplanes years ago where we didn't have capacity 
constrained airports and capacity strained airspace. A 
controller basically had as their job keeping them apart and 
bringing them fairly efficiently.
    To do the latter part of that job now, because of seriously 
constrained airspace and seriously constrained airports, 
requires a look at the big picture, to look all the way from 
Maine to California at the entire movement of airplanes, to 
look at where weather systems and fronts are and to coordinate 
with the air traffic controllers who are doing the individual 
airplane movements to produce the most efficient system, and 
also in that way the safest system also in terms of weather 
deviations and that sort of thing. I could just as easily call 
them air traffic controllers who are doing the flow control 
portion as opposed to the individual airplane directing 
portion. And they are distinct from supervisors.
    Mr. Olver. Okay, well, maybe I will have to see a flow 
chart of who relates to whom in this process. That may be the 
issue. They seemed like super controllers to me, but fine. I 
will pass.

                         free flight--ha-laska

    Mr. Wolf. We are going to try to end by 4:00, if not 
sooner.
    Free flight, the Ha-laska demonstration, some say it will 
take more. Some say it will take less. Do you propose 
todemonstrate the feasibility of free flight? The Air Transport 
Association told us that it was half baked at best. And Mr. Broderick 
said Ha-laska ``is an example of exactly the wrong way for government 
to work with the industry'', and a breach of faith with FAA's partners. 
Would you explain your approach briefly and then elaborate for the 
record?
    Mr. Valentine. Yes, I will let Mr. Donohue do that. That is 
his program, basically.
    Mr. Donohue. Yes, let me elaborate. As we looked at the 
RTCA Task Force 3 report, which elaborated a general concept of 
operation of free flight, which was worked collaboratively with 
the industry, with the unions and with the FAA, there were a 
time-phase series of functions and modernization that was 
desired to occur in order to give benefits to the system, to 
increase its safety and to increase the capacity. We talked 
about three different terms, a very near term, which is purely 
operational issues. And Monte Belger and Air Traffic Services 
have been working on those procedures. The--what do we call it? 
The route program, the----
    Mr. Belger. National Route Program.
    Mr. Donohue. National Route Program, above flight level, I 
guess, 290, has been one of those examples. In the next term, 
which is from, like, 1998 to the year 2000, there were a series 
of technologies that needed to start becoming in place. And 
then 2001 to 2005 there are a whole series of new technologies 
that had to come together.
    As I looked at the system architecture as we put it 
together and we ran it out, we found that there were several 
problems with that system architecture. Most of the ground 
automation systems could be in place by 2005 to meet that 
consensus of the entire industry. We found that the 
communication and some of the surveillance systems, because of 
budget limitations, were pushed out substantially beyond the 
year 2005.
    Because of that fact, we have not been really doing the 
systems engineering to tie all of these systems together. It is 
so far out that our systems engineers didn't focus on it. We 
tried to look at how could we do an earlier implementation to 
provide the benefits that the users wanted, I realized that we 
needed to do several things, and we had to do them in a way 
that was not constrained by funding, because there is a large 
amount of dollars that could be involved in a nationwide 
implementation.
    We needed to address some very serious human factors issues 
of how the pilot and the controller, with all these 
technologies, work together as a team. We have done work in the 
laboratory both at NASA Ames, at our Humes--our Hughes 
Technical Center and also at CAMI. But those were individual 
systems and in laboratory conditions. In working over 30 years 
in putting engineering systems together, I have found that 
these are the sorts of things you ultimately have to test in 
the real world and you have to look at the real world inputs.
    We also needed to test and pull together the systems 
engineering of all the links, of data link, of DSR, STARS, 
CTAS. All of these many programs need to be integrated into one 
place, including the avionics of the aircraft. We found in 
Indianapolis, for example, where we are doing what I call an 
alpha test of URET, which is a user request evaluation tool--it 
is software to help increase the productivity of the 
controller--that we were limited in what we could evaluate of 
the concept, because very few aircraft had the sort of 
equipment that was required to provide the links between the 
controller and the aircraft.
    We really were not able to evaluate the full benefits of 
that system that many of us believe will be there, because we 
have a chicken and egg problem. The airlines don't want to 
equip their aircraft with the new equipment until they know 
that the benefits are going to be there and they can see it and 
demonstrate it. And I believe that we have a similar situation. 
We are not prepared to make the full investment in a nationwide 
system until we confirm that the benefits are all there. But 
you need to have aircraft equipped and you need to have the 
equipment on the ground.
    So, the human factors concerns, and the fact that we need 
avionics and the airplane, gave us a problem of trying to 
decide where we can do a beta site evaluation, demonstration 
and evaluation, that is affordable and that we could accelerate 
so that we could try to meet both the President's or the Vice 
President's desire to have a fully modernized system by 2005. 
You need many different things to come together to be able to 
do that. You need affordable numbers of aircraft.
    Alaska and Hawaii have a limited number of aircraft that 
tend to only operate in their airspace. Those two locations are 
also adjacent to or embedded in our oceanic airspace in the 
Pacific Ocean. That is the first place where all of our new 
technologies come together, in our oceanic system. We have 
satellite data links. We have conflict probe. We have the new 
displays. They are going into Alaska and Oakland Center to 
provide the economic benefits of the new technology for the 
long-haul aircraft in that airspace. It is our plan, and we are 
on schedule, to be fully operational in 1999.
    The airlines estimate that to equip they need an 18-month 
return on investment for the benefits. And this is fully in the 
time frame where their equipage will pay for them to operate in 
the international airspace, the oceanic airspace.
    Our next technical problem is to see how all these systems 
merge together and merge into end-route airspace and then into 
terminal airspace. The Alaska region and the Hawaii region are 
the two places where the airspace is directly adjacent to, with 
a finite number of aircraft that could be equipped. Hawaii 
represents high density traffic. Alaska represents an area 
where there are safety problems because of weather and terrain, 
where we believe the technology will increase system safety.
    So it gives us an affordable opportunity in a relatively 
short period of time to be able to bring all these technologies 
together.

                   controller levels with free flight

    Mr. Wolf. Excuse me. Will it take more controllers, less 
controllers, or the same amount?
    Mr. Donohue. At this point we would say the same amount, 
through this evaluation. One of the things that would come out 
of this is new controller procedures, new pilot procedures that 
will have to be done before we can start getting the benefits 
of free flight, in any case.
    Mr. Wolf. You don't think it will be more, air traffic 
controllers, is that right?
    Mr. Donohue. Actually, the air traffic controller union has 
talked to me and is very encouraged about doing this. We 
haven't discussed whether it would take more or less, butthey 
realize it would provide them the opportunity to really find out what 
this free flight means and the way their operations gives them an 
opportunity to start at low density operations and move it up to higher 
tempo operations so that we can maintain safety throughout the entire 
time of evaluating how the technologies really can benefit the entire 
system.
    [Additional information follows:]

    The FAA is currently studying the impact of free flight on 
the controller workforce. Initial findings indicate that the 
current level of controllers appears to be adequate for the 
implementation of the free flight concept. The FAA will 
continue to monitor free flight during its implementation and 
will, in partnership with the union, make controller staffing 
adjustments as the program warrants.

               air traffic control facility consolidation

    Mr. Wolf. One area where the Coopers study believed savings 
could be made is through further consolidation of FAA air 
traffic facilities. This supports the FAA's own findings in a 
report to the Congress dated November 1995, in which the agency 
examined new 38 consolidations. The study found that 70 percent 
would meet cost-benefit criteria, and recommended the FAA 
assign funding and resource priority to consolidation projects 
identified as beneficial. Despite this finding, however, 
consolidation continues to receive a low priority in FAA's 
budget. In light of Coopers' support for further consolidation, 
it is likely the FAA will pursue a more aggressive 
consolidation program? If not, why not?
    [The information follows:]

    In fiscal year 1995 the Committee believed that the FAA 
should consolidate more of its terminal radar control 
facilities than was envisioned under the FAA's ``limited 
consolidation'' strategy, and recommended $40 million for 
additional ATC facilities consolidations. The Senate did not 
believe that the FAA could effectively spend additional funding 
for the activity, and did not agree with the House's additional 
funding. The conference action agreed with the Senate and did 
not provide the additional ATC facilities consolidation.
    FAA conducted a full review of the ``limited 
consolidation'' policy through a detailed analysis of potential 
consolidation opportunities over the next 20 years. The 
analysis indicates opportunities where consolidation or 
collocation may make operational and/or economical sense. These 
opportunities are usually driven by the need to make a capital 
improvement at a particular facility. When a need for a major 
improvement of any existing facility or establishment of a new 
facility arises, the ``revised'' consolidation policy requires 
an evaluation of consolidation or collocation with other 
terminal radar control facilities. An analysis format has been 
developed for a proposed airport traffic control tower/terminal 
radar approach control (ATCT/TRACON) facility replacement 
project at Beaumont, TX and will be used as a prototype to 
evaluate consolidation or collocation as part of other proposed 
TRACON replacement/relocation projects across the country. 
Application of this consolidation policy is expected to create 
cost saving opportunities and system user benefits.
    FAA supports continued consolidation efforts when warranted 
for the best utilization of resources.

    Mr. Wolf. If this Committee added funds to your request for 
the up-front funding needed for further consolidation, would 
the FAA support it?
    [The information follows:]

    Although the FAA welcomes funding that would afford us 
additional opportunities to analyze ATC facilities for 
potential consolidation, we do not believe the potential for 
economical or operational benefits justifies diverting funds 
from more critical sustainment efforts. We do, however, welcome 
funds above our current funding ceiling to accomplish this 
potentially cost saving effort.

                          the potomac project

    Mr. Wolf. The Potomac Project, we spoke to you about the 
other day.
    Mr. Belger. Yes, sir.
    Mr. Wolf. Could you tell me for the record? I know what 
your answer is, but just so we have it out here, so when we 
bring you to court we are--[Laughter]. There are no public 
hearings scheduled to my understanding. Just so I can assure 
the people that live in this region that there is no scatter 
plan coming. There are lot of questions, but just give them 
back to me.
    Mr. Belger. Okay, I will be very brief. First, I should--
for the record apologize to you and the Committee for having to 
read about the potential for hearings, particularly in your 
district, that were a surprise to you. In fact, they were a 
surprise to me when I read that article also, so I do apologize 
for that. But the fact is no hearings have been scheduled. No 
hearings were scheduled when that interview was done by a 
representative from our Eastern Region. I have been told that 
he, in all good faith, just like we have been saying for many 
months, wanted to have public involvement at the right time, 
and he was referring to the effort of the Eastern Region to 
continue at the right time to have public involvement. And he 
did make reference to the May time frame as potentially being 
ready to do that.
    Well, we are in no way, shape or form going to be ready to 
talk about any airspace changes in the May time frame. There is 
still, in my view, at least six months of modeling work that 
needs to be done. And I can assure you that we are not going to 
do anything in terms of any public hearings until you and 
others are absolutely certain of where we are and what we are 
doing.
    Mr. Wolf. Okay, and then the other deals with the options 
for the Washington metropolitan area that we spoke about. You 
don't have to----
    Mr. Belger. Yes, sir.
    Mr. Wolf [continuing]. Comment on that.
    Mr. Belger. Okay.
    Mr. Wolf. But maybe for the record.
    [The information follows:]

    The Potomac Airspace Team, from the beginning, has taken 
significant measures to keep the public involved in the design 
efforts. The FAA has not changed that policy, considering it to 
be one of the most important steps in a successful airspace 
redesign.
    Responsibility for the airspace design plans for the 
Potomac Airspace Project has transferred to the Airspace 
Management Program Office (ATA-1) at FAA Headquarters. The 
Airspace Analysis and Design Division (ATA-200) of that office 
has developed a plan to thoroughly examine and validate the 
work done by the original Potomac Airspace Team. This effort 
will take approximately 6 months.
    ATA-200 will perform a complete study review in which the 
assumptions will be validated or discarded and the modeling 
work will be completed. ATA-200, working in conjunction with 
various offices within the FAA, aviation user groups, and the 
RTCA special Committee for Airspace Design has established 
modeling and design standards. Potomac's work will be measured 
against those standards and, if needed, corrected.
    The modeling work performed by the Potomac Airspace Team 
last year, and the work ATA will continue, is specifically 
aimed at designing the best configuration of the airspace in 
the Washington metropolitan area. None of the work that ATA-200 
will do will have any involvement in, nor attempt to address, 
the ``scatter plan.'' Our efforts will be driven predominately 
by safety enhancement, operational efficiency, and 
environmental (noise) impact. ATA-200 does not envision any 
modification of the current noise-abatement procedures.
    Before any design is implemented, we fully expect that the 
public will be apprised of the proposed configuration and have 
the opportunity to study the results of the noise modeling ATA 
will perform. We are a long way from that stage in the design 
process. In the short-term, ATA-200 is developing an Internet 
web page for airspace projects with Potomac being one of the 
many modeling analysis projects in progress. The page will 
contain addresses for comments and information bulletins.

                       aviation weather research

    Mr. Wolf. FAA, we would hope, would place a high priority 
on aviation weather research, yet there is a budget decrease in 
this area, as well as human factors. Mr. Valentine, whoever 
wants to cover it, why the decrease?
    Mr. Valentine. Yes.
    Mr. Wolf. Not whether or not, but weather, w-e-a-t-h-e-r, 
weather.
    Mr. Donohue. I will take the weather question.
    Mr. Wolf. Weather research.
    Mr. Donohue. Weather research, yes. We have--again, an 
extremely tight overall research budget. We have had over----
    Mr. Wolf. What did you make the request for? Is the budget 
number this year what you requested?
    Mr. Donohue. The budget number you have is the budget 
number we requested.
    Mr. Wolf. At OMB, and as you worked your way----
    Mr. Donohue. As we worked our way up, that is the ultimate 
number that came through the system, yes. Our challenge is to 
look at the entire research portfolio and to make sure that we 
move research that is on the shelf into the system. We don't 
want to get a backlog too large in any one area.
    We have a lot of very good weather research results which 
are not being implemented in the system yet. We are making 
large investments in the Weather and Radar Processor Program, 
the Integrated Terminal Weather System Program, the ASOS 
program, TDWR and the weather processor to the ASR-9 which are 
bringing these technologies actually into service. There are 
many hundreds of millions of dollars of our F&E account that 
are going to bringing these technologies into service. Those 
systems are required to bring any future weather research to 
fruition.
    So as we try to balance off our entire needs for aviation 
safety, security, ATC modernization and weather, as well as a 
number of other things, we have tried to put together the most 
balanced portfolio so that we could see the research actually 
flowing in and being utilized.
    Mr. Wolf. And you were not cut, is what I wanted to know? 
Your request in the budget is what you----
    Mr. Donohue. The request is the Administration request.
    [Additional information follows:]

    The Weather program office requested $15.3 million for 
fiscal year 1998. Due to other high priority programs, however, 
only $3,982,000 was included in the fiscal year 1998 budget 
request, a decline of almost 70 percent.
    In fiscal year 1997, $13 million was appropriated by 
Congress for aviation weather research. The aviation weather 
research portion of the FAA's R,E&D budget faces intense 
competition for limited research budget dollars, vying with 
such other high priority areas as aviation security technology, 
aging aircraft, and satellite navigation (Global Positioning 
System).
    Given the limited resources, the FAA is managing aviation 
weather research at laboratories and universities through 
Product Development Teams which combine and leverage the 
capabilities of world-class research scientists and which 
leverage NASA, DoD, and NOAA funding.

                        air turbulence research

    Mr. Wolf. There have been a couple of serious incidents 
involving ``clear air turbulence'' over the past few months. 
This is a research area covered by the aviation weather 
program. Would your fiscal year 98 request reduce funding for 
clear air turbulence research?
    [The information follows:]

    At the requested funding of $3,982,000, clear air 
turbulence research will not be continued. This research area 
would, however, be included at higher funding request levels.

                     bart extension to the airport

    Mr. Wolf. It was reported that BART and the airlines are 
extremely close to a negotiated deal. An extension to the 
airport outstanding issue is a joint letter to the FAA to be 
signed by the airlines and BART recommending certain limits to 
the use of airport revenues for public transit projects. Since 
the guidance provided by the FAA to BART in its October 1996 
letter is no longer relevant to the revised financial agreement 
between the parties, is the FAA prepared to rescind the October 
1996 letter and allow the rulemaking process to proceed? The 
City of San Francisco is insisting that the airport proceed 
with the BART-related construction on airport property, 
notwithstanding the outstanding issue of the full funding 
agreement. Is the FAA concerned that the airport will commit 
airport revenues for a transit project before the FTA approves 
the larger system, hoping the entire system will be constructed 
with no assurances at this time that it will?
    We will ask a number of other questions, but if you could 
comment on that first.
    Mr. Valentine. Yes, Mr. Chairman, I would ask Susan Kurland 
to address that. It is a very current topic she is familiar 
with.
    Ms. Kurland. Thank you, Mr. Chairman. We are very pleased 
to hear and we understand, as well, that the airlines, BART, 
the airport and the city are talking and that it looks like 
they have reached some type of understanding. We have notseen 
any letter. We understand that there may be a request for one. We 
really couldn't respond until we do have a letter in front of us and we 
know exactly what it is they would like us to take a look at. We will 
give it careful consideration and we would respond at that time.
    Mr. Wolf. And could you keep us informed?
    Ms. Kurland. Absolutely, Mr. Chairman.

                     los angeles revenue diversion

    Mr. Wolf. Because it brings us to the L.A. diversion issue. 
Maybe some of you want to tell us about the L.A. diversion 
issue today.
    Ms. Kurland. Mr. Chairman, I am pleased to report to you 
this morning--and I would like to say for the record----
    Mr. Wolf. It is afternoon. The director said it is 
afternoon.
    Ms. Kurland. We have been here since this morning.
    Mr. Wolf. We have been having such a good time together.
    Ms. Kurland. The time just flies. As you know, the L.A. 
revenue diversion proceeding under Part 16, which involves the 
alleged diversion of $31.1 million, is the first proceeding 
that the FAA has undertaken under the new Part 16 procedures. 
And under those procedures, I personally have not been involved 
in the initial determination because according to those 
procedures I will be the final decision maker as Associate 
Administrator for Airports. However, the Director of Airport 
Safety and Standards in my office has made the initial 
determination that there has been a revenue diversion of about 
$30 million.
    A decision has been issued. L.A. has been informed. They do 
have the decision. The next step in the Part 16 process is that 
L.A. has 20 days in which to request a hearing. In that case, 
we would appoint a hearing officer. A hearing would be held 
thereafter. The Associate Administrator for Airports would make 
a decision. All this would be done in a time frame of no more 
than 180 days. If L.A. does not want to go to a hearing within 
30 days, they can request a final determination from the 
Associate Administrator, and thereafter they do have the 
ability to appeal to the Court of Appeals.
    Mr. Wolf. Okay, if you would keep us informed. I appreciate 
knowing that. And this is controversial, too, because Mr. 
Hubbell supposedly was hired. I understand this is being looked 
at, the L.A. Airport hired Mr. Hubbell from the Attorney 
General's Office. Was he not hired to work on the airport 
diversion issue by----
    Ms. Kurland. There are a number of airport--there are a 
number of issues involving L.A. This one happens--the one that 
I just reported to you on happens to be the one on the $31 
million.
    Mr. Wolf. Right.
    Ms. Kurland. I haven't heard his name in conjunction--I 
have been at the FAA now for about ten or 11 months, so some of 
these things predate me.
    Mr. Wolf. I believe, and we will go back and correct it if 
I am wrong, that that is the subject of an investigation, that 
he was hired by the L.A. airport to deal with the issue of 
revenue diversion, and he came over and met with people at the 
Department of Transportation on this issue.
    Ms. Kurland. I think it--I am not disagreeing with you, Mr. 
Chairman. I think it relates to another aspect of L.A. revenue 
diversion, not the $31 million. I think there is the $58 
million on the Century Freeway. I think that might be the 
other--there are a number of ongoing proceedings involving 
L.A., but this one we have--we actually--we are making progress 
on all three fronts.
    Mr. Wolf. Okay.
    Ms. Kurland. I am pleased to report to you.

                     bart extension to the airport

    Mr. Wolf. Good. Well, we will just submit all those other 
questions for the record.
    In your response to my January 7 letter concerning the BART 
extension to the airport, the FAA stated that any use of the 
non-airport facilities by non-airport riders would be 
``incidental,'' and that the airport's payment for the complete 
cost of the facilities was therefore not revenue diversion. In 
a March 1995 letter to the airport, however, the FAA stated 
that if the facilities were not exclusively used for the 
airport patrons, the costs would have to be prorated. By what 
criteria will the FAA determine whether the use is 
``incidental,'' and what level of use would the FAA consider 
more than ``incidental''?
    [The information follows:]

    The March 1995 letter referred to a station configuration 
that brought all passengers, airport and nonairport, through 
the airport station. Since the track and other facilities would 
have been provided for both airport and nonairport use, some 
proration would have been appropriate. The design considered by 
the FAA in October 1996 specified an airport station that was 
provided only for airport use; through passengers would use the 
main line that bypassed the airport off airport property. The 
FAA based the decision in its October 1996 letter on the 
purpose and function of the station, not whether or not there 
would be ``incidental'' use of the station by nonairport 
passengers once constructed. Accordingly, the FAA has used the 
term ``incidental'' only in its ordinary dictionary sense and 
does not have a special technical definition or criteria for 
the term.

                 bart station at san francisco airport

    Mr. Wolf. What steps would the FAA take if BART decided to 
route a significant number of trains between San Francisco and 
Millbrae through the airport?
    [The information follows:]

    This possibility was not proposed either in the final 
environmental impact statement (EIS) or in the revised 
operating plan developed by BART, and the FAA has no reason to 
anticipate such a decision by BART. If BART subsequently 
adopted a plan significantly different from either the EIS or 
current revised operating plan, the FAA would consider all the 
circumstances of the new operation and determine whether the 
effect on the function and purpose of the airport station 
deviated from the sponsor's responsibilities under the grant 
assurances. It should be noted that while additional trains 
stopping at the airport could increase BART operating and 
maintenance costs, all such costs will be borne by BART, and 
airport revenues will not be involved.

    Mr. Wolf. BART has discussed using a premium surcharge, 
levied on users of the airport station only, to fund cost 
overruns on the project, regardless of whether the overruns are 
due to the on-airport facilities. What is the FAA's position on 
singling out airport users to pay for cost overruns on the 
system?
    [The information follows:]

    As the FAA understands the surcharge, which is only 
conceptual at this time, it would be part of the BART fare and 
would not be handled by or available to the city or the airport 
in any way. Accordingly, the fare surcharge would not be 
considered airport revenue. As with fees charged by other 
nonaeronautical airport tenants, the surcharge would not be 
within the FAA's jurisdiction.

             memorandum of understanding for bart extension

    Mr. Wolf. I understand that BART, the airlines and the 
airport are in negotiations that may result in a new memorandum 
of understanding regarding the BART extension. Will the FAA 
review the MOU for compliance with revenue diversion 
prohibitions before a full funding grant agreement is executed?
    [The information follows:]

    The memorandum of understanding between the airport, the 
airlines serving San Francisco International Airport, and BART 
is a local agreement and would not normally be subject to FAA 
review. At the same time, FAA is prepared to take any measures 
necessary to ensure that the construction and operation of the 
BART extension will not involve unlawful revenue diversion of 
airport revenues.

                     los angeles revenue diversion

    Mr. Wolf. The IG told us last week that she has written the 
Secretary that Los Angeles is still diverting revenues from its 
airports. Pursuant to our conference report last year, this 
could lead the Secretary to withhold funding from the L.A. 
Metrorail project. Are you familiar with the IG's 
determination, and if so, would you give us your opinion?
    [The information follows:]

    The DOT Office of the Inspector General (OIG) issued a 
Management Advisory Memorandum on March 7, 1997, reporting the 
results of a limited audit of the Los Angeles Department of 
Airports for fiscal year 1997. The audit was conducted at the 
request of the Federal Transit Administration, in accordance 
with report language in the Department's fiscal year 1997 
appropriations conference report. The OIG reported revenue 
diversion in three general areas in fiscal year 1997: sponsor 
support service charges, involving excessive service charges by 
the city of Los Angeles on items such as utilities, building 
maintenance, and janitorial services, and incorrectly allocated 
overhead rates billed by the Public Works Department; airport 
traffic and parking citations, involving revenue from parking 
citations issued at Los Angeles International Airport; and city 
use of airport property, involving six parcels where airports 
were not receiving revenue for the city's nonairport-related 
use of airport property.
    The FAA response to the Management Advisory Memorandum is 
due April 6. With respect to sponsor charges and nonairport use 
of property, the FAA agrees with the OIG in principle and is 
working with the OIG to ascertain the amounts due for repayment 
to the Airport Revenue Fund. With respect to parking fines, the 
FAA is working with the OIG and city officials to determine 
whether the fines can be considered airport revenue in 
consideration of California State law and the manner in which 
the fines are collected.

                           REVENUE DIVERSION

    Mr. Wolf. She also told us you still haven't resolved the 
1995 audit report on revenue diversion. She says the FAA never 
seems to resolve those findings even after the audits are 
produced: ``they just go on and on and on.'' Why has it taken 
you a year and a half to respond to the IG's audit of Los 
Angeles, and why do we still have no resolution?
    [The information follows:]

    With regard to the 1995 OIG audit of airport revenue 
generation and use, the FAA has responded to the final audit 
report and is currently in the process of working with the OIG 
to resolve open issues cited in the audit. Once these issues 
are resolved, Los Angeles will be notified of the amount of 
principal and interest that must be returned to the airport 
fund for the sponsor to remain in compliance.
    The FAA has done a great deal of work on the OIG 
recommendations in this audit. In addition to the follow-up 
work necessary to resolve the many specific audit findings in 
the OIG report, the FAA has had to review and clarify a number 
of revenue diversion policy issues that had national 
implications before being in a position to determine the amount 
of revenue diverted by the City of Los Angeles. These issues 
included the use of airport property for charitable purposes; 
the expenditure of airport revenues for promotional purposes; 
policies and procedures involving the allocation of indirect 
costs; and use of airport property for public transit at below-
market values. The results of this review were completed in 
December 1996 and published in the Federal Register.
    In addition to the delays resulting from the need to review 
and clarify a number of revenue diversion policy issues, we are 
currently having discussions with the OIG on a number of issues 
contained in the OIG audit findings. These need to be resolved 
before we issue a letter of final determination to the sponsor.

                     LOS ANGELES REVENUE DIVERSION

    Mr. Wolf. The new part 16 enforcement proceedings would 
appear to set fixed timetables for resolving revenue diversion 
issues. However, one loophole is the that the time clock 
doesn't run when the FAA is performing its duties under those 
regulations. The IG told us you still haven't finished 
reviewing documents in the Los Angeles case. When will you do 
so, and how long after that will we have a final decision in 
this case?
    [The information follows:]

    The FAA's Rules of Practice for Federally Assisted Airport 
Proceedings, 14 CFR Part 16, provide time limits for an FAA 
decision in response to a formal complaint, but intentionally 
do not limit the length of an agency-initiated investigation 
because there is no complaining party awaiting the outcome of 
the investigation. On March 17, 1997, the Director, FAA Office 
of Airport Safety and Standards, issued a determination in the 
Los Angeles investigation finding that all but $786,628 of the 
$31.1 million in airport revenue transferred by the Airports 
Department to the City was illegally diverted from airport use.
    Under Part 16, the City may request a hearing no later than 
April 9, 1997. The hearing officer's decision would be 
submitted to the FAA Associate Administrator for Airports for a 
final agency decision. Alternatively, no later than April 20, 
1997, the City could appeal the determination directly to the 
FAA Associate Administrator for Airports without a hearing.
    A final FAA decision will be issued no later than September 
3, 1997.

    Mr. Wolf. They told us L.A. has not paid back one dime of 
money to the airport. Is that true?
    [The information follows:]

    The City has returned a small amount of funds to the 
airport, and has ceased some of the practices identified in the 
audit, but has contested most of the findings made by the OIG 
in the 1995 audit. Although our supplemental notice on revenue 
diversion policy would permit some of the practices and revenue 
expenditures cited by the OIG, we have concluded that a large 
number of items identified by the OIG in their audit of Los 
Angeles are revenue diversion.
    Due to the many issues resulting from our need to clarify 
agency policy on revenue diversion and to resolve our 
differences with a number of OIG findings, we have not issued a 
letter to the airport sponsor setting our final determination 
on the amount of funds, including appropriate interest, that 
the airport must be reimbursed.
    We are currently working with OIG to resolve any 
outstanding differences and expect to be in a position to issue 
our final letter to the airport in a matter of weeks.

    Mr. Wolf. Not even money they took from the airport to help 
subsidize the City's float in the Tournament of Roses Parade?
    [The information follows:]

    That is correct. The funds and associated interest will be 
addressed in the FAA's final letter to the city on this audit.

                       REDUCED AIP FUNDING LEVELS

    Mr. Wolf. And the last area. Mr. Packard raised AIP 
funding, a reduction of half a billion dollars would affect 
thousands of airports around the country. The administration 
really hasn't offered any evidence about how airports will make 
it up. What will happen? Does the administration favor 
increasing the level of PFCs? How will the airports make up 
that significant cut?
    Mr. Valentine. I think the larger airports have several 
options, particularly in view of the fact that only a small 
portion of their revenues historically come from AIP in the 
first place, typically 15 or 20 percent for the largest 
airports. Most of their revenues come either from bonding, from 
concessionaire revenues, landing fees, all the other--and PFCs. 
We believe that the larger airports will continue to raise not 
only the bulk of their funds, but they could raise all of their 
funds from those sources without AIP contributions.
    Mr. Wolf. Philadelphia is in the midst of a change with AIP 
funding, is it not?
    Ms. Kurland. If I could just amplify on Mr. Valentine's 
answer, we are at a, as we all know, a very critical juncture 
in funding airport development. And this Congress in the past 
reauthorization act authorized the commission, and authorized 
the independent study by Coopers and Lybrand. GAO is going to 
be issuing their report on airport needs. We at the FAA, in 
conjunction with the transportation research board of the 
National Academy of Sciences, will be convening a panel in 
April to further this discussion on airport needs and 
financing. Hopefully, this will provide some additional basis 
of information for the commission to consider.
    Clearly we need to look at all mechanisms available in 
order to figure out the funding gaps and how to best finance 
airport needs. Philadelphia has requested an LOI. They are in 
the process of doing a runway. They have been funded through 
the past several years with discretionary funds. We can provide 
you more information for the record if you would like.
    Mr. Wolf. You might as well for Mr. Foglietta, who isn't 
here. If you would submit that for the record.
    Ms. Kurland. Sure.

                AIRPORT IMPROVEMENT PROGRAM commitments

    Mr. Wolf. And send a copy to Mr. Foglietta's office.
    Some airports, like Philadelphia, are in the middle of 
expensive, multi-year capacity projects funded through AIP. 
What does such a proposal say about our willingness to commit 
to large capacity enhancement projects such as these?
    [The information follows:]

    Since PHL first applied for an LOI in 1994, the FAA has 
issued grants totaling over $42 million for this project. This 
has been sufficient to assist PHL in the land acquisition and 
environmental mitigation necessary before construction was 
ready to commence. The airport's most recent LOI application, 
submitted in December 1996, requested $77.6 million of 
discretionary and entitlement funds over 4 years. The request 
indicated that PHL has awarded initial construction contracts. 
Given these costs, it will not be feasible to provide the 
requested level of support in grants from the limited amount of 
AIP discretionary funds available during the next 4 years. 
Consequently, the issuance of an LOI with payments scheduled 
over additional years would be a more likely consideration at 
PHL and other locations with similar situations. FAA is 
reviewing known and expected requests for LOIs, the AIP funding 
available this year, and the outlook for future years. 
Decisions on requests for LOIs will be made on a case-by-case 
basis in a process of continuing and thorough review.

                       REDUCED AIP FUNDING LEVELS

    Mr. Wolf. Coopers and Lybrand tells us that most of the 
recent growth in air travel has been in scheduled air carrier 
service. General aviation activity has actually gone down. 
Therefore, I would expect that with less funding you would 
target the reduced funds to larger airports, where the growth 
is occurring. But in fact your budget proposes the opposite. It 
proposes a ``hold harmless'' provision for smaller airports. 
Would you explain this?
    [The information follows:]

    The growth in activity at the busiest air carrier airports 
has increased their development needs, but it has also 
increased the funds available locally from rents, charges, 
concessions, and other sources. Lower activity airports have 
more limited sources of funds and have a long-standing problem 
financing needed improvements. Our budget will provide the 
federal aid that is necessary to supplement local funds and 
accomplish critical development, particularly the maintenance 
of a high level of safety and the periodic rehabilitation of 
airfield pavement and lighting systems.

    Mr. Wolf. Given such a dramatic reduction, and a ``hold 
harmless'' for smaller airports, is it wise to consider 
expanding the use of PFCs for the larger airports?
    [The information follows:]

    We assume that the question is directed at the issue of 
increasing the maximum PFC charge from $3 to some higher level. 
The FAA is not necessarily opposed to an increase in the PFC 
but believes a decision now would be premature in light of the 
pending deliberations of the National Civil Aviation Review 
Commission. This recently named body is expected to address 
future long term funding of airport improvements. The ``hold 
harmless'' provision is considered a short-term measure to 
address the impacts of a lower Airport Improvement Program 
(AIP) on the non hub primary airport community.

              TERMINAL DOPPLER WEATHER RADAR FOR NEW YORK

    Mr. Wolf. One last question. What is the status of the 
Doppler radar for the New York City area and what are your 
plans? This has been going on for so long. I personally am 
worried. It is a safety issue, and the longer we just let this 
thing kick around and kick around. I have a daughter who lives 
in New York City and flies into Kennedy and into La Guardia. 
Where are we on it and how can we move ahead to bring this to 
some sort of conclusion that does everything that we need it to 
do with regard to safety?
    Mr. Valentine. Let me have Mr. Donohue give you the current 
status of that very issue.
    Mr. Donohue. Well, as you know, there has been about four 
or five of our TDWR sites that have had difficulty with siting 
because of local community concerns. This has probably been the 
most difficult one that we have had. We are trying to cover 
both La Guardia as well as Kennedy. We initially had two radars 
planned for the New York area. We have decided that was 
probably not in the best interests of the community. We found a 
site at Bennett Field, which is a Coast Guard field, that we 
believe adequately covers both airports with one radar. And 
that seems to be very desirable to us. The community has 
significant concerns about exposures to the radiation from the 
radar. The TDWR radars are a little bit different than most air 
traffic radar since we don't put them on the airport, on FAA 
owned property normally, within the perimeter. They have to be 
situated such that they look at the airport, because they are 
looking at weather over the airport. So we are siting this in a 
non-traditional airfield. Because of the community concerns, we 
are doing a full environmental impact assessment for radiation 
exposure, et cetera. We are having meetings with the community 
to give them every opportunity to understand what these issues 
are. We have looked at siting the radar in the Sound on an 
artificial island. And we have spent time this last year doing 
engineering feasibility studies. We have just submitted to 
Congress the results of that study. I think that was required 
by----
    Mr. Wolf. It was. What did they say?
    Mr. Donohue. It does not appear to be desirable to build an 
artificial island for this radar for a number of reasons. There 
are also safety hazards to navigation. There are maintenance 
problems. It does not look to be economically feasible to put 
the radar in the Sound. Still our preferred location is Floyd 
Bennett Field. As soon as we finish the required environmental 
impact statements, the Administrator can make the call to begin 
construction. We have the radar.
    Mr. Wolf. Now how long will that be?
    Mr. Donohue. Right now we are estimating 1998 for 
completing the full environmental impact assessment.
    Mr. Wolf. How long has this gone on for?
    Mr. Donohue. Since as long as I have been at the FAA.
    Mr. Valentine. Since as long as I have been at the FAA.
    Mr. Wolf. Do you----
    Mr. Valentine. Three and a half--I mean, I have been there 
three and a half years and I know it has been going on that 
long. I don't know how much longer.
    Mr. Belger. I am not sure how much before that, but at 
least three years.
    Mr. Wolf. Do you view it as a major safety issue?
    Mr. Donohue. It is a safety system. It is the best 
technology we have for detecting microburst and windshear. The 
reason we have sighted the TDWR at the 40 airports is because 
our analysis indicates those are the 40 airports most prone to 
having those sorts of meteorological conditions and having high 
traffic density where you would be concerned about microburst 
and windshear. These airports certainly are of that nature. We 
have low-level windshear detector systems at both airports now, 
but they are not as good as the TDWR. We believe that we would 
like to proceed as quickly as possible to get those radars 
installed.
    Mr. Wolf. Well, thank you very much. I appreciate you 
taking the time, and the hearing is adjourned.

[Pages 419 - 849--The official Committee record contains additional material here.]







                           W I T N E S S E S

                              ----------                              
                                                                   Page
Arena, J.A.......................................................     1
Belger, M.R......................................................   243
Donohue, Dr. George..............................................   243
Ellingstad, V.S..................................................     1
Flynn, Irish.....................................................   243
Gardner, Guy.....................................................   243
Goelz, Peter.....................................................     1
Hall, Jim........................................................     1
Haueter, Tom.....................................................     1
Jordan, K.U......................................................     1
Kurland, Susan...................................................   243
Loeb, B.S........................................................     1
Maillett, Louise.................................................   243
Mims, Bradley....................................................   243
Murtagh, Marjorie................................................     1
Schleede, Ron....................................................     1
Sweedler, B.M....................................................     1
Valentine, B.L...................................................   243
Verberg, Edwin...................................................   243
Voorhees, P.M....................................................     1







                               I N D E X

                              ----------                              

                    Federal Aviation Administration

                                                                   Page
1996 Operations..................................................   244
Acceleration of Modernization Program............................   393
    Funding Levels--Impact on Modernization Program..............   318
    Modernization of the National Airspace System................   397
Acquisition:
    Culture......................................................   394
    Employee Training and Education..............................   395
    Reform--Accountability.......................................   397
Awards:
    SES..........................................................   443
    Time-off.....................................................   543
Administrative Services Franchise Fund...........................   789
Advisory Committees..............................................   454
Agency Savings from Productivity Improvements....................   357
Aging Aircraft...................................................   750
Air Traffic Services.......................792, 795, 798, 801, 803, 806
    Air Traffic................................................517, 520
    Air Traffic Control Automation...............................   299
    Air Traffic Control Facility Consolidation...................   408
    Classification Standards Work Group..........................   322
    Commissioned Facilities......................................   607
    Contract Maintenance..................................603, 605, 606
    Contract Tower Program.....................................828, 835
    Contracting Out--Level I Towers.......................568, 576, 580
    FAA Level I Towers Converted to Federal Contract Towers......   582
    Labor Cost Growth............................................   327
    Limitation on Sunday Premium Pay.............................   538
    NATCA Representation.........................................   539
    New CWF Classification Standard Implementation...............   298
    New Pay Classification Scheme................................   338
    New York TRACON and Retirements..............................   326
    Operational Errors...........................................   587
    Permanent Change of Station (PCS) Proximity Moves............   567
    Productivity Improvements....................................   339
    Productivity Work Group......................................   322
    Ratio of Supervisors to Controllers..........................   282
    Redmond, Oregon Control Tower................................   587
    Renegotiation of Union Agreements............................   338
    Union Agreement Negotiations.................................   514
Air Turbulence Research..........................................   411
Aircraft Imports.................................................   620
Airport Improvement Program (AIP)................................   416
    Airport Revenue..............................................   245
    BART.........................................................   411
    Bart Extension to the Airport..............................412, 779
    BART Station at San Francisco................................   413
    Distribution of Funds........................................   754
    Funding History..............................................   752
    FY 1996 Grants in excess of $3 M.............................   759
    Gadsen Air Depot.............................................   826
    In-Pavement Smart Lighting Systems...........................   781
    Inglewood, CA--Noise Abatement...............................   301
    Innovative Financing Techniques..............................   751
    Letters of Intent............................................   841
    Los Angeles Revenue Diversion..............................411, 414
    Memorandum of Understanding for BART Extension...............   413
    Military Airport Program.....................................   758
    Noise Mitigation--City of Inglewood..........................   846
    Obligations Incurred More Than 2 Years and No Cash 
      Expenditures...............................................   777
    Philadelphia Navigational Aids...............................   841
    Reduced AIP Funding Levels.......................301, 415, 416, 827
    Revenue Diversion............................................   414
    State Block Grant Program....................................   759
Aviation Regulation and Certification:
    Aircraft Imports.............................................   620
    Aviation Safety Inspector Hiring at Atlanta FSDO.............   387
    Aviation Safety Inspector/Administrative Personnel Hiring....   382
    Certification Fees...........................................   289
    Certification, Standardization, and Evaluation (CSET) Team...   382
    Drug Testing.................................................   469
    FAA Processing of Pilot Employment Data......................   473
    FAA's Inspection Program.....................................   379
    Flight and Duty Time Regulations.............................   818
    Fuel-Air Mixture in Fuel Tanks...............................   622
    Inspeciton and Certification staffing Levels at Facilities...   389
    OMEGA........................................................   707
    On-Line Aviation Safety Information System...................   380
    Protection of Safety Performance Analysis System (SPAS) Data.   388
    Regulation and Certification...............................617, 808
    Risk Based Inspection Programs...............................   381
    Safety Performance Analysis System (SPAS)....................   740
    Staffing Standards for Aviation Safety Inspectors............   388
    Technical Training Shortfalls................................   387
    Airport Improvement Program Innovative Financing Techniques..   751
    Airport Movement Area Safety System (AMASS)..................   719
    Airport Revenue..............................................   245
    Airport Security.............................................   358
    Airport Surface Detection Equipment (ASDE-3).................   690
    Allowances for Off-Position Time.............................   546
    Alternative User Fees........................................   280
    Annual Leave.................................................   482
    ASR-9 Implementation Schedule................................   686
    Assessments by OST.........................................502, 506
    Automated Surface Observing System (ASOS)..................284, 720
    Automated Weather Observing System...........................   285
Aviation:
    Accident & Fatality Rates....................................   455
    Activity Forecast............................................   469
    Fatal Accident Rate..........................................   331
    Regulation and Certification...............................617, 808
    Safety Inspector Hiring at Atlanta FSDO......................   387
    Safety Inspector/Administrative Personnel Hiring.............   382
    Security Measures.....................................810, 839, 843
    Weather.....................................722, 724, 727, 729, 732
    Weather Research.............................................   410
Baggage Screeners:
    Qualifications...............................................   361
    Pay and Training.............................................   359
    Turnover Rate..............................................359, 370
BART.............................................................   411
    Extension to the Airport...................................412, 779
    Memorandum of Understanding for BART Extension...............   413
    Station at San Francisco.....................................   413
Benefits:
    Reform.......................................................   310
    User Fee Approach............................................   306
Biographies:
    A. Bradley Mims..............................................   268
    Barry L. Valentine...........................................   259
    Cathal ``Irish'' Flynn.......................................   263
    Edwin A. Verburg.............................................   265
    George L. Donohue............................................   261
    Guy Gardner..................................................   262
    Louise E. Maillett...........................................   266
    Monte R. Belger..............................................   260
    Nicholas G. Garaufis.........................................   267
    Susan Kurland................................................   264
Budget Gap.......................................................   422
Budget Requests to OST and OMB...................................   506
Canadian Overflight Fee..........................................   293
Capital Investment Plan..........................................   846
Cargo User Fees..................................................   363
Center for Management Development................................   636
Certification Fees...............................................   289
Certification, Standardization, and Evaluation (CSET) Team.......   382
Change in Medicare Costs.........................................   425
Cherry Capital Airport...........................................   837
Civil Aviation Security..........................................   623
    Airport Security.............................................   358
    Aviation Security Measures............................810, 839, 843
    Baggage Screeners--Qualifications............................   361
    Baggage Screeners Pay and Training...........................   359
    Baggage Screeners Turnover Rate............................359, 370
    CTX-5000 Production Program..................................   629
    Customs Service Role in Airport Security.....................   374
    Explosive Detection Systems..................................   369
    Financing Security Improvements..............................   370
    Gore Commission Security Recommendations.....................   366
    Gore Commission--Aviation Safety.............................   374
    HAZMAT Program...............................................   383
    Passenger Profiling..........................................   286
    Professionalism of Security Personnel........................   368
    Profiling System.............................................   292
    Racial Profiling.............................................   288
    Review of Passenger Profiling Complaints.....................   293
    Safety and Security Improvements.............................   374
    Vulnerability Assessments of High Risk Airports..............   369
    Z-Scan Machines..............................................   375
Classification Standards Work Group..............................   322
Commercial Space Transportation:
    COMSTAC......................................................   637
    Positions....................................................   641
Commissioned Facilities..........................................   607
COMSTAC..........................................................   637
Conflict Probe...................................................   735
Contract Maintenance......................................603, 605, 606
Contract Tower Program.........................................828, 835
Contracting Out--Level One Towers.........................568, 576, 580
Controller Workforce (CWF)................................375, 401, 565
    Classification Standards.........................297, 298, 322, 323
    Employment Data............................................553, 564
    First Line Supervisors.......................................   402
    Hiring.....................................................334, 337
    Levels with Free Flight......................................   407
    PATCO Rehires..............................................336, 567
    PC&B and NATCA Union Agreement Issues........................   523
    Productivity.................................................   547
    Promotions...................................................   539
    Ratio of Supervisors to Controllers..........................   282
    Reduction in Supervisors.....................................   296
    Rotating Shift Schedules.....................................   356
    Split Shifts.................................................   358
    Staffing..............................................295, 322, 323
    Staffing Standard............................................   297
    Tower CWF Actual on Board....................................   558
    Traffic Management Specialist/Coordinators............296, 402, 404
    Training.....................................................   521
Coopers and Lybrand (C&L) Report:
    C&L Comments on Management Support...........................   318
    C&L Comments on Organizational Structure.....................   318
    C&L Comments on Reform Savings...............................   312
    C&L Comments on Regional Consolidation.......................   319
    FAA Comments on C&L Report...................................   340
    Independent Financial Assessment.............................   315
Corporate Consulting Group.......................................   684
Cost Accounting System....................................246, 307, 668
CTX-5000 Production Program......................................   629
Customs Service Role in Airport Security.........................   374
Data on Tower Replacements.......................................   692
Depot Spare Funding Requests.....................................   603
Deputy Administrator--Positions..................................   653
Display Channel Complex Rehost...................................   714
Display System Replacement.......................................   715
Drug Testing.....................................................   469
Effect of User Fees on Budget....................................   269
Effects of Personnel Reform......................................   311
Effects of Recessions on Flights.................................   317
Employee Pay Protection in FAA Reauthorization Act...............   553
Employee Protection in User Fee Environment......................   316
Employee Self Improvement........................................   396
Employee Separations.............................................   428
Employees Speaking Out...........................................   386
English Language Proficiency and Training......................389, 393
Executive Resource Committee 1995 Study..........................   329
Explosive Detection Systems......................................   369
F&E Termination for Cost Growth..................................   675
FAA Mission....................................................375, 378
FAA Opening Remarks..............................................   243
Facilities and Equipment:
    Obligations..................................................   678
    Obligation Rate Trends.......................................   680
    Outlays......................................................   676
    Termination for Cost Growth..................................   675
Field Maintenance................................................   611
Financing Security Improvements..................................   370
First Line Supervisors...........................................   402
Fiscal Year 1998 Request.........................................   246
Fixed Costs in Budget............................................   304
Flight and Duty Time Regulations.................................   818
Flight Inspection Fleet Modernization..........................290, 821
Free Flight--Halaska:
    Controller Levels............................................   407
    Halaska (Flight 2000).................................405, 737, 739
Fuel-Air Mixture in Fuel Tanks...................................   622
Funding for Major Study Recommendations..........................   309
Funding Levels--Impact on Modernization Program..................   318
FY 1996 Grants in Excess of $3 Million--AIP......................   759
Gadsen Air Depot.................................................   826
Gainsharing......................................................   314
General Aviation Instrument Operations...........................   472
Global Positioning System (GPS)..................................   299
Gore Commission:
    Security Recommendations.....................................   366
    Aviation Safety..............................................   374
Halaska (Flight 2000):
    Controller Levels............................................   407
    Free Flight...........................................405, 737, 739
HAZMAT Program...................................................   383
Headquarters Staff...............................................   650
Human Factors Safety Research....................................   332
Human Resource Management:
    Center for Management Development............................   636
    Human Resources............................................629, 633
    Sensitivity Training.........................................   819
    University-Based Training Programs...........................   634
Impact of a Full-Time Administrator..............................   312
Impact of Legislative Changes of FAA Authority...................   309
In-Pavement Smart Lighting Systems...............................   781
Independent Financial Assessment.................................   315
Inglewood, CA--Noise Abatement...................................   301
Inspection and Certification Staffing Levels at Facilities.......   389
Inspection Program...............................................   379
Inspector General (IG) Recommendations...........................   847
Installation Backlog.............................................   744
Instrument Landing Systems.......................................   746
Introduction of New Technology...................................   244
Labor Cost Growth--Air Traffic...................................   327
Lapse in Excise Taxes............................................   317
Laser Visual Guidance System.....................................   746
Leased Telecommunications Services...............................   612
Leave:
    Annual.......................................................   482
    Sick.......................................................484, 545
Letters of Intent................................................   841
Level I Towers Converted to Federal Contract Towers..............   582
Limitation on Sunday Premium Pay.................................   538
Logistics Center--Operations & Maintenance Costs.................   601
LORAN-C..........................................................   747
Los Angeles Revenue Diversion..................................411, 414
Major System Acquisitions--Listing...............................   681
Management Advisory Council......................................   313
Memorandum of Understanding for BART Extension...................   413
Military Airport Program.........................................   758
Millennium Problem...............................................   741
Mitre Funding....................................................   749
Mode-S, AAS, and WAAS............................................   285
Modernization of the National Airspace System....................   397
    Acceleration of..............................................   393
    Funding Levels--Impact on Modernization Program..............   318
NASA Aeronautical R&D Budget.....................................   333
NATCA Representation.............................................   539
National Civil Aviation Review Commission......................246, 378
National Performance Review Objectives...........................   245
New CWF Classification Standard Implementation...................   298
New Pay Classification Scheme....................................   338
New York TRACON and Retirements..................................   326
Night Differential Payments......................................   543
Noise Mitigation--City of Inglewood..............................   846
Obligation Rate Trends--F&E......................................   680
Obligations Incurred More Than 2 Years and No Cash Expenditures--
  AI.............................................................   777
Oceanic Traffic..................................................   323
Office of the Administrator--Positions...........................   652
Office of Workers' Compensation Programs..................591, 595, 786
OMEGA............................................................   707
On-Line Aviation Safety Information System.......................   380
Opening Remarks..................................................   243
Opening Statement of Barry Valentine, Acting Administrator of the 
  FAA............................................................   248
Operational Errors...............................................   587
Operational WAAS.................................................   300
Operations:
    1996 Operations..............................................   244
    Assessments by OST.........................................502, 506
    Civil Service Retirement and Disability Fund.................   784
    FY 1997 Employment Increase..................................   786
    Operating Expenses--Actual Compared to Appropriation.........   430
    Other Services...............................................   465
    Reimbursements and Other Income..............................   785
    Staff Years for Overtime and Holiday Hours...................   786
    Travel Cost..................................................   464
    Trust Fund Share of..........................................   321
Overflight User Fees...........................................270, 306
    Canadian.....................................................   293
    Effect of Canadian Exemption.................................   302
    Scope of.....................................................   294
    Scope of Collection..........................................   304
Overflights......................................................   671
Overseas Personnel...............................................   474
Overseas Travel..................................................   485
Passenger Profiling..............................................   286
PATCO:
    Controllers..................................................   336
    Rehires......................................................   567
Pay Reform.......................................................   485
Payroll Costs....................................................   423
Permanent Change of Station (PCS) Proximity Moves................   567
Personnel and Acquisition Reform..........................244, 311, 314
Philadelphia Navigational Aids...................................   841
Planning Process--Controller Training............................   280
Policy Studies.................................................598, 600
Policy, Planning and International Aviation......................   655
Positions:
    Administrator................................................   652
    Aviation Safety Inspector/Administrative Personnel Hiring....   382
    Deputy Administrator.........................................   653
    Distribution of Positions by Office..........................   432
    Commercial Space Transportation..............................   641
    Controller Workforce--Employment Data......................553, 564
    Controler Workforce (CWF) Staffing.........................295, 322
    Inspection and Certification Staffing Levels at Facilities...   389
    Policy, Planning and International Aviation..................   655
    Positions and Employment Summary.............................   449
    Public Affairs...............................................   651
    System Safety................................................   654
    SES..........................................................   438
    Tower CWF Actual on Board....................................   558
    TRACON CWF Staffing..........................................   556
Potomac Airspace Project.......................................408, 673
Precision Runway Monitors........................................   685
Processing of Pilot Employment Data..............................   473
Procurement Reform...............................................   311
Productivity:
    Agency Savings from Productivity Improvements................   357
    Controller...................................................   547
    Improvements and Rising Costs..............................339, 365
    Work Group...................................................   322
Professionalism of Security Personnel............................   368
Profiling System.................................................   292
Protection of Safety Performance Analysis System (SPAS) Data.....   388
Public Affairs...................................................   651
Purchasing and Installing Safety Equipment.......................   399
Purchasing of Navigational Aids and Landing Lights...............   398
Racial Profiling...............................................288, 293
Ramsey Pricing...................................................   307
Ratio of Supervisors to Controllers..............................   282
Redmond, Oregon Control Tower....................................   587
Reduced AIP Funding Levels................................301, 415, 416
Reform:
    Accountability...............................................   397
    Pay..........................................................   485
    Personnel.............................................244, 311, 314
    Procurement................................................244, 311
    Savings....................................................311, 313
Regional Offices.................................................   652
Regulation and Certification.....................................   617
Renegotiation of Union Agreements................................   338
Research and Acquisitions........................................   809
    Acceleration of Modernization Program........................   393
    Acquisition Employee Training and Education..................   395
    Acquisition Culture..........................................   394
    Acquisition Reform--Accountability...........................   397
    Aviation Weather.......................410, 722, 724, 727, 729, 732
    Capital Investment Plan......................................   846
    Employee Self Improvement....................................   396
    Funding Levels--Impact on Modernization Program..............   318
    Introduction of New Technology...............................   244
    Mitre Funding................................................   749
    Modernization of the National Airspace System................   397
    NASA Aeronautical R&D Budget.................................   333
    Training of Acquisition Employees............................   395
    Windshear Detection for New York City Airports...............   733
Resistance to Consolidation......................................   321
Revenue Diversion................................................   414
    Los Angeles................................................411, 414
Review of Passenger Profiling Complaints.......................288, 293
Risk Based Inspection Programs...................................   381
Safety and Security Improvements.................................   374
Safety Performance Analysis System (SPAS)........................   740
Scope of Overflights.............................................   294
Security User Fees.............................................305, 362
Sensitivity Training.............................................   819
SES:
    Awards.......................................................   443
    Positions....................................................   438
Sick Leave.....................................................484, 545
Small Business and Minority Contractors..........................   286
Special Pays...................................................480, 540
Split Shifts for Air Traffic Controllers.........................   358
Staff Offices:
    Administrator................................................   652
    Deputy Administrator.........................................   653
    Policy, Planning and International Aviation..................   655
    Public Affairs...............................................   651
    System Safety................................................   654
Staffing Levels..................................................   295
    Administrator................................................   652
    Aviation Safety Inspector/Administrative Personnel Hiring....   382
    Deputy Administrator.........................................   653
    Distribution of Positions by Office..........................   432
    Commercial Space Transportation..............................   641
    Controller Work Force--Employment Data.....................553, 564
    Controller Work Force Staffing...............................   322
    Controller Workforce (CWF) Staffing..........................   295
    Inspection and Certification Staffing Levels at Facilities...   389
    Policy, Planning and International Aviation..................   655
    Positions and Employment Summary.............................   449
    Public Affairs...............................................   651
    System Safety................................................   654
    SES..........................................................   438
    Tower CWF Actual on Board....................................   558
    TRACON CWF Staffing..........................................   556
Staffing Standards:
    Aviation Safety Inspectors...................................   388
    Controllers..................................................   297
Standard Terminal Automation Replacement System (STARS).......400, 707, 
                                                               710, 713
State Block Grant Program........................................   759
Status of the Trust Fund.........................................   419
Surface of Movement Advisor (SMA)................................   736
System Safety Positions..........................................   654
Task Group on Regional Organization..............................   331
Technical Training Shortfalls....................................   387
Terminal Doppler Weather Radar for New York......................   417
Time Off Awards..................................................   543
Tower CWF Actual on Board........................................   558
Tower Replacement..............................................692, 694
TRACON CWF Staffing..............................................   556
Traffic Flow Management..........................................   719
Traffic Management Specialist/Coordinator......................402, 404
Training.........................................................   788
    Acquisition Employees........................................   395
    Controller...................................................   521
    Planning Process--Controllers................................   280
    Rehired Controllers..........................................   337
    Shortfalls in Technical......................................   387
    Sensitivity..................................................   819
    University-Based.............................................   634
Transit Subsidy Benefit Program..................................   501
Travel:
    Operations Cost..............................................   464
    Ratings in Countries.........................................   390
    Reform.....................................................312, 315
    Reform Savings...............................................   313
Turbine User Fees................................................   363
Turnover Rate of Screeners.......................................   370
Unions:
    Agreement Negotiations.......................................   514
    Controller PC&B and NATCA Issues.............................   523
    NATCA Representation.........................................   539
    Renegotiations of Union Agreements...........................   338
University-Based Training Programs...............................   634
User Fees.............................246, 292, 361, 376, 662, 673, 822
    Alternative..................................................   280
    Budget ``Safety Net''........................................   305
    Canadian Overflight Fee......................................   293
    Cargo........................................................   363
    Certification................................................   289
    Collection System............................................   294
    Contingency Plans..........................................305, 363
    Current Legislature Authority................................   280
    Employee Protection in User Fee Environment..................   316
    Effects on Budget............................................   269
    FAA Response to OST Proposal.................................   269
    Impact on Outlays............................................   364
    New Legislative Authority....................................   280
    New Types of.................................................   283
    OST Response to OMB..........................................   270
    Outlay Scoring...............................................   308
    Overflight and Cargo.........................................   363
    Overflight User Fee.........................270, 294, 302, 304, 306
    Proposal to Raise Discretionary Cap..........................   308
    Security.....................................................   362
    Turbine......................................................   363
Valujet Accident.................................................   384
Voice Switching and Control System...............................   718
Vulnerability Assessments of High Risk Airports..................   369
Warehoused Equipment.............................................   742
Whistleblower Protection.........................................   386
Wide Area Augmentation System (WAAS)......................283, 400, 744
    Mode-S, AAS, and WAAS........................................   285
    Operational..................................................   300
Windshear Detection for New York City Airports...................   733
Windsor Locks TRACON.............................................   706
Workers Compensation......................................591, 595, 786
Workload Measures & Industry Trends..............................   451
Wright Amendment...............................................291, 824
Z-Scan Machines..................................................   375

                  National Transportation Safety Board

Accident Reports.................................................   180
Administrative Law Judges........................................   211
Authorized Funding Level.........................................   180
Aviation Activities..............................................     6
    Air Traffic Control Phraseology..............................   127
    AMASS Systems................................................   126
    American Airlines/Cali, Columbia.............................   128
    ASDE Radar...................................................   126
    Aviation Accidents.........................................169, 182
    Aviation Forecasts...........................................   118
    Aviation Safety Data.........................................   129
    Aviation Safety Improvements.................................   121
    Aviation Weather Research....................................   124
    Boeing 737 Aircraft.....................................70, 71, 121
    Calverton, NY Facility.......................................    80
    Commuter Airline Safety......................................   130
    Explosive Testing............................................    82
    FAA's Capital Acquisition Plan...............................   124
    FAA Staffing Needs...........................................   121
    FBI Contributions for TWA Flight 800.........................   138
    Flight Data Recorders...................................69, 73, 223
    Flight Crew Duty Time........................................   130
    Flight Service Stations......................................   125
    Foreign Aviation Investigations.............................72, 119
    Fuel Tank Explosions.........................................    92
    Human Error in Aviation......................................   124
    Laser Beams..................................................   231
    Midair Collisions............................................   145
    Mockup.......................................................    80
    Monroe, Michigan Accident....................................   130
    Pilot Recordsharing..........................................   128
    Pilot Training...............................................    71
    Roselawn Accident............................................   219
    Runway Incursions............................................   125
    TWA Flight 800........8, 57, 60, 61, 74, 75, 76, 77, 80, 81, 82, 92
    USAir/Pittsburgh............................................72, 145
    User Fees for Accident Investigations........................    94
    ValuJet Flight 592.....................................71, 219, 234
    Wreckage Storage.............................................    80
Budget Request...................................................   209
Communications Center............................................   175
Emergency Fund...................................................   179
FAA Administrator Vacancy Impact.................................   102
Family Assistance................................................5, 212
Fatalities.......................................................   206
Fiscal Year 1998 Request.........................................     7
Five Year Plan...................................................   101
Highway..........................................................   157
    Air Bag Safety....................................67, 112, 113, 114
    Grade Crossing Safety...................................96, 97, 100
    Motor Vehicle Insurance......................................   118
    School Bus Safety............................................    69
    Seat Belt Usage..............................................   116
    Speed Limit and Helmet Laws..................................   118
Marine:
    Casino Vessels...............................................   131
    Coast Guard Auxiliary Units..................................   135
    Coast Guard Search and Rescue..............................132, 135
    Electronic Marine Charting Systems...........................   132
    Fishing Vessel Safety........................................   132
    Juneau, Alaska Accident......................................   225
    Marine and Communication.....................................   127
Most Wanted..........................................68, 82, 84, 86, 88
Omnibus Appropriations...........................................   178
Personnel........................................................   102
Questions by Cong. Carrie Meek (D-FL)............................   234
Railroad Safety..................................................95, 98
    Railroad Accidents...........................................   146
    Railroad Personnel...........................................   102
    Railroad Recommendations.....................................   100
    Rail Transit Safety..........................................   103
    Shady Grove Metro Accident...................................   104
    Washington Metro......................................104, 110, 112
Recommendations..................................................   140
    Acceptance Rate..........................................67, 83, 90
    Railroad Recommendations.....................................   100
    TWA Flight 800 Recommendations...............................    92
    ValuJet Flight 592 Recommendations...........................    71
Staffing.........................................................   159
Supplemental Request.........................................6, 63, 135
Surface Transportation Activities................................     6
Training.........................................................   190
Travel.........................................................144, 212

                                 <all>
</pre></body></html>
